                                                                                                              sigar
   SIGAR
   Special Inspector General                                                                                                   Special Inspector General for    APR 30




                                    SIGAR | Quarterly Report to the United States Congress | April 30, 2013
   for Afghanistan Reconstruction
                                                                                                                               Afghanistan Reconstruction        2013
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                               Quarterly Report to the United States Congress




                                    2

FINAL_Apr2013_Cover.indd 1                                                                                                                                          4/18/2013 2:31:07 PM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:
                             A U.S. Marine Corps squad leader and a rifleman, both from 3rd Battalion, 4th Marine Regiment, scale a
                             wall during counter-improvised explosive device training at Camp Leatherneck in Helmand province.        Traditional costume, modern conveyance: Two burka-clad Afghan women get a
                             (USMC photo)                                                                                             ride on a motorbike. (SIGAR photo by Michael Foster)




FINAL_Apr2013_Cover.indd 2                                                                                                                                                                                        4/18/2013 2:31:16 PM
                           SPECIAL INSPECTOR GENERAL             FOR

                           AFGHANISTAN RECONSTRUCTION




I am pleased to submit SIGAR’s quarterly report on the status of the U.S. reconstruction
effort in Afghanistan.
   Now in its 11th year, that effort has entered its most critical phase, with U.S. combat
troops departing and the Afghan government assuming greater responsibility for the coun-
try’s future. The U.S. reconstruction program is intensely focused on the 2014 transition
now under way in four key areas: security, governance, economic development, and the
way the United States delivers foreign assistance.
   To date, Congress has provided nearly $93 billion to build Afghan security forces,
improve governance, and foster economic development in Afghanistan. The success of this
historic endeavor—the most costly rebuilding of a single country in U.S. history—depends
on the degree to which U.S. assistance can:

•	 build Afghan security forces capable of preventing extremists from re-establishing
   strongholds in Afghanistan
•	 strengthen the capacity of the Afghan government to hold credible presidential
   elections in 2014, peacefully transfer political power, and provide essential services
   through the rule of law
•	 develop the foundation for a viable economy despite anticipated reductions in
   foreign aid
•	 improve Afghan institutions’ ability to manage and account for U.S. and other donor
   funds delivered directly through the Afghan national budget

   Success also depends on independent and effective oversight. Section 2 of this report
describes SIGAR’s ongoing work in the vital reconstruction areas of security, gover-
nance, and economic development. We have coordinated this work with the Government
Accountability Office (GAO) and the Inspectors General for Defense, State, and the U.S.
Agency for International Development (USAID). Through our audits, inspections, and
investigations, we all intend to identify issues in these areas in time for implementing agen-
cies and Congress to take action to protect funds and improve key reconstruction programs
before it is too late.
   As the transition unfolds, SIGAR has two major oversight concerns. One relates to the
decision to provide more reconstruction dollars through the Afghan national budget as
“direct assistance” and the other relates to security.

Direct Assistance
The United States has committed to providing more of its aid to Afghanistan in the form of
direct assistance, meaning government-to-government funding through multilateral trust
funds and bilateral agreements. SIGAR does not oppose increasing direct assistance. There
are many good reasons for using such aid. Direct assistance can build Afghan capacity and
increase the effectiveness of foreign aid by ensuring that Afghans want and are interested



                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
in sustaining investments. However, SIGAR believes Congress and the implementing agen-
cies must be mindful of three issues that could undermine direct assistance as a means of
pursuing reconstruction objectives:

•	 limited Afghan government capacity to manage and account for donor funds
•	 the effect of pervasive corruption
•	 the need to ensure adequate, long-term oversight

   It is imperative for the United States to ensure that the Afghan government has the
capacity to execute and account for U.S. funding. SIGAR is encouraged that USAID has
completed assessments of the capability of 13 Afghan ministries to manage direct assis-
tance. This is an important and necessary first step. Decisions to provide direct assistance
to these ministries must adequately take into account the results of these assessments.
Moreover, the United States must establish mechanisms to protect taxpayer-provided
dollars from corruption and make certain there is rigorous oversight of these funds.
Implementing agencies—the first line of defense against waste, fraud, and abuse—must
have clear agreements with strong provisions for oversight. Afghan ministries must provide
unfettered and timely access to their books and records as well as to sites, offices, and staff
of U.S.-funded projects.
   Because of the importance of this issue, SIGAR began a series of audits and special
projects related to direct assistance this quarter. These include reviewing U.S. government
plans to transfer reconstruction projects to the Afghan government, USAID-funded assess-
ments of Afghan ministries, the Afghan Ministry of Public Health’s use of direct assistance
to fund one of its flagship programs, the Defense Department’s assessment of the Afghan
Defense and Interior Ministries, and USAID’s direct assistance for the Kajaki Dam project.

Security
Poor security threatens both the implementation and oversight of reconstruction pro-
grams, whether by U.S. agencies or the Afghan government. Contractors and nonprofit
organizations must have security to execute projects. Afghan law requires them to hire the
government-run Afghan Public Protection Force (APPF), rather than private security com-
panies, to provide this essential service. SIGAR has an ongoing audit to identify the cost
of the APPF for selected USAID projects and to determine the financial and operational
impact of the APPF transition on reconstruction projects.
   I am particularly concerned about the potential effect of the U.S. troop withdrawal on
oversight by the implementing and oversight agencies. The current military drawdown and
transition to Afghan security forces has already made it more difficult for implementing
agencies to effectively manage projects and for oversight agencies such as SIGAR to visit
and inspect projects. The U.S. military will only provide security in areas within an hour by
air travel of a medical facility. This quarter, SIGAR was unable to visit $72 million in infra-
structure projects in northern Afghanistan because they are located outside this security
“bubble.” This constraint on oversight will only get worse as more bases close.
   Effective oversight cannot rely solely on desk work and document reviews. We need
to put people in the field to visit projects, “kick the tires,” and conduct investigations.
SIGAR is exploring ways it can provide aggressive oversight in a security environment that
restricts travel by U.S. personnel. We will also examine how the implementing agencies will
handle this challenge. Options may include expanding the use of satellite imagery and hir-
ing Afghans or other third-country nationals to conduct site visits.




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
   In any case, the Executive Branch and Congress must work together to ensure that the
U.S. Embassy in Kabul has the resources to provide security for diplomats, project man-
agers, and oversight agencies. That is essential for the decade ahead. Like Afghanistan’s
political development and economic growth, the conduct of effective oversight can only
take place behind a stout shield.
   Whatever security arrangements are devised, and whether reconstruction work relies
on on-budget or off-budget aid, I can assure you that SIGAR auditors and investigators
will continue to protect American taxpayers’ interests by providing relevant, timely, and
actionable information to Congress, thereby supporting our nation’s critical mission and
objectives in this area of the world.

Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                         2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




     SECTION 1
     	 1	 AID AND THE TRANSITION
     	 4	   The Security Transition
     	 6	   The Political and Economic Transition
     	 9	   The Transition to Increased Direct Assistance
     	10	   Quarterly Highlight: Direct Assistance
     	15	   The Most Critical Phase




     SECTION 2
     	17	 SIGAR OVERSIGHT ACTIVITIES
     	20	 SIGAR Testifies To Subcommittee About
          Direct Assistance To Afghanistan
     	20	 SIGAR Testifies To Full Committee About
          Foreign Assistance To Afghanistan
     	22	 SIGAR Provides Written Testimony on Saving
          U.S. Funds in Afghanistan
     	23	Audits
     	36	Inspections
     	42	Investigations
     	45	 Quarterly Highlight: Iowa National Guardsmen Help
          SIGAR Thwart Fuel Thieves
     	55	 Special Projects
     	58	 SIGAR Budget
     	58	 SIGAR Staff



     SECTION 3
     	61	 RECONSTRUCTION UPDATE
     	 63	Overview
     	 67	 Status of Funds
     	 81	Security
     	109	Governance
      	137	 Economic and Social Development
       	143	 Quarterly Highlight: Update on Tokyo Mutual
             Accountability Framework
TABLE OF CONTENTS




      SECTION 4
      	173	 OTHER AGENCY OVERSIGHT
      	176	 Completed Oversight Activities
      	182	 Ongoing Oversight Activities




      APPENDICES & ENDNOTES
      	196	 Appendix A:	 Cross-Reference of Report
            		 to Statutory Requirements
      	202	 Appendix B:	 U.S. Funds for Afghanistan
            		Reconstruction
      	204	 Appendix C:	 SIGAR Written Products
      	208	 Appendix D:	 SIGAR Investigations and Hotline
      	211	 Appendix E:	 Abbreviations and Acronyms
      	215	Endnotes
 “Afghanistan is managing three very
   significant transitions: a security
transition, a political transition, and an
economic transition. And America will
continue to support the Afghan people
through all three of these transitions.”
          —U.S. Secretary of State John Kerry




           Source: State Department, remarks with President Karzai, March 25, 2013.
1   AID AND
    THE TRANSITION




        1
                                              AID AND THE TRANSITION CONTENTS
                                              CONTENTS

                                              The Security Transition	                  4
                                              The Political and Economic Transition	    6
                                              The Transition to Increased
                                              Direct Assistance 	                       9
                                              Quarterly Highlight: Direct Assistance	   10
                                              The Most Critical Phase	                  15




Photo on previous page
Secretary of State John Kerry and Afghan President Hamid Karzai
address a meeting during the new Secretary’s visit to Kabul in
March 2013. (State Department photo)




                                                 2
                    AID AND THE TRANSITION




SIGAR OVERVIEW: AID AND
THE AFGHAN TRANSITION
The U.S.-funded reconstruction effort in Afghanistan, now in its 11th year, is
committed to supporting Afghanistan as it takes responsibility in 2014 for four
critical functions: security, governance, economic development, and progress
toward directly managing at least half of the foreign assistance the country
receives. The success of this historic endeavor hinges on:
•	 the ability of the Afghan National Security Forces (ANSF) to protect the
    population and prevent extremists from re-establishing strongholds in
    Afghanistan
•	 the capacity and the political will of the Afghan government to hold
    credible presidential elections in 2014, peacefully transfer political
    power, provide essential services, and institute rule of law
•	 the degree to which the Afghan economy can survive future reductions
    in foreign aid
•	 the extent to which the Afghan government can manage and account for
    international funds delivered directly through the Afghan national budget

    Reconstruction success also depends on systematic, diligent, and aggres-
sive oversight. SIGAR is conducting audit, inspection, and investigative
work in each of these four transition areas to identify issues before it is
too late for implementing agencies and Congress to address them. This
quarter, SIGAR initiated an audit of U.S. government plans to transfer
completed projects to the Afghan government. The audit is assessing the
project-transfer process and evaluating the Afghan government’s ability to
maintain these assets. It will also determine the extent to which implement-
ing agencies have compiled and documented a comprehensive inventory of
all U.S.-funded projects and assets. At the same time, through its Office of
Special Projects, SIGAR has requested implementing agencies to provide a
complete list of all their reconstruction projects and programs since 2002.
As part of this inquiry, SIGAR has also asked the implementing agencies to
identify how remaining or planned-for funds for Afghanistan’s reconstruc-
tion will be used.
    Since 2002, Congress has provided nearly $93 billion to rebuild
Afghanistan, making it the most costly effort to reconstruct a single country




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 3
AID AND THE TRANSITION




in U.S. history.1 This number does not yet include all Afghanistan recon-
struction funding for FY 2013 because final appropriation amounts have not
been determined for many accounts, including State and USAID accounts.


THE SECURITY TRANSITION
A stable security environment is vital for the survival and growth of a
democratic, non-extremist Afghanistan. Thus, more than half of all recon-
struction dollars—more than $54 billion—have gone to build the Afghan
National Army (ANA) and the Afghan National Police (ANP). The Combined
Security Transition Command-Afghanistan (CSTC-A) has used these funds
to provide training, purchase equipment, build army and police facilities,
and pay for salaries as well as operation and maintenance costs. (See
Section 3, pages 81–107, for a full description of U.S. programs to build the
security forces.)
    Since 2009, SIGAR has issued 23 audits that looked at aspects of ANSF
development. These audits have identified numerous problems related to
infrastructure projects, logistics support, and accountability for equipment,
personnel systems, and operation-and-maintenance (O&M) contracts. As a
result of SIGAR’s work, CSTC-A has taken a number of steps to protect tax-
payer dollars and make programs more effective. For example, SIGAR has
repeatedly highlighted lack of planning for the sustainability of ANSF infra-
structure. As a result, CSTC-A awarded a contract that not only provided
O&M, but also included training for Afghans so that they could take over
O&M after the transition.
    Earlier this year, SIGAR found accountability weaknesses in CSTC-A’s
process for ordering, delivering, and paying for fuel for the Afghan army.
SIGAR made six recommendations to address the problems and CSTC-A
generally concurred with all of them. CSTC-A particularly noted that
it would initiate new procedures with the Afghan Ministry of Defense
(MOD)—including incremental funding and monthly auditing—to minimize
corruption and provide more oversight as it shifts responsibility for fuel
purchases to the MOD.
    SIGAR has seven ongoing audits, inspections, and special projects that
address the ANSF’s ability to provide vital security for the Afghan govern-
ment and people. This quarter, SIGAR began an audit to assess the overall
capability of the ANSF and the reliability of its personnel data. The Afghan
government and the international community have agreed the ANSF should
achieve an end strength of 352,000 by December 2014 and that it will be nec-
essary to sustain this force for several years to prevent al-Qaeda and other
extremists from re-establishing a stronghold in Afghanistan. The World
Bank estimates it will cost about $5 billion a year to sustain this force.2
However, SIGAR and others have reported that determining ANSF strength
is fraught with challenges. SIGAR’s audit will determine the reliability and




   4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      AID AND THE TRANSITION




Wilbur, a U.S. Marine Corps special-ops dog, keeps watch in a field in Helmand Province
as Marines and Afghan soldiers and police work on a checkpoint nearby. (DOD photo)

usefulness of ANA and ANP force strength data as well as the methodology
used to assess the capability ratings for a unit’s effectiveness. Other topics
under review include:
•	 Air-mobility Support for the ANSF’s Counternarcotics Program:
   Despite efforts by the international community and the Afghan
   government to reduce poppy cultivation and illicit drug trafficking,
   Afghanistan still produces about 90% of the world’s opium. The opium
   crop has become a key source of funds for the Taliban and other
   insurgents. The U.S. counternarcotics strategy seeks to stop the flow of
   funds through interdiction operations that depend on U.S.-funded air-
   mobility support to U.S. and Afghan law enforcement officials. SIGAR is
   evaluating, among other things, the extent to which U.S. assistance has
   helped develop a sustainable capability to provide air-mobility support
   for counternarcotics efforts.
•	 Missing Repair Parts: In September 2012, an International Security
   Assistance Force (ISAF) advisory team reported that CSTC-A could not
   account for $230 million worth of repair parts for ANSF equipment and
   recommended that SIGAR assess CSTC-A’s process for ordering and
   managing these repair parts. SIGAR is examining how CSTC-A determines
   requirements and procures, stores, and distributes repair parts. The audit
   will also evaluate CSTC-A’s internal controls over the process.
•	 Petroleum, Oil, and Lubricants for the ANP: This audit will
   examine two issues identified in an earlier audit of the ANA’s ability to
   manage and account for its fuel supply: accuracy in determining fuel
   requirements and accountability for fuel purchases.
•	 Literacy in the ANSF: High rates of illiteracy undercut the quality
   and effectiveness of many Afghan military and police functions. SIGAR




REPORT TO THE UNITED STATES CONGRESS      I   APRIL 30, 2013                      5
AID AND THE TRANSITION




   is evaluating the implementation and oversight of three U.S.-funded
   literacy training contracts, valued at $200 million.
•	 MOD/MOI Management of Direct Assistance: The United States
   has provided more than $3 billion in direct assistance to the Afghan
   Ministries of Defense and Interior for army and police support. With this
   amount expected to increase substantially in the coming years, SIGAR’s
   Office of Special Projects is examining DOD’s procedures for evaluating
   the management of and accountability for direct-assistance funds.
•	 Construction Requirements for the ANSF: The United States has
   hundreds of ongoing and planned construction projects for the ANSF.
   SIGAR will examine the justifications and requirements for these
   projects, valued at several billion dollars, to determine whether they are
   necessary, achievable, and sustainable.
•	 ANSF Facility Inspections: SIGAR is continuing its on-site
   examinations of site preparation, construction, outfitting, and staffing of
   Afghan army and police facilities.


THE POLITICAL AND ECONOMIC TRANSITION
The United States has provided nearly $23 billion to improve governance
and foster economic development in Afghanistan. Most of the assistance
for governance and rule of law programs comes through USAID’s Economic
Support Fund (ESF) and the State Department’s International Narcotics
Control and Law Enforcement (INCLE) account. The total figure does not
include either the FY 2013 appropriations (final breakdowns by country
were not available at the time this report went to press) or FY 2014 bud-
get requests. In FY 2013, the President requested $1.85 billion for ESF and
$600 million for INCLE. The final appropriation for these funds is still being
negotiated. The President has asked for less in his FY 2014 budget pro-
posal—$1.69 billion for ESF and $475 million for INCLE.3
   In its budget justification, the Department of State (State) emphasized
that “continued, sustained support” through the transition was “essential
to solidifying the progress made over the last decade and helping establish
Afghanistan as a stable, prosperous, and secure nation in a stable, prosper-
ous, and secure region.”4 State also said that it was shifting its programming
during the transition period from stability operations to longer-term efforts
in “key areas in economic growth, agriculture, health, education, rule of
law, and good governance.”5

Governance
Helping Afghans build a stable, representative government capable of
providing basic services, including rule of law, remains an important goal
of the U.S. reconstruction effort. The United States is funding a number
of programs to build judicial capacity and improve the administration




   6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     AID AND THE TRANSITION




of the Afghan Parliament, ministries, and provincial offices. The United
States is also supporting programs to encourage peace and reconciliation
as well as to help the Afghans conduct elections and combat corrup-
tion. (See Section 3, pages 109–135 for a full description of programs to
improve governance.)
   The biggest landmarks in Afghanistan’s political transition are the presi-
dential election set for 2014 and the parliamentary elections of 2015. If these
elections go badly, their impacts could damage the government’s perceived
legitimacy, erode popular support, incite ethnic and tribal rivalries, decrease
administrative effectiveness, and significantly harm the outlook for a politi-
cal settlement of the war.
   Afghanistan faces many obstacles to becoming a more high-performing
state, including a huge fiscal gap between revenues and the cost of opera-
tions, difficulty in attracting and retaining qualified ministerial staff, flight of
human and financial capital, low rates of budget execution, targeted assas-
sinations of judges and other officials, inadequate procedures and internal
controls, high levels of patronage and corruption, and official reluctance
to prosecute or punish highly placed or well-connected criminals. Such
problems are not unique to Afghanistan, but their aggregate effect in a poor,
isolated, aid-dependent country afflicted by decades of fighting amounts to
a huge burden on aspirations for more efficient and effective governance.
   Afghanistan will not be able to achieve security and stability if its people
generally distrust and dismiss the government as ineffectual and corrupt.
SIGAR has published 13 audits that looked at critical U.S. programs related
to rule of law, civil service development, provincial capacity, election sup-
port, and corruption. This work revealed serious problems, including the
lack of an integrated U.S. anticorruption strategy. It has led SIGAR to con-
duct a new audit of the State Department’s primary program to train justice
sector personnel and build the overall capacity of the Afghan judicial sys-
tem. SIGAR’s Office of Special Projects is also now reviewing the current
U.S. anticorruption strategy.

Economic Development
Although Afghanistan’s economy has improved markedly since 2002, the
country remains very poor. At the equivalent of about $543 annually, the
country’s GDP per capita has more than tripled, but remains one of the
world’s lowest.6 These modest gains are threatened by the twin impact of
foreign forces withdrawing, along with much of their related spending, and
expected declines in donor assistance.
   During the transition, State and USAID have said they will concen-
trate their resources on improving the regulatory environment for private
investment, fostering links to regional economies, supporting agriculture,
finalizing investments in the energy sector, and sustaining gains in health
and education.7 State said it also intends to expand assistance for women




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013                    7
AID AND THE TRANSITION




An Afghan farmer gives his tractor a tough workout in Helmand Province. Improved roads and
farm productivity are key goals for promoting economic growth. (U.S. Marine Corps photo)


and girls through 2014 and beyond. (See Section 3, pages 137–171 for a full
description of programs to promote economic and social development.)
    SIGAR has published 21 audit and inspection reports related to economic
development projects. These reports highlighted numerous problems—
inadequate planning, poor quality assurance, lack of Afghan capacity, and
questionable sustainability—with U.S.-funded reconstruction programs
in the energy, banking, and agriculture sectors. For example, during this
reporting period, SIGAR issued an audit assessing the U.S. effort to help the
Afghan national power utility to increase revenues and reduce losses from
power generation. The audit found that, despite some successes, the Afghan
utility still is not able to pay its bills without subsidy.
    SIGAR has two ongoing audits assessing major economic development
programs as well as several inspections of U.S.-funded infrastructure proj-
ects. This quarter, SIGAR began a comprehensive audit of the U.S. effort
to improve Afghanistan’s water sector, which is a key goal of the U.S.
reconstruction strategy. The United States plans to accelerate water sector
development during the transition. This audit will determine if U.S.-funded
projects are aligned with the inter-agency water strategy for Afghanistan,
and whether they have incorporated plans for sustainability. Other audits
and inspections include:
 •	 Agricultural development: A USAID-funded project in southern
    Afghanistan aims to reduce regional instability by increasing
    agricultural employment and income. SIGAR is assessing allegations
    that USAID’s implementing partner has failed to sufficiently coordinate




    8                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                   AID AND THE TRANSITION




   with local government officials and has purchased and distributed
   equipment without proper justification.
•	 Hydroelectric supply: Tapping the full hydroelectric potential of the
   Kajaki Dam would greatly expand Afghanistan’s supply of economic,
   reliable, and sustainable energy. But a large, modern turbine hauled
   up to the mountainous site in 2008 remains uninstalled. SIGAR is
   conducting an inspection of the Kajaki Dam to determine the quality of
   the work that has been done to date on this project that is seen as vital
   to providing electricity for the southern region.

Social Development
USAID points to improvements in health as one of the great success stories
of the Afghan reconstruction, with life spans increasing by as much as 20
years on average since 2002. SIGAR’s inspection this quarter of a $160,000
clinic in Kabul Province reinforced this message. It found that the facil-
ity was being used as intended and sustained appropriately by the Afghan
government. However, an audit found that USAID approved plans for two
new hospitals—worth $18.5 million—before coordinating with the Afghan
Ministry of Public of Health to ensure the facilities could be operated and
maintained. The hospitals’ operation-and-maintenance costs will be signifi-
cantly higher than the facilities they are replacing, but neither USAID nor
the Afghan government has committed to fund the new operating costs.
SIGAR also identified serious staffing shortages. The audit underscores
SIGAR’s continuing concern that the United States is building unsustainable
infrastructure projects.


THE TRANSITION TO INCREASED DIRECT ASSISTANCE
Before 2010, the United States provided most of its assistance to
Afghanistan through contracts, grants, and cooperative agreements that
were executed outside the Afghan budget and beyond the reach of Afghan
officials. Since 2010, the United States and other donors have agreed in
principle to provide more government-to-government funding—or direct
assistance—to help Afghan government institutions build capacity to
manage funds and deliver services. However, the international donor
community has also made this aid conditional on the Afghan government
tackling endemic corruption, demonstrating that it has the capacity to
manage these funds in a transparent manner, and providing detailed action
plans showing how it intends to use development assistance.8 For more
information, see the Quarterly Highlight on the following page.
   In July 2012, at the donor conference in Tokyo, the Afghan government
and the international community created the Tokyo Mutual Accountability
Framework that set development priorities. The international commu-
nity pledged to provide more than $16 billion in development assistance




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               9
                                                               QUARTERLY HIGHLIGHT



             DIRECT ASSISTANCE                                                                   in to the ARTF. The United States, the single largest donor
                                                                                                 to the ARTF, has provided more than $1.74 billion—or
             Direct assistance, strictly defined, is aid provided through a                      28%—of the total that has been paid into the trust fund.9
             host nation’s national budget, either by multinational trust                        USAID draws from the Economic Support Fund (ESF) to
             funds or by individual governments through bilateral agree-                         contribute to the ARTF. In its July 2011 assessment of the
             ments. The United States provides aid in both ways.                                 ARTF, SIGAR found that although Afghan ministries had
                                                                                                 increased their capacity to manage government finances,
             Multinational Trust Funds                                                           the Afghan government continued to face challenges in
             The United States is currently providing most of its direct                         training and retaining civil servants able to administer and
             assistance to Afghanistan through two major multinational                           account for ARTF funds.10
             trust funds: the Afghanistan Reconstruction Trust Fund
             (ARTF), which is managed by the World Bank, and the Law                             Law and Order Trust Fund
             and Order Trust Fund for Afghanistan (LOTFA), which is                              LOTFA supports the Afghan National Police, primarily
             managed by the United Nations Development Programme                                 by funding salaries. Since 2002, donors have pledged
             (UNDP). SIGAR audits of the ARTF and LOTFA raised ques-                             more than $2.65 billion to the LOTFA of which nearly
             tions about the Afghan government’s ability to account for                          $2.57 billion has been paid in. The United States has
             funds and monitor projects.                                                         contributed nearly $970 million—or 38%—of the total
                                                                                                 funding for LOTFA since the Fund’s inception. Over the
             Afghanistan Reconstruction Trust Fund                                               next two years, DOD expects to contribute an addi-
             The ARTF is the primary funding mechanism for direct                                tional $567 million which will bring the total U.S. LOTFA
             international assistance to the Afghan operational and                              contributions to $1.25 billion in 2014.11 DOD supports
             development budgets. The Afghan government uses these                               the LOTFA from the Afghan Security Forces Fund (ASFF),
             funds to pay recurrent costs such as salaries and opera-                            which Congress established in 2005 to pay for programs
             tion and maintenance, as well as for national develop-                              to train, equip, and sustain the Afghan army and police
             ment programs. From 2002 through March 20, 2013, the                                forces. SIGAR’s audit of the Ministry of Interior’s (MOI)
             World Bank reported 33 donors had pledged more than                                 personnel systems concluded that the MOI’s payroll
             $6.94 billion, of which nearly $6.18 billion had been paid                          system provided little assurance that only those ANP

FIGURE 1.1

USAID ON-BUDGET ASSISTANCE, 2002–2011 ($ MILLIONS)

650                                                                                                                                $612

                        Afghanistan Reconstruction Trust Fund Total: $1,743.2
520
                        Bilateral Total: $451.8

                                                                                                                                                   $359
390
                                                                                                                    $290

260                                                                                                                                                       $207.5

                                                                                                     $124                                 $116.8
130                                      $72             $85                            $72                                $75.8
          $38            $40                                             $48
                                               $14.2                                                        $27.2
                 $0             $0                             $1.1            $.1            $4.1                                                                 $0 $5.1
   0
             2002           2003           2004           2005            2006            2007         2008           2009             2010          2011           2012a

Notes: Numbers have been rounded.
a Most FY 2012 USAID funding for On-Budget Assistance had not been obligated as of March 31, 2013.

Sources: USAID, responses to SIGAR data call, 4/18/2013 and 4/11/2013.




                                                                  10                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                           QUARTERLY HIGHLIGHT



personnel who are actually working are paid and that                                        ing direct assistance. SIGAR is also evaluating the
LOTFA funds are used to reimburse only eligible ANP                                         Afghan Ministry of Public Health’s U.S.-funded pro-
costs. Furthermore, SIGAR’s auditors found that the                                         gram to deliver basic health care and USAID’s plans
UNDP could not confirm that LOTFA funds were used to                                        to fund the Kajaki Dam energy project in partnership
reimburse only eligible ANP costs.12                                                        with Da Afghanistan Breshna Sherkat (DABS) using
                                                                                            direct assistance.
Bilateral Assistance                                                                          DOD provides direct assistance to Afghanistan’s
USAID and DOD also provide direct government-to-gov-                                        Ministry of Defense (MOD) and MOI from the ASFF.
ernment assistance to specific ministries. From 2004–                                       The Combined Security Transition Command-Afghan-
2012, USAID obligated more than $452 million from the                                       istan (CSTC-A), which is responsible for develop-
ESF to 13 Afghan ministries and government agencies.                                        ing the Afghan security forces, oversees the direct
  Figure 1.1 shows USAID contributions to the ARTF                                          contributions to the MOD and MOI. DOD guidance
compared to USAID bilateral assistance. From 2009                                           stipulates that direct assistance may be used to pay
through 2012, DOD has provided $3.38 billion, includ-                                       salaries; procure food, goods, and services; and fund
ing LOTFA contributions, from the ASFF in direct assis-                                     minor construction in support of the Afghan army
tance to the Afghan government. Figure 1.2 shows the                                        and police. In 2009, DOD began providing substan-
increase in DOD-provided direct assistance.                                                 tial direct assistance to the budgets of the defense
  Between 2011 and 2013, USAID contracted with                                              ministries. Since 2009, DOD contributed more than
two accounting firms to assess the capacity of                                              $2.32 billion to the MOD and nearly $1.05 billion
Afghan ministries to manage and account for direct                                          to the MOI.13 An additional, $1.95 billion in ASFF
assistance. The firms have completed assessments of                                         direct assistance to the MOD and MOI is planned
13 Afghan ministries. Because of SIGAR’s concerns                                           for 2013. Earlier this year, CSTC-A revised plans to
about the Afghan government’s capacity to admin-                                            provide direct contributions to MOD and MOI for fuel
ister and account for U.S. funding, a SIGAR audit is                                        purchases as a result of a SIGAR audit. This quarter,
examining USAID’s contracts with the accounting                                             SIGAR launched a special project to examine the
firms, summarizing the firm’s findings, and evaluating                                      MOD’s and MOI’s ability to manage and account for
how USAID plans to use the assessments in provid-                                           funds provided through direct assistance.

FIGURE 1.2

DOD DIRECT CONTRIBUTIONS TO THE AFGHAN GOVERNMENT ($ MILLIONS)

$2,000


$1,500                             Total
                                  Salaries
$1,000                            Other


 $500


    $0
                        SY 1388                             SY 1389                              SY 1390                               SY 1391                             FY 1392
                 (3/21/2009–3/20/2010)                (3/21/2010–3/20/2011)                (3/21/2011–3/20/2012)                (3/21/2012–12/31/2012)               (1/1/2013–12/31/2013)



                                                                              Disbursed                                                                                     Planned

Note: Numbers have been rounded; SY = Afghan Solar Year; FY = Afghan Fiscal Year; increases in the "other" category reflect an ongoing shift from off-budget to on-budget assistance.
Source: CSTC-A, responses to SIGAR data call, 4/16/2013.




REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2013                                      11
AID AND THE TRANSITION




An exemplar of Afghanistan, the Panjshir Valley is rugged, rural, and heavily agricultural.
(UN photo)


through 2015. The donors also committed to improve aid effectiveness by
providing more assistance directly to the Afghan government. Under the
Tokyo Framework, the Afghan government agreed to develop action plans
in five development areas and establish benchmarks for meeting goals
in five major governance and development areas. During this reporting
period, a SIGAR inquiry into the status of the Tokyo Mutual Accountability
Framework found that the Afghan government and the international com-
munity have made some progress on developing action plans but have not
come to agreement on specific benchmarks. (See the Quarterly Highlight on
page 143 for an update on the implementation of the Framework.)
   The United States has signaled to the Afghan government and to its
Coalition allies that it intends to continue to request substantial recon-
struction assistance for Afghanistan through what the Afghan government
is calling the “Transformation Decade” ending in 2025. The international
community as a whole recognizes that the Afghan government will remain
aid-dependent throughout that period. The World Bank, for example,
estimates that Afghanistan will need more than $7 billion of direct, on-
budget assistance in every year of the Transformation Decade to sustain
reconstruction projects, fund Afghan security forces, and cover the large
financial gap between its domestic revenues and the costs of its routine
operations.14 Congress and the Administration will determine how much
the United States contributes to fill the gap. Whatever the amount, the U.S.




   12                    SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                   AID AND THE TRANSITION




government plans to provide more on-budget assistance for a number of
reasons, including:
•	 making aid more effective by reducing contractor costs and increasing
   coordination with the Afghan government
•	 enhancing Afghanistan’s ability to pursue its own priorities, build public
   confidence in the government, and improve government agencies’
   capacity to carry out their functions

    In its FY 2014 budget justification, State wrote, “We are aggressively
working to drive down costs of programs by moving from commercial
contractor implements to international organizations and grantees, and by
increasing reliance on Afghan professionals.”15 Afghanistan’s internation-
ally staffed Independent Joint Anti-Corruption Monitoring and Evaluation
Committee (MEC) reported that “Statistics from the [Afghan government]
reveal that at least 80% of international aid [since 2002] has been spent by
donor agencies and their implementing partners with little consultation
with the Afghan government.”16 According to the MEC, the result is that the
Afghan government has little incentive to sustain these donor-funded proj-
ects. The MEC was created by Presidential Decree in March 2010 to develop
anticorruption recommendations and benchmarks and to monitor and
evaluate efforts to fight corruption.
    SIGAR recognizes the advantages of direct assistance. But this quarter,
in two testimonies before Congress, the Special Inspector General outlined
three serious concerns about direct assistance. These are:
 •	 a lack of Afghan government capacity to manage and account for
    donor funds
 •	 the effect of pervasive corruption
 •	 a need to ensure adequate, long-term oversight

Lack of Afghan Capacity
The World Bank has urged international donors to increase on-budget aid
to improve aid effectiveness, but it has also cautioned that the Afghan gov-
ernment “will need to overcome serious absorptive capacity constraints to
be able to receive and effectively use additional donor money on budget.”17
The MEC reported in March 2013 that “Afghanistan’s government institu-
tions, particularly those involved in infrastructure projects such as MOPW
[Ministry of Public Works], lack technical and managerial capacity to moni-
tor projects, resulting in deficient work.”18
   Budget execution also remains a problem. According to the World Bank,
Afghanistan has only been able to execute around $1 billion of its core
development budget annually since 2007–2008. The Bank attributes the
execution rate to structural and capacity issues. “Over the next few years,”
the Bank says, “a concerted push by donors and government alike is needed
to improve government capacity to spend its development budget.”19




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              13
AID AND THE TRANSITION




    SIGAR audits of the Afghanistan Reconstruction Trust Fund (ARTF)
and Law and Order Trust Fund for Afghanistan (LOTFA) have also raised
questions about the Afghan government’s ability to account for funds. In
its July 2011 assessment of the ARTF, SIGAR found that although Afghan
ministries had improved their capacity to manage government finances,
the Afghan government continued to have difficulty training and retaining
civil servants able to administer and account for ARTF funds. SIGAR’s audit
of MOI personnel systems found its payroll system provided little assur-
ance that only ANP personnel who are actually working are paid, and that
LOTFA funds are reimbursing only eligible ANP costs.
    As the United States increases its direct assistance to Afghanistan, the
Afghan government’s capacity to execute and account for this money
becomes a critical issue.

Corruption
Although the Afghan government has said it is committed to tackling
endemic corruption, Afghan officials remain reluctant to take serious action
to prosecute corrupt officials, especially if they are well-connected. In its
latest report, the MEC said that some government ministries— such as the
Ministry of Mines and Petroleum and the Ministry of Finance—had made
progress in implementing the Committee’s recommendations and meeting
benchmarks to deter corruption. However, the MEC said the justice sector
has not made similar strides and noted that the Attorney General’s Office
has not taken the steps needed to combat corruption.20

Oversight
The United States and other international donors must establish mecha-
nisms to protect direct assistance from corruption and ensure that there
is vigorous oversight of these funds. Implementing agencies are the first
line of defense against waste, fraud, and abuse. They must have clear bilat-
eral agreements with strong provisions for oversight. Accordingly, direct
assistance should be conditioned on the Afghan ministries not only meet-
ing measurable outcomes, but also providing unfettered and timely access
to their books and records as well as to sites, offices, and staff of projects
funded by U.S. assistance. Federal agencies already have some policies call-
ing for pre-award risk assessments, recipient monitoring and reporting, and
U.S. access to records, but the GAO has noted that such precautions are not
always taken or, if they are taken, are not consistently followed up.21
    SIGAR has several ongoing audits and special projects examining aspects
of direct assistance to the Afghan government. SIGAR initiated three audits
this quarter:
 •	 Transition planning: SIGAR is examining U.S. government plans
    to transfer completed projects to the Afghan government. This audit
    will evaluate the project-transfer process and assess the Afghan




  14                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    AID AND THE TRANSITION




   government’s ability to maintain these assets. It will also determine the
   extent to which implementing agencies have compiled and documented
   a comprehensive inventory of all U.S.-funded projects and assets.
•	 Ministerial assessments: In 2011, USAID contracted with accounting
   firms to assess the capacity of Afghan government ministries to manage
   and account for direct assistance. USAID’s own requirements stipulate
   that it cannot provide government-to-government assistance without
   reasonable assurance that the recipient ministries can adequately
   account for U.S. funds. SIGAR views these assessments as a good first
   step to protecting taxpayer dollars. SIGAR is conducting an audit to
   assess USAID’s contract with the accounting firms, summarize the
   firms’ findings, and evaluate how USAID intends to use the assessments.
•	 Ministry of Public Health: This quarter, SIGAR published a first
   report on USAID-funded health services in Afghanistan. It will issue a
   second report later this year that addresses direct assistance for one of
   the Afghan Ministry of Public Health’s flagship programs.

   SIGAR’s Office of Special Projects is conducting two reviews related to
direct assistance. The first will examine the ability of the Afghan Ministries
of Defense and Interior to account for funds they have already received
in direct assistance for ANSF salaries, uniforms, and fuel. The second will
evaluate USAID plans to provide $60–$80 million in direct assistance to the
Afghan national utility to install a turbine at Kajaki Dam.


THE MOST CRITICAL PHASE
In its FY 2014 budget justification, State described the coming year as “per-
haps the most critical phase of our engagement in Afghanistan.”22 During his
trip to Afghanistan in March, Secretary of State John Kerry highlighted this
point, saying, “This next year could well be one of the most important in the
modern history of Afghanistan.”23 Secretary Kerry reiterated the U.S. com-
mitment to support the Afghan government through the security, political,
and economic transitions that are under way.
   The success of the entire reconstruction effort depends in large measure
on how this transition unfolds. SIGAR intends to make sure that Congress
and the implementing agencies are fully informed about the progress of the
reconstruction effort and have the information they need to safeguard U.S.
funds and ensure that taxpayer dollars are spent wisely.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                15
   “U.S. government officials must
    address the systemic problems
    inherent in every aspect of the
  reconstruction effort—inadequate
planning, poor quality assurance, poor
 security, questionable sustainability,
      and pervasive corruption.”
    —Special Inspector General John F. Sopko




           Source: John F. Sopko, testimony before The House Committee on Oversight and Government Reform, April 10, 2013.
2   SIGAR OVERSIGHT
    ACTIVITIES




        17
                                            SIGAR OVERSIGHT CONTENTS
                                            CONTENTS

                                            SIGAR Testifies To Subcommittee About
                                            Direct Assistance To Afghanistan	         20
                                            SIGAR Testifies To Full Committee About
                                            Foreign Assistance To Afghanistan	        20
                                            SIGAR Provides Written Testimony on
                                            Saving U.S. Funds in Afghanistan	         22
                                            Audits	23
                                            Inspections	36
                                            Investigations	42
                                            Quarterly Highlight: Iowa National Guards-
                                            men Help SIGAR Thwart Fuel Thieves	        45
                                            Special Projects	                         55
                                            SIGAR Budget	                             58
                                            SIGAR Staff	                              58




Photo on previous page
Communications towers sprout atop “TV Mountain” outside Kabul. (UN photo)




                                               18
            SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
This quarter, SIGAR issued 10 written products to help the United States
strengthen program management, increase efficiency, and avoid waste,             TESTIMONY GIVEN
fraud, and abuse in four key areas of the U.S. reconstruction effort: secu-      •	 Testimony 13-5T: Risks of Direct
rity, governance, economic development, and the delivery of foreign                 Assistance to the Afghan Government
assistance. Special Inspector General John F. Sopko presented testimony          •	 Testimony 13-10T: Challenges Affecting
before two Congressional hearings on the risks of direct assistance to              U.S. Foreign Assistance to Afghanistan
Afghanistan. Sopko also gave a statement for the record to the Senate            •	 Testimony 13-11T: Reducing Waste,
Committee on Appropriations on how to reduce waste, improve efficiency,             Improving Efficiencies, and Achieving
                                                                                    Savings in Afghan Reconstruction
and achieve savings.
    During this reporting period, SIGAR audits and inspections identified a      COMPLETED AUDITS
number of issues, including poor planning, poor contractor performance,          •	 Audit 13-6: Contracting with the Enemy
and a lack of sustainability. One audit report concluded that a lack of plan-    •	 Audit 13-7: Afghanistan’s National
ning and poor contract management had marred U.S. Forces-Afghanistan                Power Utility
(USFOR-A) and U.S. Agency for International Development (USAID) efforts          •	 Audit 13-9: Health Services in
to assist in the commercialization of Afghanistan’s national power utility,         Afghanistan
resulting in wasted U.S. money. A second audit report found that two new         COMPLETED INSPECTIONS
USAID-funded hospitals are probably not sustainable and that existing hos-
                                                                                 •	 Inspection 13-6: Kunduz ANP Road
pitals are facing shortages in some crucial medical positions. Another audit        Security Company
report found weaknesses in the Department of Defense’s (DOD) process             •	 Inspection 13-7: Qala-I-Muslim
for ensuring that contractors with links to enemy groups are identified and         Medical Clinic
their contracts terminated. Three inspection reports identified issues with      •	 Inspection 13-8: FOB Salerno
contractor performance and power facilities at an ANP facility in Kunduz;           Incinerators
uncovered $5 million spent for unused incinerators; and found a success
                                                                                 COMPLETED SPECIAL PROJECT
story at the Qala-I-Muslim medical clinic. The local community was making        REPORTS
effective use of the $160,000 clinic and the Afghan government was main-
                                                                                 •	 Letter SP-13-3: K-Span Structure Risks
taining it appropriately.
    SIGAR investigations resulted in the arrest of two Afghan citizens for the
failure to install culvert-denial systems that could have saved the lives of
two American soldiers. SIGAR investigations also led to nine other arrests,
seven criminal charges, and three sentences in Afghanistan as well as one
arrest, one guilty plea, and four sentences in the United States. For the
first time, a SIGAR Special Agent testified in an Afghan court, leading to an
increased sentence for an influential Afghan contractor. Monetary savings
brought by SIGAR this quarter include $1.3 million in criminal fines and




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               19
                                            SIGAR OVERSIGHT ACTIVITIES




                                            restitution, $1.1 million in savings, and a $4.2 million civil settlement pay-
                                            ment to the U.S. government. SIGAR opened 52 new cases out of a total of
                                            298 open investigations. The agency referred 18 individuals and nine com-
                                            panies for suspension and debarment.
                                               Finally, SIGAR’s Office of Special Projects warned about the safety of
                                            structures the U.S. military has built for the Afghan National Army (ANA)
                                            after reporting that U.S. Army Corps of Engineers (USACE) officials have
                                            decided to continue using flammable materials linked to three fires.


                                            SIGAR TESTIFIES TO SUBCOMMITTEE ABOUT
                                            DIRECT ASSISTANCE TO AFGHANISTAN
                                            On February 13, 2013, Sopko testified before the House Committee on
                                            Oversight and Government Reform’s Subcommittee on National Security,
TESTIMONY GIVEN
                                            Homeland Defense, and Foreign Operations on the challenges of providing
•	 Testimony 13-5T: Direct Assistance to
   the Afghan Government Presents Risks     direct or on-budget assistance to Afghanistan.
                                               At the hearing, Sopko said that the next two years and beyond would
•	 Testimony 13-10T: Challenges Affecting
   U.S. Foreign Assistance to Afghanistan   be the most critical period for reconstruction in Afghanistan. He brought
•	 Testimony 13-11T: Reducing Waste,        the committee up to date on SIGAR’s Afghan fuel audit, which he had
   Improving Efficiencies, and Achieving    previously testified about in 2012. The audit had found weaknesses in the
   Savings in U.S. Reconstruction of        U.S. Army’s process for providing petroleum, oil, and lubricants to the
   Afghanistan
                                            Afghan army. Sopko said the audit also exemplified the risks inherent to
                                            direct assistance.
                                               For one thing, the Afghan government does not appear to have the capac-
                                            ity to manage the money pledged by the international community in direct
                                            assistance. And funds provided through direct assistance are typically sub-
                                            ject to less oversight than funds provided through projects implemented by
                                            U.S. and other donor government agencies. This lower level of oversight
                                            is especially problematic because of the pervasiveness of corruption in
                                            Afghanistan.
                                               SIGAR has a number of ongoing and planned audits of direct assis-
                                            tance programs. But SIGAR’s ability, like the ability of every implementing
                                            agency, to conduct on-site inspections, audits, and investigations may be
                                            hindered in the very near future by security restrictions. Recently in north-
                                            ern Afghanistan, SIGAR was prevented from visiting a site because it was
                                            too dangerous. As a result, 38 projects and over $72 million in U.S. taxpayer
                                            money are beyond the agency’s inspection.


                                            SIGAR TESTIFIES TO FULL COMMITTEE ABOUT
                                            FOREIGN ASSISTANCE TO AFGHANISTAN
                                            On April 10, 2013, Special Inspector General Sopko testified again about
                                            direct assistance to Afghanistan, this time before the full House Committee
                                            on Oversight and Government Reform. He was joined by witnesses from




                                              20                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




DOD, USAID, the State Department, and the Special Inspector General for
Iraq Reconstruction.
   Sopko pointed out that the impending end of the U.S. combat mission
does not mean that aid to Afghanistan for reconstruction is also waning.
On the contrary, given the $70 billion that the international community
estimates the country will need through 2024 just to fill its budget gap,
Afghanistan could remain the largest recipient of American foreign assis-
tance for years to come. In 2012 alone, the United States provided more
than $16 billion for Afghan reconstruction. That was twice the amount
made available to the next four top foreign assistance beneficiaries—Israel,
Iraq, Egypt and Pakistan—combined. Additionally, roughly $20 billion of the       Special IG John F. Sopko, testifying before
more than $90 billion already appropriated by Congress for Afghanistan has        the House Committee on Oversight and
yet to be obligated or disbursed.                                                 Government Reform, April 2013. (House
   On Sopko’s last trip to Afghanistan, USAID and DOD officials told him          Committee on Oversight and Government
                                                                                  Reform photo)
the U.S. government will distribute a significant portion of the unspent
funds through direct assistance and has committed to provide over 50%
of all funds in the future through direct assistance. Direct assistance has
potential benefits, but SIGAR’s concerns about it had increased since it
reviewed USAID’s capability assessments of 13 Afghan ministries scheduled
to receive direct assistance. After some difficulty in obtaining access to the
assessments, SIGAR’s preliminary review of them raised red flags about the
ability of all 13 ministries to handle direct assistance. For example, one of
the assessed ministries had questionable costs that exceeded the ministry’s
total budget. Its staff lacked minimal procurement training. Nor did it have
any specific mechanism to check for ties to terrorists. In another ministry,
the assessments found that computers were vulnerable, that salaries were
paid in cash, exposing the ministry to risk of theft, and that it had no way to
verify the background of outside employees.
   SIGAR will continue its audit of these assessments to determine whether
the Afghan government has the capability to handle direct assistance, and
what, if anything, USAID is doing as a result of these shortcomings.
   Corruption is another serious risk that must be considered when pro-
viding direct assistance. SIGAR has found that Afghan officials are still
reluctant to prosecute corrupt officials, especially if they are high-ranking
or well-connected. Corruption also erodes the hopes of honest Afghans and
their loyalty to the central government. At a meeting that Secretary of State
John Kerry recently had with Afghan businesswomen, the businesswomen
told Kerry they fear they will be marginalized by corruption. One of them
told The New York Times that contracts will go to “only a few people who
are really connected with the government.”
   Sopko said direct assistance must be accompanied by mechanisms—
established by the United States and other donors—to protect funds and
provide vigorous oversight in order to ensure monies given to Afghan min-
istries go to the most qualified contractors and not to the corrupt cronies of




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                21
SIGAR OVERSIGHT ACTIVITIES




Afghan politicians. Funding should be conditioned not just on meeting mea-
surable outcomes, but also on providing the United States and international
donors unfettered and timely access to books, employees, and records and,
most importantly, to the projects and programs financed by U.S. assistance.
   Without adequate security for U.S. officials to manage and oversee
Afghanistan reconstruction assistance, the United States runs the risk of
wasting billions of taxpayer dollars.


SIGAR PROVIDES WRITTEN TESTIMONY ON SAVING
U.S. FUNDS IN AFGHANISTAN
On April 18, 2013, at the request of the Senate Committee on
Appropriation’s Subcommittee on the Department of State, Foreign
Operations, and Related Programs, Special Inspector General Sopko sub-
mitted a statement for the record on reducing waste, improving efficiencies,
and achieving savings in the U.S. reconstruction of Afghanistan. Since the
end of 2008, when Congress created SIGAR, its auditors and inspectors
have completed 75 audit and inspection reports and made 245 recom-
mendations that identify $1.8 billion in questioned costs, funds that can
be put to better use, and funds identified for potential recovery. But while
recommendations in individual audit and inspection reports are useful for
strengthening reconstruction programs and recovering funds for the U.S.
taxpayer, they are primarily retrospective. In other words, once SIGAR has
conducted an audit or inspection, found one or more problems, and recom-
mended steps to address them, those problems have already occurred. That
is why, in its January 2013 Quarterly Report to Congress, SIGAR laid out
seven questions that decision makers, including Congress, should ask as
they consider whether and how best to use remaining reconstruction funds:
 •	 Does the project or program make a clear and identifiable contribution
    to our national interests or strategic objectives?
 •	 Do the Afghans want it or need it?
 •	 Has it been coordinated with other U.S. implementing agencies, with
    the Afghan government, and with other international donors?
 •	 Do security conditions permit effective implementation and oversight?
 •	 Does it have adequate safeguards to detect, deter, and mitigate
    corruption?
 •	 Do the Afghans have the financial resources, technical capacity, and
    political will to sustain it?
 •	 Have implementing partners established meaningful, measurable
    metrics for determining successful project outcomes?

   Sopko suggested that congressional appropriators, including the appro-
priators on the Senate subcommittee, require State and USAID to answer,
in writing, these seven questions before obligating appropriated funds




  22                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




to new programs. If State or USAID cannot answer the questions in the
affirmative, SIGAR proposes that they be required to provide a written
justification explaining the purpose for proceeding with the obligation of
appropriated funds.


AUDITS
Since its last report to Congress, SIGAR has issued three audit reports.
This quarter, SIGAR also began six new audits, bringing the total number
of ongoing audits to 15. The published reports, among other things, raised
concern about contracting with the enemy, the commercialization of
Afghanistan’s national power utility, and Afghan health services. The audits
made a total of 11 recommendations to ensure that contractors with links
to enemy groups are identified and their contracts terminated; that the
national power utility is able to go forward with commercialization; and
that USAID develop a plan for making optimum use of the Gardez and Khair
Khot hospitals currently being constructed.

Audit Reports Published
Audit 13-6: Contracting with the Enemy                                                 COMPLETED AUDITS
DOD Has Limited Assurance that Contractors with Links to Enemy Groups Are Identified   •	 Audit 13-6: Contracting with the
and Their Contracts Terminated                                                            Enemy: DOD Has Limited Assurance
                                                                                          that Contractors with Links to Enemy
To reduce the risk of inadvertently contracting with individuals or entities              Groups Are Identified and Their
that provide funds to groups opposing U.S. and Coalition forces, Congress                 Contracts Terminated
included Section 841 in the FY 2012 National Defense Authorization Act                 •	 Audit 13-7: Afghanistan’s National
(NDAA). Section 841 permits DOD to authorize a Head of a Contracting                      Power Utility: Commercialization Efforts
                                                                                          Challenged by Expiring Subsidy and
Activity (HCA) to restrict, terminate, or void a DOD contract, grant, or
                                                                                          Poor USFOR-A and USAID Project
cooperative agreement with an entity or individual determined to be                       Management
actively supporting an insurgency or otherwise opposing U.S. or Coalition              •	 Audit 13-9: Health Services in
forces in the U.S. Central Command (CENTCOM) theater of operations,                       Afghanistan: Two New USAID-Funded
including Afghanistan. As of January 18, 2013, CENTCOM has issued                         Hospitals May Not Be Sustainable and
                                                                                          Existing Hospitals Are Facing Shortages
four notification letters identifying five companies and their associates                 in Some Key Medical Positions
as Section 841 designees. This audit describes the processes DOD has
established to implement Section 841, assesses the extent to which DOD’s
process for implementing Section 841 has aided in identifying and prevent-
ing U.S. contracting funds from being provided to individuals and entities
identified as actively supporting an insurgency or opposing U.S. or Coalition
forces in Afghanistan, and lists some areas of the Section 841 legislation
that could be strengthened to prevent contracting with the enemy.

FINDINGS
DOD has established a two-phase process to comply with Section 841.
The first phase involves the targeting, reviewing, designating, and,




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013                   23
SIGAR OVERSIGHT ACTIVITIES




ultimately, notifying the HCA of a Section 841 person or entity. U.S.
Forces-Afghanistan’s Task Force 2010 (TF 2010) currently administers the
intelligence portion established by Section 841. Once a target has been iden-
tified, TF 2010 assembles an information package on the target and conducts
preliminary intelligence and legal analyses. The Section 841 information
package is routed through a series of coordinating agencies of International
Security Force Assistance Force Joint Command for review and concur-
rence before it goes to CENTCOM for a final decision. Upon approval, the
CENTCOM Commander prepares a Section 841 notification listing the enti-
ties identified, along with a request that the HCAs exercise the authority
provided in Section 841 to restrict, terminate, or void contracts with those
listed. CENTCOM then distributes the notification to the HCAs. In the sec-
ond phase, the HCAs determine if they have any contracts with the person or
entity listed in the CENTCOM notification. The process concludes when the
HCA responds to CENTCOM with the actions taken on the contracts.
    SIGAR has identified several weaknesses in DOD’s process for imple-
menting Section 841 that prevent the department from having reasonable
assurance that U.S. government contracting funds are not being provided
to persons or entities supporting the insurgency and opposing U.S. and
Coalition forces. As a result, millions of contracting dollars could be
diverted to forces seeking to harm U.S. military and civilian personnel in
Afghanistan and impede the multi-billion reconstruction effort.
    Specifically, SIGAR found:
 •	 Some contracts did not (1) contain the required clause prohibiting
    contractors from entering into subcontracts with Section 841 designees
    or (2) notify contractors of HCAs’ authorities. The agency’s failure to
    include the clause in contracts may prevent contractors from knowing
    their legal requirement to avoid contracting with Section 841 designees
    and understanding the HCAs’ authorities to restrict, terminate, or void
    their contracts if they fail to meet their legal obligations.
 •	 Some HCAs did not receive CENTCOM’s notification identifying
    supporters of enemy groups, which may make it difficult for HCAs to take
    necessary actions on any contracts issued to Section 841 designees.
 •	 HCAs have not consistently informed their prime contractors of Section
    841 designations, even though the most recent Section 841 notification
    requests that they do so. Furthermore, DOD has not developed a
    formal policy for all HCAs to disseminate or notify prime contractors
    of Section 841 designations, leaving it to the individual HCAs to
    develop their own. In the absence of a formal policy, HCAs and prime
    contractors may continue to contract with and award future contracts
    to Section 841 designees in violation of the law.
 •	 CENTCOM began posting Section 841 designations on its public website
    in January 2013; however, contracting officers and prime contractors
    are not required to regularly review the information.




  24                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




•	 Because HCAs do not have full visibility over most subcontracts,
   they must rely on their prime contractors to identify subcontracts
   with Section 841 designees and take necessary steps to terminate,
   restrict, or void them. Currently, prime contractors are not required to
   formally certify that they do not hold any subcontracts with Section
   841 designees. As a result, HCAs have little assurance that they are
   identifying all contracts with Section 841 designees.
•	 HCAs and prime contractors are at risk of legal challenges from Section
   841 designees because DOD has not provided guidance addressing
   the consequences of and actions to take after exercising Section 841
   authorities. Contracting officials also lack guidance for absorbing the
   financial costs—such as seeking a new contractor—associated with
   restricting, terminating, or voiding a contract with a Section 841 designee.
   Without such guidance, HCAs and prime contractors may not be able to
   formulate an appropriate response to current and future legal challenges.
•	 DOD does not centrally track actions taken pursuant to Section 841
   authorities. Section 841 requires the Secretary of Defense to report
   annually to Congress in 2013, 2014, and 2015 on the use of authorities
   during the preceding year. Currently, both the Office of Defense
   Procurement and Acquisition Policy and CENTCOM are collecting this
   data, resulting in a duplication of effort.

   Finally, SIGAR found areas where Section 841 could be strengthened.
For instance, Section 841 only applies to contracts valued in excess of
$100,000, although a large number of contracts awarded in Afghanistan fall
below that threshold. In addition, Section 841 will expire on December 31,
2014, putting in question the status of designations made under the section
and relevant clauses included in contracts issued prior to this date.
   SIGAR is addressing Department of State and USAID efforts to prevent
contracting with the enemy in a separate review.

RECOMMENDATIONS
SIGAR is making seven recommendations to the Director of the Office of
Defense Procurement and Acquisition Policy: five recommendations to
improve visibility over active contracts in Afghanistan; one to formally
determine, in coordination with the Commander of CENTCOM, which
entity will be responsible for centrally tracking data on Section 841 actions,
thus preventing duplication of effort; and one to ensure that HCAs have the
information needed to respond to legal challenges and address any financial
liabilities that may result from exercising their Section 841 authorities.

MATTERS FOR CONSIDERATION
SIGAR has also included matters for congressional consideration. To ensure
all contracts in Afghanistan are subject to Section 841, Congress may wish




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                25
SIGAR OVERSIGHT ACTIVITIES




to consider eliminating the $100,000 threshold value for contracts. To pro-
vide DOD with greater clarity on the future of designations and efforts made
under Section 841, Congress may wish to provide guidance on the status of
the designations once the legislation expires on December 31, 2014. Lastly,
if the intent is for Section 841 designations to expire with the legislation,
Congress may wish to consider requiring contracting agencies to preserve
information and intelligence gathered through the Section 841 process.

AGENCY COMMENTS
CENTCOM, USACE, and the Air Force Civil Engineer Center (AFCEC) pro-
vided technical comments, which SIGAR incorporated into its final report,
as appropriate. DOD’s Office of Defense Procurement and Acquisition
Policy officials provided informal comments that generally supported
SIGAR’s recommendations for improving the process for notifying the DOD
acquisition community and contractors of Section 841 designees, and stated
that they will provide formal comments after the release of the final report.

Audit 13-7: Afghanistan’s National Power Utility
Commercialization Efforts Challenged By Expiring Subsidy and Poor USFOR-A and
USAID Project Management
Since 2008, the Afghan government has identified making improvements to
its energy sector as a top priority, including increasing revenues and reduc-
ing power losses from generation through distribution. Collectively, these
initiatives are referred to as commercialization. Since 2009, the U.S. gov-
ernment has obligated almost $88 million to help the Afghan government
commercialize Da Afghanistan Breshna Sherkat (DABS), its national power
utility. DABS operates and manages electric power generation, import,
transmission, and distribution services throughout Afghanistan.
    U.S. government projects funded by USFOR-A and USAID focus on help-
ing DABS increase cost recovery, reduce losses, and build its capacity to
manage, operate, and maintain a national power system. To date, USFOR-A
and USAID have focused their efforts in Kabul, Kandahar, and Helmand
Provinces. The first objective focuses on the self-sufficiency of DABS-Kabul
because there is a lack of reliable, available data for other directorates—
such as data on revenues and losses. This report is the second of two
reports on U.S. efforts to assist in the commercialization of DABS. SIGAR
evaluated (1) the extent to which U.S. assistance contributed to DABS-
Kabul’s goal of becoming self-sufficient and (2) USFOR-A and USAID
management of commercialization projects.

FINDINGS
Although USAID investments resulted in some commercialization suc-
cesses for DABS-Kabul in recent years, it is not able to pay its bills without
an Afghan government subsidy set to expire in 2014. For example, with the




  26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




assistance of a $53 million project funded by USAID to assist in the com-
mercialization of DABS-Kabul, cash collections increased by nearly 60%.
However, DABS-Kabul—one of the best-performing electricity directorates
in all of Afghanistan—is still operating at a financial loss.
   Further, USFOR-A and USAID have provided nearly $88 million to assist
in commercializing DABS in Kabul, Kandahar, and Helmand, but poor man-
agement of commercialization projects by the U.S. agencies hindered U.S.
efforts. For example, USFOR-A approved eight Commander’s Emergency
Response Program (CERP) projects intended to help DABS decrease losses
and increase revenues from electricity sold; these projects were designed
to procure urgently needed electricity distribution equipment for Kandahar
and Helmand. As identified in a SIGAR interim report in December 2012,
almost $12.8 million of the equipment purchased by the U.S. Army Corps of
Engineers-Afghanistan Engineer District South (USACE-TAS­) on behalf of
USFOR-A as part of Kandahar commercialization efforts was sitting unused        Unused electrical distribution equipment
in U.S. government-controlled storage.                                          sitting in a Shoredam storage facility.
   SIGAR also found no clear plans for the equipment’s installation.            (SIGAR photo)
Although this equipment, which was approved and funded by USFOR-A,
arrived without an installation plan and was placed in storage, USFOR-A
continued to approve projects for similar equipment without an installation
plan. As a result, $10.2 million of additional equipment for Helmand remains
in storage without an approved plan for installation. Moreover, USAID’s
decision to approve an expanded scope of work on a sole-source basis may
have inappropriately limited competition because there may have been
other technically capable bidders.
   Finally, although USAID required its contractor to implement a billing
system in Kandahar that was consistent and coordinated with systems in
Kabul, USAID did not enforce these contractual requirements, allowing a
different system to be installed in Kandahar that was later deemed a failure
by USAID and DABS. As a result, USAID wasted nearly $700,000 to imple-
ment the Kandahar system, which will ultimately be replaced by the same
system originally installed in Kabul.

RECOMMENDATIONS
SIGAR recommends that the Commanding General for USFOR-A Regional
Command-Southwest work with DABS to finalize the installation sched-
ule for the equipment. SIGAR also recommends that the USAID Mission
Director for Afghanistan require that USAID-funded systems are coordi-
nated with DABS Corporate and consistent nationwide.

AGENCY COMMENTS
USFOR-A concurred with SIGAR’s recommendation that it should work
with DABS to finalize the installation schedule for the Helmand equipment
within the warranty period. USFOR-A outlined a series of actions it is taking




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              27
SIGAR OVERSIGHT ACTIVITIES




or plans to take to address the recommendation and “rectify the situation.”
SIGAR will follow-up with USFOR-A after 90 days to ensure it has taken
appropriate action.
   In commenting on the draft of this report, USAID disagreed with several
of SIGAR’s statements. Most notably, USAID disagreed with SIGAR’s state-
ment that DABS-Kabul’s self-sufficiency is uncertain because of expiring
subsidies. USAID stated that phasing out the subsidies was part of the
agreement with the Ministry of Finance and DABS from inception, and
removing the subsidies in favor of commercial viability is the goal of its
partnership with DABS. To fill the revenue gap left by the planned reduction
in subsidies, USAID also stated that increasing customer rates for energy
consumption as well as further decreasing losses will eventually bring reve-
nue in line with operational costs. While such efforts may result in revenue/
costs alignment, SIGAR questions whether those positive results can occur
before the subsidies expire in 2014 and, therefore, believes that the agency’s
finding that the self-sufficiency of DABS is questionable remains valid.
   USAID concurred with SIGAR’s recommendation that it should require
any system funded by the Power Transmission Expansion and Connectivity
program to be coordinated with DABS Corporate and consistent nation-
wide. USAID provided a copy of the “Request for Proposal” for DABS
commercialization, which stated that mPower will be the billing system
used as USAID expands commercialization efforts into Herat, Kandahar,
Nangarhar, and Balkh. With appropriate contract management and USAID’s
assurance that any additional expansion includes similar requirements,
USAID’s actions will meet the intent of SIGAR’s recommendation.

Audit 13-9: Health Services in Afghanistan
Two New USAID-Funded Hospitals May Not Be Sustainable and Existing Hospitals Are
Facing Shortages in Some Key Medical Positions
USAID is a primary provider of health sector assistance to the Afghan gov-
ernment, along with the World Bank and European Union.




Gardez hospital under construction. (SIGAR photo)




  28                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   Through its assistance, USAID has sought to expand access to the
Afghan public health system by increasing the number of medical facili-
ties and health professionals available to provide health-care services. This
includes the Construction of Health and Educational Facilities (CHEF)
program to build two new hospitals—in Gardez and Khair Khot—and the
Partnership Contracts for Health (PCH) program to provide health services
in 13 Afghan provinces, including the delivery of the Essential Package of
Hospital Services (EPHS) in five provinces. Much of the funding for the
PCH program is provided as direct assistance to the Afghan Ministry of
Public Health (MOPH).
   This report assesses whether (1) USAID has ensured that the Afghan gov-
ernment can sustain two hospitals currently being built with USAID funds,
and (2) medical staffing required for the five provincial hospitals operated
with USAID funds was being provided.

FINDINGS
The Afghan government may not be able to sustain two hospitals—Gardez
in Paktiya province and Khair Khot in Paktika province—currently being
built with USAID funds. USAID’s $18.5 million investment in these new
hospitals may not be the most economical and practical use of these funds.
First, USAID did not assess MOPH’s ability to operate and maintain these
new facilities once completed. Second, construction began on the new
hospitals about one year before USAID coordinated the design plans with
MOPH. USAID’s late coordination resulted in the construction of facilities
that are larger—Gardez hospital is 12 times larger than the facility being
replaced—than can be sustained, and increased estimated operating costs
for the new facilities that are disproportionate to current costs.
   SIGAR reviewed the two hospitals under construction as part of the
CHEF program and found that their estimated annual operation and main-
tenance costs could be over five times the annual operating costs for the
hospitals they are replacing. For example, the existing Gardez hospital has
annual operating costs, including fuel, of about $611,000, and USAID esti-
mates that annual fuel costs alone for the new hospital could be as much
as $3.2 million. Similarly, the existing Khair Khot hospital has annual oper-
ating costs of about $98,000 and USAID estimates that annual operation
and maintenance costs alone for the new hospital will be about $587,000.
Neither USAID nor MOPH has committed to provide funding to cover the
additional operating costs of the new hospitals.
   SIGAR also found that some provincial hospitals are experiencing staff-
ing shortages for certain key medical positions. Specifically, four of the
five provincial hospitals that SIGAR reviewed to determine whether they
met medical staffing standards reported persistent vacancies, some lasting
several years, according to non-governmental organization (NGO) officials.
The EPHS program specifies the minimum number of doctors required to




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               29
                                             SIGAR OVERSIGHT ACTIVITIES




                                             provide the basic level of health-care services and the higher, “advised”
                                             number of doctors needed to provide the full range of health-care services
                                             for provincial hospitals. SIGAR found that only one of the five hospitals met
                                             the minimum staffing standards for all five key positions reviewed. In addi-
                                             tion, none of the five hospitals met the “advised” staffing standards, except
                                             for the general practitioner and pediatrician positions; and three of the five
                                             hospitals had no anesthesiologist, one had no pediatrician, and two had no
                                             obstetrician/gynecologist.
                                                MOPH contracts require NGOs to implement the full range of health-care
                                             services—including staffing—at hospitals during the life of the contract.
                                             However, NGO officials stated that the limited availability of doctors in
                                             Afghanistan, combined with the low pay for doctors, make it difficult for
                                             them to staff key positions at provincial hospitals. Although MOPH submits
                                             semi-annual and annual performance reports to USAID, these reports do
                                             not include an evaluation of the program’s success in meeting the EPHS
                                             guidelines on required staffing levels.

                                             RECOMMENDATIONS
                                             SIGAR recommends that the USAID Mission Director, in coordination
                                             with the Afghan Ministry of Public Health, (1) develop a plan for mak-
                                             ing optimum use of the Gardez and Khair Khot hospitals currently being
                                             constructed, and (2) establish and monitor milestones for achieving the
                                             minimum and advised staffing levels at provincial hospitals and include
                                             information on meeting these milestones in annual program reviews.

                                             AGENCY COMMENTS
                                             At the time this report went to press, the agency was still preparing formal
                                             comments on a draft of the report. The final report contains the agency com-
                                             ments and response to the findings and recommendations (www.sigar.mil).

NEW AUDITS                                   New Audits Announced This Quarter
•	 Effect of the Transition from Private     During this quarter, SIGAR initiated six audits. The audits will assess:
   Security Contractors (PSCs) to the
   Afghan Public Protection Force (APPF)     •	 the effect of USAID’s transfer of security functions from private security
   on USAID Reconstruction Projects             contractors to the Afghan Public Protection Force (APPF)
•	 Afghan Government’s Implementation        •	 the Afghan government’s Verified Payroll Program
   of the Verified Payroll Program           •	 USAID’s water sector projects since FY 2010
•	 USAID Assistance to Afghanistan’s         •	 the reliability of Afghan National Security Forces (ANSF) personnel data
   Water Sector                              •	 the U.S. government’s plan for transitioning reconstruction activities
•	 Reliability of Afghan National Security   •	 USAID’s efforts to assess the ability of the Afghan government to
   Forces Personnel Data                        manage and account for funds provided through direct or “on-budget”
•	 U.S. Government Reconstruction               assistance
   Transition Plan
•	 Assessments of Afghan Ministerial
   Capacity




                                               30                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Transfer of Security Functions to APPF
SIGAR has initiated a follow-on audit to its June 2012 report that assessed
the potential effects of USAID’s transfer of security functions for its recon-
struction projects in Afghanistan from private security contractors (PSC) to
the APPF. In March 2011, President Hamid Karzai called for the dissolution
of all PSCs and stated that security responsibility for development projects
would transfer to the state-run APPF by March 2012. SIGAR’s 2012 report
highlighted concerns regarding USAID’s transition to the APPF. USAID com-
mitted to closely monitor this transition and assess outcomes. This audit
will identify (1) the cost of security services for selected USAID projects
and any effect the transition to the APPF had on overall security costs for
reconstruction projects, (2) USAID mechanisms to review security costs
and oversee security services, and (3) the impact of the APPF transition
on reconstruction projects. The audit will also determine whether USAID’s
implementing partners for selected projects were appropriately using com-
panies licensed by the Afghan government.

Afghan Payroll Execution Capacity
SIGAR has initiated an audit of the Afghan government’s Verified Payroll
Program. The audit will focus on the government’s implementation of
the Verified Payroll Program and will determine the extent to which the
government demonstrated the capability to make salary payments to its
civil service employees for only authorized personnel, in accordance with
approved salary structures, through direct deposit, and within established
time frames according to program requirements and national law.

USAID’s Water Sector Projects
The development of Afghanistan’s water resources is an important goal of
the U.S. reconstruction effort. Decades of conflict and persistent drought
have resulted in damaged irrigation systems and other water infrastructure,
insufficient water monitoring and storage, lack of access to safe and adequate
drinking water, lack of reliable water-related data, and lack of skilled human
resources in water management. Other issues include the need for strength-
ened water governance and regulation, and environmental stewardship.
   The U.S. Government Accountability Office (GAO) reported on U.S.
efforts to support the Afghan water sector in November 2010. GAO rec-
ommended that USAID, in coordination with DOD and relevant agencies,
develop an implementation plan for the U.S. Inter-Agency Water Strategy for
Afghanistan; designate a centralized database, and improve performance
management. GAO also noted that the U.S. government planned to acceler-
ate water-sector development, with estimates of $2.1 billion needed to fund
these efforts from FY 2010 through FY 2014.
   The objectives of this audit are to (1) determine the extent to which
completed, ongoing, and planned projects meet USAID’s project goals and




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               31
SIGAR OVERSIGHT ACTIVITIES




objectives and align with the 2010 U.S. Inter-Agency Water Strategy for
Afghanistan and (2) identify and assess USAID plans for water-sector proj-
ects post-2014.

ANSF Personnel Data
As of December 31, 2012, Congress had appropriated more than $51 bil-
lion to build, equip, train, and sustain the Afghan National Security Forces
(ANSF) as it approaches its target strength of 352,000 by December 2014.
However, SIGAR and others have reported that determining ANSF strength
is fraught with challenges. U.S. and Coalition forces rely on the Afghan
forces to report their own personnel strength numbers, which are often
derived from hand-prepared personnel records in decentralized, unlinked,
and inconsistent systems. Moreover SIGAR has reported that there is no
viable method of validating personnel numbers. Accurate and reliable
accounting for ANSF personnel is necessary to help ensure that U.S. funds
that support the ANSF are used for legitimate and eligible costs. This audit
will assess the reliability and usefulness of data for the number of ANSF
authorized, assigned, and trained. It will also review the methodology for
gathering data on ANSF personnel, including the extent to which DOD
reviews and validates the information collected.

Transitioning Reconstruction Activities
In June 2011, President Obama announced that U.S. combat troops
would be withdrawn from Afghanistan in 2014, and that the United States
would remain committed to supporting the development of a sovereign
Afghanistan. Given U.S. strategic goals and the resources already invested
and expected to support Afghanistan in the future, it is critical that recon-
struction assets and projects completed by the United States are maintained
and used to meet their intended purposes. This audit will determine
whether U.S. government agencies have a comprehensive, inter-agency
plan in place and whether those plans address the asset-transfer process,
the Afghan government’s ability to maintain those assets, and the extent to
which a comprehensive inventory of all U.S.-funded projects and assets has
been developed and documented.

Ministerial Capacity to Accept Direct Assistance
From 2007 to 2010, USAID-Afghanistan completed pre-award assessments
of the Afghan Ministries of Finance; Communications and Information
Technology; Public Health; Agriculture, Irrigation, and Land; Education; and
Rural Rehabilitation and Development. USAID’s Office of Inspector General
(OIG) assessed the reliability of these pre-award assessments in 2010 and
found that they were not reliable. USAID OIG made a number of recommen-
dations to USAID to strengthen its pre-award assessment process. In 2011,
USAID contracted with accounting firms Ernst & Young and KPMG to assess




  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




the capacity of Afghan government ministries to accept and manage direct or
“on-budget” assistance. This audit will assess the USAID-funded assessments,
summarize the firms’ findings, and evaluate how USAID is using and plans to
use the ministerial capacity assessments in proceeding with direct assistance.

Ongoing Audits
                                                                                 ONGOING AUDITS
USAID’S Southern Region Agricultural Development Project’s                       •	 USAID’s Southern Region Agricultural
Partnership with International Relief and Development Inc.                          Development Project’s Partnership with
USAID is funding the Southern Region Agricultural Development Project to            International Relief and Development
combat regional instability, increase agricultural employment and income,           Inc.
and assist the region’s transition from an insecure area to one with a sus-      •	 Tariffs, Taxes, or other Fees Imposed by
tainable and prosperous agricultural economy. In February 2012, SIGAR               the Government of the Islamic Republic
                                                                                    of Afghanistan on U.S. Contractors
received allegations that USAID’s implementing partner, International Relief        Conducting Reconstruction Activities
and Development Inc. (IRD) had failed to coordinate sufficiently with the           in Afghanistan
local government and military officials and was spending funds on solar          •	 Air Mobility Support for Afghan Drug
panels and farm tractors without justification. SIGAR is conducting this            Interdiction Operations
examination to assess the basis for the acquisition and distribution of the      •	 State’s Financial Audit Coverage of
solar panels and farm tractors, and to determine whether IRD’s expendi-             Costs in Afghanistan
tures complied with the terms of its strategic partnership agreement and         •	 Ongoing Construction Projects for
                                                                                    the ANSF
the intended goals of the program.
                                                                                 •	 Afghan National Police Petroleum, Oils,
                                                                                    and Lubricants
Business Taxes Imposed by the Government of the Islamic
                                                                                 •	 $230 Million in Missing Repair Parts
Republic of Afghanistan on Contractors Supporting the
U.S. Government in Afghanistan                                                   •	 Afghan National Security Literacy
                                                                                    Training
The United States relies heavily on contractors and their subcontractors to
                                                                                 •	 Training of Afghan Justice Sector
implement U.S. reconstruction programs in Afghanistan. The Afghan govern-
                                                                                    Personnel
ment is charging business taxes and penalties on contractors supporting U.S.
government activities. The objectives of this audit are to determine (1) the
amount and types of inappropriate business taxes and associated penalties
the Afghan government assessed and the amount paid and reported by con-
tractors supporting U.S. government contracts in Afghanistan, and (2) the
extent to which U.S. government agencies have taken steps to minimize the
tax burden imposed by the Afghan government on these contractors.

U.S. Support for the Afghan Special Missions Wing
Despite efforts by the international community and the Afghan government
to reduce poppy cultivation and illicit drug trafficking, Afghanistan still
produces about 90% of the world’s opium. The illicit trade also supports the
insurgency. The U.S. counternarcotics strategy strives to cut off the flow of
funds to the insurgency through interdiction operations. These operations
depend on U.S.-funded air-mobility support to U.S. and Afghan law enforce-
ment officials. U.S. efforts to enhance the capabilities of the Afghan Special
Missions Wing (SMW)—formerly known as the Air Interdiction Unit—are




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                33
SIGAR OVERSIGHT ACTIVITIES




critical to sustaining counternarcotics operations. This audit will identify
(1) the extent to which U.S. assistance has helped to develop a sustainable
SMW that can independently perform its mission; and (2) the effectiveness
of U.S. government oversight of contracts/task orders to provide support to
the SMW.

State’s Financial Audit Coverage of Grants and Cooperative
Agreements in Afghanistan
Since 2002, the State Department has awarded $315 million of Afghanistan
reconstruction funds through 140 grants and cooperative agreements, each
valued at $1 million or above. Financial audits of funds expended under
such awards provide State with independent assessments of how those
funds were used. In 2012, SIGAR completed an audit of USAID’s audit cov-
erage for reconstruction efforts (SIGAR Audit 12-9). Now it is conducting
a similar audit of financial audit coverage of costs incurred under State’s
reconstruction-related cooperative agreements and grants in Afghanistan.

Construction Requirements for the ANSF
As of June 30, 2012, the United States had 311 ongoing construction
projects for the ANSF valued at about $3.73 billion and an additional 244
planned projects valued at about $2.4 billion. SIGAR will examine the
Combined Security Transition Command-Afghanistan’s (CSTC-A) justifica-
tion and support for the project requirements. The audit will also assess:
(1) the extent to which U.S. and Coalition basing plans for the ANSF
reflect ANSF force strength projections; (2) whether CSTC-A fully consid-
ered alternatives to new construction; (3) whether CSTC-A developed and
used appropriate criteria to ensure that current and proposed construc-
tion projects for the ANSF are necessary, achievable, and sustainable by
the Afghan government.

Afghan National Police Petroleum, Oil, and Lubricants
In 2012, SIGAR published an audit of ANA logistics capacity for petroleum,
oil, and lubricants (POL). SIGAR Audit 13-4 identified the need for controls
over ANA POL to prevent fraud, waste, and abuse of more than $1.1 billion
in U.S. funds. Afghan National Police (ANP) POL is subject to the same
short transition timelines and challenges as ANA POL, and SIGAR antici-
pates that similar issues will surface in the audit of ANP logistics capacity.
The new audit will focus on the two main issues identified in regard to ANA
POL: accuracy of fuel requirements, and accountability for fuel purchases.

$230 Million in Missing Repair Parts
In September 2012, the Commander of the International Security Assistance
Force’s Advisory and Assistance Team—a military assessment team—
reported that CSTC-A could not account for 474 out of 500 shipping




  34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




containers with $230 million worth of repair parts for ANSF equipment.
CSTC-A purchased the repair parts for the Afghan forces between 2007 and
2011. The team said their disappearance may have triggered a requirement
that CSTC-A reorder additional repair parts at a cost of nearly $137 million.
The team issued a report recommending that SIGAR investigate CSTC-A’s
process for ordering and managing these repair parts. The report identified
accountability issues throughout the entire logistics life cycle of the repair
parts, including the shipment of parts into Afghanistan, acceptance of the
parts by the U.S. government in Kabul, storage of the parts by ANSF con-
tractors and subcontractors, and conveyance of the parts to the ANSF. The
SIGAR audit will (1) assess the process CSTC-A uses to determine require-
ments and to acquire, manage, store, and distribute Class IX repair parts
for the ANSF; and (2) evaluate the internal controls in place to determine if
they are sufficient to account for Class IX repair parts and to prevent fraud,
waste, and abuse.

ANSF Literacy Training
Illiteracy in the ANSF remains a major obstacle to effectively developing
a capable and self-sustaining force that can operate independently and
defend the Afghan people. The United States has funded three contracts,
valued at $200 million through 2015, to provide ANSF literacy training with
the goal of significantly reducing its illiteracy levels. SIGAR will evaluate
the implementation and oversight of the ANSF literacy training program
under the three contracts. It will assess whether the contractors provide
qualified instructors and services; the extent to which CSTC-A monitored
the contractors’ performance and training outcomes; and the extent to
which the contracts are meeting the goal of providing basic, sustainable
levels of literacy for the ANSF.

Training of Afghan Justice Sector Personnel
The United States has made it a strategic reconstruction priority to estab-
lish rule of law in Afghanistan and is providing assistance programs and
funds to support justice-sector development. This audit will focus primarily
on the Department of State’s Judicial Sector Support Program. This pro-
gram aims to train justice-sector personnel and build the overall capacity of
the Afghan judicial system. SIGAR also plans to review DOD’s Rule of Law
Field Force-Afghanistan and USAID’s Rule of Law Stabilization Program,
both of which also seek to train justice personnel.

Financial Audits
SIGAR’s financial audit program uses a risk-based approach to identify and
carry out audits of costs incurred under U.S.-funded contracts, grants, and
cooperative agreements for Afghanistan reconstruction. The program was
established after Congress and the oversight community expressed concerns




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                35
                                             SIGAR OVERSIGHT ACTIVITIES




                                             about the growing backlog of financial audits for Overseas Contingency
                                             Operations contracts and grants. Through this initiative, SIGAR will:
                                             •	 confirm that costs incurred by the recipients of U.S. contracts and
                                                grants for Afghanistan reconstruction are reasonable, allocable, and
                                                supportable;
                                             •	 evaluate the internal control environment related to the contract or grant;
                                             •	 in instances of noncompliance or weak internal controls, identify
                                                potential fraud or abuse; and
                                             •	 follow up on findings and recommendations from prior audits.

                                                SIGAR’s first round of financial audits is nearing completion—11 of the
                                             12 financial audits will be issued over the upcoming quarter. During this
                                             reporting period, SIGAR expanded its financial audit program by announc-
                                             ing 11 new financial audits, increasing the program to 23 audits with a
                                             combined estimated total of nearly $1.8 billion in auditable costs. SIGAR
                                             will award the new audits to competitively selected independent audit firms
                                             in May 2013. A list of the new and ongoing financial audits can be found in
                                             Appendix C on pages 205–206.


                                             INSPECTIONS
                                             This quarter, SIGAR completed three inspections. The completed inspections
                                             identified issues with contractor performance and power facilities at an ANP
                                             facility in Kunduz; found a success story at the Qala-I-Muslim clinic; and
                                             uncovered $5 million spent for unused incinerators.

                                             Inspections Reports Published
                                             Inspection 13-6: Afghan National Police Main Road Security
                                             Company, Kunduz Province Is behind Schedule and May Not
COMPLETED INSPECTIONS                        Be Sustainable
•	 Inspection 13-6: Afghan National Police
   Main Road Security Complex, Kunduz        In February 2012, the U.S. Army Corps of Engineers-Afghanistan Engineer
   Province Is behind Schedule and May       District-North (USACE-TAN) awarded a $1.7 million firm fixed-price con-
   Not Be Sustainable                        tract to Bamic Global Construction Company to design and build facilities
•	 Inspection 13-7: Qala-I-Muslim Medical    at the ANP Main Road Security Company compound in Kunduz province.
   Clinic Serving the Community Well, But    SIGAR’s inspection assessed whether construction was being completed in
   Construction Quality Could Not Be Fully
   Assessed                                  accordance with contract requirements and applicable construction stan-
                                             dards, and whether any construction or design issues placed the facility’s
•	 Inspection 13-8: Forward Operating
   Base Salerno: Inadequate Planning         long-term sustainability at risk.
   Resulted in $5 Million Spent for
   Unused Incinerators and the Continued     FINDINGS
   Use of Potentially Hazardous Open-Air
   Burn Pit Operations                       SIGAR observed a soil-compaction process that puts the ANP Main Road
                                             Security Company compound at risk of future soil settlement and structural
                                             failure. Specifically, the contractor used a smooth steel-wheeled roller,




                                               36                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




A U.S. soldier provides security at the construction site of the ANP Main Road Security
Company compound. (SIGAR photo)


rather than a properly loaded dump truck or pneumatic-tired roller for soil
compaction. USACE officials stated that the contractor’s excavation work
to address collapsible-soil issues at the site met contract specifications.
However, the process used by the contractor does not follow U.S. Army
guidance and is a major concern due to collapsible-soil conditions at the
site and surrounding Kunduz area.
   The project is behind schedule and probably will not meet the May 18,
2013, completion date. Although 54% of the performance period had passed
at the time of SIGAR’s visit, only 15% of the work had been completed.
The contractor vowed to take steps, such as doubling the work shifts, to
improve the construction schedule. USACE officials noted that the contrac-
tor is operating for the first time as a prime contractor and that it has been
somewhat overwhelmed by government procedures. The officials believe
that the contractor’s performance has improved.
   SIGAR found that the facilities will be powered by one generator with
no provision for a back-up generator or connection to the local power grid.
Further, at the time of the inspection, no plans existed on who would be
responsible for operation and maintenance of the facilities when the site is
transferred to the Afghan government. Failure to address the soil-compac-
tion, back-up power source, and operation-and-maintenance issues could
place the $1.7 million U.S. investment in this facility at risk.

RECOMMENDATIONS
SIGAR is making two recommendations to the USACE Commanding
General and the NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A) Commanding General




REPORT TO THE UNITED STATES CONGRESS       I   APRIL 30, 2013                      37
                                       SIGAR OVERSIGHT ACTIVITIES




                                       that address the need for a backup power source at the compound, and
                                       operation-and-maintenance costs.

                                       AGENCY COMMENTS
                                       SIGAR received formal comments from USACE and NTM-A/CSTC-A. As a
                                       result of their comments to a draft of this report, SIGAR revised the recom-
                                       mendations and made other revisions to the report as appropriate.

                                       Inspection 13-7: Qala-I-Muslim Medical Clinic Serving the
                                       Community Well, But Construction Quality Could Not Be
                                       Fully Assessed
                                       In September 2010, Joint Task Force Kabul, within U.S. Forces-Afghanistan,
                                       awarded a $160,000 CERP contract to Zwakman Nabizai Construction
                                       Company. The contract involved building a medical clinic in the village of
                                       Qala-I-Muslim, Kabul Province. As part of its inspection program, SIGAR
                                       conducted a site inspection at the facility to determine whether con-
                                       struction was completed in accordance with contract requirements and
                                       applicable construction standards, and whether facilities were being used
                                       as intended and sustained.
Post-natal room at the Qala-I-Muslim
medical clinic. (SIGAR photo)
                                       FINDINGS
                                       The CERP-funded construction of the Qala-I-Muslim medical clinic appears
                                       to be a success story. The community of 4,000 people supported the clinic’s
                                       construction, a villager donated the land, and the facilities are being used
                                       daily. The clinic consists of three structures—a single-story, multiple-room
                                       medical clinic, a pharmacy, and a latrine—and primarily provides basic
                                       medical care for women and children, including immunizations. At the time
                                       of SIGAR’s inspection, available records showed 1,565 outpatient consul-
                                       tations, 63 prenatal patients, and 63 newborn deliveries since the clinic
                                       opened in September 2011.
                                          SIGAR’s inspection also showed that the facilities are being well sus-
                                       tained. The MOPH signed an agreement as part of the project approval
                                       process to sustain the clinic upon completion and it has fulfilled its com-
                                       mitment to do so. The inspection showed that the heating system worked,
                                       floors were clean, bedding was plentiful and well kept, and the pharmacy
                                       was well stocked.
                                          Although SIGAR did not observe any major construction deficiencies
                                       during its inspection, inspectors were not able to fully assess whether the
                                       clinic’s construction met contract requirements and construction standards.
                                       The assessment was unattainable because more than half of the required
                                       project documents, such as blueprints and quality assurance reports,
                                       were missing from DOD’s Combined Information Data Network Exchange
                                       (CIDNE) database. SIGAR has previously reported on the problem of




                                         38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




missing CERP project documentation, and the missing documents for this
project indicate that it is still a problem.

RECOMMENDATIONS
SIGAR recommends that the Commanding General, USFOR-A, direct
the appropriate force elements to (1) ensure that project documentation
related to CERP projects complies with CERP guidelines and (2) periodi-
cally review the CIDNE database to ensure that all required project files
are uploaded.

AGENCY COMMENTS
USFOR-A command concurred with SIGAR’s recommendations and noted
actions it has taken to implement them. For example, consistent with
SIGAR’s recommendations, the Commanding General, USFOR-A, has
directed that personnel ensure that documentation complies with CERP
guidance and periodically review the CIDNE database.

Inspection 13-8: Forward Operating Base Salerno: Inadequate
Planning Resulted in $5 Million Spent for Unused Incinerators
and the Continued Use of Potentially Hazardous Open-Air Burn
Pit Operations
USACE awarded a $5.4 million contract to construct solid-waste manage-
ment facilities at Forward Operating Base (FOB) Salerno. The contract
required installing two 8-ton capacity incinerators and supporting facilities
such as an ash landfill and a management office. At the time of the award,
the base was primarily using open-air burn pit operations to dispose of its
solid waste. FOB Salerno stated it was moving to incineration for several
reasons, including the possible health hazards to personnel from emissions




Solid waste incinerators constructed at FOB Salerno. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2013              39
SIGAR OVERSIGHT ACTIVITIES




generated by open-air burn pit operations of solid waste. This report
assesses (1) whether construction was completed in accordance with con-
tract requirements and applicable construction standards, (2) whether the
incinerators and supporting facilities were being used as intended and main-
tained, and (3) the status of open-air burn pit operations.

FINDINGS
FOB Salerno spent $5 million constructing incinerators and supporting
facilities that it will never use. The two 8-ton capacity incinerators gener-
ally met technical specifications and were properly sized for the base’s daily
solid waste, assuming they could operate 24 hours a day. SIGAR found that
the base’s threat conditions would limit the incinerators’ use to no more
than 12 hours per day, allowing them to process only 50–57% of the daily
solid waste. Therefore, if the incinerators were used, the base would still
have to rely on other means—such as open-air burn pit operations—for its
solid-waste disposal. However, there are health concerns with breathing the
smoke emissions from open-air burning.
   Although construction was never fully completed due to open “punch list”
items, FOB Salerno officials accepted the facilities and USACE closed the con-
tract. Also, due to lack of maintenance, the facilities have fallen into disrepair.
In one case, stagnant water has formed in an area beneath the incinerators,
thereby creating a potential health hazard from malaria-infected mosquitoes.
All of these factors considered, plus the estimated $1 million annually to oper-
ate and maintain the facilities, led FOB Salerno officials to decide not to use
the incinerators and supporting facilities.
   Absent the incinerators, FOB Salerno continues potentially hazardous
open-air burn pit operations which violate DOD guidelines and a CENTCOM
regulation. As part of closure, FOB Salerno officials are exploring options
for disposing of the incinerators, but have not conducted a cost-benefit
analysis to determine the best option for the U.S. government.

RECOMMENDATIONS
SIGAR recommends that the Commander, USFOR-A, (1) take appropriate
measures to prevent the reoccurrence of stagnant water at the FOB Salerno
incinerator facility; (2) expedite the contract for the base’s trash removal;
and (3) develop a list of disposition options for the FOB Salerno incinera-
tors, determine the most cost-effective option for the U.S. government, and
provide SIGAR the results within 60 days.

AGENCY COMMENTS
At the time this report went to press, the agency was still preparing formal
comments on a draft of the report. The final report contains the agency com-
ments and response to the findings and recommendations (www.sigar.mil).




  40                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




STATUS OF SIGAR RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires SIGAR to report
on the status of its recommendations. This quarter, SIGAR closed 21 rec-
ommendations contained in 5 audit and inspections reports. From 2009
through March 2013, SIGAR published 73 audit and inspection reports
and made 245 recommendations that identify $1.8 billion in questioned
costs, funds that can be put to better use, and funds identified for potential
recovery. To date, SIGAR has closed about 70% of these recommendations.
Closing a recommendation generally indicates SIGAR’s assessment that the
audited agency has either implemented the recommendation or otherwise
appropriately addressed the issue. In some cases, a closed recommendation
will be the subject of follow-up audit work.
   Corrective actions taken for the closed audit recommendations this
period include:
•	 revisions to the Afghanistan Energy Master Plan and the development
   of common technical standards on rural energy projects (Audit 10-4)
•	 recovery of over $2.8 million in National Solidarity Program funds
   retained by a hawalla dealer (Audit 11-8)
•	 integration and coordination of U.S. capacity-building efforts, and
   improvements with measuring civilian-military progress made in
   building Afghan capacity (Audit 12-1)
•	 repair of noted construction and maintenance deficiencies with
   a vehicle-maintenance building and with the storm-drain system
   (Inspection 13-2)

   The Inspector General Act of 1978, as amended, also requires SIGAR to
report on any significant recommendations from prior reports on which
corrective action has not been completed. This quarter, SIGAR continued to
monitor agency actions on recommendations in 13 audit and 4 inspection
reports. Three of the reports, which are over 12 months old, contain 17 sig-
nificant recommendations that are pending resolution.
   The three reports addressed either control weaknesses in systems used
to track and disburse about $45 million in salary supplements to Afghan
government employees and technical advisors, the need to strengthen over-
sight over the flow of U.S. funds through the Afghan economy, or the ability
to monitor the effect of $654 million in Afghan First Initiative reconstruc-
tion contracts awards. Specifically,
•	 Audit 11-5, Actions Needed to Mitigate Inconsistencies in and Lack
    of Safeguards over U.S. Salary Support to Afghan Government
    Employees and Technical Advisors, was published on October 29,
    2010. The 10 recommendations were directed to the U.S. Ambassador to
    improve accountability and consistency over U.S. salary support. SIGAR
    closed one recommendation when the U.S. Ambassador designated a
    representative to serve as a focal point for requests for salary support




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               41
                                             SIGAR OVERSIGHT ACTIVITIES




                                                and to monitor salary support provided by U.S. agencies. The other nine
                                                recommendations remain open.
                                             •	 Audit 11-13, Limited Interagency Coordination and Insufficient
                                                Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts to
                                                Develop the Afghan Financial Sector and Safeguard U.S. Cash, was
                                                published on July 20, 2011. There were four recommendations. One was
                                                directed to the U.S. Ambassador to improve interagency coordination
                                                on financial-sector development programs. The other three were
                                                directed at the Secretaries of State and Defense to strengthen oversight
                                                over the flow of U.S. funds through the Afghan economy. All four
                                                recommendations remain open.
                                             •	 Audit Report 12-6, Afghan First Initiative Has Placed Work with
                                                Afghan Companies, but Is Affected by Inconsistent Contract
                                                Solicitation and Vetting, and Employment Data Is Limited, was
                                                published on January 31, 2012. The four recommendations were
                                                directed at the Commander of USFOR-A and the U.S. Ambassador, in
                                                coordination with C-JTSCC, USACE and the USAID Mission Director
                                                to develop more systematic approaches for soliciting and vetting
                                                contracts, and collecting employment data. These recommendations
                                                also remain open.

                                                While some recommendations for other audit and inspection reports
                                             remain open, there were some notable achievements in their resolution. In
                                             one example (Audit 11-15), SIGAR found that USACE contracting officers
                                             were unaware of refunds due the U.S. government where contractors had
                                             overestimated their labor costs. Pursuant to SIGAR’s recommendations,
                                             USACE took immediate steps to have insurance refunds sent directly to
                                             the U.S. government. Thus far, the refund checks amount to $11 million.
                                             Additionally, USACE implemented SIGAR’s recommendation to establish
                                             a collection process to recover as much as $58.5 million identified in the
                                             audit report as potential refunds due the government. In another example
                                             (Audit 11-10), the U.S. Ambassador resolved one of the recommendations
                                             by urging UNDP to reduce its management service fee to donors. The action
                                             represented a savings of $5.5 million.


                                             INVESTIGATIONS
                                             This quarter, SIGAR investigations resulted in one arrest of a military
                                             member, one guilty plea, and four sentences in the United States. In
                                             Afghanistan, SIGAR’s work led to the arrest of two Afghan citizens for
                                             failing to install culvert-denial systems that could have saved the lives of
                                             two American soldiers. It also resulted in nine other arrests, seven crimi-
                                             nal charges, and three sentences under Afghan law for a range of crimes,
SIGAR Hotline public service announcement.   including soliciting kickbacks, taking bribes, and stealing fuel. One notable




                                               42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




feature of the quarter came when a SIGAR investigator testified for the first     FIGURE 2.1
time in an Afghan court. His testimony resulted in an increased sentence
for an influential Afghan contractor. SIGAR also broadened its efforts            SIGAR INVESTIGATIONS: NUMBER OF OPEN
                                                                                  INVESTIGATIONS, AS OF MARCH 31, 2013
this quarter to raise public awareness of its Hotline, launching public ser-
vice announcements broadcast on television and radio on Armed Forces
Network, and revising and updating display ads that run in the Middle East                               Total: 298
edition of Stars and Stripes.
   Monetary results for the quarter include $1.3 million in criminal fines and
restitution, $1.1 million in savings to the U.S. government, and a $4.2 million
                                                                                                                 Corruption
civil settlement payment made to the U.S. government.                                          Procurement       80
   During this reporting period, SIGAR initiated 52 new cases and closed 22,                   and Contract
                                                                                               Fraud
bringing the current number of active investigations to 298, as shown in                       122
                                                                                                               Miscellaneous
Figure 2.1. SIGAR is the lead agency on 247 of these cases.                                                    74

SIGAR Special Agent Testifies in Afghan Court for the
First Time                                                                                  Theft
                                                                                            22
In March 2013, an Afghan court found an influential Afghan official guilty of
bribery and sentenced him to three years in prison as a result of testimony       Source: SIGAR Investigations Directorate, 4/8/2013.
by a SIGAR Special Agent. SIGAR’s Special Agent testified that Ibrihim
Ashna had paid him and a SIGAR informant bribe money. The trial marked
the first time a SIGAR Special Agent has testified in an Afghan courtroom.
The SIGAR testimony led to Ashna’s sentence being increased from two to
three years, a mark of the agency’s success in establishing good working
relations with Afghan law enforcement.
   Ashna, who provided and brokered fuel deliveries to U.S. military instal-
lations at Camp Jordania and Camp Marmal in Balkh province, was arrested
and charged with bribery and theft on October 21, 2012. SIGAR agents work-
ing out of SIGAR’s new base in Mazar-e-Sharif assisted the Afghan Attorney
General’s Office (AGO) in making the arrest. SIGAR had uncovered Ashna’s
large-scale fuel-theft scheme targeting U.S. military installations. Ashna had
been submitting forged or altered “Transportation Movement Requests”              For first time, Afghan appeals court hears
(TMR) that falsely reported the delivery of fuel to a local fuel depot. Ashna     testimony from a SIGAR Special Agent.
then charged the U.S. government for fuel that was never delivered. During        (SIGAR photo)
the course of the investigation, Ashna paid bribes to a U.S. service member,
a SIGAR confidential informant, and an undercover SIGAR Special Agent
to falsely show that fuel had been delivered, thereby avoiding the $75,000
penalty charged by the U.S. government for “no show” fuel missions. He also
drove four trucks with stolen fuel in their tanks off the base.
   On January 8, 2013, a SIGAR investigator, along with an Afghan national
interpreter and representatives of the NATO/U.S. Rule of Law team,
attended the final day of Ashna’s trial in Balkh Province, Afghanistan.
During the trial, the judge questioned SIGAR’s Special Agent about the
evidence gathered against Ashna during SIGAR’s investigation. The
court acknowledged the $42,000 in bribe payments Ashna made to the




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                43
                                           SIGAR OVERSIGHT ACTIVITIES




                                           investigator in exchange for his “correcting” failed fuel delivery TMRs.
                                           However, the court did not recognize Ashna’s part in orchestrating the fuel
                                           theft on the day he was arrested by SIGAR agents. At the conclusion of
                                           the trial, Ashna was pronounced guilty of bribery in accordance with the
                                           Afghan Penal Code of 1976 and was sentenced to serve two years in Balkh
                                           Prison located in Mazar-e-Sharif. The theft charges were removed.
                                              Ashna was tried again on March 16, 2013, at an appeal hearing in Balkh
                                           Province Afghanistan Appellate Court. This time SIGAR’s Special Agent took
                                           the stand. The Special Agent testified that Ashna had paid him and the SIGAR
                                           informant bribe money, in exchange for the alteration of TMRs and for assis-
                                           tance with the theft of U.S. government-owned fuel. At the conclusion of
                                           the hearing, the chief appellate judge issued a new verdict which reinstated
                                           the theft charges removed during the criminal trial. The sentence increased
                                           Ashna’s prison time from a maximum of two years to three years. The judge
                                           also imposed a $42,000 fine to be paid in addition to the $42,000 Ashna previ-
                                           ously forfeited to the court upon his arrest, for a total fine of $84,000.
                                              Over the course of the complex investigation, SIGAR agents uncovered
                                           the various methods employed by Ashna to defraud the U.S. government.
                                           The investigation led to over $1 million in contract cost savings and stolen
                                           government-property seizures. This case also underscores the importance
                                           of SIGAR’s recent decision to create a new base at Mazar-e-Sharif to address
                                           potential fraud at the military facilities in that region.

                                           Two Contractors Arrested for Failure to Install
                                           Culvert Denial Systems
                                           This quarter, two Afghan citizens were arrested after an investigation deter-
                                           mined that they had failed to install culvert-denial systems that could have
                                           saved the lives of two American soldiers. U.S. military personnel concluded
                                           that failure to adhere to contract specifications led to the creation of an “IED
                                           engagement zone” along a critical stretch of the highway in Ghazni province.
                                              Abdul Anas Sultani, the president of Afghan Mercury Construction
                                           Company (AMCC), was arrested on fraud and negligent death charges
                                           by the AGO in Kabul on January 27, 2013, after AMCC failed to install
                                           grates aimed at preventing insurgents from planting IEDs. Hamidullah, a
                                           subcontractor to AMCC, also was arrested on fraud charges by the AGO
                                           prosecutor in February 2013.
                                              The two soldiers were killed on July 2012 in Ghazni province when their
                                           vehicle passed over a culvert, triggering an embedded IED. A subsequent
SIGAR agents and U.S. Army forces          investigation revealed that AMCC had submitted falsified claims and taken
conduct culvert-denial systems survey in   misleading photos indicating that a denial system had been built at the loca-
eastern Afghanistan. (SIGAR photo)
                                           tion where the incident occurred. Instead, AMCC and its subcontractor had
                                           improperly installed 122 culvert-denial systems along Highway 1. Rather
                                           than using concrete to anchor the grates as specified in its contract, AMCC
                                           and its subcontractor used spot welding, making it possible for insurgents




                                             44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          QUARTERLY HIGHLIGHT




IOWA NATIONAL
GUARDSMEN HELP SIGAR
THWART FUEL THIEVES
SIGAR’s oversight of U.S. spending in Afghanistan
could not be as effective as it is without the coop-
eration and initiative of many others, among them
an officer and a non-com of the 1034th Combat
Sustainment Support Battalion (1034th) of the Iowa
Army National Guard.
   Lieutenant Colonel Wesley Golden and Sergeant
First Class George Toubekis took on responsibility
for fuel distribution at Camp Marmal in Regional
Command-North (RC-North) near Mazar-e-Sharif,               Fuel-theft fighters: Iowa Army National Guard soldiers
Afghanistan, in October 2012. Their duties included         Golden (l) and Toubekis (r) accompany Special IG John Sopko
oversight and quality assurance for the Fuel                at their post in northern Afghanistan. (SIGAR photo)
Systems Supply Point at the camp, overseeing all
fuel operations in RC-North, and supporting seven           to the 1034th while copying their own headquarters.
major bases and various smaller sites. Their work           Now established as a single point of contact and data
entailed managing deliveries and shipments, fuel            consolidator, the 1034th enforced standards for gaug-
levels, fuel forecasting, resupply, and daily and           ing and reporting, spot-checking trucks, and applying
monthly reports and audits.                                 security seals to trucks carrying loads of fuel.
   The Guardsmen quickly learned that large and                The result of LTC Golden’s and SFC Toubekis’s
costly thefts of fuel from the supply point were a          work is that fuel thefts in RC-North have plummeted
threat to accountability and operations throughout          to minimal levels, saving taxpayers millions of dol-
the command region. About 340,000 gallons of fuel           lars. Meanwhile, SIGAR cooperated with the Army
were found to be missing from Camp Marmal just for          and Afghan authorities to bring about the identifica-
the month of October 2012. Given the Army’s cost of         tion, arrest, and punishment of fuel thieves. (For
$15 a gallon to procure, move, store, and distribute        more information, see Section 2.)
fuel in Afghanistan, that was a $5 million issue.              After learning of the Guardsmen’s efforts
   LTC Golden and SFC Toubekis began collaborat-            during a trip to Afghanistan, Special Inspector
ing with SIGAR Special Agents to attack problem             General John Sopko sent letters commending LTC
areas identified in the fuel-distribution process. They     Golden and SFC Toubekis to Brigadier General
assigned soldiers to accompany all fuel trucks and          Scottie Carpenter, commander of the Army’s 311th
observe fuels downloads and uploads to limit oppor-         Expeditionary Sustainment Command based at
tunities for theft. Input from several quarters led to      Kandahar Airfield. Sopko praised the men for “com-
operator training on fuel-accountability systems,           mendable initiative and remarkable leadership
proper gauging techniques, and correct reporting.           qualities,” adding that their actions “have made a
LTC Golden and SFC Toubekis streamlined the                 great contribution to the fulfillment of our mission
reporting process so each fuel site reported directly       to combat waste, fraud, and abuse in Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                   45
                                            SIGAR OVERSIGHT ACTIVITIES




                                            to tamper with them. The workers also left gaps around the edges of the
                                            rebar grills used to prevent the emplacement of IEDs.
                                               This investigation is ongoing and additional arrests are anticipated.

                                            Four Arrested and $1.1 Million in Fuel Saved
                                            This quarter an investigation by SIGAR and the U.S. military saved U.S.
                                            Army FOB Salerno $1.1 million in fuel theft and led to the arrest of one
                                            Afghan interpreter and three Afghan fuel truck drivers who were observed
                                            stealing fuel from the base.
                                                The investigation began in November 2012, when the commander at FOB
                                            Salerno asked for SIGAR’s help in disrupting an ongoing fuel-theft scheme
                                            that was causing a loss of about 53,000 gallons a month. In coordination with
                                            base personnel, SIGAR investigators quickly determined that a large number
                                            of Afghan fuel delivery trucks arriving at the FOB Salerno fuel depot had
Special IG Sopko examines fuel pumping at
FOB Salerno. (SIGAR photo)                  actual fuel loads that were short 600 to 2,400 gallons from the amounts listed
                                            on their manifests. Investigators noted that fuel truck security seals and
                                            delivery paperwork revealed no apparent alteration or forgery. The investiga-
                                            tors found no involvement by U.S. government personnel.
                                                Together with the U.S. military’s counterterrorism task force, Task Force
                                            (TF) Rakassan, the Afghan Threat Finance Center (ATFC), U.S. Rule of
                                            Law (ROL) attorneys, and local Afghan prosecutors and police, SIGAR
                                            developed an investigative plan. The plan included: authorized video sur-
                                            veillance of the fuel depot where the deliveries took place, more than 40
                                            rapid investigative interviews by SIGAR investigators, analytical support by
                                            TF Rakassan and the ATFC, and coordination between the ROL attorneys
                                            and Afghan prosecutors to develop a strategy for prosecuting of numerous
                                            Afghan subjects identified during the investigation.
                                                The U.S. Army calculates fuel costs at the rate of $15 per gallon, includ-
                                            ing transportation and security costs associated with deliveries to military
                                            installations. In the months after the investigation by SIGAR and the U.S.
                                            military began, fuel losses at FOB Salerno steadily decreased, saving
                                            the U.S. government more than $1.1 million since December 2012. Fuel
                                            losses declined from 31,114 gallons in November 2012 to 23,364 gallons in
                                            December 2012, representing a cost savings of $116,250 (or 7,750 gallons of
                                            fuel). Fuel losses decreased to 11,125 gallons in January 2013, representing
                                            a cost savings of $298,335 (or 19,889 gallons of fuel). In February 2013, fuel
                                            losses declined to 8,998 gallons, resulting in a cost savings of $331,740 (or
                                            22,116 gallons of fuel).There have been no fuel losses at FOB Salerno since
                                            February 22, 2013. See Figure 2.2.
                                                Cost savings from March 1, 2013, to March 31, 2013, were $497,265 (or
                                            33,151 gallons of fuel based on average daily losses of 1,037 gallons of fuel
                                            in November 2012).The total cost savings involving fuel at the close of the
                                            first fiscal quarter were $116,250. The total cost savings for fuel theft during
                                            the second fiscal quarter were $1.1 million.




                                              46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                   SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.2


GALLONS OF FUEL STOLEN PER MONTH AT FOB SALERNO

40,000

                      31,114
30,000
                                          23,364
20,000

                                                             11,125
10,000                                                                           8,998

                                                                                              0
      0
               Nov 2012             Dec 2012           Jan 2013             Feb 2013     Mar 2013


Source: SIGAR, Investigations Directorate, 4/8/2013.



   In addition to the drastic reduction in fuel loss at FOB Salerno since
November 2012, an additional 27 Afghan fuel truck drivers, for a total of
87, have been barred from access to FOB Salerno or other U.S./NATO
installations in Afghanistan. One Afghan interpreter working with ROL at
FOB Salerno was arrested in January 2013 and remains in custody await-
ing prosecution. Three Afghan fuel truck drivers observed stealing fuel
were arrested, detained, and turned over to the local Afghan prosecutors in
February 2013.

U.S. Army Staff Sergeant Sentenced to Five Years for
Smuggling $1 Million
Former U.S. Army Staff Sergeant Tonya Long was sentenced on March 4,
2013, to 60 months imprisonment and three years of supervised release for
bulk cash smuggling and aiding and abetting the same. Additionally, Long
was ordered to pay $1 million in restitution.
   During her deployment to Afghanistan from January 2008 until April
2009, Long worked as customs inspector under the Combined Joint Special
Operations Task Force. Her duties included inspecting military service
members’ personal property prior to its being loaded into containers for
shipment back to the United States.
   Between January 2009 and February 2009, Long aided and abetted
another military service member in concealing and shipping over $1 mil-
lion in cash from Afghanistan. The other military service member stripped
the internal mechanisms of VCRs and concealed the money inside the gut-
ted machines. Long then packed the VCRs in containers and cleared them
through customs before they were shipped to the United States. Long acted
with the intent to evade the law requiring individuals to report currency
being brought into the United States.




REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2013                           47
SIGAR OVERSIGHT ACTIVITIES




   The investigation was jointly conducted by SIGAR, the Federal Bureau of
Investigation, and Defense Criminal Investigative Service (DCIS). Long was
prosecuted in the Eastern District of North Carolina.

U.S. Army Sergeant Pleads Guilty to Bulk Cash Smuggling
After a SIGAR investigation, U.S. Army Sergeant First Class Renee Martinez
was taken into custody and on January 29, 2013, pled guilty in U.S. District
Court for the Eastern District of North Carolina to bulk cash smuggling.
   The investigation was initiated by SIGAR in October 2011 after a rou-
tine screening in Dubai detected explosive residue on a package in transit
from Afghanistan to the United States. No explosives were found during a
manual search of the contents, but officials did discover a Dewalt compres-
sor and assorted hand tools, as well as $12,000 in U.S. currency, consisting
of 120 one-hundred dollar bills rolled and concealed in the package. The
package was addressed for delivery to Martinez’s residence in Hope Mills,
North Carolina. The investigation discovered that Martinez was assigned as
an Army Field Ordering Officer for his unit, stationed at Camp Leatherneck,
and that he had inflated a contract for a local vendor and ultimately
received a sizeable kickback.
   Martinez is scheduled to be sentenced in the spring of 2013.

Former U.S. Army Contractor Sentenced for Bribery
In January 2013, Diyana Montes was sentenced to nine months confine-
ment, followed by 12 months of supervised release, after she pled guilty to
charges of bribery for her role in a plot to fraudulently bill the U.S. Army for
trucking services in Afghanistan.
   Montes was an employee of Kellogg, Brown and Root, a firm hired
to work at Bagram Airfield to assist the U.S. Army’s Movement Control
Branch in contracting with Afghan trucking companies to transport U.S.
military equipment, fuel, and supplies throughout Afghanistan. Montes
was responsible for reviewing TMRs to reconcile discrepancies between
actual services rendered and the amount billed by the contractor, prior to
approving the TMRs for payment. In this capacity, Montes entered into a
scheme with the Afghan firm Afghanistan Trade Transportation (ATT) to
approve fraudulent TMRs indicating extra leg missions that had not actually
occurred. In return for approving payment for the TMRs, Montes received
cash and wire transfers from ATT amounting to approximately $50,000.
   The U.S. District Court of the District of Columbia sentenced Montes on
January 31, 2013. Upon release, she must pay $50,000 in restitution to the
U.S. Army, via a payment schedule.
   On December 21, 2012, SIGAR referred Montes to the Department of
the Army (DOA) Suspension and Debarment Official for proposed suspen-
sion and debarment from future contracting throughout the executive
branch of the U.S. government. On January 29, 2013, DOA, Legal Services




  48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Agency, proposed Montes for debarment, as a result of SIGAR’s referral.
On March 26, 2013, the DOA, Legal Services Agency, debarred Montes from
contracting with the executive branch for a period of three years, or until
October 31, 2016.
   On March 13, 2013, Kellogg, Brown and Root made a provisional credit
of $22,480 (subject to audit) to the Defense Finance & Accounting Service
in Columbus, Ohio. The credit was in response to the illegal activity in
which Montes had engaged during the period of April 1, 2008, through
December 31, 2008. Kellogg, Brown and Root stated that the credit related
to the labor hours and associated dollar amounts which Montes had entered
on her timesheet while engaged in fraudulent activity.

U.S. Contractor Sentenced for Bulk Cash Smuggling
This quarter, a U.S. contractor received a 30-month prison sentence, fol-
lowed by one year of supervised release, after he pled guilty to smuggling
$150,000 into the United States. Donald Gene Garst was sentenced in
the District of Kansas on February 12, 2013, and, in an upward variance,
ordered to pay a fine of $52,117.
   Garst was employed by a private U.S. company under contract with
the U.S. government at Bagram Airfield from January 2009 until May 2011.
His duties included identifying, evaluating, and monitoring subcontracts
awarded by his employer to Afghan companies. Garst used his position to
garner kickback payments on a contract-by-contract basis from an Afghan
construction company, Somo Logistics, in return for his preferential treat-
ment of Somo Logistics in the contracting process.
   In December 2010, Garst accepted a kickback of $60,000 on a Somo
Logistics contract for the lease of heavy equipment for construction
projects on Bagram Airfield. He hand-carried approximately $20,000 of
undeclared cash into the United States. He received the rest of the kick-
back by way of structured wire transfers from Somo Logistics. In May 2011,
Garst accepted a $150,000 kickback for a second heavy equipment contract
with Somo Logistics. He sewed the cash into a jacket and shipped it to the
United States, where law enforcement discovered his failure to declare the
value of the shipment. The timely discovery prevented Garst from collect-
ing an additional $400,000 that Somo Logistics had agreed to pay him for
awarding a third contract to the firm.

U.S. Staff Sergeant Sentenced for Theft of Government
Funds and Bulk Cash Smuggling
On January 10, 2013, U.S. Army Staff Sergeant Nancy Nicole Smith was sen-
tenced to 20 months in prison followed by three years supervised probation
for theft of government funds and bulk cash smuggling from Afghanistan to
the United States. The Eastern District Court of North Carolina also ordered
Smith to pay $100,000 in restitution.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             49
SIGAR OVERSIGHT ACTIVITIES




    SIGAR joined this Army Criminal Investigation Command (CID) inves-
tigation in October 2010. The case had been initiated in May 2010 when an
officer with the Joint Special Operations Task Force (JSOTF) at Bagram
Airfield, Afghanistan, notified the Afghanistan CID office of a possible
larceny of U.S. government funds. A JSOTF audit of the 230th Financial
Management Company, stationed at Bagram Airfield, had revealed that the
company’s disbursing agent, Nancy Smith, had altered payment records.
Smith then withdrew funds without proper authorization, using disburse-
ment records previously submitted by other military members. The
investigation found that Smith had stolen a total of $100,000 as a result of
altering disbursement records. The stolen funds were taken from a vault
earmarked for reconstruction projects. Smith was the sole individual having
full custody and control of the vault. She later smuggled the stolen money
into the United States by concealing it in the backpack she wore on her
flight from Afghanistan to Ft. Bragg, North Carolina.
    Smith was also debarred from receiving federal contracts or assistance
effective March 26, 2013, for a period of four years and eight months, due to
expire on September 10, 2017.

Civil Settlement Results in $4.2 Million
Payment to U.S. Government
In April 2012, a joint SIGAR and International Contract Corruption
Task Force (ICCTF) investigation was initiated at Camp Leatherneck,
Afghanistan, after information surfaced regarding the theft of 38 shipping
containers and their contents from Camp Leatherneck and FOB Shindand.
The containers belonged to American President Lines, LTD (APL) and
Maersk Lines Limited. The investigation revealed there were numerous
false Proof of Delivery (POD) documents associated with each missing con-
tainer, which allowed the contractors to be paid as if the containers reached
their ultimate destination.
   The investigation further disclosed numerous other missing contain-
ers belonging to APL and Maersk may have had falsified PODs submitted
for various locations throughout Afghanistan, and that an ongoing civil
investigation was being conducted by the United States Attorney’s Office
of the Southern District of Illinois. In August 2012, the SIGAR/ICCTF Camp
Leatherneck investigation was combined with the joint civil investigation,
which included CID, U.S. Air Force Office of Special Investigations, and
DCIS, for the purpose of settlement negotiations with APL and Maersk.
   In January 2013, a settlement agreement was entered into between
the United States, acting through the U.S. Department of Justice and on
behalf of the Department of Defense, the U.S. Transportations Command
(USTRANSCOM), and APL. The U.S. contends it has certain civil claims
against APL arising from APL’s breach of its contract with USTRANSCOM.
During the course of the contract, APL billed the United States and was




  50                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




paid for various costs associated with the transport and shipment of Army
and Air Force Exchange Service and Defense Logistics Agency (DLA) cargo
containers from the U.S. to military outposts in Afghanistan, and that APL’s
invoices included numerous false PODs.
   As a result of the U.S. and APL’s civil settlement negotiations and to
avoid the delay, inconvenience, and expense of protracted litigation, APL
has agreed to pay the U.S. government $4,250,000.

Afghanistan Attorney General Office Arrests
Local National on Theft Charges
In February 2013, as a result of a SIGAR-led investigation, Afghan authori-
ties arrested an Afghan translator and charged him with stealing three
generators and selling them for $45,000.
   The joint investigation with the Naval Criminal Investigative Services
(NCIS) and the Afghan AGO in Kabul began in August 2012. The U.S. gov-
ernment discovered that three of 19 generators it received from Blackwood
Construction Company had been stolen a few weeks earlier from Camp
Leatherneck. In an interview with SIGAR, the owner of Blackwood
Construction Company said the company had purchased 46 generators
from Noor Mustafa Company, paying $34,000 per generator.
   Subsequently, the owner of Noor Mustafa admitted that his company
did not have an adequate number of generators to fulfill their contractual
obligations to Blackwood and that his son had purchased three additional
generators locally. The son stated that the generators had been purchased
from Zikrullah, a translator at Camp Leatherneck. On February 7, 2013,
Zikrullah admitted that he had stolen the three generators and then sold
them to a scrap metal dealer in Helmand Province for $45,000. The AGO
in Garmshir arrested Zikrullah and transported him to a jail in Garmsir. He
remains incarcerated there pending trial.

Two Afghan Contractors Sentenced by Afghan Criminal Court
This quarter, an Afghan court sentenced two Afghan contractors to three
years confinement and fines of $5,000 each after they made a bribe payment
during a SIGAR investigation.
   The investigation was initiated after the USACE contracting personnel
reported receipt of an unsolicited e-mail from JACC, an Afghan construction
company, offering a bribe to USACE personnel for assistance in securing road
construction contracts in Afghanistan. Later contracting personnel from DOD
and DLA reported that they had received similar solicitations from JACC.
SIGAR established an undercover e-mail account to communicate with the
subject to discuss and negotiate bribes for insider contract information.
   On September 23, 2012, SIGAR arranged a meeting with Wahidullah
Matun and Navidullah Matun of JACC at Camp Eggers, Kabul. Monitored
by representatives from the AGO and ICCTF members, the two men




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             51
SIGAR OVERSIGHT ACTIVITIES




made a pre-negotiated bribe payment to the SIGAR Special Agent. Both
men were subsequently arrested and charged with bribery under Afghan
law. They were transported by the ANP from Camp Eggers to the Afghan
Detention Facility.

SIGAR Takes Aggressive and Proactive Measures to Improve
Exit Point Search Procedures at Military Installations
In November 2012, a SIGAR Special Agent met with the commanding offi-
cer of Task Force Belleau Wood (TFBW) at Camp Leatherneck to discuss
the implementation of a more stringent exit-control-point search policy for
Afghan fuel tankers departing from Camp Leatherneck and Camp Bastion.
The SIGAR Special Agent provided the commander with background
information regarding SIGAR’s ongoing fuel-theft investigations at Camp
Leatherneck. The commander acknowledged the shortcomings in current
search procedures and agreed to consider better methods which would
reduce, if not completely eliminate, the potential for fuel theft. SIGAR’s
Special Agent offered to help develop and implement new procedural
requirements if the commander agreed.
   The same SIGAR investigator met later with the U.S. Marine Corps
Deputy Commander of TFBW Security Force at Camp Leatherneck to
further discuss fuel theft and the vulnerabilities in the current exit-point
inspection process at Camp Leatherneck. The Deputy Commander’s per-
sonnel man the exit points and are responsible for inspecting inbound
and outbound commercial Afghan vehicles making deliveries to Camp
Leatherneck. The SIGAR Special Agent told the Deputy Commander about
prior fuel-theft incidents and current exit-point practices, as related by
personnel manning the exit points. The Deputy Commander indicated he
would conduct a review of current exit-point practices with the intent of
mitigating current vulnerabilities. The SIGAR investigator offered to help.
   Following these discussions SIGAR’s Special Agent, in coordination
with Supreme Fuel, conducted vehicle search training for approximately 18
Marines staffing the exit points. As a result, Camp Leatherneck and Camp
Bastion implemented a significantly more robust search procedure. SIGAR’s
success in getting previous deficiencies addressed and in improving proce-
dural requirements promises to significantly reduce fuel theft.

Suspensions and Debarments
This quarter, SIGAR referred 18 individuals and 9 companies for suspension
and debarment because of misconduct. Of these 27 entities, nine individu-
als and nine companies were referred for debarment based on allegations
that they engaged in fraud and non-performance as part of six contracts
valued at a total of $6,083,344. An additional nine individuals were referred
for debarment based on criminal allegations of theft from Coalition forces or
bulk cash smuggling into the United States. These 27 referrals bring the total




  52                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                   SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.3

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q2 FY 2013

300

250

200

150

100

 50

   0
           Q2          Q3          Q4           Q1        Q2          Q3        Q4        Q1        Q2
        FY 2011     FY 2011     FY 2011      FY 2012   FY 2012     FY 2012   FY 2012   FY 2013   FY 2013

Source: SIGAR Investigations Directorate, 4/10/2013.


number of such referrals made by SIGAR since 2008 to 285—160 individuals
and 125 companies to date—as shown in Figure 2.3.
   As of the end of March 2013, SIGAR’s use of suspension and debarment
to address fraud, corruption, and poor performance in Afghanistan have
resulted in a total of 59 suspensions and 56 finalized debarments of indi-
viduals and companies engaged in U.S.-funded reconstruction projects.
Including the 27 referrals made during the most recent quarter, 90 individu-
als and companies referred by SIGAR are awaiting action by U.S. Army
suspension and debarment officials.
   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited
U.S. jurisdiction over Afghan nationals and Afghan companies, and the
vetting challenges inherent in the use of multiple tiers of subcontractors.
SIGAR continues to look for ways to enhance the government’s responses
to these challenges through the innovative use of information resources
and investigative assets both in Afghanistan and the United States. SIGAR
makes referrals for U.S. agencies to exclude companies or individuals from
receiving federal contracts or assistance because of misconduct based
on completed investigations that SIGAR participates in. In most cases,
SIGAR’s referrals occur when there is no chance of criminally prosecut-
ing the individual or company or taking other action against them. In such
cases, suspension and debarment is the primary remedy to address contrac-
tor misconduct. In making referrals to agencies, SIGAR provides the basis




REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2013                         53
SIGAR OVERSIGHT ACTIVITIES




for a suspension or debarment decision by the agency as well as all of the
supporting documentation needed for an agency to support that decision
should it be challenged by the contractor at issue.
   SIGAR’s increased focus on suspension and debarment is exemplified
by the fact that of the 285 referrals for suspension and debarment that have
been made by the agency to date, 249 have been made since the second
quarter of 2011. Beginning in July 2012, SIGAR accelerated its suspen-
sion and debarment program, referring 103 individuals and companies for
exclusion from contracting to agency Suspension and Debarment Officials.
SIGAR’s referrals over this nine-month period represent allegations of theft,
fraud, poor performance, financial support to insurgents and mismanage-
ment in reconstruction contracts having a value of $159,981,282.

SIGAR Investigation Results in Debarment of Contractor
In March 2013, an Afghan contractor and his company were debarred after
a SIGAR investigation revealed that the contractor had tried to bribe a
U.S. contracting officer’s representative (COR). The investigation was initi-
ated on July 8, 2012, after Captain Eric Norgard, a COR, contacted SIGAR
to report conversations he had with Mirzali Naseeb, President of Mirzali
Naseeb Construction Logistic & Transportation Company (MNCC), begin-
ning in February 2012. Norgard at the time was attempting to obtain quotes
from contractors for delivering gravel to a FOB in Gardez, Afghanistan.
   Naseeb sent Norgard several communications inquiring into the status
of the gravel solicitation. In June 2012, Naseeb sent Norgard an e-mail with
pictures of Non-Tactical Vehicles (NTV) attached. When Norgard inquired
as to the purpose of sending the pictures, Naseeb stated he would provide
Norgard with a free NTV. In late June 2012, Naseeb again contacted Norgard
by text message saying: “Hi, buddy could you pls give me your wife’s name, I
want to gift for her From (Mirzali Naseeb Cons Co.).” Norgard provided the
text to SIGAR via e-mail. On June 28, 2012, Norgard also provided SIGAR
with the gravel contract packet sent to the Joint Acquisition Review Board.
   In an e-mail dated August 21, 2012, Norgard informed a SIGAR Special
Agent that the gravel contract sought by MNCC had been awarded to
another company. MNCC contacted Norgard’s interpreter to inform him of
MNCC’s intent to obtain a sub-contract from the prime contractor. Nasseeb
told the interpreter that if MNCC won the sub-contract, he would arrive at
the entry control point to deliver 6,000 cubic meters instead of the required
8,000 cubic meters. In return for signing off on a document used to autho-
rize payment for the full delivery of gravel, Norgard would receive a “gift.”
Naseeb said he had been successful before with this type of scheme but did
not provide details. A SIGAR Special Agent conducted an interview of the
interpreter to confirm the details of Norgard’s e-mail.
   On December 21, 2012, SIGAR referred Mirzali Naseeb and MNCC to the
U.S. Army’s Suspension and Debarment Official for proposed suspension




  54                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




and debarment. As a result of SIGAR’s referral, Naseeb and MNCC were
debarred for three years or until March 26, 2016.

Contractor Debarred After Pretending to be a
U.S. Contracting Officer
On February 8, 2013, the U.S. Army debarred an Afghan contractor and his
company for three years or until February 8, 2016, after a SIGAR investiga-
tion. Helman Twincle Construction Company (HTCC) and Helman Waziri
had previously been awarded numerous contracts and paid by the U.S. gov-
ernment for services in the Afghanistan reconstruction effort.
    HTCC and Waziri had been attempting to obtain additional contracts
or subcontracts for future projects in Afghanistan when SIGAR launched
its investigation in December 2011. The investigation revealed that Waziri
established a fake Yahoo e-mail account from which he sent out e-mails
pretending to be a U.S. contracting officer. He used the e-mail account to
solicit bids for construction projects, in an attempt to glean information
about his competitors’ bidding methodology. Waziri admitted culpabil-
ity when interviewed, and asked if impersonating an officer of the United
States, in direct violation of 18 U.S.C. 912, would preclude him from future
government contracting.
    On October 25, 2012, SIGAR proposed HTCC and Waziri for debarment.


SPECIAL PROJECTS
SIGAR’s Office of Special Projects is a response team created by the
Special Inspector General to examine emerging issues in prompt, action-
able reports and alert letters to federal agencies and the Congress. The
Special Inspector General set up the office after senior U.S. officials com-
plained that they needed to get information from SIGAR more quickly than
is possible in an audit format.
   This quarter the office, which is now fully staffed, produced an alert
letter on a fire- and life-safety risk at ANA facilities. It conducted an
analysis of the progress made by the donor community and the govern-
ment of Afghanistan toward achieving the goals outlined at the July 2012
Tokyo Declaration meeting and the resulting Tokyo Mutual Accountability
Framework. For more information, see Section 3, page 143. It also issued
two data calls. The first sought to obtain comprehensive information about
U.S.-funded reconstruction projects and programs in Afghanistan and
identify how remaining or planned-for funds—appropriated or otherwise
made available for the reconstruction of Afghanistan—will be used. The
second asked USAID, DOD, and State to provide SIGAR with a list of the 10
Afghanistan reconstruction projects each agency deemed most successful
as well as a list of the 10 projects it deemed least successful, and to explain
in each case how they made that determination.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                55
                                             SIGAR OVERSIGHT ACTIVITIES




                                             Alert Letter Published
                                             SP-13-3: K-Span Structures Can Pose Fire and Life Safety Risk
   COMPLETED SPECIAL PROJECTS                SIGAR issued an alert letter this quarter warning about the safety of struc-
                                             tures the U.S. military has built for the ANA. SIGAR reported that U.S.
   •	 SIGAR SP-13-3: K-Span Structures Can
      Pose Fire and Life Safety Risk         Army Corps of Engineers (USACE) officials have decided to continue using
                                             materials that have been linked to three fires when improperly installed.
                                             SIGAR said that USACE is using foam installation and thermal barrier
                                             systems in the construction of K-Span structures for the ANA despite
                                             knowledge that, if not properly installed, these materials pose a serious
                                             fire- and life-safety risk.
                                                 DOD defines a K-Span as a rust-resistant, weather-resistant, and fire-
                                             proof structure. According to USACE, K-Span structures replaced concrete/
                                             masonry structures for many ANA projects in about 2010. But last year,
                                             three K-Span structures built for the ANA caught fire during construction,
                                             resulting in property damage. USACE recently examined the matter and
Workers construct a K-span building at       issued a decision paper, updated March 10, 2013, that found these fires
Bagram Airfield. (U.S. Army photo)           were linked to the foam installation and thermal barrier system used by
                                             contractors in constructing K-Span structures. Allegedly, the contractors
                                             installed foam insulation and thermal barrier systems that were not compli-
                                             ant with International Building Code (IBC) standards. USACE determined
                                             that a potentially serious fire- and life-safety hazard exists with ANA K-Span
                                             facilities in which foam insulation systems were not properly installed in
                                             accordance with IBC standards.
                                                 USACE’s risk assessment determined that “almost all of the completed
                                             facilities have insulation installed that currently cannot be shown to meet
                                             the requirements of the IBC code.” USACE estimates that in southern
                                             Afghanistan alone, there are “approximately 1,002 K-Span structures in
                                             various stages of construction” for eventual use by the ANA. Alarmingly,
                                             “704 structures are in various stages of installation of the foam insulation
                                             and barrier system” that USACE has identified as non-compliant with IBC
                                             standards. To avoid further expense and delays in project completion dates,
                                             USACE guidance to contractors for any structures that do not have systems
                                             fully in place is to “proceed with the materials that have been previously
                                             approved and that are currently on site.”
                                                 Given the number of K-Span facilities under construction, SIGAR wrote
                                             to USACE to alert it to SIGAR’s concern about the safety risk to the ANA
                                             troops who occupy buildings in which non-compliant material are likely to
                                             have been used. SIGAR has opened an investigation into the matter.
                                                 In response to this safety alert letter, USACE provided an update to
                                             SIGAR on the actions being taken by USACE to resolve safety concerns
                                             associated with spray-foam insulation systems being used in the construc-
                                             tion of K-Span buildings for the ANSF. USACE corrected previous USACE
                                             documentation regarding the three fires at ANA facilities, stating that two




                                               56                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




of the three fires were caused by improper hot-work operations during con-
struction and that the third building was not insulated with the spray foam
and was a temporary building for the contractor’s own use. However, the
Deputy Commander for USACE stated that safety and application of appro-
priate building code requirements are USACE priorities for any facility it
constructs. He stated that USACE is conducting a full review of all ANSF
arch-span buildings being constructed by USACE to determine what correc-
tive actions may be required to ensure facilities comply with international
building code requirements. In addition, USACE plans to contract with a
qualified architect-engineer firm to review contract documents for each
building to ensure contract compliance with the code requirements and to
review contractor material submittals for spray-foam insulation and thermal
barrier materials to verify compliance or non-compliance with the interna-
tional building code criteria. USACE is gathering the documents requested
by SIGAR and will be providing them to SIGAR. SIGAR will continue to
monitor the issue in support of its ongoing investigation.

New Special Projects
Direct Assistance to the Afghan Ministries of Defense
and Interior                                                                    NEW SPECIAL PROJECTS
The Ministries of Defense (MOD) and Interior (MOI) have already received
                                                                                •	 Direct Assistance to the Afghan
more than $3 billion of direct assistance from the U.S. government for the         Ministries of Defense and Interior
Afghan National Security Forces’ salaries, uniforms, and fuel. That amount      •	 Direct Assistance for the Kajaki Dam
is expected to increase over the coming years. As part of SIGAR’s ongoing          Energy Project
effort to monitor the use of direct assistance by U.S. agencies, this review    •	 U.S. Government Anticorruption Goals
will identify the procedures used by DOD to evaluate the capacity of MOD
and MOI to properly manage and account for U.S. funds.

Direct Assistance for the Kajaki Dam Energy Project
USAID recently announced it will provide approximately $60 million to
$80 million of U.S. direct assistance funding to the Afghan national utility,
Da Afghanistan Breshna Sherkat (DABS), to install a turbine at the Kajaki
Dam. As part of SIGAR’s ongoing effort to monitor agencies’ use of direct
or “on-budget” assistance, SIGAR’s new review will examine the safeguards
USAID plans to put in place to ensure that U.S. direct assistance funds given
to DABS are properly managed.

U.S. Government Anticorruption Goals
Fighting corruption and increasing accountability are important compo-
nents of the U.S. reconstruction strategy in Afghanistan. Various U.S. and
international reconstruction strategies have placed enormous importance
on the fight against corruption and have tied future reconstruction fund-
ing to progress in the area. SIGAR is undertaking a limited-scope review to




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              57
                                          SIGAR OVERSIGHT ACTIVITIES




                                          evaluation the progress the United States has made in meeting its anticor-
                                          ruption goals in Afghanistan.

                                          Ongoing Special Projects
                                          Evaluation of Culvert Denial Systems
                                          A SIGAR investigation of contractors fraudulently billing the U.S.
ONGOING SPECIAL PROJECTS                  Government for culvert-denial systems that were never installed or incor-
•	 Evaluation of Culvert Denial Systems
                                          rectly installed has raised serious concerns. In addition to the potential
                                          for fraud, these improperly installed or absent culvert-denial systems have
                                          led to the deaths of Coalition soldiers and others by allowing insurgents
                                          to plant IEDs in culverts. SIGAR is conducting a targeted evaluation of
                                          the installation of culvert-denial systems in Afghanistan. This evaluation
                                          will follow up on the issues raised in the investigation and an October 10,
                                          2012, SIGAR safety alert letter citing these concerns that was issued to the
                                          CENTCOM and USFOR-A commanders respectively. It will determine the
                                          universe of contracts awarded for culvert-denial systems and the extent to
                                          which management and oversight was conducted of the contractors install-
                                          ing the culvert-denial systems.


                                          SIGAR BUDGET
                                          This quarter, Congress appropriated $49.9 million, as requested, for SIGAR’s
                                          operating expenses through FY 2013. These funds are provided through the
                                          Full Year Continuing Appropriations Act 2013 (P.L. 113-6). However this
                                          amount is subject to the government-wide sequestration reduction on dis-
                                          cretionary non-defense funds, approximately $2.5 million for SIGAR based
                                          on current guidance. During a difficult appropriations process and continu-
                                          ing debate over the federal budget, Congress’s provision of the requested
                                          amount clearly demonstrates the importance and value of SIGAR’s work to
                                          Congress and the U.S. taxpayers.
                                             SIGAR was established in 2008. In total, Congress has appropriated
                                          $166 million to support SIGAR operations through 2013. The President’s
                                          FY 2014 Budget, recently submitted to the Congress, requests an addi-
                                          tional $49.7 million for SIGAR to continue its critical oversight of
                                          reconstruction funds.


                                          SIGAR STAFF
                                          During this reporting period, SIGAR increased its staff from 177 to 182 fed-
                                          eral employees. SIGAR extended offers of employment that will bring the
                                          number of full-time staff to 189 by the end of May 2013. SIGAR is on target
                                          to reach its goal of 200 full-time employees by the end of the third quarter
                                          FY 2013 and a workforce of 205 for FY 2014.




                                            58                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




   As a temporary agency, SIGAR faces challenges recruiting and retaining
staff, but continues to rise to the challenge. SIGAR is authorized 57 billets
in Afghanistan. This quarter, SIGAR had 32 authorized personnel at the U.S.
Embassy Kabul and 14 authorized at locations outside the U.S. Embassy.
SIGAR has staff members stationed at eight locations across the country,
including Kandahar and Bagram airfields, Mazar-e-Sharif, Camp Stone,
Camp Leatherneck, FOB Salerno, USFOR-A headquarters in Kabul, and the
U.S. Consulate in Herat. SIGAR employs three local Afghans in its Kabul
office to support investigations and audits. In addition, SIGAR supports its
work with staff assigned to short-term temporary duty in Afghanistan. This
quarter, SIGAR had 16 personnel on temporary duty in Afghanistan for a
total of 316 days.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              59
  “I see a great opportunity today for
  stability and security in Afghanistan
  10 years from now. But it is going to
be a long-term process. ... What we are
really trying to do by the end of 2014 is
provide the Afghans with what I would
 describe as a ‘decade of opportunity.’
At that point, security and stability will
            be in their hands.”
                                   —General Joseph Dunford




           Source: ABC News, interview with General Joseph Dunford, March 29, 2013.
3   RECONSTRUCTION
    UPDATE




        61
                                               RECONSTRUCTION UPDATE CONTENTS

                                               Overview	63
                                               Status of Funds	                   67
                                               Security	81
                                               Governance	109
                                               Economic and Social Development	   137




Photo on previous page
A midwife at the Sar-e-Hause health clinic talks with a young mother as part
of a program aimed at improving health and nutrition, as well as reducing
Afghanistan’s high childbirth and childhood mortality rates. (World Bank photo)
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
Cross-references to Section 1 point to more detail.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities


TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and Police), the transition away from
private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                   63
                                                                                     63
RECONSTRUCTION UPDATE




of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.


METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest
data call include the Departments of State, Defense, Transportation, and
Treasury, and the U.S. Agency for International Development. Responding
agencies received a preliminary draft of this section so they could verify
and comment on specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  64                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
       ASFF      CERP DoD CN     ESF     INCLE



BAR CHARTS
       DoD                       USAID    DoS                        UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                   Because this report details funding in both billions
dollar values ranging from millions to billions. To                  and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                      billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                     in millions are depicted in green.
larger number.
        ASFF


     $500         DoD                    $200

     $450
                                         $150
     $400
                                         $100
     $350
                 CERP
                                         $50
                                                                            Pie chart in billions        Pie chart in millions

        $0        DoD                      $0

              Bar chart with a                  Bar chart without
               break in scale                   a break in scale


FUNDING MARKERS
            DoD CN
                                                                     CALENDAR AND SOLAR YEARS
Funding markers identify individual funds dis-                       Afghanistan follows the solar Hejri calendar, which
cussed in the text. The agency responsible for                       began in 622 A.D. in the Gregorian calendar. SIGAR
managing the DoD
              fund is listed in the tan box below                    converts Hejri solar years to Gregorian equivalents.
the fund name.                                                       The current Afghan solar year (SY) is 1392. It began
                                                                     on March 21, 2013, and ends on March 20, 2014.
                                                                     The Afghan government’s fiscal year runs from
                                                                     December 21, 2012, to December 20, 2013.
                                 ESF



                                 USAID




                                         INCLE



                                          DoS
REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2013             65
STATUS OF FUNDS CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       68
Afghanistan Security Forces Fund	      70
ASFF Budget Activities	                71
Commander’s Emergency
Response Program	                      72
Afghanistan Infrastructure Fund	       73
Task Force for Business and
Stability Operations	                  74
DOD Drug Interdiction and
Counter-Drug Activities	               75
Economic Support Fund	                 76
International Narcotics Control
and Law Enforcement 	                  77
International Reconstruction Funding
for Afghanistan	                       78




  66
                                                            STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of March 31, 2013, the United States had appropriated
approximately $92.73 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
 •	 $54.27 billion for security
 •	 $22.97 billion for governance and development
 •	 $6.39 billion for counter-narcotics efforts
 •	 $2.43 billion for humanitarian aid
 •	 $6.66 billion for operations and oversight
Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $92.73)
                                                                                                                    ASFF: Afghanistan Security Forces Fund
                                                                                                                    CERP: Commander’s Emergency
       ASFF        CERP          AIF        TFBSO      DOD CN                ESF        INCLE          Other
                                                                                                                    Response Program
                                                                                                                    AIF: Afghanistan Infrastructure Fund
     $52.75        $3.64       $1.02        $0.67        $2.68              $15.05      $3.58         $13.33
                                                                                                                    TFBSO: Task Force for Business and
                                                       AGENCIES                                                     Stability Operations
                                                                                                                    DOD CN: DOD Drug Interdiction and
                                                                                     Department of   Distributed    Counter-Drug Activities
                  Department of Defense (DOD)                               USAID                    to Multiple
                                                                                     State (State)
                           $60.76                                           $15.05      $3.58         Agenciesa     ESF: Economic Support Fund
                                                                                                       $13.33       INCLE: International Narcotics Control and
                                                                                                                    Law Enforcement
Note: Numbers have been rounded.                                                                                    Other: Other Funding
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, and USDA.
Sources: DOD, responses to SIGAR data call, 4/17/2013, 4/16/2013, 4/2/2013, 4/1/2013, 10/22/2012,
10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 4/15/2013, 4/10/2013, 4/5/2013, 10/5/2012 and
6/27/2012; Treasury, response to SIGAR data call, 4/5/2013; OMB, response to SIGAR data call, 1/3/2013; USAID,
responses to SIGAR data call, 4/18/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




         REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2013                    67
                                                                 STATUS OF FUNDS




                                                                 U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF   CERP     AIF    TFBSO DODCN    ESF     INCLE             As of March 31, 2013, cumulative appropriations for relief and reconstruc-
                                                                 tion in Afghanistan totaled approximately $92.73 billion. This total can be
                                                                 divided into five major categories of reconstruction funding: security, gover-
                DOD                   USAID DOS
                                                                 nance and development, counternarcotics, humanitarian, and oversight and
                                                                 operations. For complete information regarding U.S. appropriations, see
The amount provided to the seven major
                                                                 Appendix B.
U.S. funds represents over 85.6% (more
than $79.40 billion) of total reconstruction                        On March 26, 2013, President Obama signed the Consolidated and
assistance in Afghanistan since FY 2002.                         Further Continuing Appropriations Act, 2013, funding the U.S. govern-
OfASFF
   this amount, over 83.6% (more than                            ment for the rest of the fiscal year and increasing cumulative funding for
$66.39 billion) has been obligated, and                          Afghanistan reconstruction to approximately $92.73 billion, as shown in
over 73.4% (more than $58.29 billion) has                        Figure 3.2. When this report went to press, final FY 2013 appropriation
been disbursed.
           DOD The following pages provide                       amounts for many Afghanistan relief and reconstruction accounts were still
additional details on these funds.                               being determined, including State and USAID accounts. FY 2013 funding
FIGURE 3.2
                                                                 levels will increase when these amounts are known.24
CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2013 ($ BILLIONS)

        CERP
$100
 $95                                                                                                                                                                        $92.73
 $90                                                                                                                                                  $86.50
                DOD
 $85
 $80
 $75                                                                                                                           $71.98
 $70
 $65
                            DOD CN
 $60
                                                                                                         $56.24
 $55
 $50            DOD
 $45
                                                                                   $39.59
 $40
 $35
 $30                                                        $29.20

 $25                                  ESF
                                       $23.01
 $20
 $15            $12.98
                                      USAID
 $10
   $5
   $0
               2002–2006                2007                  2008                  2009                  2010                   2011                  2012                  2013ª

                       Security              INCLE
                                        Governance/Development              Counternarcotics            Humanitarian             Oversight and Operations           Total


Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011
                                                 DOS ESF to fund an infrastructure project to be implemented by USAID.
a Final appropriation figures for FY 2013 have not been determined for many accounts, including State and USAID accounts.

Sources: DOD, responses to SIGAR data call, 4/17/2013, 4/16/2013, 4/2/2013, 4/1/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 4/15/2013,
4/10/2013, 4/5/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 4/5/2013; OMB, response to SIGAR data call, 1/3/2013; USAID, responses to SIGAR data call,
4/18/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.
                AIF

                                                                     68                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                DOD
                                                          STATUS OF FUNDS




                                                                                                                               TABLE 3.1
   As of March 31, 2013, appropriations for FY 2013 amounted to more than
                                                                                                                                FY 2012 APPROPRIATIONS AND
$6.22 billion as shown in Figure 3.3. Of this amount, more than $5.12 billion                                                   OBLIGATIONS, AS OF MARCH 31,
was appropriated to the ASFF. The FY 2013 funding level for the ASFF is a                                                       2013 ($ MILLIONS)
decrease of more than $6 billion from the $11.2 billion initially appropriated                                                                      Appropriated               Obligated
in FY 2012. Since May 2012, cumulative appropriations for the ASFF have                                                         ASFF                         $9,200              $5,936
been reduced a total of $3 billion. Reprogramming activity and rescissions                                                      AIF                           $400                  $321
reduced the FY 2012 appropriation amount from $11.2 billion to $9.2 bil-                                                        ESF                          $1,837                     $0
lion, and reprogramming activity reduced the FY 2011 appropriation from                                                         INCLE                         $324                  $293
$11.6 billion to $10.6 billion.25                                                                                               TOTAL                  $11,761                  $6,550
   As reported last quarter, a significant amount of FY 2012 funding remains
to be obligated. Nearly $5.21 billion of the more than $11.76 billion appropri-                                                       To Be Obligated                 $5,211
                                                                                                                               Notes: Numbers have been rounded. DOD reprogrammed
ated to four of the largest U.S. reconstruction funds for FY 2012 remained                                                     $1 billion out of FY 2012 ASFF, and P.L. 113-6 rescinded
                                                                                                                               $1 billion from FY 2012 ASFF, reducing the funding level from
available for obligation, as shown in Table 3.1.26                                                                             $11.2 billion to $9.2 billion.
                                                                                                                               Sources: DOD, responses to SIGAR data call, 4/17/2013 and
                                                                                                                               4/16/2013; USAID, response to SIGAR data call, 4/18/2013;
FIGURE 3.3                                                                                                                     State, response to SIGAR data call, 4/15/2013; P.L. 112-74,
                                                                                                                               12/23/2011.
APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)

$17                                                                                                      $16.65
$16                                                                                                                            $15.74

$15                                                                                                                                                   $14.52
$14
               $12.98
$13

$12

$11
                                                                                  $10.38
                                     $10.03
$10

 $9

 $8

 $7
                                                              $6.19                                                                                                            $6.22ª
 $6

 $5

 $4

 $3

 $2

 $1

 $0
            2002–2006                 2007                    2008                 2009                  2010                   2011                   2012                     2013

                     Security           Governance/Development               Counternarcotics            Humanitarian             Oversight and Operations             Total


Notes: Numbers have been rounded. DOD reprogrammed $1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
a Final appropriation figures for FY 2013 have not been determined for many accounts, including State and USAID accounts.

Sources: DOD, responses to SIGAR data call, 4/17/2013, 4/16/2013, 4/2/2013, 4/1/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 4/15/2013,
4/10/2013, 4/5/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 4/5/2013; OMB, response to SIGAR data call, 1/3/2013; USAID, responses to SIGAR data call,
4/18/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                      I   APRIL 30, 2013                                      69
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID DOS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction.27  The pri-
                DOD                                    mary organization responsible for building the ANSF is the North Atlantic
                                                       Treaty Organization (NATO) Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.28 
DOD reported ASFF funds as appropriated,                  The Consolidated and Further Continuing Appropriations Act, 2013,
obligated, or disbursed                                appropriated more than $5.12 billion for the ASFF for FY 2013, increasing
Appropriations:
      CERP      Total monies available for             total cumulative funding to nearly $52.75 billion.29 As of March 31, 2013,
commitments                                            nearly $44.13 billion of total ASFF funding had been obligated, of which
Obligations: Commitments to pay monies                 nearly $39.99 billion had been disbursed.30  Figure 3.4 displays the amounts
                DOD                                    made available for the ASFF by fiscal year.
Disbursements: Monies that have been
                                                          DOD reported that cumulative obligations as of March 31, 2013,
expended
                                                       increased by nearly $1.04 billion over cumulative obligations as of
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       December 31, 2012. Cumulative disbursements as of March 31, 2013,
                                                       increased by more than $1.85 billion over cumulative disbursements as
                          DOD CN
                                                       of December 31, 2012.31 Figure 3.5 provides a cumulative comparison of
                                                       amounts made available, obligated, and disbursed for the ASFF.
                DOD                                    FIGURE 3.4                                                   FIGURE 3.5

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR                       ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                 ($ BILLIONS)



                                     ESF               $12.0                                                        $55.0
                                                                                                                                                                  Appropriated
                                                                                                                                                                  $52.75
                                     USAID             $10.0
                                                                                                                    $50.0               Appropriated
                                                                                                                                        $49.63

                                                        $8.0
                                                                                                                    $45.0
                                                                                                                                                                  Obligated
                                             INCLE                                                                                      Obligated                 $44.13
                                                        $6.0                                                                            $43.09

                                                                                                                    $40.0                                         Disbursed
                                             DOS        $4.0                                                                                                      $39.99
                                                                                                                                         Disbursed
                                                                                                                                         $38.14

                                                        $2.0                                                        $35.0
                AIF

                                                        $0.0                                                           $0
                                                                05 06 07 08 09 10 11a 12b 13                                As of Dec 31, 2012         As of Mar 31, 2013
                DOD
                                                       Notes: Numbers have been rounded.                            Note: Numbers have been rounded.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.               Sources: DOD, responses to SIGAR data call, 4/16/2013 and
                                                       b DOD reprogrammed $1 billion of FY 2012 ASFF; another $1    1/17/2013; P.L. 113-6, 3/26/2013.
                                                         billion was rescinded in P.L. 113-6.

                      TFBSO                            Sources: DOD, response to SIGAR data call, 4/16/2013; P.L.
                                                       113-6, 3/26/2013.




                DOD
                                                           70                           SPECIAL INSPECTOR GENERAL             I    AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DOD allocates funds to three budget activity groups within the ASFF:
•	 Defense Forces (Afghan National Army, ANA)                                                                             Budget Activity Groups: categories
•	 Interior Forces (Afghan National Police, ANP)                                                                          within each appropriation or fund account
•	 Related Activities (primarily Detainee Operations)                                                                     that identify the purposes, projects, or
                                                                                                                          types of activities financed by the appro-
                                                                                                                          priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                          Sub-Activity Groups: accounting groups
Operations, and Sustainment.32 
                                                                                                                          that break down the command’s disburse-
   As of March 31, 2013, DOD had disbursed nearly $39.99 billion for ANSF                                                 ments into functional areas
initiatives. Of this amount, nearly $26.25 billion was disbursed for the ANA,
and nearly $13.47 billion was disbursed for the ANP; the remaining more
than $0.27 billion was directed to related activities.33                                                                Sources: DOD, “Manual 7110.1-M Department of Defense
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                           Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                        of the Navy, “Medical Facility Manager Handbook,” p. 5,
ANA—nearly $10.38 billion—supported Equipment and Transportation. Of                                                    accessed 10/2/2009.

the funds disbursed for the ANP, the largest portion—more than $4.67 bil-
lion—supported Sustainment, as shown in Figure 3.7.34 


FIGURE 3.6                                                   FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                               ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group                                        By Sub-Activity Group
FY 2005–March 31, 2013 ($ BILLIONS)                          FY 2005–March 31, 2013 ($ BILLIONS)


                  Total: $26.25                                                Total: $13.47


Infrastructure                              Training and    Infrastructure                               Training and
$3.93                                       Operations      $2.28               Equipment and            Operations
                       Equipment and                                            Transportation           $3.05
                                            $2.68
                       Transportation                                           $3.46
                       $10.38


                 Sustainment                                                  Sustainment
                 $9.25                                                        $4.67



Note: Numbers have been rounded.                             Note: Numbers have been rounded.
Source: DOD, response to SIGAR data call, 4/16/2013.         Source: DOD, response to SIGAR data call, 4/16/2013.




REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2013                                 71
                                                       STATUS OF FUNDS
  ASFF



                DOD




                                                       COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                 than $500,000 each.35 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the Deputy
                         DOD CN
Appropriations: Total monies available for             Secretary of Defense. CERP-funded projects may not exceed $20 million.36 
commitments                                               The Consolidated and Further Continuing Appropriations Act, 2013,
                                                       appropriated $200 million for CERP for FY 2013, increasing total cumulative
Obligations:DOD
             Commitments to pay monies
                                                       funding to nearly $3.64 billion.37 Of this amount, DOD reported that more
Disbursements: Monies that have been                   than $2.27 billion had been obligated, of which more than $2.20 billion had
expended                                               been disbursed.38 Figure 3.8 shows CERP appropriations by fiscal year, and
Source: DOD, response to SIGAR data call, 4/14/2010.   Figure 3.9 provides a cumulative comparison of amounts appropriated, obli-
                                    ESF                gated, and disbursed for CERP projects.

                                                       FIGURE 3.8                                               FIGURE 3.9
                                   USAID
                                                       CERP APPROPRIATIONS BY FISCAL YEAR                       CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                             ($ BILLIONS)




                                           INCLE       $1000                                                    $4.0
                                                                                                                                                               Appropriated
                                                                                                                $3.6                                           $3.64
                                                                                                                                    Appropriated
                                                                                                                                    $3.45
                                            DOS         $800                                                    $3.2

                                                                                                                $2.8

                                                        $600                                                    $2.4                                            Obligated
                AIF                                                                                                                 Obligated
                                                                                                                                    $2.28                       $2.27
                                                                                                                $2.0                                            Disbursed
                                                                                                                                    Disbursed
                                                                                                                                    $2.17                       $2.20
                                                        $400                                                    $1.6
                DOD
                                                                                                                $1.2

                                                        $200                                                    $0.8

                      TFBSO                                                                                     $0.4

                                                           $0                                                   $0.0
                                                                04 05 06 07 08 09 10 11 12 13                          As of Dec 31, 2012          As of Mar 31, 2013
                DOD
                                                       Notes: Numbers have been rounded. Data may include       Notes: Numbers have been rounded. Data may include
                                                       inter-agency transfers.                                  inter-agency transfers. Updated data resulted in a lower
                                                                                                                obligated figure.
                                                       Sources: DOD, response to SIGAR data call, 4/17/2013;
                                                       OMB, response to SIGAR data call 1/4/2013; P.L. 113-6,   Sources: DOD, responses to SIGAR data call, 3/17/2013
                                                       3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,         and 1/15/2013; OMB, response to SIGAR data call,
                                                       4/15/2011.                                               1/4/2013; P.L. 113-6, 3/26/2013; P.L. 112-74,
                                                                                                                12/23/2011; P.L. 112-10, 4/15/2011.




                                                          72                          SPECIAL INSPECTOR GENERAL           I    AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                       USAID

                                                            STATUS OF FUNDS
                                                                                                                                                                               INCLE



                                                                                                                                                                                DOS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                         AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-
scale infrastructure projects that support the U.S. civilian-military effort.
Congress intended for projects funded by the AIF to be jointly selected and                                                                       DOD

managed by DOD and State. Thirty days before obligating or expending
funds on an AIF project, the Secretary of Defense and Secretary of State are                                                        AIF FUNDS TERMINOLOGY
required to notify Congress with details of the proposed project, including                                                         DOD reported AIF funds as appropriated,
                                                                                                                                                     TFBSO
                                                                                                                                    obligated, or disbursed
a plan for its sustainment and a description of how it supports the counter-
insurgency strategy in Afghanistan.39                                                                                               Appropriations: Total monies available for
   The Consolidated and Further Continuing Appropriations Act, 2013,                                                                commitmentsDOD
appropriated $325 million for the AIF for FY 2013, increasing total cumula-                                                         Obligations: Commitments to pay monies
tive funding to more than $1.02 billion.40 This figure excludes $101 million of
                                                                                                                                    Disbursements: Monies that have been
FY 2011 AIF funds transferred to the FY 2011 Economic Support Fund for
                                                                                                                                    expended
USAID’s AIF-funded infrastructure project. As of March 31, 2013, approxi-
mately $616.40 million of total AIF funding had been obligated, of which                                                            Source: DOD, response to SIGAR data call, 4/13/2012.

approximately $102.90 million had been disbursed.41  Figure 3.10 shows AIF
appropriations by fiscal year, and Figure 3.11 provides a cumulative com-
parison of amounts appropriated, obligated, and disbursed for AIF projects.

FIGURE 3.10                                                      FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR                                 AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ MILLIONS)




$800                                                             $1200


                                                                                                                     Appropriated
                                                                 $1000                                               $1,024.00
$600
                                                                   $800
                                                                                         Appropriated
                                                                                         $699.00
                                                                                                                     Obligated
$400                                                               $600                                              $616.40
                                                                                         Obligated
                                                                                         $512.76
                                                                   $400
$200
                                                                                                                     Disbursed
                                                                   $200
                                                                                         Disbursed                   $102.90
                                                                                         $68.29

    $0                                                               $0
             2011a             2012              2013                      As of Dec 31, 2012            As of Mar 31, 2013

Notes: Numbers have been rounded.                                 Notes: Numbers have been rounded. Figures exclude $101
a                                                                 million from FY 2011 transferred to USAID to execute an AIF
    FY 2011 figure excludes $101 million transferred to USAID
                                                                  project.
    to execute an AIF project.
                                                                  Sources: DOD, responses to SIGAR data call, 3/17/2013 and
Sources: DOD, response to SIGAR data call, 3/17/2013; P.L
                                                                  1/17/2013; P.L. 113-6, 3/26/2013; P.L. 112-74,
113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                                  12/23/2011; P.L. 112-10, 4/15/2011.
4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2013                                      73
                                            DOS

                                                       STATUS OF FUNDS
               AIF



              DOD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was estab-
                                                       lished in June 2006 and operated for several years in Iraq. In 2010, TFBSO
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
              DOD                                      tering economically motivated violence by decreasing unemployment and
                                                       creating economic opportunities for Afghans. TFBSO projects include activ-
TFBSO FUNDS TERMINOLOGY                                ities that facilitate private investment, industrial development, banking and
DOD reported TFBSO funds as appropriated,              financial system development, agricultural diversification and revitalization,
obligated, or disbursed                                and energy development.42
Appropriations: Total monies available for                 As of March 31, 2013, TFBSO had been appropriated more than $117.28 mil-
commitments                                            lion for FY 2013, bringing cumulative appropriations for the task force to
Obligations: Commitments to pay monies                 nearly $672.04 million.43 Of this amount, more than $551.11 million had been
                                                       obligated and more than $369.97 million had been disbursed.44 Figure 3.12 dis-
Disbursements: Monies that have been
                                                       plays the amounts appropriated for TFBSO projects by fiscal year, and Figure
expended
                                                       3.13 provides a cumulative comparison of amounts made available, obli-
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       gated, and disbursed for TFBSO projects.


                                                       FIGURE 3.12                                                 FIGURE 3.13

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                         TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ MILLIONS)




                                                       $250                                                        $700
                                                                                                                                                                 Appropriated
                                                                                                                                                                 $672.04
                                                                                                                   $600                 Appropriated
                                                                                                                                        $601.13
                                                       $200

                                                                                                                   $500                 Obligated                Obligated
                                                                                                                                        $539.46                  $551.11
                                                       $150
                                                                                                                   $400
                                                                                                                                                                 Disbursed
                                                                                                                                       Disbursed                 $369.97
                                                                                                                   $300                $334.97
                                                       $100

                                                                                                                   $200

                                                        $50
                                                                                                                   $100


                                                         $0                                                          $0
                                                               2009      2010      2011      2012       2013               As of Dec 31, 2012          As of Mar 31, 2013

                                                       Notes: Numbers have been rounded. Data may include          Notes: Numbers have been rounded. Data may include
                                                       inter-agency transfers.                                     inter-agency transfers.
                                                       Sources: DOD, response to SIGAR data call, 4/2/2013; P.L.   Sources: DOD, responses to SIGAR data call, 4/2/2013 and
                                                       113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,     1/4/2013; P.L. 113-6, 3/26/2013; P.L. 112-74,
                                                       4/15/2011.                                                  12/23/2011; P.L. 112-10, 4/15/2011.




                                                          74                          SPECIAL INSPECTOR GENERAL             I     AFGHANISTAN RECONSTRUCTION
                                                                                                                                      DOD




                                                      STATUS OF FUNDS
                                                                                                                               CERP



                                                                                                                                      DOD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DOD’s Drug Interdiction and Counter-Drug Activities Fund (DOD CN)                                                                              DOD CN
supports efforts to stabilize Afghanistan by combating the drug trade and
related activities. DOD uses the DOD CN to provide assistance to the
counternarcotics effort by supporting military operations against drug traf-                                                          DOD
fickers; expanding Afghan interdiction operations; and building the capacity
of Afghan law enforcement bodies—including the Afghan Border Police—                                                   DOD CN FUNDS TERMINOLOGY
with specialized training, equipment, and facilities.45                                                                DOD reported DOD CN funds as appropriated,
    DOD CN funds are appropriated by Congress to a single budget line for                                              obligated, or disbursed
                                                                                                                                                           ESF
all military services. DOD reprograms the funds from the Counternarcotics                                              Appropriations: Total monies available for
Central Transfer Account to the military services and defense agencies,                                                commitments
which track obligations of the transferred funds. DOD reported DOD CN                                                  Obligations: Commitments toUSAID
                                                                                                                                                   pay monies
accounts for Afghanistan as a single figure for each fiscal year.46
                                                                                                                       Disbursements: Monies that have been
    As of March 31, 2013, DOD reported that DOD CN received nearly
                                                                                                                       expended
$372.07 million for Afghanistan for FY 2013, bringing cumulative funding for
DOD CN to nearly $2.68 billion since fiscal year 2004.47 Figure 3.14 shows                                             Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                  INCLE
DOD CN appropriations by fiscal year, and Figure 3.15 provides a cumula-
tive comparison of amounts appropriated and transferred to the military
services and defense agencies for DOD CN projects.                                                                                                                 DOS


FIGURE 3.14                                                FIGURE 3.15

DOD CN APPROPRIATIONS BY FISCAL YEAR                        DOD CN FUNDS, CUMULATIVE COMPARISON                                       AIF
($ MILLIONS)                                                ($ BILLIONS)




$450                                                        $2.7                                                                      DOD
                                                                                                        Appropriated
                                                                                                        $2.68
$400                                                        $2.6

$350
                                                            $2.5                                                                            TFBSO
                                                                              Appropriated              Transferreda
$300                                                                          & Transferred             $2.44
                                                            $2.4
                                                                              $2.44
$250                                                                                                                                  DOD
                                                            $2.3
$200
                                                            $2.2
$150
                                                            $2.1
$100

 $50                                                        $2.0

  $0                                                          $0
       2004 05 06 07 08 09 10 11 12 13                             As of Dec 31, 2012         As of Mar 31, 2013

Note: Numbers have been rounded.                            Notes: Numbers have been rounded.
                                                            a DOD reprograms all funds to the military services and
Source: DOD, response to SIGAR data call, 4/1/2013.           defense agencies for obligation and disbursement.
                                                            Sources: DOD, responses to SIGAR data call, 4/1/2013 and
                                                            1/2/2013.




REPORT TO THE UNITED STATES CONGRESS                  I   APRIL 30, 2013                                 75
              DOD



                                                         STATUS OF FUNDS
                        DOD CN



              DOD




                                                         ECONOMIC SUPPORT FUND
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counterterrorism; bolster national economies; and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.48
ESF FUNDS TERMINOLOGY                                       As of March 31, 2013, f﻿﻿inal FY 2013 funding levels for the ESF had not
USAID reported ESF funds as appropriated,                been determined. USAID reported that cumulative funding for the ESF
obligated, or disbursed         INCLE                    amounted to more than $15.05 billion. Of this amount, nearly $12.90 billion
Appropriations: Total monies available                   had been obligated, of which more than $10.61 billion had been disbursed.49
for commitments                                          Figure 3.16 shows ESF appropriations by fiscal year.
                                            DOS             USAID reported that cumulative obligations as of March 31, 2013,
Obligations: Commitments to pay monies
                                                         increased by nearly $2.98 million over cumulative obligations as of
Disbursements: Monies that have been
                                                         December 31, 2012. Cumulative disbursements as of March 31, 2013,
expended
                                                         increased by nearly $232.60 million over cumulative disbursements as of
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.
                                                         December 31, 2012.50 Figure 3.17 provides a cumulative comparison of the
                                                         amounts appropriated, obligated, and disbursed for ESF programs.
              DOD
                                                         FIGURE 3.16                                                                                                    FIGURE 3.17

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                                                                              ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                                                                   ($ BILLIONS)
                     TFBSO

                                                         $3.5                                                                                                           $16
              DOD                                                                                                                                                                           Appropriated                 Appropriated
                                                                                                                   FY 13 APPROPRIATION AMOUNT HAS NOT BEEN DETERMINED




                                                         $3.0                                                                                                                               $15.05                       $15.05
                                                                                                                                                                        $14
                                                         $2.5
                                                                                                                                                                                            Obligated                    Obligated
                                                                                                                                                                                            $12.90                       $12.90
                                                         $2.0                                                                                                           $12


                                                                                                                                                                                                                         Disbursed
                                                         $1.5                                                                                                                               Disbursed                    $10.61
                                                                                                                                                                        $10                 $10.38

                                                         $1.0

                                                                                                                                                                         $8
                                                         $0.5


                                                         $0.0                                                                                                            $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13                                                                           As of Dec 31, 2012           As of Mar 31, 2013

                                                         Notes: Numbers have been rounded. FY 2011 figure includes                                                      Notes: Numbers have been rounded. Data may include
                                                         $101 million that was transferred to the ESF from the                                                          inter-agency transfers. Figures include $101 million from FY
                                                         Afghanistan Infrastructure Fund. Final FY 2013 appropriation                                                   2011 that was transferred to the ESF from the Afghanistan
                                                         amount has not been determined.                                                                                Infrastructure Fund. Final FY 2013 appropriation amount has not
                                                                                                                                                                        been determined.
                                                         Source: USAID, response to SIGAR data call, 4/18/2013.
                                                                                                                                                                        Sources: USAID, responses to SIGAR data call, 4/18/2013 and
                                                                                                                                                                        1/3/2013.




                                                             76                             SPECIAL INSPECTOR GENERAL                                                             I    AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                                                          DOD



                                                                                                                  STATUS OF FUNDS
                                                                                                                                                                                                                                ESF



                                                                                                                                                                                                                               USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                                                                                    INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                                                                                        DOS
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counter-narcotics, and rule of law and justice.51                                                                                                                INL FUNDS TERMINOLOGY
   As of March 31, 2013, final FY 2013 funding levels for INCLE had not                                                                                                                    INL reported INCLE and other INL funds as
                                                                                                                                                                                                       AIF
been determined. State reported that cumulative funding for INCLE                                                                                                                          appropriated, obligated, or disbursed.
amounted to more than $3.58 billion. Of this amount, nearly $3.49 billion                                                                                                                  Appropriations: Total monies available
had been obligated, of which nearly $2.58 billion had been disbursed.52                                                                                                                    for commitments
                                                                                                                                                                                                      DOD
Figure 3.18 shows INCLE appropriations by fiscal year.                                                                                                                                     Obligations: Commitments to pay monies
   State reported that cumulative obligations as of March 31, 2013,
                                                                                                                                                                                           Disbursements: Monies that have been
increased by nearly $247.71 million over cumulative obligations as of
                                                                                                                                                                                           expended
December 31, 2012. Cumulative disbursements as of March 31, 2013,                                                                                                                                               TFBSO
increased by nearly $68.37 million over cumulative disbursements as of                                                                                                                     Source: State, response to SIGAR data call, 4/9/2010.

December 31, 2012.53 Figure 3.19 provides a cumulative comparison of
                                                                                                                                                                                                         DOD
amounts appropriated, obligated, and disbursed for INCLE.

FIGURE 3.18                                                                                                             FIGURE 3.19

INCLE APPROPRIATIONS BY FISCAL YEAR                                                                                     INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                                                                            ($ BILLIONS)




$700                                                                                                                   $4.5
                                                             FY 13 APPROPRIATION AMOUNT HAS NOT BEEN DETERMINED




$600
                                                                                                                       $4.0

$500                                                                                                                                          Appropriated                 Appropriated
                                                                                                                       $3.5                   $3.58                        $3.58

$400                                                                                                                                          Obligated                    Obligated
                                                                                                                                              $3.24                        $3.49
                                                                                                                       $3.0
$300
                                                                                                                                                                           Disbursed
                                                                                                                       $2.5                  Disbursed                     $2.58
$200                                                                                                                                         $2.51


$100                                                                                                                   $2.0


    $0                                                                                                                    $0
         02 03 04 05 06 07 08 09 10 11 12 13a                                                                                   As of Dec 31, 2012           As of Mar 31, 2013

Notes: Numbers have been rounded. Data may include
                                                                                                                        Notes: Numbers have been rounded. Data may include
inter-agency transfers.
                                                                                                                        inter-agency transfers. Final FY 13 appropriation amount has not
a   Figure reflects amount obligated under continuing resolutions                                                       been determined.
    because the final FY 13 appropriation amount has not been
                                                                                                                        Sources: State, responses to SIGAR data call, 4/15/2013 and
    determined.
                                                                                                                        1/8/2013.
Source: State, response to SIGAR data call, 4/15/2013.




REPORT TO THE UNITED STATES CONGRESS                                                                              I   APRIL 30, 2013                                        77
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).54

The Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational
and development budgets comes through the ARTF. From 2002 to March
20, 2013, the World Bank reported that 33 donors had pledged more than
$6.94 billion, of which nearly $6.18 billion had been paid in.55 According to
the World Bank, donors have pledged approximately $830.35 million to the
ARTF for Afghan fiscal year 1392, which runs from December 21, 2012 to
December 20, 2013.56 Figure 3.20 shows the 10 largest donors to the ARTF
for FY 1392.


FIGURE 3.20

ARTF CONTRIBUTIONS FOR FY 1392 BY DONOR, AS OF MARCH 20, 2013 ($ MILLIONS)

                                                Total Commitments: $830       Total Paid In: $62
                                                                                            300
   United States        0
                                                            129
United Kingdom          0
                                                      110
           Japan        0
                                           77
        Germany         0
                                           79
           EC/EU        0
                                      54
        Australia                     54
                                 36
         Sweden         3
                            15
         Canada         0
                            13
          Finland       0
                            10
        Denmark         0
                        8
           Others       5
                    0                           100               200                    300         400

                                                  Paid In                        Commitments

Notes: Numbers have been rounded. FY 1392 = 12/21/2012–12/20/2013.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of March 20, 2013," p. 1.




    78                                SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




    As of March 20, 2013, the United States had pledged more than $2.04 bil-   FIGURE 3.21
lion and paid in more than $1.74 billion since 2002.57 The United States and
                                                                               ARTF CONTRIBUTIONS PAID IN BY DONORS
the United Kingdom are the two biggest donors to the ARTF, together con-       SY 1381 (2002)–MARCH 20, 2013 (PERCENT)
tributing nearly 47% of its total funding, as shown in Figure 3.21.
    Contributions to the ARTF are divided into two funding channels—the
                                                                                               Total Paid In: $6.2 billion
Recurrent Cost (RC) Window and the Investment Window.58 As of March 20,
2013, according to the World Bank, more than $2.69 billion of ARTF funds
had been disbursed to the Afghan government through the RC Window                                      United States
to assist with recurrent costs such as salaries of civil servants.59 The RC                            28%
Window supports the operating costs of the Afghan government because                                                United
                                                                                               Other                Kingdom
the government’s domestic revenues continue to be insufficient to support                      30%                  18%
its recurring costs. To ensure that the RC Window receives adequate fund-
ing, donors to the ARTF may not “preference” (earmark) more than half of                                                       Canada
their annual contributions for desired projects.60                                                                             9%

    The Investment Window supports the costs of development programs.                Netherlands
                                                                                                                   Germany
As of March 20, 2013, according to the World Bank, more than $2.91 billion           7%
                                                                                                                   8%
had been committed for projects funded through the Investment Window, of
which nearly $1.91 billion had been disbursed. The World Bank reported 22      Note: Numbers have been rounded.

active projects with a combined commitment value of nearly $1.86 billion,      Source: World Bank, "ARTF: Administrator's Report on
                                                                               Financial Status as of March 20, 2013," p. 4.
of which approximately $856.00 million had been disbursed.61

The Law and Order Trust Fund for Afghanistan                                   FIGURE 3.22
The United Nations Development Programme administers the LOTFA to
pay ANP salaries and build the capacity of the Ministry of Interior.62 Since   DONORS' CONTRIBUTIONS TO THE LOTFA
2002, donors have pledged more than $2.75 billion to the LOTFA, of which       SINCE 2002, AS OF DECEMBER 31, 2012
                                                                               (PERCENT)
nearly $2.75 billion had been paid in, according to the most recent data
available.63 The LOTFA’s sixth support phase started on January 1, 2011,
and ran through March 31, 2013. In the 24 months since Phase VI began, the
UNDP had transferred nearly $1.03 billion from the LOTFA to the Afghan
government to cover ANP and Central Prisons Directorate staff remunera-                    United States          Japan
tions and an additional $22.55 million for capacity development and other                  35%                    29%

LOTFA initiatives.64 As of December 31, 2012, donors had committed more
                                                                                                 Others      EC/EU
than $1.22 billion to the LOTFA for Phase VI. Of that amount, the United                         14%         16%
States had committed more than $394.56 million, and Japan had committed
more than $485.27 million. Their combined commitments make up nearly
                                                                                                              Germany
72% of LOTFA Phase VI commitments.65 The United States had contributed                                        6%
more than $950.22 million to the LOTFA since the fund’s inception.66 Figure
3.22 shows the four largest donors to the LOTFA since 2002, based on the       Notes: Numbers have been rounded. EC/EU = European
                                                                               Commission/European Union. "Others" includes 18 donors.
latest data available.                                                         Sources: UNDP, "LOTFA 2012 Annual Project Progress
                                                                               Report," p. 24, 3/17/2013; SIGAR analysis of UNDP's
                                                                               quarterly and annual LOTFA reports, 4/20/2013.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             79
SECURITY CONTENTS
CONTENTS

U.S. Funding	                            81
U.S. On-budget Assistance to the ANSF	   82
Key Events This Quarter	                 83
Transition Progress	                     86
U.S. Forces	                             86
ANSF Strength and Personnel Data	        87
Afghan Local Police	                     88
Afghan Public Protection Force	          90
ANSF Assessments	                        91
Ministry of Defense and Ministry of
Interior Assessments	                    93
Afghan National Army	                    94
Afghan National Police	                  100
ANSF Medical/Health Care	                104
Removing Unexploded Ordnance	            104
Counternarcotics	104




  80
                                                            SECURITY




SECURITY
As of March 31, 2013, the U.S. Congress had appropriated more than $54 bil-
lion to support the Afghan National Security Forces (ANSF). Most of these
funds ($52.7 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF) and provided to the Combined Security Transition
Command-Afghanistan (CSTC-A), the lead U.S. agency responsibile for
ANSF development. The purpose of the funding is to build, equip, train, and
sustain the ANSF, which comprises the Afghan National Army (ANA) and
the Afghan National Police (ANP). Of the $52.7 billion appropriated for the
ASFF, approximately $44.1 billion had been obligated and $40.0 billion dis-
bursed as of March 31, 2013.67
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,       Reprogramming action: permits the use
train, and sustain the ANSF; and provides an update on security sector            of funds for purposes other than those
events over the quarter and efforts to combat the cultivation of and com-         originally intended by Congress. Depending
merce in illicit narcotics in Afghanistan. This section also discusses the        on the circumstances, approval for repro-
challenges to transitioning to Afghan-led security by the end of 2014.            gramming may be internal to DOD or may
                                                                                  involve Congress.

U.S. FUNDING                                                                      Rescission: cancels budget author-
On March 26, 2013, President Obama signed the “Consolidated and Further           ity previously provided by Congress. The
Continuing Appropriations Act, 2013” into law. This law provides $5.12 bil-       Impoundment Control Act of 1974 specifies
                                                                                  that the President may propose to Congress
lion for the ASFF for fiscal year (FY) 2013. This was $625 million less than
                                                                                  that funds be rescinded. If both Houses
the amount sought in the Department of Defense’s (DOD) FY 2013 budget
                                                                                  have not approved a rescission proposal (by
request. The cuts included $100 million for ANA infrastructure and a gen-         passing legislation) within 45 days of con-
eral reduction of $525 million “due to lack of execution.”68 This does not        tinuous session, any funds being withheld
include any amounts that may be affected by budget sequestration.                 must be made available for obligation.
   Prior-year ASFF funding has also been reduced. DOD reprogrammed
$1 billion of the FY 2011 ASFF. In addition, DOD reprogrammed $1 bil-
lion of FY 2012 ASFF and, as part of the FY 2013 appropriations, Congress
                                                                                Sources: Defense Acquisition University, “Lesson 10:
provided for rescission of another $1 billion. These changes reduced the        Financial Management: Program/Budget Execution,” accessed
                                                                                4/12/2013; U.S. Senate, Glossary, accessed 4/12/2013.
amount of FY 2012 ASFF from $11.2 billion to $9.2 billion.69

The Law and Order Trust Fund for Afghanistan
As noted in the Status of Funds section of this report (page 67), the Law and
Order Trust Fund for Afghanistan (LOTFA) is a multinational trust fund,




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              81
SECURITY




administered by the United Nations Development Programme (UNDP), to
pay ANP salaries and other ANP-related recurring costs, to build the capac-
ity of the Ministry of Interior (MOI), and for community policing initiatives.
Since 2002, donor countries had paid more than $2.7 billion into this fund,
of which the United States, the largest contributor, provided more than
$950 million. Most U.S. funding provided through the LOTFA is from the
ASFF (see ANP Salaries in this section, page 101).
   This quarter, LOTFA continued to meet the salary and remunera-
tion requirements of Afghanistan’s police officers and prison personnel,
according to the UN Secretary-General. The UNDP Office of Audit and
Investigations completed an inquiry into the LOTFA and distributed a sum-
mary to donors. Action on its findings is expected.70 SIGAR had not seen the
inquiry at the time this report went to press.

NATO ANA Trust Fund
In addition to U.S.-provided funding in the security sector, most of which
is routed through the ASFF, NATO also provides funding through its ANA
Trust Fund. Through this fund, 22 countries (including the non-NATO coun-
try Japan) have donated nearly $715 million since 2007, though often with
restrictions on use. ANA Trust Fund donations are not direct contributions
to the Afghan government. These funds are administered by the United
States on behalf of NATO and non-NATO donors and are provided through
the ASFF to pay for ANA sustainment (such as salaries and incentives),
logistical support, and non-recurring costs (such as equipment). The DOD
Office of Inspector General is currently auditing the NATO ANA Trust Fund;
the audit is expected to be completed in summer 2013.71


U.S. ON-BUDGET ASSISTANCE TO THE ANSF
From March 21, 2009, through December 31, 2012, the United States has
provided $3.38 billion from the ASFF in direct, on-budget assistance to the
government of Afghanistan; $1.95 billion in direct assistance is planned for
2013, but has not yet been disbursed. Most disbursed and planned funding
($3.75 billion) is to support the Afghan government’s operational budget
to pay for salaries, as shown in Figure 3.23. The rest ($1.59 billion) covers
sustainment-related expenses such as repairs and maintenance of facilities
and equipment, and water and electrical service.72
   More on-budget assistance is being provided as Afghans continue to
improve their financial management capability and capacity. While this
increases the risk to U.S. funding by limiting visibility of these funds and
their use, it also increases the Afghan government’s capacity to execute
larger amounts and prepares it to identify and pay for future ANSF
requirements.




  82                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




FIGURE 3.23

ASFF DIRECT CONTRIBUTIONS TO THE AFGHAN GOVERNMENT ($ MILLIONS)

$2,000                                                                                                               1,952.4
                                Total
$1,600                         Salaries
                               Other
$1,200
                                                                955.8                  1,178.9                       1,055.5
                                          811.1                                                                      896.9
 $800                                                                                  728.4
                                                                 822.5
                                          744.1
                 432.6
 $400                                                                                        450.5
                 395.1
                      37.5                   67.0
                                                                      133.3
    $0
                SY 1388                 SY 1389                 SY 1390               SY 1391                 FY 1392
          (3/21/2009–3/20/2010) (3/21/2010–3/20/2011) (3/21/2011–3/20/2012) (3/21/2012–12/31/2012) (1/1/2013–12/31/2013)



                                                   Disbursed                                                   Planned

Note: Numbers have been rounded; SY = Afghan Solar Year; FY = Afghan Fiscal Year; increases in the "other" category reflect
an ongoing shift from off-budget to on-budget assistance.
Source: CSTC-A, responses to SIGAR data call, 4/16/2013.




KEY EVENTS THIS QUARTER
Most of the quarter’s key events in security relate to the transition of
security responsibility from Coalition Forces to the ANSF. These events
included: a NATO-led International Security Assistance Force (ISAF)
change of command, the MOI’s new 10-year vision for the ANP; the first
meeting of the new U.S. Secretary of Defense and President Karzai; and
discussions of the size of the ANSF, the U.S. military footprint in the coming
years, and the presence of U.S. Special Forces in certain provinces. Other
key events related to the security environment include the rise in ANSF
casualties, the ongoing threat of insider attacks, and the second-to-last
tranche of provinces and districts beginning the transition from Coalition-
led to ANSF-led security.

General Dunford Assumes Command of ISAF
At a February 10 ceremony, departing ISAF and U.S. Forces commander
General John R. Allen passed the reins to incoming commander General
                                                                                                                               General Joseph F. Dunford observes ANSF
Joseph F. Dunford Jr.                                                                                                          training on March 18, 2013. General
   U.S. and NATO leaders praised General Allen for his work during his 19                                                      Dunford assumed command of ISAF and
months of command in Afghanistan. In his remarks, General Dunford said,                                                        USFOR-A in February 2013. (NTM-A photo)
“Today is not about change, it’s about continuity.”73




REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2013                                      83
SECURITY




New Police Initiative
On February 5, 2013, the Minister of the Interior presented a draft 10-year
vision for the Ministry and the ANP to the International Police Coordination
Board, according to the UN Secretary-General. The strategy was cre-
ated to transform the police from a security force into a law-enforcement
and community-policing force. This followed the United Nations’ launch
of a democratic policing project funded by the Dutch government. The
three-year project, which emphasizes outreach to women and children,
is designed to empower Afghans to be more active in the issues of police
accountability and community engagement.74
   Also in February, senior MOI officials traveled to Turkey to observe
community-policing initiatives during a 10-day study tour. LOTFA funds sup-
ported the tour.75

Secretary of Defense Meets with President Karzai
On March 10, 2013, Secretary of Defense Chuck Hagel met with President
Karzai in Kabul. The meeting followed controversial remarks by President
Karzai suggesting that the United States was conspiring with the Taliban
to keep violence levels high in order to ensure a U.S. military presence in
Afghanistan beyond 2014. The Secretary discussed those comments with the
Afghan president and denied the accusation. The Secretary also said that any
negotiation with the Taliban “must come from the Afghan government.”76

U.S., Coalition, and ANSF Force Strength through 2018
As transition from Coalition-led to Afghan-led security continues through-
out Afghanistan, policy makers and military leaders must consider the right
balance of Afghan and Coalition forces over the next few years. At the 2012
NATO Summit in Chicago, the leaders of ISAF-contributing countries out-
lined a plan to reduce the ANSF to a more fiscally sustainable 228,500-strong
force in 2017. However, this quarter, U.S. officials suggested the current
ANSF end-strength goal of 352,000 could be maintained through 2018.
   On February 22, 2013, following a meeting of NATO defense ministers in
Brussels, then Secretary of Defense Leon Panetta said the plan to reduce
the Afghan force would not go forward and that it made sense to maintain
a 352,000-strong ANSF through 2018. He also noted that the United States
will maintain a force of 60,000 troops in Afghanistan through the spring and
summer fighting seasons, then cut the U.S. presence to 34,000 by February
2014. U.S. forces are expected to stay at that level through the 2014 Afghan
election cycle, then begin a final drawdown.77
   On March 5, 2013, U.S. Central Command (CENTCOM) commander
General James Mattis told the Senate Armed Services Committee he rec-
ommended a post-2014 force of 20,000 Coalition troops—13,600 of them
U.S.—in Afghanistan. In their February meeting, NATO defense ministers
discussed leaving a force of 9,500 U.S. and 6,000 Coalition troops.78 A final




  84                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




decision on a post-2014 Coalition force strength had not been reached as
this report went to press.
   On March 8, 2013, the Dutch Prime Minister announced that the
Netherlands would end its Afghan police-training mission in July 2013.79

U.S. Special Forces in Wardak
U.S. Special Forces are leaving Wardak following Afghan allegations that
they harassed and killed citizens there. President Karzai said an Afghan-
American citizen originally from Kandahar was part of a Special Forces
team in Wardak and “was violating the rights of the Afghan people mas-
sively.”80 In one example, he also noted that local residents complained
after a student was found dead and alleged that U.S. forces had taken
him from his home two days earlier.81 ISAF officials have said that no evi-
dence was found linking U.S. troops to abuse or murder in the region, but
formed a joint ISAF/Afghan commission to further review allegations.82 On
February 24, 2013, President Karzai announced ISAF would stop all Special
Forces operations in Wardak following the reports of “repeated local com-
plaints of harassment and annoyance by the American Special Forces.”83
Karzai told the Ministry of Defense (MOD) to make sure all U.S. Special
Forces were out of the province within two weeks.84
   On March 25, 2013, a senior U.S. official said ISAF and the Afghan gov-
ernment had reached a “favorable resolution.” The official said, “It wasn’t a
complete departure of U.S. security forces from Wardak province; it was a
transition from U.S. security forces to Afghan security forces in a small sec-
tion of Wardak in the end.”85 President Karzai welcomed the announcement         FIGURE 3.24
of the withdrawal and said Afghan forces “will move in to provide security
                                                                                 U.S. MILITARY DEATHS IN AFGHANISTAN:
for the region.”86                                                               JANUARY 1 THROUGH DECEMBER 31, 2012

Insider Attacks
                                                                                                          Total: 313
The number of insider attacks (Afghans in uniform attacking their Coalition
partners) has been on the rise, from two attacks in 2008 to 46 attacks in
2012.87 The 2012 attacks resulted in 62 Coalition deaths, 35 of them U.S. per-
sonnel.88 This accounts for more than 11% of all U.S. casualties and 15% of
                                                                                                         Hostile 202
all U.S. casualties resulting from hostile actions in 2012, as shown in Figure
3.24. In addition, insider attacks by ANSF personnel (or individuals posing
as ANSF personnel) against other ANSF personnel rose from three in 2008                                          Non-Hostile
                                                                                                                 76
to 29 in 2012 (through the end of September).89
    This quarter, insider attacks continued. On March 8, two U.S. soldiers
and two Afghan soldiers were killed and 10 U.S. soldiers were wounded                                        Insider Attacks 35
in Wardak when an Afghan in uniform opened fire on them. According to
media accounts of the incident, Coalition forces quickly returned fire and       Note: "Non-Hostile" includes deaths from accident, injury,
                                                                                 illness, homicide, or suicide.
killed the attacker.90 This was the third insider attack in 2013. In separate    Sources: DOD, Defense Casualty Analysis System, accessed
incidents this year, a British soldier was killed on January 7 and a U.S. con-   4/17/2013; DOD, “Report on Progress Toward Security and
                                                                                 Stability in Afghanistan,” 12/2012, pp. 34–35; DOD,
tractor was killed on March 8.91                                                 “Apparent Insider Attack Kills 2 Americans, 2 Afghans,”
                                                                                 3/11/2013.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               85
SECURITY




   In addition to insider attacks aimed primarily at U.S. and Coalition forces,
insider attacks by Afghan police and soldiers against their colleagues contin-
ued this quarter. Notably, 17 U.S.-trained Afghan Local Police (ALP) personnel
in Ghazni were killed February 27 after one of their own drugged and shot
them, stole their weapons, and fled, according to a media report.92 The Taliban
claimed responsibility for that attack.93 In an incident on March 21, an ALP
member killed five other Afghan police personnel in Badghis.94


TRANSITION PROGRESS
As of February 2013, four of five tranches (geographic areas) were transi-
tioning to ANSF-led security with Tranche 4 just beginning the process this
quarter, according to DOD. As of the end of February 2013, the ANSF had
begun to assume the lead for security in 312 of the country’s 405 districts
where approximately 87% of Afghans were living. In all, 23 of Afghanistan’s
34 provinces were completely in transition and areas in all 34 provinces
were in some stage of transition.95
   To ensure that security is maintained in transitioning areas, ISAF will
continue to provide training, advising, and other support to the ANSF,
according to DOD. As ANSF capabilities improve, ISAF support will be
adjusted, allowing ANSF to move into the operational lead. DOD noted
that counterinsurgency operations are increasingly Afghan planned, pre-
pared, and executed with advice and enabler support provided by Coalition
Security Force Assistance Teams. This support includes fire, air, aviation,
medical evacuation, and counter-IED support to augment ANSF capabilities
that are still under development. During this transition period, Coalition
forces will realign their posture to set the conditions for the ANSF to
assume full security responsibility in late 2014, prior to the withdrawal of
the bulk of remaining Coalition troops.96
   According to DOD, Tranche 5 will be announced this spring and will
mark the point at which the ANSF will assume the operational lead for
100% of the population with ISAF in a support role through their train-
advise-assist mission. Tranche 5 will be in the final tranche in the transition
process and is expected to be implemented during the summer of 2013.97 It
includes a total of 91 districts in 11 provinces, mainly along the remaining
eastern border areas, as shown in Figure 3.25.


U.S. FORCES
According to the U.S. Central Command, 70,000 U.S. forces were serving
in Afghanistan as of March 31, 2013. Of those, approximately 48,200 were
assigned to ISAF and 1,800 to the NATO Training Mission-Afghanistan
(NTM-A)/CSTC-A. Of the remaining U.S. personnel, 7,500 were assigned
to the U.S. Forces-Afghanistan and 12,500 were designated “other military




  86                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                               SECURITY




FIGURE 3.25

AREAS IN TRANSITION TO AFGHAN-LED SECURITY




                                                                                                                                          Tranche 1
                                                                                                                                          Tranche 2
                                                                                                                                          Tranche 3
                                                                                                                                          Tranche 4
                                                                                                                                          Areas not yet in transition




Notes: Tranches include cities, districts, and provinces (or parts thereof). Tranche 1 began in July 2011, Tranche 2 in November 2011, Tranche 3 in July 2012, and Tranche 4 in February 2013.
Source: NATO, "Transition to Afghan Lead: Inteqal," accessed 4/18/2013.




personnel.”98 As of April 15, 2013, a total of 2,072 U.S. military personnel
have died in Afghanistan—83% of whom were killed in action—and 18,404
were wounded as part of Operation Enduring Freedom.99


ANSF STRENGTH AND PERSONNEL DATA
In February, then Secretary of Defense Leon Panetta said supporting a
352,000-strong ANSF through 2018 is “an investment that would be worth
making, because it would allow us greater flexibility as we take down our
troops.”100 This is a change from the 228,500-strong ANSF that leaders of
nations contributing to ISAF envisaged at the Chicago NATO Summit in
May 2012.101 This quarter, the ANSF force strength was 332,753 (181,834
assigned to the ANA and Afghan Air Force and 150,919 assigned to the
ANP).102 This is 4,763 fewer than the 337,516 ANSF force strength in
March 2012, and 19,247 fewer than the end strength goal, as shown in Table 3.2
on the following page.




REPORT TO THE UNITED STATES CONGRESS                           I   APRIL 30, 2013                                        87
                                                               SECURITY




TABLE 3.2


ANSF ASSIGNED STRENGTH, FEBRUARY 18, 2013
                                                                                                                                     Difference Between Current Strength
 ANSF Component                         Current Target                                          Status as of 2/2013                      and Target End-Strength Goals
 Afghan National Army                   187,000 personnel by December 2012                             175,441                                      -11,559
 Afghan National Police                 157,000 personnel by February 2013                             150,919                                        -6,081
 Afghan Air Force                       8,000 personnel by December 2014                                  6,393                                       -1,607
 ANSF Total                             352,000                                                       332,753                                      -19,247
Sources: DOD, “Report on Progress Toward Security and Stability in Afghanistan,” 12/2012, p. 56; CSTC-A, responses to SIGAR data calls, 1/2/2013, 1/4/2013, 1/6/2013, and 4/1/2013.




                                                                  The goal to “train and field” 352,000 ANSF personnel by October 2012
                                                               was not met, although DOD reported that the ANSF reached its “recruit-
    SIGAR AUDIT                                                ing” goal of 352,000.103 In its December 2012 report to Congress, DOD noted
    This quarter, SIGAR began an audit to                      that the number of reported ANSF personnel fell in 2012 after civilian
    assess the reliability and usefulness of                   personnel were removed from ANA force-strength reports. DOD also said
    data for the number of ANSF personnel                      the date for achieving an end strength of 352,000 ANSF personnel is by
    authorized, assigned, and trained. This                    December 2014: 187,000 in the ANA by December 2012, 157,000 in the ANP
    audit will also look at the methodology                    by February 2013, and 8,000 in the Afghan Air Force by December 2014.
    for gathering data on ANSF, including                      However, according to DOD, the dates for all of these personnel to be
    the extent to which DOD reviews and                        trained, equipped, and fielded are December 2013 for the ANA and ANP, and
    validates the information collected.                       December 2017 for the Afghan Air Force.104
    For more information, see Section 2,                          Accurate and reliable accounting for ANSF personnel is necessary to
    page 32.                                                   help ensure that U.S. funds that support the ANSF are used for legitimate
                                                               and eligible costs. However, SIGAR and others have reported that deter-
                                                               mining ANSF strength is fraught with challenges. U.S. and Coalition forces
                                                               rely on the Afghan forces to report their own personnel strength numbers,
                                                               which are often derived from hand-prepared personnel records in decen-
                                                               tralized, unlinked, and inconsistent systems. CSTC-A reported last quarter
                                                               that there was no viable method of validating personnel numbers.


                                                               AFGHAN LOCAL POLICE
                                                               The Afghan Local Police (ALP)—like Village Stability Operations described
                                                               in the Governance section of this report—is part of the counterinsurgency
                                                               strategy of ISAF and the Special Operations Joint Task Force-Afghanistan
                                                               (SOJTF-A).105 This quarter, the number of ALP—“guardians”—was 21,656.
                                                               Of those, nearly 97% are fully trained and assigned.106 This quarter, the ALP
                                                               were operational at 104 sites.107
                                                                  The Taliban’s senior leadership considers the ALP the top threat to the
An ANA Special Forces soldier talks with
                                                               insurgency’s ability to control the population and threaten the Afghan gov-
a potential ALP candidate in Helmand on
April 4, 2013. The ALP provides security
                                                               ernment, according to DOD. Insurgents attack ALP units up to 10 times
in rural areas with limited ANSF presence.                     more often than other ANSF components. However, DOD noted, the ALP
(U.S. Marine Corps photo)




                                                                   88                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                                 SECURITY




FIGURE 3.26

AFGHAN LOCAL POLICE TIMELINE: HISTORY, GROWTH, AND MAJOR EVENTS

                                         JAN 2011                                                        JAN 2012                                                     JAN 2013




               Aug 2010                   Sep 2011                     Dec 2011                 May 2012            Aug 2012          Oct 2012           Nov 2012             Jan 2013
               Decree by President        Human Rights Watch           Admiral McRaven (U.S.    MOI established     Insider attacks   ALP opened         Deputy Minister of   President Karzai
               Karzai establishing ALP    released a report on         SOCOM Commander)         Control and         led to            first              Interior Rahman      provided
                                          allegations of abuse         announced intention to   Assessment          re-vetting of     national-level     proposed             guidance to MOI
               Establishment              and criminal activity by     extend ALP program       Department          ALP               headquarters, in   designating ALP      Minister Patang
               procedures published,      ALP members                  beyond original          within ALP                            Kabul              as a component       to develop ALP in
               outlining ALP                                           mandate of 10,000, to    headquarters to                                          of Uniformed         some provinces
               requirements                                            exceed 30,000 by 2015    investigate ALP                                          Police (AUP)         independent of
                                                                                                criminal activity                                                             U.S. assistance


Sources: SOJTF-A, response to SIGAR vetting, 4/12/2013; Human Rights Watch, "Just Don't Call It a Militia," 9/2011, pp. 5–8.




successfully defended their positions against these attacks more than 80%
of the time.108
   ALP members are recruited locally, recommended by village elders, and
assigned to protect their home villages. Because they are a local force,
the ALP has demonstrated “a unique resilience” against infiltration by the
Taliban “as anyone outside the area would be immediately recognized as a
foreigner.”109 In addition, the ALP has the most stringent vetting procedures
of all ANSF, according to the SOJTF-A.110 DOD stated that all ALP members
were recently revetted. Only 5% were removed from ALP ranks, mostly for
drug use.111
   The ALP has been evolving since its establishment in August 2010, as
shown in Figure 3.26, but challenges remain. According to DOD, the ALP’s
main challenge is “the MOI’s ability to support and manage the program.”112
DOD also noted that the MOI “has identified these difficulties and is work-
ing with [the NATO Special Operations Component Command-Afghanistan
(NSOCC-A)] to build an enduring logistics and support capacity in MOI to
meet ALP requirements.”113 In addition, NSOCC-A worked with the MOI
to develop a revised ALP procedures document which extends the ALP
program to 2025, increases the maximum age limit for potential ALP guard-
ians from 45 to 50, and designates the ALP as a component of the Afghan
Uniform Police (AUP), according to SOJTF-A. The last step is expected to
institutionalize the ALP, raise its status within the ANSF, and enable ALP
leadership to use AUP infrastructure and pay and logistics systems. The
revised procedures document also increases the maximum length of ALP
Guardian contracts from one to three years. The document is currently
being reviewed at the MOI, and is expected to be released in April.114
   As of March 31, 2013, the United States has obligated $139.9 million
of the ASFF to support the ALP. Of that amount, $47.7 million are direct




REPORT TO THE UNITED STATES CONGRESS                            I    APRIL 30, 2013                                        89
                                          SECURITY




                                          contributions to the Afghan Ministry of Finance and $91.6 million are “in-
                                          kind” funds that are used by U.S. forces to support the ALP.115 According to
                                          SOJTF-A, after ALP guardians are trained they become employees of the
                                          MOI, sign yearly service contracts, work part-time, and are paid approxi-
                                          mately 60% of basic police salary (about $120 per month).116
                                              In his latest report to the Security Council, the UN Secretary-General
                                          said “while [the ALP] initiative contributed to increased stability in some
                                          areas and progress in promoting accountability, concerns remain over insuf-
                                          ficient implementation of policies regarding vetting, command and control
                                          and local-level oversight.” The Secretary-General also noted that United
                                          Nations Assistance Mission-Afghanistan (UNAMA) documented 55 inci-
                                          dents attributed to the ALP that resulted in 62 civilian casualties (24 deaths
                                          and 38 injuries) in 2012.117


                                          AFGHAN PUBLIC PROTECTION FORCE
                                          The Afghan Public Protection Force (APPF) is a state-owned enter-
                                          prise under the authority of the MOI that provides security services in
                                          Afghanistan. Following President Karzai’s 2010 decree to disband all national
                                          and international private security companies (PSCs), the Afghan govern-
                                          ment implemented a bridging strategy for a phased transition process to a
                                          public security company. As part of the transition, the APPF was expected to
                                          assume responsibility for security of development and humanitarian projects
                                          in March 2012 and for security of military installations in March 2013.
                                              This quarter, SIGAR initiated a follow-on audit to the agency’s
                                          March 2012 testimony and its June 2012 report that assessed the potential
                                          effects of USAID’s transfer of security functions for its projects from PSCs
                                          to the APPF. This audit will identify the following:
                                           •	 the cost of security services for selected USAID projects and any
                                              effect the transition to the APPF had on overall security costs for
                                              reconstruction projects
                                           •	 USAID mechanisms to review security costs and oversee security
SIGAR AUDIT                                   services
                                           •	 the impact of the APPF transition on reconstruction projects
This quarter, SIGAR initiated a follow-
on audit to the agency’s March 2012
                                             The audit will also determine whether USAID’s implementing partners
testimony and its June 2012 report
                                          for selected projects were appropriately using companies licensed by the
that assessed the potential effects of
                                          Afghan government.
USAID’s transfer of security functions
                                             As of March 6, 2013, the number of personnel assigned to the APPF
for its projects from PSCs to the APPF.
                                          was 16,326—a 15% increase since last quarter—according to CSTC-A. Of
For more information, see Section 2,
                                          these, 1,158 were officers, 1,217 were noncommissioned officers (NCOs),
page 30.
                                          and 13,951 were guards.118 The target goal for the APPF is approximately
                                          23,000 personnel.119




                                            90                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




ANSF ASSESSMENTS
Assessments of the ANA and ANP are indicators of the effectiveness of
U.S. efforts—and, by extension, of U.S. funding—to build, train, equip, and
sustain the ANSF. These assessments also provide both U.S. and Afghan
stakeholders with regular updates on the status of these forces as transi-
tion continues and Afghanistan assumes responsibility for its own security.
SIGAR continues to closely monitor and report these assessments.
   In assessing the capability of ANA and ANP units, the ISAF Joint
Command (IJC) uses the Commander’s Unit Assessment Tool (CUAT),
which has five rating levels:120
•	 Independent with Advisors: The unit is able to plan and execute
   its missions, maintain command and control of subordinates, call on
   and coordinate quick-reaction forces and medical evacuations, exploit
   intelligence, and operate within a wider intelligence system.
•	 Effective with Advisors: The unit conducts effective planning,
   synchronizing, directing, and reporting of operations and status.
   Leaders, staff, and unit adhere to a code of conduct and are loyal to the
   Afghan government. Coalition forces provide only limited, occasional
   guidance to unit personnel and may provide enablers as needed.                 Enablers: specialized units that support
   Coalition forces augment support only on occasion.                             combat units such as engineering, civil
•	 Effective with Partners: The unit requires routine mentoring                   affairs, military intelligence, helicopter,
   for planning, synchronizing, directing, and reporting of operations            military police, intelligence, surveillance,
   and status; coordinating and communicating with other units; and               and reconnaissance assets.
   maintaining effective readiness reports. Leaders, staff, and most
   of the unit adhere to a code of conduct and are loyal to the Afghan
   government. ANSF “enablers” provide support to the unit; however,            Source: DOD, “Mullen Tours Forward Outposts in Afghanistan,”
                                                                                4/22/2009, accessed 1/4/2012.
   Coalition forces may provide enablers to augment that support.
•	 Developing with Partners: The unit requires partnering and assistance
   for planning, synchronizing, directing, and reporting of operations
   and status; coordinating and communicating with other units; and
   maintaining effective readiness reports. Leaders and most of the
   staff usually adhere to a code of conduct and are loyal to the Afghan
   government. Some enablers are present and effective, providing some of
   the support. Coalition forces provide enablers and most of the support.
•	 Established: The unit is beginning to organize but is barely capable of
   planning, synchronizing, directing, or reporting operations and status,
   even with the presence and assistance of a partner unit. The unit is
   barely able to coordinate and communicate with other units. Leadership
   and staff may not adhere to a code of conduct or may not be loyal to the
   Afghan government. Most of the unit’s enablers are not present or are
   barely effective. Those enablers provide little or no support to the unit.
   Coalition forces provide most of the support.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              91
                                                                          SECURITY




FIGURE 3.27

CUAT RATINGS OF ANSF UNITS, BY QUARTER, 2013


                                                   ANA                                                                                            ANP
200                                                                                                                  197 193

                               174

160                      154
                                                                                                           141
                                                                                                     130
120
                                                                                                                                     109

                                                                                                                                            91
 80
                63
          54                                                                                                                                                                            55
                                         49                                                                                                          46
                                                                                                                                                            37                     41
 40                                             33
                                                         16 13                         14 15                                                                         13 11
                                                                          5     4
  0
         Independent       Effective       Effective      Developing     Established     Not         Independent       Effective       Effective      Developing     Established     Not
         with Advisors   with Advisors   with Partners   with Partners                 Assessed      with Advisors   with Advisors   with Partners   with Partners                 Assessed

               Q1 2013 | ANA Total - 292                          Q2 2013 | ANA Total - 302                Q1 2013 | ANP Total - 536                          Q2 2013 | ANP Total - 528


Source: DOD, response to SIGAR vetting, 4/17/2013.




                                                                              During this reporting cycle, the total number of ANA units rose from
                                                                          292 to 302. According to IJC, this increase is the result of new units being
      SIGAR AUDIT                                                         fielded, mostly in the 215th Corps.121
      In a new audit, SIGAR is examining the                                  For the ANP, the total number of units fell from 536 to 528. According to
      methods and tools used to measure                                   IJC, “Special Police Units” are not reported, so they do not appear in this
      and evaluate the ANSF’s operational                                 reporting cycle.122
      effectiveness, including the extent to                                  Because not every unit is reported in every CUAT cycle, the IJC uses the
      which these methods and tools are                                   most recent assessment (within the last 18 months) to “enable cycle to cycle
      consistently applied, reliable, and                                 comparisons.” When compared this way, 9 more ANA units and 11 more
      validated. For more information, see                                ANP units were rated “independent with advisors,” as shown in Figure 3.27.
      Section 2, page 32.                                                 According to the most recent assessments, more than 78% of all ANA units
                                                                          were rated at the two highest levels: nearly 21% were “independent with
                                                                          advisors” and nearly 58% were “effective with advisors.” Less than 5% of
                                                                          units had not been assessed within the last 18 months. For the ANP, more
                                                                          than 63% of units were rated at the two highest levels: nearly 27% were “inde-
                                                                          pendent with advisors” and nearly 37% were “effective with advisors.” More
                                                                          than 10% of ANP units had not been assessed within the last 18 months.123




                                                                              92                  SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS
Assessments of the MOD and the MOI continued to show progress this
quarter. To rate the operational capability of these ministries, NTM-A uses
the Capability Milestone (CM) rating system. This system assesses staff
sections (such as the offices headed by assistant or deputy ministers) and
cross-functional areas (such as general staff offices) using four primary and
two secondary ratings:124
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with Coalition oversight only
•	 CM-2A: capable of executing functions with minimal Coalition
   assistance
•	 CM-2B: can accomplish its mission but requires some Coalition
   assistance
•	 CM-3: cannot accomplish its mission without significant Coalition
   assistance
•	 CM-4: exists but cannot accomplish its mission

   At the MOD, all 46 staff sections and cross-functional areas were
assessed this quarter, including the newly assessed Ground Forces
Command, which debuted at CM-2B. Eight offices progressed, including:125
•	 Logistics Command (CM-1B)
•	 General Staff Communications (CM-2A)
•	 General Staff Force Structure, Training and Doctrine (CM-2A)
•	 Medical Command (CM-2A)
•	 Army Support Command (CM-2A)
•	 Director of General Staff (CM-2A)
•	 MOD Chief of Health Affairs (CM-2B)
•	 Director of Strategic Communications (CM-2B)

   Two MOD offices received lower ratings: the Acquisition Agency (fell to
CM-2B) and the General Staff Logistics office (CM-3). Three MOD offices were
rated CM-4, meaning that they cannot accomplish their missions, as shown in
Figure 3.28 on the following page. Those offices were the Assistant Minister
of Defense for Intel Policy, the Afghan Air Force Command, and Gender
Integration.126
   All 32 staff sections at the MOI were assessed; four progressed since
last quarter. The MOI office for the Afghan Local Police increased two rat-
ing categories since last quarter, from CM-3 to CM-2A. The other offices of
the Legal Advisor and the Afghan National Civil Order Police progressed
to CM-1B (the second highest rating category). The Office of the Surgeon
(Medical) also increased to CM-2A.127




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              93
                                                                        SECURITY




FIGURE 3.28


CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY CHANGE
                                                                MOD                                                                                 MOl

CM-1A: capable of                          0                                                                                     1
autonomous operations          CM-1A                                                                           CM-1A
                                           0                                                                                     1
CM-1B: capable of                                                   6                                                            1
executing functions with       CM-1B                                                                           CM-1B
coalition oversight only                                            6                                                                     3
CM-2A: capable of                                                                            13                                                               9
executing functions with       CM-2A                                                                           CM-2A
minimal coalition assistance                                                                             17                                                   9
CM-2B: can accomplish its                                                                    13                                                                        11
mission but requires some      CM-2B                                                                           CM-2B
coalition assistance                                                                    12                                                                        10
CM-3: cannot accomplish its                                                       10                                                                              10
mission without significant    CM-3                                                                             CM-3
coalition assistance                                                      8                                                                                   9

CM-4: exists but cannot                                   3                                                                0
accomplish its mission         CM-4                                                                             CM-4
                                                          3                                                                0
                                           0                                                                               0
Not Assessed                    NA                                                                               NA
                                           0                                                                               0
                                       0              3         6             9        12         15      18           0              3             6     9             12       15    18

                                               December 2012                      March 2013                                   December 2012                      March 2013
                                               MOD Staff Sections                 MOD Staff Sections                           MOI Staff Sections                 MOI Staff Sections

Sources: CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.



                                                                        AFGHAN NATIONAL ARMY
                                                                        As of March 31, 2013, the United States had obligated $28.9 billion and dis-
                                                                        bursed $26.2 billion of the ASFF to build, train, and sustain the ANA.128

                                                                        ANA Strength
                                                                        As of February 18, 2013, the overall assigned strength of the ANA was 181,834
                                                                        personnel (175,441 Army and 6,393 Air Force), according to CSTC-A.129 This
                                                                        is an increase of 1,317 since last quarter—as shown in Table 3.3—but lower
                                                                        than the 191,592 reported in May 2012.130

                                                                        ANA Sustainment
                                                                        As of March 31, 2013, the United States had obligated $9.7 billion and dis-
                                                                        bursed $9.3 billion of the ASFF for ANA sustainment.131
                                                                          As part of sustainment funding, the United States has provided the ANA
                                                                        with ammunition at a cost of approximately $1.03 billion, according to
                                                                        CSTC-A.132

                                                                        ANA Salaries, Food, and Incentives
                                                                        As of March 31, 2013, the United States had provided nearly $1.6 billion
                                                                        through the ASFF to pay for ANA salaries, food, and incentives (since




                                                                          94                           SPECIAL INSPECTOR GENERAL               I    AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




TABLE 3.3


ANA STRENGTH, QUARTERLY CHANGE
                                                          Authorized                                                   Assigned
 ANA Component                        Q4 2012          Q1 2013         Quarterly Change            Q4 2012          Q1 2013         Quarterly Change
 201st Corps                            18,421           17,821                  -600               17,966            17,427               -539
 203rd Corps                            20,614           20,022                  -592               20,625            19,095             -1,530
 205th Corps                            19,075           18,476                  -599               19,856            18,982               -874
 207th Corps                            14,706           14,313                  -393               13,261            12,803               -458
 209th Corps                            14,852           14,458                  -394               14,170            13,065             -1,105
 215th Corps                            17,542           16,933                  -609               17,135            17,307               +172
 111th Capital Division                  9,608             9,273                 -335                 9,152            8,654               -498
 Special Operations Force               12,525           12,261                  -264               10,338            10,366                +28
 Echelons Above Corps a                 44,712           37,592               -7,120                36,858            37,837               +979
 TTHS b                                        -                 -              None                15,284            16,103               +819
 ANA Total                          172,055           161,149               -10,906              174,645           175,441                +796
 Afghan Air Force (AAF)                  7,639             7,639                None                  5,872            6,393               +521
 ANA + AAF Total                    179,694           168,788               -10,906              180,517           181,834              +1,317
Notes: Q4 data is as of 11/21/2012. Q1 data is as of 2/18/2013.
a	 Includes MOD, General Staff, and Intermediate Commands
b	 Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel; also includes 3,802 cadets.


Sources: CSTC-A, responses to SIGAR data calls, 1/2/2013, 1/4/2013, 1/6/2013, 4/1/2013, and 4/16/2013.


FY 2008). The estimated annual amount of funding required for the base sal-
aries, bonuses, and incentives of a 195,000-person ANA is $686.1 million.133
   CSTC-A said that all ANA personnel (including those in the Afghan Air
Force) receive some sort of incentive pay as of November 20, 2012. CSTC-A
also noted that payroll numbers are lower than end-strength numbers due
to time delays in reporting between the payroll system and the personnel
accounting system. For example, personnel absent without leave will stop
receiving pay, but will be counted as part of the ANA’s end strength until
they are dropped from personnel rolls.134

ANA Equipment and Transportation
The U.S. effort to equip the ANA is coming to an end as all vehicles and
communications equipment have been procured and only $858,920 worth
of weapons are yet to be procured to meet ANA requirements as shown in
Table 3.4.135
TABLE 3.4


COST OF U.S.-FUNDED ANA EQUIPMENT
 Type of Equipment                                          Procured                      Remaining to be Procured
 Weapons                                                   $878,027,233                              $858,920
 Vehicles                                               $5,556,502,248                                        $0
 Communications Equipment                                  $580,538,328                                       $0
 Total                                               $7,015,067,809                                $858,920
Source: CSTC-A, response to SIGAR data call, 4/1/2013.




REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2013                                      95
                                                         SECURITY




FIGURE 3.29                                                  As of March 31, 2013, the United States had obligated and disbursed
                                                         $10.4 billion of the ASFF for ANA equipment and transportation.136 Most
COST OF U.S.-FUNDED ANA EQUIPMENT
                                                         of these funds were used to purchase weapons and related equipment,
PROCURED, AS OF MARCH 31, 2013
(PERCENT)                                                vehicles, communications equipment, and aircraft and aviation-related
                                                         equipment. Nearly 80% of U.S. funding in this category was for vehicles and
                Total Cost: $7.0 Billion                 transportation-related equipment, as shown in Figure 3.29.137
                                                             This quarter, the Afghan Air Force inventory consisted of 113 aircraft,
                                                         including Russian-built Mi-series helicopters, according to CSTC-A:138
                                                          •	 48 Mi-17s (transport helicopters)
                      Vehicles 79%                        •	 11 Mi-35s (attack helicopters)
                                                          •	 16 C-27As (cargo planes)
                                                          •	 26 C-208s (light transport planes)
                                                          •	 6 C-182s (four-person trainers)
                                                          •	 6 MD-530Fs (light helicopters)
            Weapons
                                       Communications
            13%
                                       Equipment 8%          Still to be procured are 12 Mi-17 transport helicopters and 20 light sup-
                                                         port aircraft.139 The U.S. Air Force awarded an American company and
Note: Numbers have been rounded.                         its Brazilian subcontractor a $427 million contract to build 20 A-29 Super
Source: CSTC-A, response to SIGAR data call, 4/1/2013.
                                                         Tocanos—a single-engine, air-to-ground combat, light support aircraft—for
                                                         the Afghan Air Force. Once delivered, these aircraft will be used “to conduct
                                                         advanced flight training, surveillance, close air support and air interdiction
    SIGAR AUDIT                                          missions.”140 In addition, on March 28, a contract for 20 C-27A cargo planes
                                                         ended and was not renewed; 16 of the 20 are already in the Afghan Air Force.
    In an ongoing audit, SIGAR will assess               The remaining four will be replaced by four C-130H cargo planes.141
    the process CSTC-A uses to determine
    requirements and to acquire, manage,                 GAO Report on DOD Procurement of Mi-17 Helicopters
    store, and distribute repair parts for the
                                                         DOD has been procuring Russian-made Mi-17 helicopters for the ANSF
    ANSF, and evaluate internal controls
                                                         since 2005. The Mi-17 is a multi-use transport helicopter developed by the
    to determine if they are sufficient to
                                                         former Soviet Union to operate in the thin air of Afghanistan’s high eleva-
    account for these parts and to prevent
                                                         tions. The ANSF had approximately 50 Mi-17s as of 2012, with a goal of a
    fraud, waste, and abuse. For more
                                                         fleet of about 80 helicopters.142
    information, see Section 2, page 34.
                                                            New Mi-17s are sold by Russia’s state-owned arms export firm,
                                                         Rosoboronexport, the sole authorized exporter of military end-use products
                                                         from Russia. As a result of multiple violations of U.S. law, Rosoboronexport
                                                         was subject to U.S. sanctions in 2006. The sanctions were lifted in 2010.143
                                                             Prior to 2010, DOD competitively procured a small number of Mi-17s
                                                         through U.S. companies, whose subcontractors purchased them new from
                                                         the original equipment manufacturer in Russia. In 2010, the Navy initiated a
                                                         competitive procurement for 21 Mi-17s in a civilian variant, but canceled the
                                                         solicitation and transferred responsibility for it to the Army at DOD’s direc-
                                                         tion. In 2011, the Army contracted Rosoboronexport to purchase 21 Mi-17
                                                         military helicopters with the option to buy 12 additional aircraft. Members
                                                         of Congress have criticized this contract for its structure and cost and
                                                         because of Rosoboronexport’s alleged arms sales to Syria.144




                                                           96                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




   In Senate Report 112-173 accompanying the FY 2013 National Defense              FIGURE 3.30
Authorization Act, the Senate Armed Services Committee directed the
                                                                                   COST OF U.S.-FUNDED ANA INFRASTRUCTURE
Government Accountability Office (GAO) to review DOD’s procurement
                                                                                   PROJECTS, AS OF MARCH 31, 2013
of Mi-17 helicopters from Rosoboronexport. GAO found that DOD had                  ($ BILLIONS)

directed the Navy to cancel its solicitation for 21 civilian Mi-17s because
Russian authorities told U.S. officials that the helicopters, intended for mili-
                                                                                                  Total Cost: $6.1 (371 Projects)
tary use, could only be sold through Rosoboronexport. GAO also found that
DOD did not assess alternative means for procuring Mi-17s after verifying
that Russia would only sell them through Rosoboronexport. However, GAO
noted, an Army analysis determined that the price paid to Rosoboronexport                            $2.6
($17.5 million) for the Mi-17s was reasonable and the contract offered                               for 213       $3.1
                                                                                                     Completed
greater access to technical information and increased assurance of safety                                          for 138
                                                                                                     Projects      Ongoing
compared to previous Mi-17 contracts.145                                                                           Projects
   According to a media account, Deputy Defense Secretary Ashton Carter
notified members of Congress on April 3 that it was in the national interest
to continue buying Mi-17s from Russia to equip Afghan forces.146                                                  $0.3 for 20
                                                                                                                  Remaining Planned
                                                                                                                  Projects
ANA Infrastructure
As of March 31, 2013, the United States had obligated $6.1 billion and dis-        Note: Numbers have been rounded.

bursed $3.9 billion of the ASFF for ANA infrastructure.147 As of March 31,         Source: CSTC-A, response to SIGAR data call, 4/1/2013.

2013, the United States had completed 213 infrastructure projects (valued at
$2.63 billion), with another 138 projects ongoing ($3.11 billion) and 20 planned
($321 million), according to CSTC-A. Of the ongoing projects, 37 new con-              SIGAR AUDIT
tracts (valued at more than $645 million) were awarded this quarter.148
                                                                                       In an ongoing audit, SIGAR will exam-
   As with ANA equipment, the U.S. effort to provide ANA infrastructure is
                                                                                       ine CSTC-A’s justification and support
coming to an end. In total, nearly 95% of funding for ANA infrastructure has
                                                                                       for the ANSF infrastructure project
gone to projects now completed or ongoing. The 20 planned projects valued
                                                                                       requirements. The audit will also as-
at $321 million represent the final 5% of U.S. funding for ANA infrastructure
                                                                                       sess: (1) the extent to which U.S. and
as shown in Figure 3.30.149
                                                                                       Coalition basing plans for the ANSF
   This quarter, the largest ongoing ANA infrastructure projects were a
                                                                                       reflect ANSF force-strength projections;
brigade garrison for the 201st Corps in Kunar (at a cost of $115.8 million),
                                                                                       (2) whether CSTC-A fully considered
phase one of the MOD’s headquarters in Kabul ($89.5 million), and a brigade
                                                                                       alternatives to new construction; (3)
garrison for the 205th Corps in Kandahar ($89.1 million).150
                                                                                       whether CSTC-A developed and used
   DOD’s FY 2013 ASFF budget request of $190 million for ANA infrastruc-
                                                                                       appropriate criteria to ensure that
ture was 85% less than the amount authorized in FY 2012. However, the final
                                                                                       current and proposed construction
amount appropriated ($90 million) for FY 2013 was $100 million less than the
                                                                                       projects for the ANSF are necessary,
request and a 93% decrease from the amount authorized in FY 2012. FY 2013
                                                                                       achievable, and sustainable by the
ASFF funding is not for construction projects, but for upgrades and modern-
                                                                                       Afghan government. For more informa-
izations of garrisons and force-protection systems, and to prepare Coalition
                                                                                       tion, see Section 2, page 34.
facilities for handover to the ANSF as U.S. forces are drawn down.151

ANA and MOD Training and Operations
As of March 31, 2013, the United States had obligated and disbursed $2.7 bil-
lion of the ASFF for ANA and MOD operations and training.152 This quarter,




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 97
SECURITY




62,298 ANA personnel were enrolled in some type of training, with 46,264
enrolled in literacy training, according to CSTC-A. In addition, 8,211 enlisted
personnel were enrolled in basic warrior-training courses, 2,090 were train-
ing to become commissioned officers, and 1,652 were training to become
NCOs. Other training programs include combat specialty courses such as
infantry training; combat support courses such as engineering, signals, and
logistics; and courses to operate the high-mobility multipurpose wheeled
vehicles known as “Humvees.”153
   According to CSTC-A, the United States funds a variety of contracts to
train the ANA. CSTC-A estimates that these training activities cost approxi-
mately $106 million this quarter (down from $140 million reported last
quarter) and include costs for personnel, food, fuel, ammunition, facilities,
and medical support. CSTC-A estimated that the total cost of this training is
$560 million per year.154

MOD Training Institutions Assessments
The Capability Milestone (CM) rating system used to assess the operational
capabilities of the MOD are also used to assess MOD training institutions. The
training assessments use the same four primary and two secondary ratings:155
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with Coalition oversight only
•	 CM-2A: capable of executing functions with minimal Coalition
    assistance
•	 CM-2B: can accomplish its mission but requires some Coalition
    assistance
•	 CM-3: cannot accomplish its mission without significant Coalition
    assistance
•	 CM-4: exists but cannot accomplish its mission

   This quarter, 31 of 35 MOD training institutions were assessed. More than
61% had achieved a rating of CM-1B or higher. Three training institutions
received a higher rating since last quarter: the Regional Military Training
Center in Mazar-e-Sharif (CM-1A), the Kabul Military Training Center’s Female
Training Brigade (CM-1B), and Kabul Military High School (CM-1A).156

ANA Literacy
NTM-A/CSTC-A’s literacy program, which began in October 2009, seeks
to achieve greater literacy rates within the ANA. The program is based on
a 312-hour curriculum. According to CSTC-A, in order to progress from
illiteracy to functional literacy, a student may take as many as seven tests.
The student’s performance determines if he or she progresses to the next
training level. Since the start of the program, the ANA success rates for
passing these tests were: 95% for Level 1 literacy, 97% for Level 2, and 97%
for Level 3.157




  98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




   Level 1 literacy is the ability to read and write single words, count up
to 1,000, and add and subtract whole numbers. At Level 2, an individual
can read and write sentences, carry out basic multiplication and division,
and identify units of measurement. At Level 3, an individual has achieved
functional literacy and can “identify, understand, interpret, create, com-
municate, compute and use printed and written materials.” As of March 1,
2013, the number of ANA graduates at Level 3 was 27,111. The goal is to
achieve 100% Level 1 literacy and 50% Level 3 (or functional) literacy by the
time the NTM-A/CSTC-A program ends.158
   Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may
be exercised in August of each year—and a maximum cost of $200 million.
According to CSTC-A, these contractors were providing 724 literacy trainers         SIGAR AUDIT
to the ANA:159
                                                                                    In an ongoing audit, SIGAR is
•	 OT Training Solutions, a U.S. company, was providing 254 trainers.
                                                                                    evaluating the implementation and
•	 Insight Group, an Afghan company, was providing 178 trainers.
                                                                                    oversight of the three ANSF literacy
•	 The Higher Education Institute of Karwan, an Afghan company, was
                                                                                    training program contracts. SIGAR will
    providing 292 trainers.
                                                                                    also assess whether the contractors
                                                                                    provide qualified instructors and
   The number of trainers fell sharply from the 1,391 reported last quarter.160
                                                                                    services; the extent to which
CSTC-A said this was due to a shift from a focus on growing the program to
                                                                                    CSTC-A monitored the contractors’
ensuring that students in the program reach Level 3. To do this, the number
                                                                                    performance and training outcomes;
of classes are being downsized “in an effort to maintain appropriate oversight
                                                                                    and the extent to which the contracts
and to ensure that those students already in the program are making progress”
                                                                                    are meeting the goal of providing
toward that goal.161 CSTC-A said responsibility for literacy training for ANA
                                                                                    basic, sustainable levels of literacy for
personnel in the field will transition to the ANA between July 1, 2013, and
                                                                                    the ANSF. For more information, see
July 1, 2014. Literacy training at ANA training centers is expected to transition
                                                                                    Section 2, page 35.
by April 2014. In the meantime, a new contract is being coordinated to provide
training for Afghan literacy trainers ahead of the transition.162

Women in the ANA
As of February 20, 2013, ANA personnel included 366 women—254 officers,
105 NCOs, and seven enlisted personnel—according to CSTC-A. In addition,
the Afghan Air Force included 46 women: 18 officers, 21 NCOs, and seven
enlisted personnel. The current target is for women to make up 10% of the
195,000-strong combined ANA and Afghan Air Force.163 However, during
this reporting period, women made up only 0.2% of the combined ANA and
Afghan Air Force strength, or one-fiftieth of the target level.
   This quarter, an NCO course designed specifically to train women did
not meet its 70‐person quota, and of the 15 women recruited, only six met
the educational standards for the course. However, the nine women who
did not meet the educational standards graduated from a concurrent Basic
Warrior Training Course. As for officers, 13 women were selected to attend
the National Military Academy of Afghanistan’s class of 2017. They will join




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                  99
                           SECURITY




                           16 women already at the academy who are expected to graduate in 2016. In
                           addition, the ANA Officer’s Academy—a one‐year course with three entry
                           dates per year—is expected to enroll 300–400 cadets for each class. Of
                           those, 10% are expected to be women, according to CSTC‐A.164
                              Several issues have impacted the ANA’s ability to recruit women. Among
                           these are challenges to outreach and cultural barriers to women serving
                           in the military, according to CSTC‐A. Although training slots and gen-
                           der‐appropriate positions are available, Coalition advisors are not sure if
                           families are still reluctant to support the recruitment of women or if the
                           ANA leadership is not ready to recruit more women.165
                              The United States has assigned advisors to the MOD and the Afghan
                           National Defense University to assist with gender integration issues. In
                           addition, NTM-A advisors and their Afghan counterparts are working on a
                           recruiting plan to target high school students for officer training. The plan
                           would also include an open house “to show male family members [training]
                           facilities to help dispel any misconceptions.”166


                           AFGHAN NATIONAL POLICE
                           As of March 31, 2013, the United States had obligated $14.9 billion and dis-
                           bursed $13.5 billion of the ASFF to build, train, and sustain the ANP.167

                           ANP Strength
                           As of February 18, 2013, CSTC-A reported the overall assigned strength of
                           the ANP was 150,919 personnel: 103,851 Afghan Uniform Police (AUP),
                           22,029 Afghan Border Police (ABP), 14,592 Afghan National Civil Order
                           Police (ANCOP), 3,059 in the Counter Narcotics Police of Afghanistan
                           (CNPA), and 7,388 students in training. This is a slight decrease of 161


TABLE 3.5


ANP STRENGTH, QUARTERLY CHANGE
                                                          Authorized                                                    Assigned
 ANP Component                        Q4 2012           Q1 2013         Quarterly Change           Q4 2012           Q1 2013         Quarterly Change
 AUP                                  110,279           108,122              -2,157                 106,235          103,851               -2,384
 ABP                                    23,090           23,090                None                  21,928            22,029               +101
 ANCOP                                  14,541           14,541                None                  14,383            14,592               +209
 NISTAa                                         -          9,000               None                    5,953            7,388             +1,435
 ANP Total                                      -     154,753                        -            148,499          147,860                  -639
 CNPA                                           -          2,247                    -                  2,581            3,059               +478
 ANP + CNPA Total                  157,000 b         157,000 b                None                151,080          150,919                  -161
Notes: Q4 2012 data is as of 11/20/2012. Q1 2013 data is as of 2/18/2013
a	 Personnel in training
b	 Total ANP authorized figures are higher than the sum of the AUP, ABP, and ANCOP. It was unclear if other components were included in the ANP total.


Sources: CSTC-A, responses to SIGAR data calls, 10/1/2012, 1/2/2012, and 1/4/2013.




                               100                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                                SECURITY




personnel since last quarter, as shown in Table 3.5. ANP personnel (those
not in training) include 25,171 officers, 44,709 NCOs, and 74,151 patrolmen.168                                SIGAR AUDIT
                                                                                                               In an ongoing audit, SIGAR will
ANP Sustainment                                                                                                assess the ANP’s logistics capacity for
As of March 31, 2013, the United States had obligated $4.8 billion and dis-
                                                                                                               petroleum, oil, and lubricants. The audit
bursed $4.7 billion of ASFF funds for ANP sustainment.169
                                                                                                               focuses on two main issues: accuracy of
  As part of sustainment funding, the United States has provided the ANP
                                                                                                               fuel requirements, and accountability for
with ammunition at a cost of approximately $288 million, according to
                                                                                                               fuel purchases. For more information,
CSTC-A.170
                                                                                                               see Section 2, page 34.

ANP Salaries
From 2008 through March 31, 2013, the U.S. government had provided
$818 million through the ASFF to pay ANP salaries and incentives (extra pay
for personnel engaged in combat or employed in specialty fields), CSTC-A
reported. However, that number does not include non-ASFF funds. Since
2002, the United States has provided more than $950 million through the
LOTFA to support the ANP. The United States also provided $51.5 million
outside of LOTFA for Afghan Local Police (ALP) salaries and incentives.171
   According to CSTC-A, when the ANP reaches its final strength of 157,000
personnel, it will require an estimated $628.1 million per year to fund sala-
ries ($265.7 million), incentives ($224.2 million), and food ($138.2 million).172

ANP Equipment and Transportation
The U.S. effort to equip the ANP is coming to an end; only $8.8 million worth
of weapons and vehicles (0.2% of the total funding for ANP equipment) are
yet to be procured, as shown in Table 3.6.173                                                              FIGURE 3.31
   As of March 31, 2013, the United States had obligated and disbursed
                                                                                                           COST OF U.S.-FUNDED ANP EQUIPMENT
$3.5 billion of the ASFF for ANP equipment and transportation.174 Most
                                                                                                           PROCURED, AS OF MARCH 31, 2013
of these funds were used to purchase weapons and related equipment,                                        (PERCENT)

vehicles, and communications equipment.175 More than 82% of U.S. funding
in this category was for vehicles and vehicle-related equipment, as shown in                                               Total Cost: $3.2 Billion
Figure 3.31.

TABLE 3.6


COST OF U.S.-FUNDED ANP EQUIPMENT                                                                                               Vehicles 82%

 Type of Equipment                                            Procured          Remaining to be Procured
 Weapons                                                 $366,108,080                  $2,853,472
 Vehicles                                            $2,643,049,123                    $5,960,454
 Communications Equipment                                $201,958,600                          $0
 Total                                            $3,211,115,803                     $8,813,926                     Weapons
                                                                                                                    11%                           Communications
                                                                                                                                                  Equipment 6%
Source: CSTC-A, response to SIGAR data call, 4/1/2013.


                                                                                                           Note: Numbers have been rounded.
                                                                                                           Source: CSTC-A, responses to SIGAR data call, 4/1/2013.




REPORT TO THE UNITED STATES CONGRESS                      I    APRIL 30, 2013                       101
                                                         SECURITY




                                                         ANP Infrastructure
    SIGAR INSPECTION                       As of March 31, 2013, the United States had obligated $3.5 billion and dis-
                                           bursed $2.3 billion of the ASFF for ANP infrastructure.176 As of March 31,
     This quarter, SIGAR completed an      2013, the United States had completed 495 infrastructure projects (valued
     inspection of the construction of the at $1.57 billion), with another 246 projects ongoing ($1.30 billion) and 22
     ANP Main Road Security Company        planned ($157 million), according to CSTC-A, and shown in Figure 3.32.177
     compound in Kunduz. SIGAR found          As with the ANA, the U.S. effort to provide ANP infrastructure is coming
     that the project is behind schedule   to an end. In total, nearly 95% of funding for ANP infrastructure has gone to
     and may not be sustainable. For more  projects now completed or ongoing. Only 22 planned projects (those valued
     information, see Section 2, page 36.  at $157 million) remain. This is the final 5% of U.S. funding for ANP infra-
                                           structure projects.178
                                              This quarter, the largest ongoing ANP infrastructure projects were
FIGURE 3.32                                regional police-training centers in Kandahar (at a cost of $62.3 million) and
                                           Herat ($62.2 million), and administrative facilities at the MOI Headquarters
COST OF U.S.-FUNDED ANP INFRASTRUCTURE ($59.5 million).179
PROJECTS, AS OF MARCH 31, 2013
($ BILLIONS)                                  All $50 million of the DOD’s FY 2013 ASFF budget request for ANP infra-
                                           structure was appropriated.180
            Total Cost: $3.0 (763 Projects)
                                                         ANP Training and Operations
                                                         As of March 31, 2013, the United States had obligated $3.1 billion and dis-
                                                         bursed $3.0 billion of the ASFF for ANP and MOI training and operations.181
               $1.6                                      This quarter, 8,034 ANP personnel were enrolled in some type of training,
               for 495
                              $1.3
                                                         according to CSTC-A. Of those, 910 were training to become officers and
               Completed
               Projects       for 246                    4,692 were training to become NCOs. Other training programs include APPF
                              Ongoing                    and medic training courses.182
                              Projects
                                                            NTM-A/CSTC-A contracts with DynCorp International to provide train-
                                                         ing, mentoring, and support services at multiple training sites around the
                              $0.2 for 22                country. The ASFF-funded contract (two-year base and one option year)
                              Remaining Planned          is under the DOD’s Foreign Military Sales case system and provides 340
                              Projects
                                                         mentors and trainers as well as approximately 3,000 support personnel at
Note: Numbers have been rounded.                         regional training centers and in mobile support teams. The contract value is
Source: CSTC-A, response to SIGAR data call, 4/1/2013.   $1.18 billion.183

                                                         ANP Literacy
                                                         NTM-A/CSTC-A’s literacy program, which began in October 2009, seeks to
                                                         achieve greater literacy rates within the ANP. The ANP’s literacy program,
                                                         like the ANA’s, is based on a 312-hour curriculum. According to CSTC-A, in
                                                         order to progress from illiteracy to functional literacy, a student may take as
                                                         many as seven tests. The student’s performance determines if he or she pro-
                                                         gresses to the next training level. Since the start of the program, the ANP
                                                         success rates for the passing these tests were: 90% for Level 1 literacy, 90%
                                                         for Level 2, and 86% for Level 3.184
                                                            Level 1 literacy provides an individual with the ability to read and write
                                                         single words, count up to 1,000, and add and subtract whole numbers. At




                                                          102                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




Level 2, an individual can read and write sentences, carry out basic mul-
tiplication and division, and identify units of measurement. At Level 3, an
individual has achieved functional literacy and can “identify, understand,
interpret, create, communicate, compute and use printed and written
materials.” Since the start of the ANP literacy program, the number of ANP
graduates at Level 3 was 27,251 as of March 1, 2013.185
    Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may
be exercised in August of each year—and a maximum cost of $200 million.
According to CSTC-A, these contractors were providing 742 literacy trainers
to the ANP:186
 •	 OT Training Solutions, a U.S. company, was providing 290 trainers.
 •	 Insight Group, an Afghan company, was providing 152 trainers.
 •	 The Higher Education Institute of Karwan, an Afghan company, was
    providing 300 trainers.

   The number of trainers fell sharply from the 1,776 reported last quarter.187
CSTC-A noted that, as with the ANA’s program, this reflected a shift from
a focus on growing the program to ensuring that students in the program
reach Level 3. To do this, the number of classes is being downsized “in an
effort to maintain appropriate oversight and to ensure that those students
already in the program are making progress” toward that goal.188 CSTC-A
said responsibility for literacy training for ANP personnel in the field will
transition to the ANP between July 1, 2013, and July 1, 2014. Literacy train-
ing at ANP training centers is expected to transition by April 2014. In the
meantime, a new contract is being coordinated to provide training for
Afghan literacy trainers ahead of the transition.189

Women in the ANP
As of February 20, 2013, ANP personnel included 1,489 women—226 offi-
cers, 605 NCOs, and 658 enlisted personnel—according to CSTC-A. This is
an increase of 32 since last quarter. The ANP currently has 2,995 authorized
positions for women in the ANP.190 The goal is for the ANP to recruit 5,000
women by March 2014.191 During this reporting period, women made up less
than 1% of the ANP.
   The MOI is planning a conference for May 2013 to gain support from reli-
gious leaders and the community for recruiting women into the ANP—an
effort the United States supports—according to CSTC-A. In addition, a U.S.
advisor from NTM-A/CSTC-A is mentoring the MOI’s Human Rights, Gender,
and Child Rights Directorate. CSTC-A noted that the U.S. Embassy Kabul
has integrated these efforts into its gender strategy, which is based on four
focus areas:192
•	 access to justice and security
•	 leadership and civic engagement




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               103
SECURITY




•	 economic development
•	 education and health

   This strategy is aligned with the Afghan government’s priorities out-
lined in the National Action Plan for Women and the Afghanistan National
Development Strategy. These efforts also support other strategies such as
the Tokyo Mutual Accountability Framework and U.S. Civilian Strategy for
Assistance to Women in Afghanistan.193


ANSF MEDICAL/HEALTH CARE
As of the end of this quarter, the ANSF health care system had 915 phy-
sicians—an increase of 169 since last quarter—out of 1,056 needed,
according to CSTC-A. Of these, 706 were assigned to the ANA and 209
were assigned to the ANP. The ANSF had 6,821 other medical personnel
(including nurses and medics)—a decrease of 731 since last quarter—out
of 9,840 needed.194


REMOVING UNEXPLODED ORDNANCE
From 2002 through 2013, the U.S. Department of State has provided
nearly $260 million in funding for weapons destruction and de-mining
assistance to Afghanistan, according to its Political-Military Affairs’
Office of Weapons Removal and Abatement (PM/WRA). Through its
Conventional Weapons Destruction program, the Department of State
funds five Afghan nongovernmental organizations (NGOs), five inter-
national NGOs, the United Nations Mine Action Service, and a U.S.
government contractor. These funds enable the clearance of areas
contaminated by explosive remnants of war, support the removal and
destruction of abandoned weapons that insurgents might use to construct
improvised explosive devices, and provide mentoring to the Afghan gov-
ernment’s Department of Mine Clearance.195
    From January 1 through December 31, 2012, Department of State-funded
implementing partners cleared nearly 41 million square meters of mine-
fields, according to the most recent data from the PM/WRA.196 An estimated
570 million square meters of contaminated areas remain to be cleared, as
shown in Table 3.7. The PM/WRA defines a “minefield” as an area contami-
nated by landmines, and a “contaminated area” as an area contaminated
with both landmines and explosive remnants of war.197


COUNTERNARCOTICS
Despite efforts by the international community and the Afghan government
to reduce poppy cultivation and illicit drug trafficking, Afghanistan still




 104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                        SECURITY




TABLE 3.7


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JANUARY 1–DECEMBER 31, 2012
                                                                                                                                Minefields            Estimated Contaminated Area
 Date Range                   AT/AP Destroyed          UXO Destroyed          SAA Destroyed         Fragments Cleared          Cleared (m2)                 Remaining (m2)
 1/1–3/31/2012                      2,113                     62,043              467,071                 3,364,885             14,604,361                      585,000,000
 4/1–6/30/2012                      1,559                     28,222               20,580                 3,601,378              7,251,257                      563,000,000
 7/1–9/30/2012                      5,542                 165,100                 121,520                 2,569,701             11,830,335                      550,000,000
 10/1–12/31/2012                    2,146                     62,449               22,373                 3,672,661              7,265,741                      570,000,000
 Total                           11,370                  317,814                631,544               13,208,625              40,951,694                (remaining) 570,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.

Source: State, PM/WRA, response to SIGAR data call, 4/3/2013.




produces about 90% of the world’s opium. The illicit trade also funds the
insurgency. The U.S. counternarcotics strategy strives to cut off the flow of
money to the insurgency through interdiction operations.
   As of March 31, 2013, the United States had appropriated $6.4 billion for
counternarcotics initiatives in Afghanistan since efforts began in 2002. Most
of these funds were appropriated through two sources: State’s International
Narcotics Control and Law Enforcement (INCLE) account ($3.6 billion),
and the DOD Drug Interdiction and Counter-Drug Activities (DOD CN) fund
($2.7 billion).198
   DOD and State’s Bureau of International Narcotics and Law Enforcement
Affairs (INL) coordinate to support the counternarcotics efforts of the MOI
and the Counternarcotics Police of Afghanistan (CNPA), INL stated. For
example, in some provinces, DOD funded the construction of forward oper-
ating bases used by the CNPA’s National Interdiction Unit; INL funded the
maintenance of those bases.199

UNODC Opium Risk Assessment 2013
This quarter, the United Nations Office of Drugs and Crime (UNODC)
released its 2013 Opium Risk Assessment of Afghanistan. UNODC expects
poppy cultivation to increase in most regions and the main poppy-growing
provinces. Overall, 12 provinces are expected to increase their poppy
cultivation and one is expected to decrease. Another 14 are expected to
maintain their status as poppy free and seven poppy-cultivating provinces
are not expected to see a change in their status in 2013. Notably, increases
in Helmand and Kandahar are expected due to the current high price of
opium and because of a low opium yield in 2012. UNODC warned that
some provinces may lose their poppy-free status if timely eradication is not
implemented. UNODC also noted a “worrying situation” in the southern,
eastern, western, and central regions where poppy cultivation is expected
to expand in areas where it had previously existed and also in “new areas
or in areas where poppy cultivation was stopped.”200




REPORT TO THE UNITED STATES CONGRESS                      I    APRIL 30, 2013                                  105
                                           SECURITY




                                              UNODC noted that “a strong association between insecurity, lack of
                                           agricultural assistance and opium cultivation continues to exist.” Villages
                                           with poor security, those that had not received agricultural assistance in
                                           the past year, and those that had not been reached by anti-poppy aware-
                                           ness campaigns, were significantly more likely to grow poppy. Unlike
                                           previous years, farmers frequently reported fear of eradication as a reason
                                           for not cultivating poppy.201

                                           Poppy Eradication
                                           INL provides financial support to the Afghan government’s Governor-Led
                                           Eradication (GLE) program. INL said 9,672 hectares of poppy were eradi-
                                           cated in 2012 through the GLE program.202
                                              INL also works with the Afghan Ministry of Counter Narcotics (MCN)
                                           to achieve and sustain poppy-free provinces. For example, INL funds the
                                           MCN’s Good Performer’s Initiative (GPI) which gives incentives for gov-
                                           ernors to reduce poppy cultivation in their provinces. According to INL, a
                                           province becomes eligible for $1 million in GPI development projects if it is
                                           deemed poppy-free or has fewer than 100 hectares under cultivation during
                                           the year. In 2012, the number of provinces that qualified for GPI awards was
                                           17, the same number as in 2011. INL noted that since the start of the GPI in
                                           2007, more than 100 development projects—including the construction of
                                           schools, roads, bridges, and agricultural and medical facilities—are either
                                           complete or in progress in 33 provinces.203
                                              INL also funds the Counternarcotics Public Information program to
                                           promote continued poppy-free status in provinces through nationwide pre-
                                           planting season public awareness and media campaigns in poppy-growing
                                           areas. In addition, INL funds a grant to the Aga Khan Foundation, which
SIGAR AUDIT                                focuses on helping six key provinces maintain success in eliminating poppy
                                           cultivation by working with communities and local NGOs to increase oppor-
In an ongoing audit, SIGAR will            tunities for residents to find non-narcotics-related jobs.204
determine the extent to which U.S.
assistance provides responsive air-        Counternarcotics Police of Afghanistan
mobility support for drug interdiction     This quarter, the number of personnel assigned to the Counternarcotics
operations, assess U.S. government         Police of Afghanistan (CNPA) was 3,059, according to CSTC-A.205
agencies’ oversight of their assistance       NTM-A and the Drug Enforcement Administration (DEA) provide men-
to the Afghan Special Missions Wing,       tors and advisors to the CNPA. According to CSTC-A, NTM-A provides 16
and evaluate the extent to which U.S.      advisors and the DEA provided 33 counternarcotics trainers (of which 20
assistance has resulted in developing      are in country at a time). According to CSTC-A, a U.S. company provides 37
a sustainable capability to provide air-   staff to assist the CNPA.206 In addition, INL funds the training of the CNPA’s
mobility support for counternarcotics      National Interdiction Unit and DOD funds the Special Mission Wing (which
efforts. For more information, see         is also supported by INL helicopters). DOD also funds programs to improve
Section 2, page 33.                        the CNPA’s Tactical Operations Center/Intelligence Fusion Center which
                                           targets drug trafficking networks.207




                                            106                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                            SECURITY




   INL supports the interdiction activities of the CNPA’s National
Interdiction Unit and Special Investigative Unit by providing investigative
and strategic mentoring, logistics, housing, food, and fuel, as well transpor-
tation to and from interdiction operation sites.208

Interdiction Operations
From January 1 through March 28, 2013, the ANSF partnered with the
United States and ISAF to conduct 50 interdiction operations—partnered
patrols, cordon and search operations, and deliberate detention opera-
tions—according to DOD. These operations resulted in 57 detentions and
led to the seizure of several thousand kilograms of narcotics and narcot-
ics-related chemicals. Since 2008, a total of 1,650 Afghan and Coalition
interdiction operations have resulted in 2,245 detentions and seizure of the
following narcotics contraband:209
 •	 730,076 kg of hashish
 •	 346,059 kg of opium
 •	 43,432 kg of morphine
 •	 25,308 kg of heroin
 •	 412,082 kg of narcotics-related chemicals

    The U.S. military provided general logistics and intelligence support in
addition to on-ground quick-reaction assistance, according to DOD. DEA
mentored specialized units throughout the country to establish investigative
and law enforcement capability. In addition, the U.S. intelligence commu-
nity provided targeting and analytical support to the Coalition mentors.210
    As in past quarters, most interdiction activities continued to occur in the
south and southwest, where the majority of opiates are grown, processed,
and smuggled out of Afghanistan. According to DOD, Afghan forces in
these areas increasingly led patrols and military operations. DOD noted that
Afghan specialized units, aided by their Coalition mentors, synchronized
their investigations with conventional military operations to target traffick-
ers with ties to the insurgency.211
    Conventional and specialized Afghan units continued to execute opera-
tions with support from interagency elements, including the Combined
Joint Interagency Task Force-Nexus (CJIATF-N) and the Interagency
Operations Coordination Center (IOCC). CJIATF-N and IOCC integrate
information from various military and law enforcement sources to enable
operations against corrupt narco-insurgent elements. According to DOD,
all operations were coordinated with and received support from U.S. and
Coalition military commanders.212




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               107
GOVERNANCE CONTENTS
CONTENTS

Key Events	                             109
Reconciliation and Reintegration	       109
National and Sub-national Governance	   113
Judicial Reform and Rule of Law	        123
Anticorruption	126
Human Rights	                           132




 108
                                                   GOVERNANCE




GOVERNANCE
As of March 31, 2013, the United States had provided nearly $23 billion to
support governance and economic development in Afghanistan. Most of this
funding, more than $15 billion, was appropriated to the Economic Support
Fund (ESF), administered by the State Department and the United States
Agency for International Development (USAID).213


KEY EVENTS
Afghan authorities, political parties, and civil society remained intensely
focused this reporting period on the security and political transitions that
will culminate in 2014 with the end of the International Security Assistance
Force (ISAF) mission and Afghanistan’s presidential elections. The United
Nations (UN) Secretary-General warned that Afghan political leaders need
to make some vital decisions in the near future. Most immediately, President
Hamid Karzai must appoint a new chair of the Independent Election
Commission, the body charged with managing the elections. Parliament
must also pass election-related legislation in time for operational planning
and preparations.214 The Afghan government made only limited progress in
three other critical areas—establishing a peace process with the Taliban,
institutionalizing the rule of law, and curbing widespread corruption.


RECONCILIATION AND REINTEGRATION
This quarter, the Afghan government increasingly sought to define and
shape a potential reconciliation process under the auspices of the High
Peace Council, according to the UN Secretary-General. In February, the
governments of Afghanistan and Pakistan announced plans to open a nego-
tiation office in Doha, Qatar, and committed themselves to do everything
possible to achieve a peaceful settlement with the Taliban. The United
States has previously expressed support for this negotiation office and
stressed the need for Afghanistan to lead the reconciliation process. On
February 14, Pakistan announced it had released 26 Afghan members of the
Taliban detained in Pakistan as a confidence-building measure.215 President
Karzai met in Doha with the Qatari emir, Sheik Hamad bin Khalifa al-Thani,
on March 31 for discussions about opening the office, but no developments




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             109
                                                      GOVERNANCE




                                                      were announced after the meeting.216 A few days later, Afghanistan accused
                                                      Pakistan of placing unacceptable conditions on peace efforts. The break-
                                                      down in ties between the two neighbors threatened to hinder attempts to
                                                      bring the Taliban to the negotiating table.217

                                                      High Peace Council
  Afghanistan Peace and Reintegration                 This quarter, the High Peace Council continued its efforts to build internal
  Program: the Afghan government’s main               and international support that would set the conditions necessary for rec-
  program for promoting and managing                  onciliation. To build trust with the Taliban, the Council worked with the
  insurgent reintegration. It provides a way
                                                      Afghan government and the UN Security Council to remove senior Taliban
  for Taliban members and other anti-govern-
                                                      members from UN Sanctions List 2082, according to the State Department.
  ment elements to renounce violence and
  become productive members of Afghan                 These members were selected because they expressed their willingness to
  society. The program attempts to give               join the reconciliation process.218
  development opportunities to individuals               The High Peace Council and the Afghanistan Peace and Reintegration
  who peacefully re-enter society. A Joint            Program’s (APRP) Joint Secretariat worked with Afghan civil society to
  Secretariat, an inter-agency body with rep-         establish a national consensus on the peace process. In January, the Council
  resentation from the International Security         and Secretariat met with civil society representatives to discuss a roadmap
  Assistance Force, administers the program.          for peace and a joint mechanism for future partnership. The Council and
                                                      Secretariat also continued to discuss the issues of safe passage for insur-
                                                      gent members to negotiation locations, provincial assessments, senior-level
Source: UNDP, “UNDP Support to Afghan Peace and       reintegration, and other trust-building measures.219
Reintegration Program,” 5/2011, accessed 7/17/2012.

                                                      Afghanistan Peace and Reintegration Program
                                                      Reintegration efforts nearly came to a complete stop for the first
                                                      two months of the quarter because of the inability of the APRP’s
                                                      Joint Secretariat to reconcile financial accounts. The United Nations
                                                      Development Programme (UNDP), which manages most of the APRP’s
                                                      operational funds, requires the Joint Secretariat to be able to account for
                                                      80% of funds before it releases donor money. The Joint Secretariat regularly
                                                      struggles with this 80% requirement. The Provincial Joint Secretariat Teams
                                                      (PJST) have to reconcile their accounts every quarter and report to the
                                                      secretariat. This has been an ongoing problem but training is easing it. In
                                                      addition, the UNDP delayed its approval of the APRP work plan, which also
                                                      had to be done before funds could be disbursed. As a result, employees’
                                                      salaries were not paid. The issue was resolved at the end of the quarter. The
                                                      UNDP approved the work plan, the APRP’s technical committee approved
                                                      the program’s fiscal year (FY)1392 budget, and the High Peace Council and
                                                      Joint Secretariat reconciled more than 80% of the disbursed funds. This
                                                      allowed reintegration funds to again flow to the field.220
                                                         This quarter, only 208 reintegrees joined the APRP, a sharp decline from
                                                      the previous 12-month average of 597 per quarter. As of March 29, there were
                                                      6,409 reintegrees enrolled in the APRP, most of them from the north and west,
                                                      as shown in Figure 3.33. Many of the reintegrees who entered the program
                                                      this quarter were former detainees who were released from the Detention




                                                       110                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                       GOVERNANCE




FIGURE 3.33


REINTEGREES BY REGIONAL COMMAND, MARCH 2012–MARCH 2013

8,000

7,000

6,000                                                                                                                               RC-NORTH



5,000
                                                                                                                                            RC-CAPITAL

4,000                                                                                                   RC-WEST
                                                                                                                                         RC-EAST

3,000
                                                                                                                         RC-SOUTH

2,000
                                                                                                     RC-SOUTHWEST

1,000

     0
            Mar 2012         Jun 2012       Sep 2012        Jan 2013       March 2013


Source: SIGAR Quarterly Report, 1/30/2013, p. 97; State, responses to SIGAR data call, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, and 3/30/2012.



Facility in Parwan (DFIP). About 900 additional insurgents were in various
stages of negotiations to enter the program at the end of the quarter.221
   In spite of ongoing challenges, the Joint Secretariat conducted demo-
bilization and reintegration missions to 14 provinces—Takhar, Kunar,
Laghman, Nangarhar, Wardak, Ghazni, Daikundi, Uruzgan, Saripul, Jawzjan,
Kunduz, Lagar, Paktika, and Helmand—during the reporting period. The
Joint Secretariat estimates that it biometrically enrolled 208 individuals and
the PJSTs distributed 164 transition-assistance packages for reintegrees
around the country.222

National Dispute Resolution Strategy
The APRP has not yet implemented a National Dispute Resolution Strategy
to deal with the grievances of potential reintegrees. Although the Joint
Secretariat approved the Strategy in June 2012, it is not clear whether the
Joint Secretariat, the Independent Grievance Resolution Commission, or
another Afghan body has the mandate to lead grievance-resolution efforts
with insurgents. A UNDP evaluation found that reintegration efforts are not
significantly utilizing conflict-analysis and opportunity-mapping tools.223

Capacity Development for Reintegration
The capacity, competency, and activity levels of PJSTs continue to vary
throughout the country. The APRP’s Joint Secretariat created PJSTs to
help manage implementation of the APRP and its recovery programs at the




REPORT TO THE UNITED STATES CONGRESS                    I   APRIL 30, 2013                                 111
GOVERNANCE




provincial level.224 As a result of the financial shutdown of the APRP this
quarter, activities in the provinces ground to a halt for the first two months
of the quarter, leading to little improvement in those PJSTs that continue
to struggle. In provinces where the governor supports the APRP and there
is cohesiveness among Provincial Peace Councils (PPC), PJSTs, and pro-
vincial security personnel, the APRP functions fairly well and reintegration
levels are fairly high, according to State. These conditions prevail mostly in
the north and west. The PJSTs that have been unsuccessful in promoting
and managing reintegration efforts often suffer from poor security in their
operating area, an unwillingness of local Taliban fighters to reconcile, and
inadequate support from provincial governors and the councils.225
   Coordination between the APRP and the Afghan government and
security forces is improving, according to State. However, the level of
coordination depends on the personalities involved and varies from prov-
ince to province. When key provincial authorities support reintegration,
the APRP is more successful at vetting potential reintegrees and conduct-
ing other activities.
   The Afghan security ministries have greatly improved the vetting process,
according to State. Provincial security ministries’ representatives carefully
scrutinize each potential reintegree and use input from the provincial gov-
ernment and the community into which the insurgent seeks to reintegrate.
When the local vetting process is completed, the vetting forms are sent to
Kabul, where the national security ministries conduct additional vetting.226
   This quarter the UNDP distributed the results of an evaluation of the
APRP. The evaluation identified several areas for improvement in provincial
operations. The Joint Secretariat and UNDP have formed a working group
to implement the recommendations. The Joint Secretariat also undertook
an assessment of the PJSTs and the PPCs, with the assistance of UNDP,
to identify poorly performing provincial programs and inform efforts to
improve them. The Joint Secretariat inaugurated new PPCs and PJSTs in
Bamyan and Parwan to enhance regional and provincial reintegration. The
Joint Secretariat also brought in 75 additional community leaders and vil-
lage elders into the Peace Advocates Program, increasing the total to 158.
Peace Advocates lobby in their communities for peace, conduct outreach,
and support peace efforts.227
   U.S. Central Command (CENTCOM) recently approved creation of
a new PJST capacity-building program, supported through the Defense
Department’s Afghanistan Reintegration Program fund. U.S. officials told
SIGAR they expect a contract to be awarded in June.228

Reintegration Program Funding
The Joint Secretariat executes the APRP’s budget with UNDP oversight.
The most recent finalized funding numbers showed that of the $173.5 mil-
lion the APRP has received from 12 donor countries, $71.6 million was




 112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




expended by December 2012, a 41.2% cumulative expenditure rate. This was
slightly less than its execution rate of 48.5% in Afghan FY 1391. The United
States had contributed only $50 million of the $173 million.229

Community Recovery Programs
The APRP has encouraged individuals who might not otherwise lay down
arms to rejoin their communities by providing essential economic and
social support to reintegrees and their communities, according to State.
APRP community-recovery projects like demining, agriculture, small grants,
                                                                                After handing in their weapons, former
and vocational and literacy projects are used to entice potential reintegrees   Afghan insurgents join in prayer at a
to enter the program and communities to support the program. At the end         reintegration ceremony at the governor’s
of the quarter, the Joint Secretariat reported that over 70% of reintegrees     compound in Ghor Province. (ISAF photo)
and more than 1,785,000 people in communities with reintegrees had ben-
efited from these community recovery projects since the APRP began.230


NATIONAL AND SUB-NATIONAL GOVERNANCE
On February 12, the Joint Coordination and Monitoring Board, a high-level
decision-making body co-hosted by the Afghan Ministry of Finance (MOF)
and the United Nations Assistance Mission to Afghanistan (UNAMA),
endorsed an additional four National Priority Programs: efficient and effec-
tive governance; water and natural resources; national comprehensive
agricultural production and market development; and national energy sup-
ply. At the 2010 Kabul Conference, Afghanistan pledged to the international
community that it would develop, finalize, and implement 22 National
Priority Programs intended to enhance development and governance capa-
bilities. As of March 30, 2013, two programs still awaited endorsement:
Anticorruption, and Law and Justice for All.231

Karzai Decree Implementation
The Afghan government has dedicated significant resources to tracking
implementation of President Karzai’s Decree 45 on fighting corruption
since it was issued on July 26, 2012, according to the State Department.
The President’s Office of Administrative Affairs (OAA) reports that 91–100%
of the decree’s 164 articles were completed within the first three months.
To accomplish the decree’s mandates, some ministries completed pending
tasks and improved communication and linkages with other ministries and
with the OAA. In the first four months after the decree was issued, repre-
sentatives from the central government traveled to provincial and district
centers to hear constituents’ concerns and reported them to the cabinet.
   Afghanistan’s Independent Joint Anti-Corruption Monitoring and
Evaluation Committee (MEC) issued a report in March challenging the
OAA’s statistics. The MEC wrote that many of the articles are procedural,
often requiring the implementing institution to submit a plan or make a




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             113
                                                 GOVERNANCE




                                                 report without actually requiring implementation of the proposed initiative.
                                                 It said the OAA itself has indicated it is not able to verify all the reports it
                                                 receives from ministries. The security situation does not permit its assess-
                                                 ment teams to visit all provinces to conduct evaluations.232

                                                 Elections
                                                 Despite impending elections, the Parliament made no changes to elec-
                                                 toral law this quarter. Two draft laws are currently before the body, one
                                                 submitted by the executive branch’s Council of Ministers, the other by the
                                                 Cooperation Council, a loose association of opposition and other political
                                                 leaders. These two proposals must be reconciled to clarify the procedures
                                                 for resolving electoral complaints and attaining parliamentary seats. If
                                                 electoral-law changes are passed, they would also have to be aligned with
                                                 the Independent Elections Commission’s (IEC) revised structure law being
                                                 discussed by the Parliament.233
Workers from the Afghan Independent
Election Commission collect old election         Independent Elections Commission
materials for destruction as a precau-           This quarter, the Afghan government continued attempts to develop a
tionary step in preparing for the 2014           more robust electoral system. On January 23, the IEC announced that the
presidential and provincial-council elections.
                                                 paper-based voter registration process for the April 2014 Presidential and
(UNDP photo)
                                                 Provincial Council elections would start by April 2013. The IEC plans to
                                                 distribute 2.5 million–3.5 million new-voter registration cards, which it says
                                                 will increase turnout while stemming voter fraud. The new cards will be
                                                 issued to potential voters who have reached the age of 18 since the 2011
                                                 elections, those who failed to register in the past, those who lost their old
                                                 registrations cards or changed their electoral constituencies, those who
                                                 have repatriated to Afghanistan from abroad, and those whose cards were
                                                 seriously damaged.234
                                                    The IEC estimated the total cost of the registration program for the new
                                                 cards at $15 million–$20 million. The commission claims that it already has the
                                                 required funds and technical capacity to carry out the registration process.235
                                                    The Free and Fair Election Foundation of Afghanistan said the IEC’s plan
                                                 will work so long as election officials and staff are properly trained to spot
                                                 fake identity cards and to stop individuals from voting more than once.236
                                                 Voters are allowed to use their old registration cards, and in an appearance
                                                 on a Kabul television show, the head of the IEC said that his organization
                                                 would be unable to identify counterfeit cards as the IEC has no database
                                                 record of the old cards.237
                                                    The new paper cards will be issued only in areas where new electronic
                                                 biometric identification cards called “e-tazkera” have not been rolled out,
                                                 according to the IEC. The process, procedures, and technical aspects of
                                                 establishing the e-tazkera system have faced difficulties in previous quar-
                                                 ters. As a result, on January 31, President Karzai issued a decree mandating
                                                 that the Ministry of Interior (MOI), along with the Independent Directorate




                                                  114                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




of Local Governance (IDLG), and the Central Statistics Organization (CSO),
begin to distribute the electronic ID cards by March 21, 2013.
   In February 2013, the MOI began hiring staff to establish 401 registration
teams throughout the country to start collecting the necessary personal
information from citizens to create the electronic ID cards. On March 23,
the MOI launched its e-tazkera enrollment effort in Kabul province. The IEC
subsequently announced that it would delay voter registration to May 26 to
better align activities with the e-tazkera implementation and improve secu-
rity features on the cards. According to the UN, the e-tazkera project aims
to distribute 14 million identification cards by March 2014.238
   At the end of the quarter, the IEC was preparing a comprehensive opera-
tional plan that would focus on voting procedures, public relations, and
education about voting, fraud mitigation procedures, and security for poll-
ing stations.239

Election Security
This quarter, the IEC provided a list of all polling stations to the ANSF and
recommended that the ANSF complete a security assessment by late sum-
mer 2013, according to State.240 DOD observed that the planning process
between the IEC, MOI, Ministry of Defense (MOD), and international enti-
ties has been slow. ISAF is supporting the MOI and MOD in their election
security planning and will provide security assistance during the elections.
This ISAF support will consist mainly of logistics, intelligence, and route
clearance. ISAF will also provide emergency security assistance to the
ANSF if required. DOD predicted that despite continued drops in U.S. troop
levels, U.S. forces could provide adequate security support in the 2014 elec-
tions, even in the event of unrest.241

USAID Election Support
USAID leads the U.S. effort in helping the Afghans build the capacity
necessary to conduct successful elections. USAID has provided $179 mil-
lion in assistance for Afghan elections preparation from 2009 to 2013. It
will extend the budget and programs to cover the 2014 presidential and
provincial council elections, and the 2015 parliamentary election. The
assistance includes expert advice and mentoring to the IEC on essential
elements of its operations plan. Using USAID funding, the International
Foundation for Electoral Systems completed a fraud-mitigation assess-
ment this quarter that will help the IEC and UNDP in their anti-fraud
efforts. The National Democratic Institute continued work with political
parties and coalitions, including specific training on recruiting and mobi-
lizing members.242
    In addition, USAID-supported Democracy International conducted four
preliminary sessions with civil society organizations and parliamentarians
to identify concerns with the electoral law and to provide recommendations




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              115
GOVERNANCE




to the Parliament on improving the law. Further, USAID’s Elections and
Political Process team started a country-wide outreach effort to engage
election stakeholders. The team has so far traveled to Mazar-e-Sharif,
Jalalabad, Kandahar, Paktika, Paktiya, and Helmand.243

National Assembly
Parliament was in recess January 20 to March 2, 2013. Parliament began the
new session with internal administrative elections and will focus on the elec-
tion laws and mining laws in the next quarter, according to State.244
   Afghanistan’s National Assembly has demonstrated a slow but growing
capacity and political maturity, State said. In the July 2012–January 2013 ses-
sion, the Parliament approved a final budget and questioned ministers over
their failure to properly execute their budgets. The legislative branch remains
weak in comparison to the executive, but members of Parliament appear to
be trying to strengthen their hand. However, staffing struggles, corruption, and
low levels of education and experience continue to plague the body.245
   The State Department called the Parliament’s oversight of the national
budget, where it has repeatedly and successfully reoriented the executive’s
spending priorities, the best example of its growing abilities. Parliament
lacks the “power of the purse”: the Afghan Constitution permits it only to
accept or reject the executive branch’s budget proposals. Yet Parliament
has used what authority it has to force the executive to compromise on
spending plans. Parliament has also demanded more oversight of ongoing
projects, and now routinely summons officials from the MOF for both bud-
get preparation and performance updates.246

Civil Service Capacity
This quarter, the United Nations and the World Bank committed to align
compensation of government staff paid through their funds with a govern-
ment scale for national technical assistance. International donors have been
criticized for establishing a “second civil service” where Afghans who work
directly for the government or as contractors receive salary support from
donors at pay rates of up to 11 times the highest rate for civil servants. These
pay rates are unsustainable without continued high levels of donor financ-
ing. Aligning salaries to a scale the Afghan government can better afford will
affect between 6,000 and 7,000 staff over the coming two to three years.247
   USAID said it has helped the Civil Service Commission fill vacan-
cies, despite the challenges of insecurity and a shortage of educated and
experienced candidates. USAID supported commission job fairs in seven
provinces that succeeded in recruiting 1,096 civil servants (64 women,
1,032 men). The commission is also advertising positions in insecure prov-
inces in neighboring areas to increase the pool of qualified applicants.
Under President Karzai’s anticorruption measure, Presidential Decree 45,
the majority of new civil servants will be recruited through a nationwide




 116                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




exam to be held in Kabul and the provinces.248 The hiring process for civil
servants through merit-based hiring practices began with deputy provincial
and district governors. The general exam for civil servants is to be given in
mid-2013.249

National Budgeting
This quarter, the International Budget Partnership, a group that aims
to ensure government budgets are responsive to the needs of the poor,
released results of its latest Open Budget Survey. The Partnership’s survey
found that Afghanistan made substantial improvements to the transpar-
ency, comprehensiveness, usefulness, and timeliness of its main budget
documents. As seen in Figure 3.34, Afghanistan has improved from a score
of eight out of 100 in 2008, to 59 out of 100 in 2012. Of the 100 nations
surveyed, the average score was 43. The report noted that Afghanistan’s
government provides the public with limited amounts of information on
the national government’s budget and financial activities during the course
of the budget year. This makes it challenging for citizens to hold the gov-
ernment accountable for its management of public money, according to
the International Budget Partnership.250 The report recommended that the
Afghan government take steps to enhance its budgeting, including:251
•	 Improve the legislature’s budget oversight powers and responsibilities.
•	 Increase the comprehensiveness of year-end reports by providing
    audited actual expenditures, and extensive explanations for the
    differences between estimates/forecasts and actual outcomes of
    macroeconomic variables, non-financial data, performance indicators,
    and funds intended for programs targeting the poor.
•	 Expand the public’s ability to understand, engage, and be a part of the
    decision-making process in budgeting matters.

FIGURE 3.34

SURVEY ASSESSMENT OF AFGHAN BUDGET PROCESS QUALITY, 2008–2012
(Score on a scale of 100)



2012                                               43                        59


2010                               21
                                                                                        Average score of Afghanistan
                                                                                        Average score of 100 countries
                                                                                        (2012 only) surveyed
2008               8

        0                     20                    40                     60                     80                     100

Note: Scores calculated using survey questions to determine budget transparency, comprehensiveness, usefulness, and timeliness.
Source: International Budget Partnership, “Open Budget Survey,” 1/23/2013.




REPORT TO THE UNITED STATES CONGRESS                        I   APRIL 30, 2013                                     117
GOVERNANCE




Local Governance
On January 8, the Independent Directorate of Local Governance (IDLG)
appointed 60 district governors and 17 deputy provincial governors through
a merit-based recruiting process. This process is intended to prevent cor-
rupt practices from affecting the appointment process. More than half
of the 364 district governors and 32 of 34 deputy provincial governors
have undergone merit-based selection. The latest round of appointments
included the country’s first female district governor, Sayara Shakeeb Sadat,
in Faizabad district, Jawzjan Province.252

Southern Afghanistan Governmental Control
Improved security in the south has helped the Afghan government hold
most urban centers, but the government continues to compete with insur-
gent groups for control of the population in more rural areas. State said
local administrators require improved performance from Kabul ministries
to sustain and expand their influence. The local administrators are techni-
cally capable, but increasingly unreliable support from IDLG, combined
with irregular funding, undermines their work.253

Helmand Province
The Helmand Provincial Reconstruction Teams (PRT) and District
Support Teams (DST) continued their strong partnership with the prov-
ince’s new governor, Muhammad Naeem Baluch, a National Directorate
for Security (NDS) Major General. The PRTs and DSTs support the new
governor’s shift in focus to northern Helmand, with particular emphasis
on the Kajaki project and counternarcotics. These efforts reinforce U.S.
strategic objectives for southern Afghanistan, as northern Helmand is
not as advanced in terms of security, governance, or development as the
Central Helmand River Valley.254
   In central and southern Helmand, local officials effectively govern, aided
by on-budget funding from the British government. The district centers of
Now Zad, Kajaki, Musa Qala, Baghran, and Washir remain under govern-
ment control, but the government and the ANSF are struggling to expand
beyond these islands of governance. The provincial governor, council
members, and line ministry officials are able to travel by road to Garmsir,
Nawa, Marjah, Nad-e-Ali, Lashkar Gah, and Nahr-e-Saraj; and increasingly to
Musa Qala and Sangin. Officials have occasionally driven in ANSF convoys
to Kajaki, Khan-e Shin, and Now Zad, but more often travel with helicopter
support from ISAF.255

Kandahar Province
State continues to see evidence that the Afghan government is improving its
capacity to govern throughout Kandahar, especially as it achieves security
gains in key districts. However, Taliban shadow-government entities have




 118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




de facto control of many undergoverned spaces such as Ghorak, Shorabak,
Myneshin, and Khakrez districts.256
   Improving security has increased government officials’ ability to travel.
The provincial governor moves freely in most districts. On March 24, 2013, a
host of provincial officials celebrated Nowruz/Farmers Day in Khakrez, one
of the more isolated districts in the province. In previous years, they had
been forced to celebrate at a secure location in Kandahar. But a significant
number of district officials still reside in Kandahar City, instead of their
assigned districts, due to perceived security risks.257

Eastern Afghanistan Governmental Control
The eastern provinces of Paktiya, Paktika, and Khowst continue to suf-
fer from insecurity and insufficient support from the central government.
In addition, local government actors are often unable to provide adequate
service delivery or to build relationships with their constituents. There is lim-
ited governance in remote districts in these provinces, particularly along the
eastern and southern borders with Pakistan. Some areas are too insecure for
Afghan officials to reside there and others have not had officials appointed.258
   To alleviate some of these issues, provincial governments are
increasingly becoming more capable in promoting development and in
coordinating with security services to connect provincial governments
with their rural populations, according to State. When the ANSF achieves
victories over insurgents in eastern Afghanistan, they then try to coordinate
meetings between residents and the local government.259
   In Paktika, several districts along the eastern and southern borders with
Pakistan and other remote areas have limited governmental influence. The
remote Naka District has no district governor, and other district governors live
outside their districts in Sharana, Paktika’s capital. The Afghan government
does not effectively administer governance in either Sharana or Orgun, and has
limited influence in areas like Sarobi, Mota Khan, Jani Khel, and Sar Howza.260
   PRTs and DSTs in these provinces have recently focused on facilitating
communication and coordination among Afghan civilian and military lead-
ers as well as launching public outreach campaigns. These public efforts
emphasize the progress made in rebuilding Afghanistan since 2001 as
well as the government’s readiness for the transition period. In March, the
provincial governor of Khowst assembled a town hall meeting for the pro-
vincial council, the provincial peace council, directors of government line
departments, women’s rights advocates, tribal elders, and the U.S. Senior
Civilian Representative for Regional Command East. This quarter, the PRT
in Paktika focused on mentoring, coaching, and consulting with the pro-
vincial government to help it prepare its first budget requests for the 2014
Afghan national budget. The budget request was submitted on time, which
will help the province receive funds from the central government after min-
istries decide on allocation levels.261




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 119
GOVERNANCE




U.S. Stability Programs
USAID’s Stability in Key Areas Program
USAID’s Stability in Key Areas (SIKA) program aims to foster popular
confidence in the Afghan government by building government capacity to
function effectively at the district level, deliver expected public services,
and address the people’s problems. The program has four regional compo-
nents: SIKA West, East, North, and South.
   As of this quarter, USAID had obligated some $81.6 million for the pro-
gram, of which $46.8 million had been disbursed. The total anticipated
budget for SIKA is $203.2 million. The project helps provincial and dis-
trict entities address sources of instability and take measures to mitigate
them. For example, SIKA West held a meeting in February of 30 District
Stabilization Committee members and others. The participants identi-
fied poverty and a lack of job opportunities as local sources of instability.
Among other proposals to improve stability, they suggested that the gov-
ernment rehabilitate the irrigation system and conduct literacy courses for
men and women, as shown in Table 3.8.262 SIGAR is currently reviewing the
SIKA program.

TABLE 3.8


SIKA-WEST DSC MEETING IDENTIFICATION OF PROVINCIAL INSTABILITY
 Sources and Instability                   Root Causes                           Mitigating Activities
 •	 Poverty and lack of job                •	 Lack of government support to      •	 Provide job opportunities through
    opportunities                             agriculture sector                    development projects
                                           •	 Lack of market for agricultural    •	 Rehabilitation of irrigation system
                                              production                         •	 Conducting literacy courses for
                                           •	 Lack of proper education system       men and women
                                           •	 Foreign destabilizing influences   •	 Find market for agriculture
                                                                                    products
                                                                                 •	 Afghan government to improve
                                                                                    and train border police
Source: USAID, Stability in Key Areas (SIKA)-West Monthly Report, 2013.



Village Stability Operations
The U.S.-led, ISAF-and Afghan-supported Village Stability Operations (VSO)
and Afghan Local Police (ALP) programs are complementary elements of
the Special Operations Joint Task Force-Afghanistan’s counterinsurgency
strategy. VSO and ALP work together by using the ALP to mobilize the local
population to provide their own security so that the VSO can then assist the
Afghan government in expanding its reach and efficacy in those areas.
   According to DOD, the Afghan government is more active, responsive,
and connected to the population in districts with a VSO presence than
those without it. These districts with VSO have filled 90% of their critical




   120                            SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




government positions, a rate much higher than the typical district in
Afghanistan. Community Development Councils, designed to increase the
connection between the government and population, have had increased
attendance and participation in VSO districts.263
   Most provincial and district governments support the ALP and often
request expansions in the program so they can better provide essential ser-
vices and goods. President Karzai was initially wary of VSO and the ALP, but
has recently issued directives to the MOD and MOI to conduct the programs
in Badakshan and Nuristan provinces, especially within the Warduz and
Kamdesh districts. DOD noted that these areas would be the first to have
VSO and the ALP completely initiated and conducted without ISAF support
at the tactical level.264

U.S. Capacity-Building Programs for Public Administration
Developing Afghanistan’s human resources is a key goal of the U.S. recon-
struction effort. The United States is implementing a number of programs to
build Afghan governing capacity at the national, provincial, and local levels.
This sub-section reviews some of those efforts.

Initiative to Promote Afghan Civil Society
USAID’s Initiative to Promote Afghan Civil Society (I-PACS) encourages
development of a politically active civil society in Afghanistan. Through
the program, USAID provides technical assistance, capacity-building,
and grants to civil society organizations nationwide. In FY 2013, I-PACS
increased its support of such grants to $11.6 million, of which $6.5 million
has been awarded. USAID is working through I-PACS to address the lack
of basic awareness of democratic principles and their role in a democratic
framework. Similarly, USAID is working to build citizens’ understanding of
and trust in the Afghan government.265

USAID Performance Based Governance Fund
The Performance-Based Governance Fund provides provincial governors
with operational budgets to enhance their relationships with citizens and
improve their overall management capacity. Each provincial governor’s
office receives an average annual fund of between $200,000 and $370,000.
Higher performing governors receive more funds while lower performing
governors receive less.266 The program also embeds a locally hired advi-
sor in each office to provide advice and oversight. Teams of staff evaluate
the offices quarterly. When the Fund began in 2009, the offices did not
prepare and submit budgets to the central government. Now all of them
engage in bottom-up planning and budgeting processes and have learned
to manage and expend funds according to basic accounting methods,
according to USAID.267




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              121
GOVERNANCE




USAID’s RAMP-UP and Kabul City Initiative
USAID’s Regional Afghan Municipalities Program for Urban Populations
(RAMP-UP) and the Kabul City Initiative (KCI) programs help municipal
governments in Kabul and other urban centers increase the capacity of
municipal officials, improve the delivery of municipal services, support eco-
nomic growth initiatives, and raise revenues.268 As of March 31, 2013, USAID
had obligated more than $210.1 million for RAMP-UP and $41.4 million for
KCI. USAID noted some accomplishments of the closely related programs:269
•	 KCI completed its third annual public opinion survey and opened three
   parks and a service center in Kabul.
•	 RAMP-UP helped transfer ownership of a solid-waste management
   system to the Kandahar Municipality, launched a performance-based
   budgeting system in 10 eastern municipalities, aided in a 40% increase
   of revenue generation for nine northern municipalities, and formed
   municipal advisory boards in four western municipalities.

    Municipal governments are now independently operating many ini-
tiatives that were started by RAMP‐UP and KCI, such as solid-waste
collection, public outreach programs, donor coordination, and park main-
tenance, according to USAID. More municipal activities will be fully turned
over to the municipal government as the programs near completion. To be
more accountable to their citizens, several municipalities, such as Kabul,
Kandahar, and Lashkar Gah, have recently opened citizen service centers,
which act as “one-stop shops” for citizens to gather municipal information,
request services, and pay fees and taxes. Similar centers will soon open in
other municipalities.270
    USAID noted that one of RAMP UP’s main challenges is working with
the Afghan government bureaucracy, where political and ethnic dynam-
ics are extremely complicated. Afghan officials often serve many different
authorities who often contradict one another. In addition, some Afghan
officials are less supportive of programs after the drastic funding cuts that
occurred almost two years ago. However, other mayors and their staff still
back these projects.271
    Afghanistan’s top-down governance structure hampers local govern-
ment’s budgeting autonomy. The MOF still approves the yearly budgets for
all municipalities, giving the Ministry a great deal of power in budget deci-
sion making. However, USAID noted that the municipalities now have the
power to raise their own revenues and use those funds to provide services
without having to turn these funds over to the MOF. The MOF and gover-
nors do have the authority to sign off on municipal budgets.272

Media Development
USAID’s Afghanistan Media Development and Empowerment Project
(AMDEP) strives to build the capacity of local independent media




 122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




through technical support, equipment upgrades, hands-on training,
and business development. As of March 31, 2013, USAID had obligated
$31.8 million for AMDEP.273
    Nai, an Afghan sub-contractor for the project, has united existing Afghan
journalism unions under one umbrella association: the Afghan Federation
of Journalists. According to USAID, this synthesis has allowed for improved
information sharing between the unions as well as a more organized dia-
logue with government representatives. Nai also helped develop a code of
conduct for Afghan journalists. The Ministry of Information and Culture
(MOIC) and the Afghan Federation of Journalists will present the code at
regional consultations to garner feedback.274
   Internews, an international NGO that also implements AMDEP, provides
the Ministry of Communications and Information Technology (MCIT) and
the MOIC technical support and advice in spectrum management so that
Afghan media can transition to more technologically advanced broadcast-
ing. This support has fostered enhanced communication between the MCIT
and MOIC that has allowed for collaboration in the drafting of an infor-
mation and communication technology law, spectrum management and
transition, the drafting of a national cyber security strategy, and the Afghan
government’s push to transition to digital television.275
   Internews and Nai partner to advocate for fair media regulation. This
advocacy included public relations activities, lobbying, and the development
of practical media resources, such as legal training and materials, a newslet-
ter, a database on violence against journalists, and a media directory.276 Nai
has also assumed a seat on the Ministry of Justice (MOJ) committee tasked
with reviewing all laws, including the media law, the access to information
law, and the media contract law. USAID said this partnership helped estab-
lish a working group consisting of civil society and media leaders to review
and make recommendations on the access to information law.277


JUDICIAL REFORM AND RULE OF LAW
Afghanistan continues to struggle with establishing a competent and sus-
tainable justice system. Widespread corruption in Afghanistan’s judicial
system has led more than 50% of Afghans to use traditional courts and
courts governed by the Taliban, according to the Afghan NGO Afghan
Integrity Watch. Insecurity and a lack of courts also forces Afghans to seek
community councils and traditional methods to obtain justice.278 One of
the two remaining National Priority Programs the Joint Coordination and
Monitoring Board has not finalized is “Law and Justice for All.”279

Criminal Procedure Code
This quarter, the Afghan government again failed to pass an updated
Criminal Procedure Code. The government pledged at the Kabul




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              123
                                         GOVERNANCE




                                         Conference in 2010 to enact a new Code by the beginning of 2011. In
                                         June 2012 the MOJ presented a revised draft to Parliament. The U.S. and
                                         Afghan justice sector professionals, as well as many in the international
                                         community, criticized the draft, saying it was not a basis for a successful
                                         rule of law system. At the end of this quarter, a committee of Parliament
                                         was reconsidering the draft. According to the State Department, the United
                                         States was working with the committee on revisions and adjustments to
                                         the Code.280

                                         U.S. Justice Sector Training
                                         This quarter, the International Development Law Organization (IDLO) took
                                         over the Justice Sector Support Program’s (JSSP) training component from
                                         the American contracting company PAE. This new, U.S.-funded and IDLO-
                                         operated program will be called the Justice Training Transition Program
                                         (JTTP). The program change occurred because the State Department’s
                                         Bureau of International Narcotics and Law Enforcement Affairs (INL)
                                         decided that the continued security transition process would mean that suc-
                                         cessful and sustainable judicial training would be best carried out through
                                         the Afghan justice ministries as opposed to an externally-run service.
                                            State said Afghanistan is a member of the IDLO, a public international
                                         organization. IDLO specializes in rule of law work. Therefore, State decided
                                         that IDLO would be in a better position than an American contractor to
SIGAR AUDIT                              get the institutional support needed from the Afghan government to con-
                                         duct more Afghan-led judicial training. The JTTP will focus on building a
SIGAR is conducting an audit of the
                                         continuing legal education program for prosecutors, defense attorneys,
JSSP. SIGAR also plans to review DOD’s
                                         judges, and criminal investigators that Afghan justice ministries will be
Rule of Law Field Force-Afghanistan
                                         able to run on their own by the end of 2014. The 30-month contract is for
and USAID’s Rule of Law Stabilization
                                         $47.7 million.281
Program, both of which also seek to
                                            Most JSSP activities continue with the program concentrating its efforts
train justice personnel. The planned
                                         on providing capacity building and technical assistance to the Afghan jus-
audit is described on page 35 of
                                         tice ministries, building the capacity of the Afghan government to track
Section 2 in this report.
                                         criminal cases, promoting case-management system integration, and assist-
                                         ing with legislative reform.282

                                         Counternarcotics Justice Center
                                         Investigators and prosecutors at the Counternarcotics Justice Center
                                         (CNJC) in Kabul are operating at a relatively high level of competency,
                                         according to State. Cases prosecuted at the CNJC fall under the Afghan
                                         Counternarcotics Law. The justice professionals who work at the CNJC
                                         routinely evaluate evidentiary sufficiency, strategize over case composi-
                                         tion, and build effective criminal cases. The most recent available statistics
                                         show that from April 2011 to March 2012, the conviction rate at the CNJC’s
                                         Primary Court was 97%. Over that time period, 44 Afghan government offi-
                                         cials were convicted of drug-related crimes.




                                          124                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   State noted that the CNJC court process is less affected by corruption
and is more efficient, fair, and transparent than other parts of the judicial
sector. For example, in February, the CNJC’s Primary Court convicted Haji
Lal Jan, a U.S.-designated drug kingpin who was arrested by Afghan authori-
ties, and two of his associates for drug trafficking. All three were given
20 years in prison. Although Lal Jan has close tribal and family ties to the
political elite, he was still arrested and convicted.283
   INL has spent $31 million to support construction, operations, and
maintenance of the CNJC’s facility in Kabul. INL transferred an additional
$18.8 million to the U.S. Department of Justice (DOJ) for programs that sup-
port mentoring, training, and advisory services, much of which goes to the
Afghan Criminal Justice Task Force’s police, prosecutors, and judges who
work at the CNJC.284 State said CNJC sustainability is directly related to the
Afghan government’s ability to put the Center on-budget; it is currently in
the external budget. INL is coordinating with its interagency and interna-
tional partners to design a process to accomplish this change. To ensure
a successful transition to the MOI, INL, DOJ, and the British Embassy are
working to reduce operating costs by taking such steps as bringing the
facility onto the local power grid. In addition, to make the CNJC operations
more sustainable, justice professionals from the Supreme Court, Attorney
General’s Office (AGO), and MOI are overseeing the professional develop-
ment of the police, prosecutors, and judges at the CNJC.285

Detention Center Transfer
A series of intense, high-level negotiations, including a meeting between
Presidents Obama and Karzai during President Karzai’s January 2013
visit to the United States, culminated in an agreement for the transfer of
the U.S. Detention Facility in Parwan to Afghan government control. On
March 25, 2013, the United States and Afghanistan signed a memorandum
of understanding transitioning all detainee operations involving Afghan
nationals to Afghanistan. A transfer ceremony was held that day. The
Afghan authorities renamed the facility the Afghan National Detention
Facility at Parwan.
   Following the transfer, all Afghan detainees are under Afghan custody
and control. Afghan-U.S. consultations on the disposition of detainees have
gone smoothly, according to DOD. Afghan Review Boards, which will be
Afghan-only, will now make disposition recommendations. The Afghans
have committed to holding those detainees designated by the United States
as enduring security threats. There are also serious concerns about the
Afghan government’s treatment of detainees, as discussed in the Human
Rights portion of this section.286 The United States will provide funding and
use Security Force Assistance Teams to continue to provide training, advis-
ing, and assistance to the Afghan National Army Detentions Operations
Command. As of the end of the quarter, the United States had provided over




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              125
GOVERNANCE




$250 million dollars to build facilities in Parwan and Pol-e-Charkhi. The
United States has pledged an additional $39 million to support the Parwan
detention facility.287


ANTICORRUPTION
This quarter, the United Nations Office on Drugs and Crime (UNODC) and
Afghanistan’s High Office of Oversight and Anticorruption (HOO) released
a survey that further underscored the seriousness and pervasiveness of
corruption within the Afghan government and the broader economy. In
2012, half of Afghan citizens surveyed reported that they paid a bribe while
requesting a public service. The total cost of bribes reportedly paid to pub-
lic officials amounted to $3.9 billion. If accurate, this figure well exceeds the
Afghan government’s domestic revenues of $2.4 billion. This represents a
40% increase in real terms from the UNODC’s 2009 survey. In 2009, Afghans
who paid bribes said they paid an average of 4.7 bribes annually. In 2012,
those who paid bribes reported paying an average 5.6 bribes for the year.
Since 2009, the average cost of a bribe has risen 29%, from $158 to $214.
In education, the percentage of those reporting paying a bribe to a teacher
jumped from 16% in 2009 to 51% in 2012.288

Afghan Attorney General’s Office
Insufficient political will and a lack of dedicated resources continue to
severely limit the ability of the Anticorruption Unit (ACU) in the Attorney
General’s Office (AGO) to investigate and prosecute high-level officials or
well-connected individuals. This quarter the MEC reported that the AGO
has not prioritized the initiatives that the MEC has identified in its recom-
mendations, thereby allowing corruption to continue unabated.289 Last
quarter, the head of the ACU was fired after prosecutors from his unit
furnished him alcohol and videotaped him speaking ill of the Attorney
General. The DOJ has reported positive interactions with the unit’s new
leader. However, State said it was still too early to conclude if the change
in leadership will lead to more anticorruption prosecutions. INL and DOJ
both intend to continue to educate and train prosecutors at the ACU, but
the State Department noted that the fundamental lack of prosecutorial inde-
pendence and corruption in the management of cases will continue to be a
problem in the ACU, and the AGO generally, for the foreseeable future.290
   State observed that the ACU did manage the prosecutions of the 21
individuals charged in the Kabul Bank case. On March 5, the Special
Tribunal for the Bank case convicted both the Bank’s founder and its
former chief executive for a breach of trust. The men were sentenced
to five years in prison and ordered to return a combined $808 million.
The Tribunal failed to issue guilty verdicts for the more serious crimes
of money laundering, embezzlement, and forgery, which would have




 126                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




carried sentences up to 20 years and provided a basis for orders to con-
fiscate their assets. On March 16, the AGO appealed the initial verdict
because it failed to properly account for evidence that may have led to
the two Bank executives being convicted of the more serious crimes. It
was unclear which appellate court will take up the appeal, but a verdict
must be reached by May 15, 2013. The United States supports the appeal,
although it recognizes that the appeals process could result in the existing
sentences being overturned. The Kabul Bank case was the only one pros-
ecuted this quarter involving key political leaders, high-level government
officials, or well-connected business leaders.291
   Although Justice Department tracking of prosecutions of lower-level
officials involved in corruption cases is limited and anecdotal, some local
cases held promise. In Kunar, the Tsowkay district chief of police was con-
victed of soliciting bribes and sentenced to two and a half years in prison.
The entire case—detection, investigation, and prosecution—was conducted
by Afghan authorities who used relatively sophisticated investigative tech-
niques to gain a conviction. Additional public-corruption trials were also
held in Laghman, Mazar-e-Sharif, Pakitka, and other provinces this quarter.
Restricted access to the provinces has limited DOJ’s knowledge of these
local corruption cases, but the fact they are occurring and are Afghan-led
was seen as a demonstration of growing Afghan capacity.292                        The Special Cases Committee (SCC) was
                                                                                  formed in December 2011 as a joint Afghan
Special Cases Committee Cases                                                     and international mechanism for support-
This quarter, there were no formal charges of high-level officials connected      ing the efforts of the AGO in significant
                                                                                  public corruption cases after the AGO failed
to the Dawood National Military Hospital case, the first case identified
                                                                                  to adequately prosecute many previous
for investigation and prosecution by the Special Cases Committee in
                                                                                  cases. The SCC is not meant to investigate
January 2012. Progress in this investigation continues to be very slow,           or prosecute cases but instead is designed
according to DOD. Investigations into the senior management of the                to identify and recommend to the ACU the
Hospital, namely Major General Zia Yaftali, continue but there is signifi-        significant cases that warrant special at-
cant doubt whether anyone will ever face trial on the full range of charges.      tention and then track the progress in those
The MOD independently pursued the only prosecutions in this case. They            cases. The role of international advisors,
involved low-level officials convicted of relatively minor charges of negligent   including U.S. personnel, on the SCC is to
and abuse of authority involving expired pharmaceuticals valued at $120.293       help the AGO select cases for special atten-
                                                                                  tion and devote resources to investigating
Major Crimes Task Force                                                           and prosecuting them if there is supporting
The Federal Bureau of Investigation (FBI) ended its mission with the Major        evidence. In addition, the international advi-
                                                                                  sors help the AGO design its investigations
Crimes Task Force (MCTF) in February 2013. The FBI determined that
                                                                                  and prosecution strategies. The internation-
it met its capacity-building objectives. With adequate political and fiscal
                                                                                  al participation also helps the AGO acquire
support, the Force has the ability to be an effective anticorruption unit.        information and evidence in possession
However, the AGO continues to lack the political will necessary to pros-          of the international community that can
ecute the corruption cases the MCTF develops. The new head of the AGO’s           advance cases of interest.
ACU has yet to demonstrate increased willingness or ability to prosecute
                                                                                  Source: State, responses to SIGAR data call, 3/26/2013 and
corruption cases. State said MCTF’s future is uncertain as it remains legally     7/5/2012.

and politically vulnerable.294




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               127
                                                            GOVERNANCE




In 2012, the House Committee on Oversight                   Monitoring and Evaluation Committee
and Government Reform’s Subcommittee                        The MEC issued three reports this quarter. The first concerned the
on National Security, Homeland Defense,                     implementation of President Karzai’s governance and corruption decree
and Foreign Operations held a hearing on                    issued last year, Presidential Decree 45. It found that the Afghan govern-
what happened and what went wrong at                        ment had mixed results in implementing 38 articles of the decree that
the Dawood National Military Hospital in                    would enhance efforts to fight corruption. Of the 38 articles, eight have
Kabul. In 2011, the media had reported on                   been implemented, 23 have been partially implemented and seven have
the deplorable conditions for patients at the
                                                            not been implemented. For example, the MEC found that Afghans were
Dawood National Military Hospital in Kabul.
                                                            still being held in detention with no clear fate, a manifestation of gaps in
Widespread corruption led to the siphoning
off of U.S. funds as well as theft of medi-                 the timely investigation and prosecution of cases. It also found that the
cal supplies intended to support hospital                   decree’s policy on cash smuggling through Afghan airports had not been
operations. In addition, patients often did not             implemented effectively.295 The second report contained the commission’s
receive care because they or their families                 fifth set of recommendations and benchmarks for combating corruption.
could not produce bribes for hospital staff.                Among the recommendations, the MEC proposed that all government
Officials in the MOD and ANA, including the                 institutions dealing with infrastructure projects should establish a corrup-
ANA’s Surgeon General, Major General Zia                    tion-reporting mechanism, such as a “call center.” It also recommended
Yaftali, were implicated in the scandal. Some               that the United Nations High Commissioner for Refugees conduct and
U.S. military officials were also criticized for            publish the results of a forensic audit to address allegations regarding
not doing more to investigate and prevent                   the double payment of salaries and renting facilities from high officials
the scandal.
                                                            of the Afghan government.296 The third report surveyed the mixed results
Source: “Dawood National Military Hospital Afghanistan:
What Happened and What Went Wrong?,” Hearing Before the
                                                            of the MEC’s recommendations. It found that the justice sector and the
Subcommittee on National Security, Homeland Defense, and    HOO have not had the same success tackling corruption as other areas of
Foreign Operations, Committee on Oversight and Government
Reform, House of Representatives, 112th Congress, second    government.297
session, July 24, 2012, pp. 2–4.


                                                            High Office of Oversight and Anticorruption
                                                            The HOO made little progress this quarter toward its goal of fighting corrup-
                                                            tion, according to State. State said that the DOJ engages with the HOO on a
                                                            very limited basis.298 However, USAID said its anticorruption program was
                                                            helping to develop HOO capacity in the areas of asset registration and min-
                                                            isterial assessments.299

  Assistance to Afghanistan’s                               USAID’s Assistance to Afghanistan’s Anticorruption Authority
  Anticorruption Authority (4A): This USAID                 This quarter, USAID reported that its Assistance to Afghanistan’s
  project supports strategic, technical, and                Anticorruption Authority (4A Project) continued to improve the capacity of
  administrative capacity development at
                                                            the HOO in several areas of operation:300
  the Afghan government’s anticorruption
                                                            •	 On-line Asset Registration: Afghan law requires asset declarations by
  agency, the High Office of Oversight and
  Anticorruption (HOO), ministries delivering                  public servants, but efforts to establish accurate and widespread asset
  key services to the Afghan public, and out-                  registration have floundered in recent years. In order to make the asset
  reach to civil-society organizations engaged                 registration process easier, the 4A Project developed an on-line system
  in the fight against public corruption.                      this quarter that is expected to become functional by mid-April 2013.
                                                            •	 Vulnerability to Corruption Assessments: The 4A Project trained
                                                               the entire staff of the HOO’s Corruption Prevention Directorate on
                                                               conducting Vulnerability to Corruption Assessments in the ministries.
Source: USAID, “Assistance to Afghanistan Anti-Corruption
Authority,” 12/2012, accessed 4/23/2013.                       The Directorate also reached agreements to conduct the assessments




                                                             128                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   on selected business processes with the Ministry of Public Health and
   the Ministry of Mines and Minerals. This quarter, assessments on issues
   related to hospitals and medicines were conducted for the Ministry of
   Public Health, but no assessment work was done on the Ministry of
   Mines and Minerals.
•	 Recruitment and Selection Policy: In January, the 4A Project
   eliminated some loopholes in the HOO’s recruitment and selection policy.

   In addition to its work with the HOO, the 4A supports several other
anticorruption efforts. This quarter, the project worked with the Ariana
Television Network to air 10 segments of 30-minute anticorruption pro-
grams that recorded citizens’ views on the lack of provision and quality of
public services, followed by invitations to officials in the implicated minis-
tries to explain the lapses in basic services. The project also worked with a
female parliamentary anticorruption caucus to build their legislative capac-
ity in areas like oversight, budgeting, and conflict of interest.301

Corruption in Afghan Security Forces
The MOD has made moderate progress in countering corruption within
its forces, DOD said. However, the Office of the National Security Council
still provides no direction or engagement to the MOD’s Transparency
and Accountability Office on how to operate the MOD’s Transparency
and Accountability Working Group. The Minister of Defense and the
Transparency and Accountability Office unilaterally decided to begin hold-
ing Working Group sessions to push for anticorruption reforms within the
MOD. Of particular note has been the fact that the MOD has held three
senior-level anticorruption meetings this quarter, chaired by either the
Minister or the First Deputy Minister.302                                        SIGAR AUDIT
    The MOI also has made progress in its anticorruption efforts, albeit
                                                                                 SIGAR is conducting an audit of the
more slowly than the MOD. Again, the Minister has been quite vocal in sup-
                                                                                 transition as the International Security
port of these efforts, and especially of his Inspector General. The MOI’s
                                                                                 Assistance Force (ISAF) concludes
Inspector General has in turn demonstrated determination and force of
                                                                                 its mission in 2014. This audit will
character, which has helped to instill some anticorruption improvements
                                                                                 determine whether U.S. government
within the MOI, according to DOD.303
                                                                                 agencies have transition plans in
                                                                                 place and whether those plans
CJIATF-Shafafiyat                                                                address the asset-transfer process,
Combined Joint Interagency Task Force (CJIATF)-Shafafiyat, an ISAF-
                                                                                 the Afghan government’s ability to
interagency group created in 2010 to coordinate anticorruption efforts, has
                                                                                 maintain those assets, and the extent
narrowed its objectives to focus on promoting transparency and account-
                                                                                 to which a comprehensive inventory
ability in the ANSF. CJIATF-Shafafiyat is working to identify and transition
                                                                                 of all U.S.-funded projects and assets
selected anticorruption initiatives before the end of 2014. This transition
                                                                                 has been developed and documented.
effort involves working closely with the NATO Afghanistan Transformation
                                                                                 See page 32 in Section 2 of this
Task Force and other international partners to identify who will take own-
                                                                                 report for more details.
ership of future task execution on completion of the current mission.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               129
GOVERNANCE




   The Task Force has encouraged ISAF and Afghan leaders to bring anti-
corruption and organized crime issues into the security transition process
through transition counter-corruption boards, according to DOD. These
boards make corruption assessments of provinces and districts sched-
uled to undergo transition. In addition, the boards target corrupt actors in
positions critical to transition. The Afghan government’s political will and
capacity will heavily dictate if the anticorruption efforts the Task Force is
involved with produce any enduring results.304

Corruption in Customs Collections
Fraud and corruption in customs remain serious problems that threaten the
fiscal sustainability of the Afghan government due to losses of revenue col-
lection at the borders, customs depots, and airports. Customs revenues fell
in 2012 as a result of rising corruption. However, the Afghan government
took several important steps this quarter to stem corruption.305
   The MOF undertook a large-scale restructuring of the Afghan Customs
and Revenue Department. To prevent customs officials from building local
corruption networks, the MOF replaced a large number of high-ranking
officials and rotated most provincial customs directors. The Minister of
Finance expressed confidence in the capabilities of the new senior officials.
At the end of the quarter, it was too early for the State Department to know
how effective this move was, but it has the potential to reduce corruption.306
   In February this year, the MOF signed the charter of the Presidential
Executive Commission (PEC) on Borders, Airports, and Customs Depots.
The PEC had been in limbo for much of the past year. The PEC is a new
interagency body tasked with identifying corrupt practices, recommend-
ing cross-ministerial reforms, and coordinating efforts to increase revenue
while limiting opportunities for corruption. The PEC had not begun opera-
tions at the end of the quarter, but when it does it could significantly
improve the transparency and accountability of the sector if run effectively,
according to State.307
   The Afghan government also continued to expand implementation of the
Borders Management Model (BMM). The BMM seeks to clarify roles and
responsibilities at the borders to reduce the number of extraneous govern-
ment agencies involved at border crossings. The BMM operated at three
border crossings at the end of the quarter, with an additional four crossings
expected to utilize the BMM by July 2013. State noted that the expansion of
the BMM will be an IMF benchmark for future donor assistance.308
   USAID worked with the Afghan government to initiate a risk-manage-
ment pilot program at Kabul International Airport’s customs yard. The
program is expected to streamline trade by targeting high-risk shipments
for inspection and to reduce corruption by automating the selection of ship-
ments for inspection.309




 130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                   GOVERNANCE




    The Automated System for Customs Data (ASYCUDA) is now in place at
all major border crossings and customs depots, according to State. The pro-
gram allows customs data to be tracked and audited from a central location.
The program’s electronic system allows for more transparency and account-
ability than the previous paper-based system. However, many shipments
are never entered into ASYCUDA due to operator negligence, inconsistent
power supplies at remote borders, and corruption, according to the State
Department.310 Figure 3.35 shows locations where ASYCUDA is operational.
FIGURE 3.35

IMPLEMENTATION OF ASYCUDA CUSTOMS SYSTEM IN AFGHANISTAN



                                                                      UZBEKISTAN                                                                 CHINA
                                                                                                                              TAJIKISTAN

                                                                                  Hairatan
                                                                                             Sher Khan Bandar
                      TURKMENISTAN                                          Mazar-e-Sharif      Kunduz




                           Towraghondi

              Islam Qala
                       Herat                                                                      Kabul & Kabul International Airport
                                                                                                                 Jalalabad
                                                                                                              Torkham




                                                                                                                                  PAKISTAN




  IRAN              Zaranji/Nimroz

                                                                                                                 Transit System

                                                                                                                 Declaration Processing System




Source: UN, ASYCUDA Afghanistan, accessed 4/17/2013.




REPORT TO THE UNITED STATES CONGRESS                   I   APRIL 30, 2013                        131
                                                          GOVERNANCE




The U.S. government has long had serious                     Several U.S. agencies support Afghan efforts to modernize and
concerns about the flow of cash out of                    reform customs processes. USAID’s Trade Accession and Facilitation for
Afghanistan. In July 2011, SIGAR reported                 Afghanistan program helps to implement many of the Afghan government’s
on U.S. government efforts to strengthen                  reforms. The Department of Homeland Security’s (DHS) Customs and
oversight over the flow of U.S. funds through             Border Protection administer the CENTCOM-funded Border Management
the Afghan economy, including the provision
                                                          Task Force (BMTF). The BMTF works directly with border officials at
of bulk currency counters to better regulate
                                                          both the headquarters and border levels to train them in best practices
cash flowing out of Kabul International
Airport. A follow-up Special Report last                  and implementation. DHS’s Homeland Security Investigations (HSI) leads
quarter found that the cash counters were                 U.S. Embassy Kabul efforts to prevent the bulk transfers of cash out of the
still not being used for their intended                   country. This quarter, HSI deployed three cash-counting machines to Azizi
purpose.                                                  Bank and Afghan United Bank branches in Kabul to assist bank personnel
Source: SIGAR, Quarterly Report to Congress, 1/30/2013,
                                                          in documenting withdrawals or deposits of $10,000 or more. All informa-
pp. 44–45.                                                tion gleaned from the transaction (serial numbers, biographical, etc.) will
                                                          be reported to the Financial Transactions and Reports Analysis Center of
                                                          Afghanistan (FinTRACA) for analysis.311


                                                          HUMAN RIGHTS
                                                          This quarter the U.N. Secretary-General reported mixed progress on
                                                          human rights in Afghanistan. UNAMA in February released its 2012 annual
                                                          report on the protection of civilians in armed conflict. The report docu-
                                                          mented 2,754 civilian deaths and 4,805 civilian injuries in 2012. That was
                                                          a 4% decrease in civilian casualties as compared to 2011—the first such
                                                          reduction in six years. On the other hand, the protection of women’s rights
                                                          activists remained a matter of grave concern as did the torture of prisoners
                                                          in Afghan detention centers.312

                                                          Detainees
                                                          According to UNAMA, torture continues to be a major problem in Afghan
                                                          detention centers. In January 2013, UNAMA released a follow-up to its
                                                          January 2012 report on the treatment of detainees. The report found that
                                                          more than half of the 635 detainees it interviewed had experienced torture
                                                          and ill-treatment at facilities run by the ANP, NDS, ANA, and ALP. This tor-
                                                          ture generally took the form of abusive interrogation techniques whereby
                                                          Afghan interrogators deliberately inflicted severe pain and suffering on
                                                          detainees to obtain a confession or information. UNAMA observed that of
                                                          the 105 child detainees it interviewed, 80 children (76%) had experienced
                                                          torture or ill treatment, an increase of 14% compared to UNAMA’s previous
                                                          report.313 UNAMA also found credible and reliable evidence that 25 of the 79
                                                          detainees interviewed (31%) who had been transferred by international mili-
                                                          tary forces or foreign intelligence agencies to Afghan custody experienced
                                                          torture by ANP, NDS, or ANA officials. UNAMA said ISAF has rules in place,
                                                          in accordance with international law, stipulating that individuals should not
                                                          be transferred to facilities where there is a risk of torture and ill treatment.314




                                                            132                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   UNAMA also received credible allegations of the disappearance of 81           The UNAMA report outlined fourteen dif-
individuals taken into ANP custody in Kandahar from September 2011 to            ferent types of torture at Afghan facilities,
October 2012. The whereabouts of these individuals was unknown as of             including: suspension (hanging from the
January 2013.315                                                                 ceiling by the wrists or from chains attached
   In response to the UNAMA report, President Karzai set up a fact-finding       to the wall, iron bars or other fixtures so that
delegation to investigate the torture allegations. In February 2013, the dele-   the victim’s toes barely touch the ground or
                                                                                 he is completely suspended in the air with
gation confirmed the use of torture and ill treatment on Afghan detainees by
                                                                                 his body weight on his wrists for lengthy
Afghan police and national security officials. According to the delegation,
                                                                                 periods); prolonged and severe beating
almost 48% of those interviewed had said they were tortured and 66% said         with cables, pipes, hoses or wooden sticks
they had no access to defense lawyers. The delegation proposed 11 recom-         (including on the soles of the feet); punching
mendations to Afghan institutions to address the issues.316                      and kicking the detainee; twisting of geni-
                                                                                 tals; electric shock; stress positions; forced
Women’s Shelters                                                                 exposure to cold environments for long peri-
The Afghan government’s administration of women’s shelters remains incon-        ods of time; and threats of execution and/or
sistent. Women who need shelters often lack access to them. There are 25         sexual violence against the detainee.
women’s shelters in 13 provinces. INL funds the operations for 10 of these       Source: UNAMA, “Treatment of Conflict-Related Detainees in
                                                                                 Afghan Custody: One Year On,” January 2013, p. 4.
shelters. INL-funded shelters are completely Afghan staffed and operated. In
provinces without shelters, such as Kandahar and Uruzgan, NGOs attempt
to transport victims of gender-based violence to the nearest province with a
shelter. However, in provinces without shelters, women in need of safe shel-
ter often go unnoticed or the local NGOs lack resources to intervene. State
noted there is a need for more shelters, particularly in rural areas.317
   Police and prosecutors have increased their requests for referrals to
shelters, and as a result women have become more aware of the shelters
and how they can provide refuge from crisis and physical harm. Women are
typically referred to the shelters through the Violence Against Women’s pros-
ecutorial units, the Ministry of Women’s Affairs (MOWA), or the police.318
   The Afghan government’s relationship with shelter providers was dam-
aged in 2011 when the government announced it would nationalize all
shelters and equated the existing shelters with brothels. Distrust lingers
between the shelters and the MOWA, which is the Afghan body respon-
sible for overseeing shelter operations. However, the relationship is
gradually improving.319
   MOWA allows women to leave shelters only after it grants permission.
This practice impedes women from leaving shelters unless they marry or
return to their families. The effectiveness of provincial Departments of
Women’s Affairs (DOWAs), which fall under the MOWA’s authority, varies
significantly throughout the country. State noted that in January, a teenage
girl sought refuge after being raped in the DOWA offices in Daykundi. The
province lacks a shelter, so she was to stay in the offices until she could
be transferred to a shelter or returned to her family. On her first night at
the offices, DOWA guards allegedly raped the girl. Provincial authorities
were investigating the incident at the end of the quarter. On the other hand,
the Kunduz DOWA successfully defended a women’s shelter from false




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              133
GOVERNANCE




accusations that it was prostituting its beneficiaries. State said security
remains a major impediment to the DOWA’s ability to oversee and advocate
for shelters. In 2012, two DOWA directors were assassinated in Laghman in
separate incidents because of their work on women’s issues.320

Refugees
Pakistan has not agreed to a longer-term resolution for the approximately
1.7 million Afghan refugees living within its borders. It is unlikely that
any decision will be made until a new Pakistani government is formed.
However, it did not appear that Pakistan would force mass deportations
in the near future, according to the State Department. In December 2012,
Pakistan agreed to extend its honoring of registration cards for the refugees
until June 2013. Pakistani government interlocutors informally indicated
that the country would continue to uphold the principle that refugee return
should be voluntary and that there will not be deportations.321

Human Trafficking
Afghanistan has made some progress in implementing its anti-human-traf-
ficking reform plan, but more work remains. In June 2012, in its Trafficking
in Persons Report, the State Department identified Afghanistan as a source
as well as a transit and destination country for men, women, and children
subjected to forced labor and sexual trafficking. For the third straight year,
the report listed Afghanistan on its Tier 2 Watch List, the second-lowest
rating. The State Department noted at the time that the nation would have
been given the lowest rating if it had not developed its anti-human-traf-
ficking reform plan. Afghanistan’s High Commission Against Trafficking in
Persons has continued its quarterly meetings and the AGO has prosecuted
some traffickers under a 2008 anti-trafficking law, although these cases are
being appealed.322
   The United States is involved in a number of programs to support
training and development to prevent the conditions that permit wide-
spread human trafficking. The Office to Monitor and Combat Trafficking
in Persons funds the NGO Hagar International in its efforts to coordinate
anti-trafficking related activities between Afghan civil society and the
government. The Office also funds Hagar International’s research in the
identification of trafficking hot spots in the country and of the nature and
magnitude of the problem in specific regions. State commented that this
research will inform the development of a model of recovery services for
trafficked Afghan boys up to 18 years old; this model will be used as the
basis of a pilot project in a risk community.323




 134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




Media Freedom
In February, civil society and media watchdog organizations urged the
government to immediately send a draft of the Access to Information Law,
which allows for greater public access to governmental information, to
the parliament for approval. Despite repeated civil society and media orga-
nization advocacy for progress, the draft law has been with the MOJ for
legislative review since February 2012. Integrity Watch Afghanistan noted
that a lack of access to governmental information by citizens had caused
weak public oversight, creating a breeding ground for corruption.324
   This quarter, Reporters Without Borders released its annual World Press
Freedom Index. The report ranked Afghanistan 128th out of 179 countries,
a 22-place improvement from the last report. The report noted that no jour-
nalists were killed in 2012 and the arrests of media workers declined. The
report pointed out that the government did not tackle the issue of impunity
for those accused of violence against journalists. Moreover, the with-
drawal of foreign troops along with deteriorating conditions in neighboring
Pakistan meant the improvements were precarious.325

Afghanistan Independent Human Rights Commission
The Afghanistan Independent Human Rights Commission (AIHRC) con-
tinues to function even though it is operating without the majority of its
commissioners, according to the State Department. Of the nine commis-
sioner seats, five remained vacant, as of March 22, 2013. In January 2011,
one commissioner was killed in a suicide bombing. In December 2011,
President Karzai decided not to renew the terms of three commission-
ers. The AIHRC also decided to dismiss one of its commissioners in
September 2012 for mishandling information. Reportedly, President Karzai
developed a list of nominees for the AIHRC’s commissioner but they were
not seen to have the proper-level of human rights qualifications. At the end
of the quarter, the State Department, civil society organizations, and the
AIHRC were working together to present a list of qualified candidates to
President Karzai for his review.326




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              135
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC CONTENTS
CONTENTS
Key Events 	                             137
World Bank ‘Afghanistan in Transition,
Looking Beyond 2014’	                    138
Economic Profile	                        139
Budget	140
U.S. Economic Support Strategy	          141
Quarterly Highlight: Update on Tokyo
Mutual Accountability Framework	         143
Banking and Finance	                     144
Development of Natural Resources 	       146
Agriculture	149
Essential Services/Development	          152
Transportation	158
Education	160
Labor 	                                  162
Health	163
Private Sector Development	              168
Trade 	                                  171
Communications	171

 136
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 As of March 31, 2013, the U.S. government had provided nearly $23 billion
 to support governance and economic development in Afghanistan. Most of
 the funds flowed through four major programs and accounts: the United
 States Agency for International Development’s (USAID) Economic Support
 Fund (ESF), the Department of Defense’s (DOD) Commander’s Emergency
 Response Program (CERP), the Task Force for Business Stability
 Operations (TFBSO), and the DOD-State Department jointly administered
 Afghanistan Infrastructure Program (AIP) supported by DOD’s Afghanistan
 Infrastructure Fund (AIF).327
     The services sector, led by telecommunications, transport, and govern-
 ment services, has been the most important driver of economic growth,
 while construction has propelled the industrial sector. According to the
 World Bank, legal agriculture is the second leading contributor to GDP, but
 it fluctuates with the weather. Mining production has been limited so far,
 but could eventually add 2–3% to GDP growth.328
     Afghanistan’s economy has grown 9% annually on average since 2002,
 fueled by international military spending and development assistance. This
 growth is projected to slow with the departure of most international forces
 after 2014. The decline in assistance will leave a large fiscal gap between gov-
 ernment revenues and expenditures in a country that still suffers from high
 rates of poverty, unemployment, food insecurity, and poppy cultivation.329
     This quarter, the United States and the international community sought
 to further prepare Afghanistan to take full control of its national security
 and to minimize economic contraction in what the Afghan government is
 calling the “Transformation Decade” following the drawdown of Coalition
 forces in 2014. However, U.S. government responses to SIGAR show that
 insecurity remains a formidable obstacle to the successful implementation
 of economic and social development programs in Afghanistan.


 KEY EVENTS
 This quarter saw three important developments. First, the Special Tribunal
 for Kabul Bank announced guilty verdicts for 21 individuals in the Kabul
 Bank scandal, including the main architects of the bank’s near-collapse.
 However, critics said the sentences were not tough enough.330




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                137
ECONOMIC AND SOCIAL DEVELOPMENT




   Second, USAID reached a bilateral agreement with the Afghan govern-
ment to provide on-budget assistance through the national utility company,
Da Afghanistan Breshna Sherkat (DABS), to install a third turbine at Kajaki
Dam in Helmand Province. Despite a costly, British-led operation to move
the turbine to the dam site in 2008, it was never installed.331 USAID said
DABS could take responsibility for the installation, but a SIGAR audit ear-
lier this year found that DABS lacked the capacity to install and manage
equipment needed for commercialization.332
   Third, the Joint Coordination and Monitoring Board (JCMB) endorsed
four of the six outstanding National Priority Programs (NPPs), bringing the
total number of approved NPPs to 20.333 The JCMB, a high-level decision-
making body co-chaired by the Afghan Ministry of Finance (MOF) and the
United Nations Assistance Mission to Afghanistan, is responsible for stra-
tegic coordination between Afghanistan and the international community
of development programs. NPPs, an outgrowth of the Afghanistan National
Development Strategy of 2008, consolidate hundreds of bilateral and multi-
lateral development projects into a coherent suite of programs that can be
absorbed into the Afghan budget to help ensure their sustainability.334 The
four approved programs this quarter include National Water and Natural
Resources Development, National Comprehensive Agriculture Production
and Market Development, National Energy Supply, and Efficient and
Effective Government. Two remaining NPPs are expected to be presented
to the JCMB later this year.335
   In other developments, the World Bank staff released a final report based
on a series of their earlier transition studies that began before the Bonn
Conference in 2011;336 the MOF rejected the one purchase bid it received
for the New Kabul Bank;337 and the Council of Ministers gave approval to a
revised draft mining law.338


WORLD BANK ‘AFGHANISTAN IN TRANSITION,
LOOKING BEYOND 2014’
The World Bank’s comprehensive examination of Afghanistan’s transi-
tion highlights several challenges facing the country. Afghanistan’s rapid
economic and social progress since 2002 has been aid-dependent. While
government revenues have grown, they fall far short of requirements.339
The Bank estimates Afghanistan will need more than $7 billion annually
in on-budget assistance—$5 billion of which will go toward security sus-
tainment—through 2021/2022 to close its budget gap between domestic
revenues and expenditures. Even with this assistance, Afghanistan’s fiscal
outlook will remain fragile and vulnerable.340
   Fiscal projections from the government and international community alike
assume production at the Aynak copper mine and Hajigak iron-ore mine will




 138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 start in 2017.341 However, Afghanistan faces legislative, logistical, and security
 challenges that may lead to delays. These are discussed on pages 146–149.
    The World Bank’s analysis of countries with similar experiences showed
 political consolidation and stability as a requisite for successful transi-
 tion. Afghanistan, however, is regressing in these areas, according to the
 Bank’s report. The transition is likely to increase unemployment, currently
 estimated at 8%, because labor-intensive industries like services and con-
 struction have benefitted the most from foreign capital. Worse hit will be
 the 48% of the workforce who are underemployed (working less than 35
 hours a week on average). Many of the jobs created by aid are “casual”: day
 labor, food, cash-for-work programs. These will be the first jobs lost once
 international forces and provincial reconstruction teams leave Afghanistan.
 Moreover, according to the World Bank, insecure provinces where most of
 the foreign assistance was concentrated will suffer more than the secure
 ones as foreign aid declines.342
    The World Bank recommended that donors avoid sharp reductions in
 aid, which would force the Afghan government to make even more arduous
 budgetary choices between security and civilian spending. It could also lead
 to sudden economic disruptions like a rapid depreciation of Afghan cur-
 rency and labor-market destabilization. A gradual reduction in aid will inject
 more predictability to aid flows in both timing and funding to assist in long-
 term economic planning.343


 ECONOMIC PROFILE
 Afghanistan’s economy has improved significantly since 2002. Its annual
 GDP growth rate has averaged 9% and is on par with or exceeds that of
 many neighboring countries.344 The World Bank estimated Afghanistan’s
 calendar-year 2012 real GDP growth at 10.3%, driven by a near-record
 breaking wheat and cereal harvest, while inflation should remain relatively
 low, as seen in Table 3.9.345 The table reveals some differences in the way
 analysts calculate economic growth in Afghanistan, but general agreement

 TABLE 3.9


 ECONOMIC FIGURES, DIFFERENCES IN REPORTING
                                              FY 2011                                 FY 2012*                              FY 2013*
                             CIA      ADB       IMF       WB         CIA       ADB      IMF      WB         CIA      ADB       IMF       WB
  Real GDP, % change          5.8      7.2       5.8         7.3      11       11.9     5.2      10.3       N/A       3.3       6.5      N/A
  Inflation, %              13.8      11.8     11.8      11.3        N/A        6.2     6.6       6.5       N/A       6.1       6.7      N/A
  Per Capita GDP, US$      1,000      N/A       N/A       543      1,000       N/A      N/A      528        N/A      N/A       N/A       N/A
 Note: * Projected

 Sources: World Bank, e-mail message to SIGAR, 1/2013; World Bank, “Afghanistan in Transition: Looking Beyond 2014,” 2/28/2013, accessed
 3/18/2013; World Bank, “GDP Per capita (current US$),” accessed 4/10/2013. IMF, “World Economic Outlook,” 10/2012, accessed 4/9/2013; CIA,
 “World Factbook,” 3/27/2013, accessed 4/9/2013; ADB, “Asian Development Outlook 2013,” accessed 4/9/2013.




 REPORT TO THE UNITED STATES CONGRESS                    I    APRIL 30, 2013                               139
                                                     ECONOMIC AND SOCIAL DEVELOPMENT




                                                     on trends. The World Bank projects GDP growth to fall to 6%, on average,
                                                     through 2018, and to 5% in the longer term.346


                                                     BUDGET
The Afghan government’s fiscal year had              The FY 1392 (December 2012–December 2013) budget totals $7.04 billion, as
been the same as the solar year, but the             compared to $6.07 billion in FY 1391 (12-month comparison). The budget has
most recent fiscal year (1391) ran only from         two main parts: the operating budget ($3.77 billion), which covers current
March 21, 2012, to December 20, 2012,                government expenditures—security, salaries, operations and maintenance,
to better align with donors’ fiscal calen-           capital, etc.—and the development budget ($3.27 billion), which covers
dars. This one-time, nine-month fiscal year
                                                     donor-financed projects and programs executed by the government.347
bridged the change to a new Afghan fiscal
                                                        The FY 1392 development budget is 37% higher than FY 1391.348 Last
year that now runs from December 21–
December 20. The “12-month comparison”               quarter, SIGAR noted the government’s historically poor execution rate of
references in the text offer a normalized            the development budget—just 52% in FY 1390. DOD echoed this concern
basis for comparison.                                in its latest report to Congress on progress toward security and stability in
                                                     Afghanistan.349 Poor budget execution is one of the concerns donors have
                                                     about contributing more aid directly to the Afghan government. SIGAR
                                                     has an ongoing audit to review USAID’s efforts to assess the ability of the
                                                     Afghan government to manage and account for funds provided through
                                                     direct or “on-budget” assistance. For more information about this audit, see
                                                     Section 2, page 32.

                                                     Fiscal Sustainability
 “Afghanistan will require                           Afghanistan’s fiscal sustainability ratio—domestic revenues versus
 substantial international                           operating expenditures—is one of the lowest in the world.350 Although
                                                     Afghanistan’s annual domestic revenues grew from $0.6 billion in 2006
  assistance through the
                                                     to $2 billion in 2011, mostly from customs and taxes, during this period,
  next decade to grow its                            its total annual public expenditures grew from $5.8 billion to $17.4 bil-
private sector and promote                           lion. From 2006 through 2011, these expenditures totaled $72.9 billion.
 its integration in greater                          Afghanistan’s domestic revenues covered only 10% of these expendi-
    South Asia’s thriving                            tures ($7.3 billion). The remaining 90% was covered by the United States
                                                     ($46.3 billion) and the rest of the international community ($19.3 billion).351
         economy.”
Source: The White House “Fact Sheet: Afghanistan,”   Revenue Collection
2/12/2013.
                                                     Taxes make up an estimated 68% of total revenue collections.352 This
                                                     quarter, the MOF saw sweeping leadership changes in the departments
                                                     of customs, revenue, public properties, and internal audit and adminis-
                                                     tration. This shakeup, in which all 10 provincial customs directors were
                                                     replaced, was to improve revenue collection and fiscal sustainability across
                                                     the country through the infusion of “more capable, energetic and trusted
                                                     leadership.” The ministry expects this change to help curb corruption and
                                                     achieve greater efficiencies.353
                                                        Despite the expected improvements in revenue collection, the United
                                                     States and its Coalition partners recognize that under current and




                                                      140                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 medium-term economic conditions, the Afghan government cannot gen-
 erate enough revenue to cover its current operating expenditures. The
 World Bank projects this fiscal gap to reach the equivalent of 25% of GDP
 by 2021/2022 and has said the international community will have to bridge
 that gap.354
    This quarter, USAID and the U.S. Customs and Border Protection agency
 are helping the Afghan Customs Department inspect cargo shipments at
 Kabul International Airport more efficiently. Customs officials aim to reduce
 smuggling and corruption by non-compliant traders as well as facilitate
 legal trade. Through these efforts, State said that trade reported at the air-
 port increased by 36%. Customs revenues are expected to rise to two billion
 Afghanis ($36.9 million) in 2013, representing a 43% increase over 2012.355


 U.S. ECONOMIC SUPPORT STRATEGY
 The U.S. economic transition strategy in Afghanistan seeks to mitigate the
 negative economic impact of the withdrawal of most international secu-
 rity forces by 2014 and the expected accompanying reduction in donor
 assistance. It also seeks to help Afghanistan develop its resources for sus-
 tainable growth.356 Through the Strategic Partnership Agreement signed in
 May 2012, the United States committed security and economic assistance to
 Afghanistan until 2024. Although the Afghan government requested $2 bil-
 lion per year in economic aid, the United States did not specify an amount
 in the agreement.357 After 2024, the United States expects the Afghan gov-
 ernment to generate the revenues to pay for its operating expenses.
    U.S. economic assistance focuses on supporting public and private-
 sector development, promoting private-sector investment, creating jobs,
 and improving food security. The United States has been gradually increas-
 ing the amount of development assistance it provides directly to the Afghan
 government as shown in Figure 3.36 on the following page. According to a
 Government Accountability Office (GAO) report, the United States intends
 to strengthen the capacity of the Afghan government at the central and
 sub-national levels to encourage better revenue generation, delivery of ser-
 vices, and a business-friendly regulatory environment. The United States
 is also advancing the New Silk Road initiative, a policy aimed at achieving
 sustainable, inclusive economic growth by helping Afghanistan to become
 increasingly integrated economically within the region.358
    The following section describes developments and U.S.-funded efforts in
 the major economic sectors: banking and finance, natural resources, agri-
 culture, and essential services, including electricity, transportation, health,
 and education.




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               141
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.36

USAID ON-BUDGET ASSISTANCE, 2002–2011 ($ MILLIONS)

$650
                                                                                                                                   $612




$520



                        Afghanistan Reconstruction Trust Fund Total: $1,743.2
$390                                                                                                                                               $359
                        Bilateral Total: $451.8

                                                                                                                    $290

$260
                                                                                                                                                          $207.5


                                                                                                     $124                                 $116.8
$130
                                                        $85
                                         $72                                           $72                                 $75.8
          $38            $40                                            $48
                                                                                                            $27.2
                                               $14.2                                         $4.1                                                                       $5.1
                 $0             $0                            $1.1             $.1                                                                                 $0
  $0
            2002            2003           2004           2005            2006           2007          2008           2009             2010          2011           2012a

Notes: Numbers have been rounded.
a Most FY 2012 USAID funding for On-Budget Assistance had not been obligated as of March 31, 2013.

Sources: USAID, responses to SIGAR data call, 4/18/2013 and 4/11/2013.




                                                              Land Reform in Afghanistan Project
                                                              USAID continued to promote land reform, highlighting the economic impor-
                                                              tance of legally recognized and enforceable property rights as a prerequisite
                                                              for private-sector investment and job creation. In 2010, the Ministry of
                                                              Agriculture, Irrigation and Livestock (MAIL) created the Afghan Land
                                                              Authority to encourage investors to lease government land for agricultural
                                                              use. To advance this goal, USAID started the Land Reform in Afghanistan
                                                              (LARA) project in March 2011. As of March 31, 2013, $30.6 million has been
                                                              obligated for this effort.359
                                                                 LARA has been working with the Jalalabad municipality to help design
                                                              electronic title-deed and property-registration systems. USAID reported to
                                                              SIGAR that a land-title software program has been completed and installed
                                                              on LARA’s Jalalabad office computers for testing, and over 2,000 parcels
                                                              have been entered in and linked to the municipal tax map. USAID reported
                                                              a boost in revenue from government-owned land after LARA began assis-
                                                              tance to the Afghan Land Authority—from an average of 7 million Afghanis
                                                              (Afs) ($127,872) a year before 2011, to Afs 175 million ($3.2 million) in
                                                              2012—with further gains expected.360




                                                                 142                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                 QUARTERLY HIGHLIGHT




UPDATE ON TOKYO MUTUAL ACCOUNTABILITY FRAMEWORK
During this reporting period, SIGAR          and ensuring “that a robust electoral         international community for approval.
followed up with the State Department        architecture is developed in a secure,        According to the U.S. Embassy Kabul
to see what actions had been taken           participatory, and transparent manner to      donors have responded to these action
to implement the Tokyo Mutual                enable successful and timely elections.”362   plans by identifying key priorities in each
Accountability Framework, established           The Framework required the Afghan          of them. The Afghan government has
by the Afghan government and the             government to develop work plans and          primary responsibility for monitoring
international community at the donors’       timelines to achieve the governance           its progress on the Tokyo reforms and
conference in July 2012. SIGAR found         and development indicators specified          for presenting its findings to the interna-
that the Afghan government and the           under each of the five major areas. The       tional community, according to State.363
international community had made             Framework also tasked the Afghan                  The JCMB met in late February
incremental progress.                        government and the international com-         2013 and reviewed the action plans.
    The Framework was created to             munity to establish “a transparent and        According to the JCMB report, the first
structure international development          regular monitoring process” to hold           three action plans submitted have been
assistance to Afghanistan through 2015.      each other accountable. The monitoring        revised to incorporate the international
Under the Framework, the international       mechanism has three elements:                 donor community’s concerns and com-
community pledged to improve aid             •	 The Standing Committees and the            ments. At the meeting the international
effectiveness by, among other things,           Joint Coordination and Monitoring          community reached consensus with
increasing direct government-to-gov-            Board (JCMB) to review progress on         the Afghan government to focus on the
ernment assistance to Afghanistan and           a regular basis                            critical, high-level indicators, rather than
aligning donor aid to Afghan National        •	 A Senior Officials Meeting to be           on a detailed technical dialogue. The
Priority Programs. However, the inter-          held in 2013 and every second year         international community will review
national community said its “ability to         subsequently to review progress and        Afghan progress at the senior-official
sustain support for Afghanistan depends         update indicators where needed             level scheduled for July 3, 2013, and
upon the Afghan government delivering        •	 A Ministerial-level Meeting to be          then again in 2014 at the ministerial
on its commitments described in the             held in 2014, and every second             level, after which changes to progress
Tokyo Framework.”361                            year subsequently to review                indicators, resource requirements, and
    Those commitments included taking           progress, update indicators, assess        Afghan and donor commitments, will be
specific steps—which the Framework              resource requirements, and renew           adjusted as necessary.364
calls “indicators”—to achieve broad             international commitments                      In the meantime, the United States
goals in five major areas of development                                                   seeks to coax the Afghan government
and governance:                                 The Afghan government submit-              to live up to its reform commitments
 •	 Representational Democracy and           ted its first draft “concept paper” for       by increasing funding of “incentivized
    Equitable Elections                      implementing the Tokyo Framework              programs,” including through mul-
 •	 Governance, Rule of Law, and             on July 31, 2012. The concept paper           tilateral mechanisms like the World
    Human Rights                             called for the Afghan government to           Bank’s ARTF.365 Incentives programs
 •	 Integrity of Public Finance and          complete an action plan for each of the       offer financing provided Afghanistan
    Commercial Banking                       five governance and development areas         achieves agreed to benchmarks that
 •	 Governmental Revenues, Budget            and identified coordination mechanisms        are verified.366 For its part, the U.S.
    Execution, and Sub-National              within the Afghan government to moni-         Embassy Kabul will monitor and assess
    Governance                               tor progress.                                 all 16 Tokyo Mutual Accountability
 •	 Inclusive and Sustained Growth and          On October 14, 2012, the Afghan            Framework indicators in the absence
    Development                              Ministry of Finance presented imple-          of detailed benchmarks agreed upon
                                             mentation plans at the first Tokyo            by the Afghan government and interna-
    For example, the goal for the first      Technical Committee meeting. These            tional donors.367
major area is to conduct credible, inclu-    plans addressed three of the five areas:          One important goal of the Tokyo
sive, and transparent presidential and       Democracy and Elections, Rule of              Framework is to shift the relationship
parliamentary elections in 2014 and 2015     Law and Human Rights, and Sustained           between the Afghan government and
in line with the Afghan constitution.        Growth and Development. In February           international community from that of
Indicators include developing by early       2013, the Afghan government provided          recipient and donors to that of owner
2013 a comprehensive election timeline       the remaining two action plans to the         and partners.




      REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013                  143
ECONOMIC AND SOCIAL DEVELOPMENT




BANKING AND FINANCE
Private-sector development requires solid financial institutions to pro-
vide capital and facilitate the exchange of money for goods and services.
However, Afghanistan’s financial sector remains largely underdeveloped.
It makes limited capital investments in businesses, and contributes little
to Afghanistan’s private-sector activity.368 The banking sector still has not
recovered from the 2010 near-collapse of Kabul Bank, and further reforms
are needed, including stronger financial supervision, anticorruption mea-
sures, and reduced exposure to risk.369 DOD cautions that while a new
banking law is planned to address these issues, a lack of leadership and pro-
fessional capacity in the banking sector could hinder meaningful reform.370

Extended Credit Facility Arrangement
A second International Monetary Fund (IMF) Board review of its Extended
Credit Facility (ECF) Arrangement with Afghanistan and an accompanying
third disbursement of funding planned for December 2012 was deferred
due to the Afghan government’s poor performance, according to Treasury.371
The three-year, $129 million ECF loan agreement signed in November 2011
is conditions-based. Disbursements are contingent upon Afghanistan mak-
ing progress on specific banking and financial structural reforms. Since
the agreement was signed, the IMF has released two disbursements of
$18.2 million. The first was in November 2011, the second in June 2012,
despite the IMF’s review characterizing Afghan reform as weak and slow.372
   IMF staff visited Kabul January 19–February 2, 2013, to discuss prog-
ress on the combined second and third reviews of the ECF scheduled
for the spring. Given that the Afghan government has not achieved the
required benchmarks, Treasury said the spring review and disbursement
may be delayed.373

The Kabul Bank
On March 5, 2013, the Special Tribunal of the Supreme Court on Kabul
Bank issued its judgment on 21 individuals charged in the Kabul Bank
fraud. The two leaders of the fraud, ex-chairman Sherkhan Farnood and
ex-CEO Khalilullah Ferozi, were convicted of breach of trust and sen-
tenced to the maximum of five years’ imprisonment. Farnood was ordered
to return $278 million and Ferozi $530 million.374 They were acquitted of
the more serious charges of embezzlement, forgery, and money-launder-
ing, all of which carry longer prison terms.375 It is unclear if Farnood and
Ferozi’s loose house arrest since 2011, which reportedly included freedom
of movement during the day and house detention at night, will count as
time served toward their sentences.376
   Masood Ghazi, CEO of the good-asset successor New Kabul Bank, was
ordered to return $5 million and sentenced to three years in prison. The for-
mer governor of Da Afghanistan Bank, Abdul Fitrat, who has since fled to




 144                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 the United States, was convicted of a failure to enforce laws and sentenced
 in absentia to two and a half years in prison. Mustafa Masoudi, the former
 head of the government financial-transaction analysis and reporting agency,
 was fined a total of Afs 24,000 ($500) for a failure to inform authorities
 when there is a duty to do so. Another 16 regulatory and banking officials
 received sentences ranging from three months to two years.377
     The MOF boasted that the convictions demonstrate the government’s
 commitment and ability to fight economic-financial crimes.378 But the
 Independent Joint Anti-Corruption Monitoring and Evaluation Committee
 (MEC) expressed concern over the disproportionately light sentences
 handed out to the bank leadership compared to rank-and-file perpetra-
 tors.379 The text of the verdict detailing the court’s rationale has not yet been
 made public.380
     The MEC also deemed the overall verdict and punishments to be inap-
 propriate noting the judges failed to issue a confiscation order under
 Afghanistan’s Anti-Money Laundering and Proceeds of Crime Law, mak-
 ing it harder for the government to recover stolen funds.381 The Attorney
 General’s Office concurred and filed an appeal on March 16, 2013. This
 reopens the case, giving the appellate court authority to uphold the
 Supreme Court judgment, overturn convictions, or impose tougher ver-
 dicts. An appellate court ruling is expected within 60 days of the filed
 appeal. Afterward, the Supreme Court has five months to undertake a final
 review and render a decision.382
     Kabul Bank had been Afghanistan’s largest banking service provider,
 distributing most civil salaries on behalf of the Afghan government.383 The
 bank’s 2010 near-collapse brought to light the loss of $935 million in stolen
 funds. Last quarter the Afghan government updated the total amount owed
 to $982 million after adding “significant non-loan claims” like unauthor-
 ized cash disbursements and expense claims.384 Over 92% of the stolen
 funds went to 19 individuals and companies.385 Afghanistan’s central
 bank—Da Afghanistan Bank—covered these losses, amounting to 5–6% of
 Afghanistan’s total GDP.386 Under the IMF’s ECF Arrangement, the govern-
 ment is required to recapitalize the central bank; recover assets and hold
 accountable those responsible for the Kabul Bank crisis; strengthen bank-
 ing reforms and supervision through Afghanistan’s central bank; improve
 the management and transparency of public funds; and combat money laun-
 dering and terrorist financing.387
     As of March 31, 2013, cash recoveries totaled $138 million, unchanged
 from last quarter. Additionally, the Financial Disputes Resolution
 Commission (FDRC), which was set up to help settle civil cases that cannot
 be resolved by the Kabul Bank Receivership, completed all nine civil cases
 it was given and ruled in the receivership’s favor in every case. However,
 it has yet to finalize any repayment agreements, according to State. The
 Receivership is finalizing six more cases to hand over to the FDRC.388




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 145
ECONOMIC AND SOCIAL DEVELOPMENT




Sale of New Kabul Bank to Private Investors
After the bailout of the Kabul Bank, the Afghan government created New
Kabul Bank (NKB) as a temporary ‘bridge bank’ containing the good assets
and deposits from Kabul Bank. Privatizing the NKB is an ECF benchmark;
the MOF intends to sell NKB to private investors or liquidate it by the end of
2013. Expressions of interest were due November 27, 2012.389 Five expres-
sions of interest were received, but only one bid was submitted, which the
MOF reportedly rejected. The Ministry has not announced a new strategy.390


DEVELOPMENT OF NATURAL RESOURCES
The United States, the Afghan government, and the international donor com-
munity count on developing Afghanistan’s natural resources to underpin
economic growth in the face of declining external aid. Although mining has
contributed less than 1% to the country’s GDP to date, the Afghan govern-
ment expects to receive significant revenues from large-scale investments
in the Aynak (copper) and Hajigak (iron-ore) mines. However, SIGAR has
consistently warned that the Afghan government may not be able to earn rev-
enues from Afghanistan’s estimated $1 trillion dollars worth of minerals, coal,
petroleum, and natural gas resources any time soon because considerable
infrastructure investment is required to develop them.391 The Congressional
Research Service reports that even if Afghanistan’s natural resources are suc-
cessfully developed and its economy is integrated with others in the region,
“Afghanistan will likely remain dependent on foreign aid indefinitely.”392
    The United States, through DOD’s Task Force for Business Stability
Operations (TFBSO), has supported the Afghan government’s efforts to
attract investment in the mining sector. Contract negotiations have begun
on several areas tendered last quarter with TFBSO assistance. That assis-
tance is continuing as Afghanistan prepares for a new round of tenders in
2013. Out of $6.8 million total for mining-sector development, TFBSO obli-
gated $4.8 million, and of that, committed $2 million, as of March 31, 2013.393

New Minerals Law
This quarter, the Afghan Cabinet approved the latest draft of the
revised minerals law, which is an IMF and Tokyo Mutual Accountability
Framework benchmark.394 Updating the law is meant to better protect
Afghan resources, encourage investors, and align regulations to interna-
tional best practices.395 Its delay has significantly hindered private-sector
investment, according to TFBSO, which said mining companies value
political and legal stability over security.396
   Cabinet members had rejected the previous iteration, expressing con-
cerns over thresholds for the bidding/tendering process, conversion of
exploration rights, and the role of international firms.397 In the latest draft,
several issues that were initially agreed to were stripped out. For example,




 146                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 the new draft no longer links exploration and extraction rights in all ten-
 ders—something international investors were demanding. Instead it says
 whether investors gain extraction rights along with exploration rights will
 be determined case-by-case. It also makes all assets, regardless of size,
 available for tender and requires artisanal mining projects to be tendered
 instead of application-based.398
    The State Department said the minerals law will now be submitted to
 Parliament.399 TFBSO warned that without linking exploration and extrac-
 tion rights, many companies will not bid on new tenders and will not sign
 contracts on existing awards. Final Parliamentary consideration has not yet
 been scheduled.400

 Assistance to the Ministry of Mines and
 Afghanistan Geological Survey
 This quarter, TFBSO continued its technical assistance to the Ministry of
 Mines and Petroleum (MOMP) and Afghan Geological Survey (AGS) for oil
 and gas data management, including geology reports, seismic data, well logs,
 and production logs. Additionally, TFBSO supported Afghanistan’s North
 Aynak Drilling program in Logar province, which is designed to strengthen
 MOMP and AGS capacity and to provide results on a potential copper deposit.
 AGS employees were trained in ground geophysics, drilling, and sample prepa-
 ration; the data results from the program can now be used in future tenders.401
    TFBSO and the U.S. Geological Survey are also assisting the MOMP and
 AGS with visits to U.S. mines, official meetings, and attendance at interna-
 tional conferences related to resource development.402

 MIDAS
 USAID’s Mining Investment and Development for Afghan Sustainability
 (MIDAS) project was awarded on March 31, 2013. The $45 million off-
 budget and $45 million on-budget mechanisms will support comprehensive
 capacity building at the MOMP to improve government revenue generation
 as international donor support winds down. MIDAS’s off-budget support
 will focus on three primary components: legal and regulatory reform,
 technical assistance to the MOMP, and Small and Medium Enterprise
 development. The on-budget activity will provide technical assistance in
 geo-science field investigation, and other areas as needed. No funds have
 yet been disbursed.403

 Aynak Copper Mine: Update
 China Metallurgical Group (MCC) was awarded extraction rights at the Mes
 Aynak copper mine in Logar province in 2007, but has not yet begun extrac-
 tion. However, ancillary infrastructure facilities around the mine opened
 this quarter. These included a 512-plot resettlement township for Afghans
 displaced by the mine. The township includes an 1,800-capacity mosque,




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               147
ECONOMIC AND SOCIAL DEVELOPMENT




schools, bridges, a health center, access road, and shopping area. Each fam-
ily will be given a 450-square meter (about a ninth of an acre) plot of land.404
    The development of the mine itself, however, continues to experience
delays from discovery of cultural relics in the area, difficulties in land acqui-
sition, lack of primary infrastructure, and security concerns. According to
State, the Ministry of Interior and MOMP have failed to adequately address
site security issues.405 State also cautions that further delays are possible.
MCC has the option to renegotiate its contract in 2013, and may be defer-
ring further investment until it evaluates the results of Afghanistan’s 2014
presidential election and the post-transition security environment.406
    Despite these pitfalls, the Afghan government is relying on Aynak’s revenue
stream in its future revenue predictions. The international donor community
is also using the projected revenues in its calculations for future assistance
levels. According to published summaries of the contract, the government is
slated to receive royalty rates of up to 19.5%, or $808 million in pre-royalty pay-
ments, a 400 MW coal-fired power plant, and an associated coal mine.407

Hajigak Iron-ore Mine: Update
Contract negotiations for the Hajigak iron-ore concessions continue. The
MOMP awarded three blocks to a seven-member Indian consortium led
by state-owned Steel Authority India Ltd. (SAIL) in November 2011, and
one block to Canadian Kilo Goldmines. According to State, the Indians and
Canadians made passage of the revised Minerals Law a condition for their
investments.408
   A mining-industry publication blamed the unfinished negotiations on
strict conditions laid out by the Afghan government. The article said the
government insisted that prospective firms start exploratory projects within
six months of a contract signing or face contract termination. The govern-
ment also demanded an export cap of six million tons per year and fixed
six-month production targets. Missing the targets could also trigger con-
tract termination.409 The same publication reported the Indian government
denied the SAIL-led consortium financial grant support, making it more
difficult for them to raise debt and make investments in infrastructure and
logistics facilities at the mine.410

Hydrocarbons
Afghanistan’s efforts to develop its oil and gas reserves are focused on the
Amu Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan.
This quarter, TFBSO continued its technical assistance to the MOMP and
Afghan Geological Survey to develop this sector.

Amu Darya Basin Production: Update
The Amu Darya Basin is estimated to contain 87 million barrels of crude
oil. The China National Petroleum Corporation Watan Energy Afghanistan




  148                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Ltd. (CNPCI-W) produced approximately 5,000 barrels of crude from three
 blocks in 2012. TFBSO reported that CNPCI-W produced 500 tons of crude
 in January/February 2013 (about 3,665 barrels), generating $45,000 in roy-
 alties to the government. State reported that although CNPCI-W is able
 to continue production, it is currently producing no oil while it works to
 secure a buyer for its output. Afghanistan lacks refining capacity, prompting
 CNPCI-W to seek take-off agreements with regional refineries.411
    Government revenues from Amu Darya will depend on future produc-
 tion rates and market values. CNPCI-W’s planned production for FY 2013
 is 1.75 million barrels. Contract terms calls for the government to receive
 15% of production value, 20% in income tax revenues, and a 50–70% share
 of profits accrued after the royalty is deducted and CNPCI-W recovers its
 operating costs.412 TFBSO is providing technical support to Amu Darya
 Petroleum Authority, which is managing the Amu Darya contract. It is also
 helping develop a larger Afghan authority to manage existing and future
 hydrocarbon contracts.413

 Afghan-Tajik Basin (Phase I) Update
 This quarter Afghanistan’s Inter-Ministerial Commission authorized the
 MOMP Contract Evaluation Team (CET) to negotiate with the consor-
 tium of Dragon Oil, Turkish Petroleum Corporation, Kuwait Energy, and
 Ghazanfar Group to sign an exploration and production-sharing contract for
 the two blocks it was awarded in the Afghan Tajik Basin in November 2012.
 TFBSO advisors continue to provide technical, legal, and commercial sup-
 port to the CET during negotiations. Financial details will be available upon
 the contract award.414


 AGRICULTURE
 Agriculture is a major factor in the Afghan economy. Eighty percent of
 Afghans directly and indirectly earn a living from this sector.415 The legal
 agricultural sector is the second-largest contributor to GDP. Given its impor-
 tance to the labor force, agriculture could be a catalyst for GDP growth,
 improved food security, and more stable employment opportunities.416 Since
 2002, USAID has provided about 15% of its funds to agriculture programs,
 helping Afghanistan to double its legal agricultural output from 2007.417
    This quarter, the JCMB approved two agriculture-related NPPs—National
 Water and Natural Resources Development, and National Comprehensive
 Agriculture Production and Market Development.418

 The National Water and Natural Resources Development
 One of four NPPs in the Agriculture and Rural Development cluster group,
 this program was developed to address the effects of drought and deserti-
 fication on Afghanistan’s agro-ecosystem. According to the government,




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               149
ECONOMIC AND SOCIAL DEVELOPMENT




75% of land in the north, west, and south suffers from moderate to severe
desertification. The program seeks to promote proper management and
use of Afghanistan’s water resources to improve agricultural productivity,
increase access to safe drinking water, and provide rural energy. It aims to
achieve these goals by strengthening ministerial and institutional capacity,
expanding irrigation, protecting natural resources, and providing access to
rural energy for agribusinesses. Afghanistan has budgeted $1.87 billion over
three years for this NPP. It has secured $1.15 billion, leaving a $714.6 mil-
lion shortfall. Funding will be provided on-budget either through the
Afghanistan Reconstruction Trust Fund or other special account.419

National Comprehensive Agriculture Production
and Market Development
The goal of the National Comprehensive Agriculture Production and Market
Development program is to improve sustainable agricultural production
to ensure food security, promote economic growth, reduce dependency
on subsistence farming, and encourage production of legal crops. The gov-
ernment aims to create a better regulatory environment for farmers and
commercial food producers through improved access to credit, land tenure,
rural infrastructure, food storage and processing facilities, and other busi-
ness development services. Government ministerial capacity will also be
strengthened for better policy and regulatory formulation as well as pro-
gram implementation.
    Afghanistan has budgeted $1.13 billion over three years for this NPP
in three areas: Food For Life, Food Zone, and Market and Enterprise
Development. The government has only secured $270 million, leaving an
$859 million shortfall. USAID will provide $10 million off-budget aid in 2013
and $10 million on-budget in 2014 for the Food Zone program, which focuses
on counternarcotics efforts beginning in Kandahar. On-budget funding for
this NPP will go either through the ARTF or another special account.420
    USAID provides assistance to the agriculture sector through several pro-
grams. The three highest priorities, worth more than $350 million total, are:421
 •	 Agricultural Development Fund (ADF) and Agricultural Credit
    Enhancement (ACE)
 •	 Incentives Driving Economic Alternatives—North, East, and West
    (IDEA-NEW)
 •	 Commercial Horticulture and Agricultural Marketing Program
    (CHAMP)

Agricultural Development Fund and
Agricultural Credit Enhancement
Agricultural Development Fund and Agricultural Credit Enhancement
(ADF-ACE), a $150 million agricultural-credit project, has two complemen-
tary activities that aim to support MAIL’s efforts to provide loans and build




 150                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 MAIL’s capacity to manage them. ADF was established to provide loans
 across the agricultural value chain through banks, farm stores, leasing com-
 panies, and food processors, which in turn provide agricultural credits to
 farmers. ADF-ACE designed and launched nine innovative financial lending
 products, one exclusively for women. Of ADF’s $75 million total alloca-
 tion, $64.6 million has been obligated and $53.7 million has been disbursed
 ($9 million on-budget) as of March 30, 2013.422
    ACE, the technical-assistance component, manages all ADF lending
 activities and helps build MAIL capacity. As of March 30, 2013, 16,000
 farmers have benefitted from $46 million in loans, 1,000 more than SIGAR
 reported last quarter. Despite these successes, USAID noted that Afghan
 political and legal obstacles delayed ADF legal registration and access to
 lending funds, which, in turn, reduced the number of loans approved and
 the number of beneficiaries.423

 Incentives Driving Economic Alternatives—North, East,
 and West
 Incentives Driving Economic Alternatives—North, East, and West (IDEA-NEW)
 is a five-year cooperative-agreement project that provides agricultural assis-
 tance and economic alternatives to growing poppies in select provinces in
 eastern Afghanistan and in poppy regions in the northern and western parts
 of the country. As of March 30, 2013, USAID has obligated $127.1 million
 to the IDEA-NEW program and has disbursed $118.2 million. IDEA-NEW
 helps farmers shift to legal agricultural production by increasing commercial
 opportunities, extending access to financial services, and promoting value-
 chain development for key regional industries and trade corridors. It also
 facilitates connections between producers, traders, and buyers through mar-
 ket information activities and sales promotion.424
     After an extensive review, IDEA-NEW has shifted away from infra-
 structure activities, voucher programs, and production-level assistance to
 farmers. Instead, it is focusing its efforts further up the value chain and
 working with businesses, cooperatives, associations, farm service centers,
 and other intermediaries.425
     USAID reported that more than 950,000 households have directly ben-
 efitted from IDEA-NEW, which resulted in over 46,000 full time jobs and
 $4.35 million in agricultural exports. However, oversight remains a chal-
 lenge. Site visits are a vital part of effective monitoring, but safety and site
 access are becoming more acute concerns as provincial reconstruction
 teams and foreign combat forces leave Afghanistan.426 SIGAR has consis-
 tently expressed concern about this constraint.

 Commercial Horticulture and Agricultural Marketing Program
 Commercial Horticulture and Agricultural Marketing Program (CHAMP), a
 $40.3 million program begun in 2010, aims to help farmers plant and operate




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                151
ECONOMIC AND SOCIAL DEVELOPMENT




more profitable orchards and vineyards. CHAMP works with farmers to
improve crop quality and promotes export and trade corridors. The pro-
gram also works with traders to improve harvesting, packing, cold storage,
and shipping methods.427
   Approximately 6,000 hectares of new commercial fruit orchards and
vineyards have been established through CHAMP assistance, benefitting
more than 18,000 farmers. As of March 30, 2013, USAID has obligated
$24.3 million and disbursed almost $23.3 million. However, insecurity con-
tinues to be CHAMP’s most acute challenge to full implementation and
material distribution. Insurgent groups threaten both CHAMP staff and
farmers, particularly in Kandahar, Helmand, Zabul, Wardak, Logar, and
Ghazni provinces.428


ESSENTIAL SERVICES/DEVELOPMENT
Since 2002, the United States has provided reconstruction funds to increase
electricity, build roads and bridges, and improve health and education. This
section addresses key developments in U.S. efforts to improve the govern-
ment’s ability to deliver essential services such as electricity, transportation,
health, and education.

Energy
This quarter, one energy-related NPP was approved—the National
Energy Supply Program (NESP). NESP is the third of four NPPs in the
Infrastructure Development cluster, which is comprised of infrastructure
investments, mineral resources development, and regional integration to
drive economic growth. It will be implemented in conjunction with the
Afghanistan Power Sector Master Plan. Through NESP, Afghanistan will
make priority investments in the power-supply chain, encourage public-
private partnerships and energy-sector reforms, and strengthen government
capacity and accountability to support its goal to increase its energy sup-
ply by 10% annually. Its three-year budget, beginning in January 2013, is
$3.48 billion, of which Afghanistan has secured $1.98 billion, leaving a short-
fall of almost a $1.49 billion. The portion of aid to be provided on-budget
has not been decided.429
   Electricity is critical to Afghanistan’s development. In collaboration with
the Afghan government and in alignment with their stated priorities, the
United States has made developing an integrated energy sector one of its
top reconstruction priorities since 2002. From 2002–2011, USAID alone has
provided close to $2 billion from the ESF to build generators, substations,
and transmission lines, and provide technical assistance to the sector. It
plans to spend at least $900 million more over the next few years.430 In addi-
tion, DOD has provided $292 million for electricity projects through CERP
and $530 million through the AIF, which is jointly managed by DOD and




 152                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.37



     USAID CURRENT & COMPLETED ENERGY‐SECTOR PROJECTS


                                                     UZBEKISTAN                                                     TAJIKISTAN
                                                          Future Sheberghan Gas Power Plant


               TURKMENISTAN                            JOWZJAN
                                                                        BALKH
                                                                                    KUNDUZ
                                                                                                 TAKHAR
                                                                                                          BADAKHSHAN



                                                                        SAMANGAN          BAGHLAN
                                            FARYAB     SAR-E PUL                                 PANJSHIR
                                                                                                         NURISTAN
                                 BADGHIS
                                                                                  PARWAN KAPISA        KUNAR
                                                                       BAMYAN
                                                                                               LAGHMAN
                                                                                            KABUL
                                                                              WARDAK
                                                                                                 NANGARHAR
                        HERAT
                                           GHOR                                       LOGAR
                                                       DAYKUNDI                                 PAKTIYA
                                                                           GHAZNI                   KHOWST


     IRAN               FARAH
                                                     URUZGAN
                                                                   ZABUL
                                                                                                                       PAKISTAN
                                                                                      PAKTIKA


                                 HELMAND
                       NIMROZ


                                                  KANDAHAR




                                                                                                             Energy Import Routes
                                            Kajaki Hydro Power Plant
                                                                                                             Existing Substation
                                                                                                             Existing Transmission Lines
                                                                                                             Projects in Progress


     Sources: Asian Development Bank, “TA7637 (AFG) Power Sector Master Plan,” 11/2012; USAID, response to
     SIGAR data call, “PTEC Dashboard,” 7/13/2012.




 State.431 This assistance has lifted the number of Afghans with access to
 electricity from 5% of the population in 2001 to 30% in 2012.432
    Afghanistan currently has nine separate power systems. The primary two
 are: the Northeast Power System (NEPS) and the Southeast Power System
 (SEPS). USAID has three projects to connect and increase the electricity
 supply in both systems, as shown in Figure 3.37.433

 Sheberghan Program
 USAID is implementing its part of the Sheberghan Program through two
 mechanisms: the $90 million on-budget Sheberghan Gas Development
 Project (SGDP), and the $35 million off-budget Sheberghan Gas Generation
 Activity.434 The Overseas Private Investment Corporation is backing financ-
 ing of a $300 million privately funded 200 MW gas-fired power plant; the
 Asian Development Bank (ADB) will support construction of the associated
 transmission lines.435




 REPORT TO THE UNITED STATES CONGRESS                              I   APRIL 30, 2013                                               153
ECONOMIC AND SOCIAL DEVELOPMENT




   Bidding for the drilling and rehabilitation of SGDP opened this quar-
ter; evaluations are in progress. The contract award is expected in June
2013. However, USAID noted the project scope is up to four wells. Drilling
companies view that as a job with a small return on investment given the
security and political risks.436
   In other developments at Sheberghan, TFBSO is assisting the MOMP to
tender operations of the compressed natural gas (CNG) station that TFBSO
funded and handed over to the MOMP in 2012. Private investors are being
sought for possible expansion of activities at the site. CNG is 50% cheaper
than gasoline, as well as cleaner; if taken to a scalable level, use of CNG
should reduce Afghanistan’s reliance on imported fuel.437 As of March 31,
2013, TFBSO has obligated $11.2 million and committed $345,000 toward
this effort.438

Kandahar-Helmand Power Project
The Kandahar-Helmand Power Project (KHPP), shown in Figure 3.38, con-
sidered an important element of the counterinsurgency strategy in southern
Afghanistan, is intended to simultaneously increase the power supply in
Kandahar and make it more accessible to the population. In 2010, USAID
awarded a $266 million contract to Black and Veatch to rehabilitate power
substations, upgrade the medium-voltage distribution system in Kandahar
City, install a third turbine at the Kajaki Dam, and design and install new die-
sel-powered generators. DOD is committed to funding the fuel for these and
other U.S. Army Corps of Engineers-installed generators through 2014 using
AIF. This fuel subsidy will be extended, but USAID expects it to decrease as
Afghanistan’s national utility, DABS, takes the required steps to secure the
revenue needed to sustain the fuel costs.439 As of March 15, 2013, USAID had
obligated $229.6 million of ESF funds for the KHPP, an increase of $90.1 mil-
lion from last quarter. Of that, $152.2 million had been disbursed.440




The turbine hall at the Kajaki hydroelectric station in Helmand Province currently has two
turbines like the one visible at left. U.S. aid will provide for installation of a much-needed
third turbine delivered in 2008. (State Department photo)



  154                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.38



     KANDAHAR-HELMAND POWER PROGRAM

                                                                     Musa Qala
                                                                                   Kajaki         KANDAHAR
                                                                                 Substation
                                                                                                   PROVINCE
                                                                   Tangi
                                                               Substation &
                                                                Distribution
                                                                           Rt. 611
                                                               Sangin
                                                                                       Ghorak

                                                                                                             Kandahar City
                                                                           Durai                              Distribution
                                                   Grishk                Junction                 Kandahar Upgrades
                                                                        Substation               Breshna Kot
                                                                                                 Substation
                                                                          HW1        Maiwand          Arghandat
                                                                                                         Kandahar
                                                   Lashkar                            Pushmool
                                                     Gah                                           Sherendam
                   Existing Substation                                                           Industrial Park

                   Proposed Substation
                   Existing Hydropower




     Source: USAID, response to SIGAR data call, “KHPP Dashboard,” 11/6/2012.




    In response to a request by President Karzai to President Obama dur-
 ing a January 2013 visit to Washington, DC, installation of a third turbine at
 Kajaki Dam has been descoped from the KHPP contract. Instead, USAID
 will provide $60–80 million of on-budget assistance through the MOF to
 DABS to install the turbine.441 On April 9, 2013, SIGAR announced a review
 of USAID’s plans for providing this direct assistance, its assessments of
 DABS’ capacity to manage it, and its measures to support DABS in manag-
 ing this money.442
    USAID is helping DABS advertise and award a contract for the turbine
 installation. This new implementation strategy will shift the timeline for
 completion to late 2015. The Black and Veatch contract, which includes
 technical assistance, expires on September 30, 2013, leaving little time for
 DABS to make progress on the installation before the contractor departs.443
 All other components of KHPP are expected to be completed by that date,
 according to USAID.444
    U.S. Forces-Afghanistan, the U.S. Army Corps of Engineers, and USAID
 are working closely on related power-infrastructure efforts within SEPS.
 KHPP has continued to encounter logistical difficulties this quarter. USAID
 reported a three-month delay in getting more than 100 shipping containers
 of equipment and supplies across the Pakistani border due to new customs
 rules, protests, and strikes. On the Afghan side of the border, it took eight
 weeks to repair 14 transformers damaged by thieves who stole copper com-
 ponents. Additionally, DABS lacks capacity in quality control, causing delays




 REPORT TO THE UNITED STATES CONGRESS                  I    APRIL 30, 2013                                            155
                                         ECONOMIC AND SOCIAL DEVELOPMENT




                                         in upgrading Kandahar power distribution. USAID is helping DABS staff
                                         strengthen its capabilities by involving them directly in expanding and main-
                                         taining the distribution system.445 Other project components proceed on or
                                         ahead of schedule, such as the replacement of 10.5 MW of diesel generation
                                         at the Breshna Kot substation, which was 68 days ahead of schedule.446

                                         Power Transmission Expansion and Connectivity Program
SIGAR AUDIT                              Power Transmission Expansion and Connectivity (PTEC), a U.S.-funded
                                         program designed to strengthen and expand the power-generation, trans-
This quarter SIGAR published an
                                         mission, and distribution systems, directly supports the National Energy
audit of U.S.-funded projects to help
                                         Supply Program of the Afghanistan National Development Strategy. The
commercialize DABS found that
                                         strategy calls for improving the collection rate against energy billings and
DABS-Kandahar, which is to assume
                                         increasing the supply of power.
responsibility for this portion of the
                                             A key component of PTEC is constructing a transmission line between
grid, has little capacity to acquire,
                                         Kabul and Kandahar to connect NEPS with SEPS. This 530 kilometer con-
operate, install, or manage systems
                                         nection, together with the rehabilitation of the Kajaki Hydropower Plant,
equipment independently. For more
                                         was identified in 2010 as the only viable, long-term solution to displace costly
information see Section 2, page 26.
                                         and unsustainable diesel-power generation in Kandahar with affordable and
                                         reliable power. PTEC will be implemented in stages. The ADB is responsible
                                         for the first 40 kilometer, Kabul–Arghandi substation connector. USAID will
                                         fund construction of the next 120 kilometer section from Arghandi to Ghazni
                                         through on-budget aid to DABS. USAID approved DABS’s bid-package solici-
                                         tation. Meanwhile, the U.S. Army Corps of Engineers is constructing the
                                         transmission line from Arghandi to Pul-e Alam and Gardez.447
                                             Some $417 million of PTEC’s total estimated cost of $814 million is
                                         being transferred on-budget to DABS through the multi-donor-funded
                                         Afghanistan Infrastructure Trust Fund (AITF), implemented by the ADB.
                                         The ADB established the AITF in December 2010, to allow bilateral, mul-
                                         tilateral, and individual contributors to partner with the ADB in financing
                                         infrastructure investments. USAID is working on the transfer agreement. In
                                         other developments, USAID approved and DABS released bid-solicitation
                                         documents for the DABS Capacity Building and Commercialization project,
                                         which is expected to be awarded in May 2013. USAID also helped design
                                         and develop bid packages for the Salang Tunnel substation, a high-voltage
                                         transmission line from Jalalabad to Hisar-e Shahi Industrial Park, and
                                         improvements to existing NEPS infrastructure.448

                                         DOD-Funded Programs
                                         This quarter, DOD continued implementing several priority energy-sector
                                         projects using FY 2012 and FY 2013 AIF money. These included:
                                         •	 the Kandahar Power Bridging Solution
                                         •	 Kandahar–Durai Junction transmission lines
                                         •	 Charikar–Bazirak and Charikar–Mahmood Raqi transmission lines and
                                            power substations




                                          156                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Kandahar Power Bridging Solution
 This project provides fuel for the diesel power generators in Kandahar City
 until the KHPP has been completed. FY 2012 funding remains at $79.8 mil-
 lion. The estimated FY 2013 cost is $100 million, which includes $90 million
 for fuel and $10 million for operations and maintenance (O&M).449 DOD
 plans to continue purchasing fuel and providing O&M support through
 FY 2015.450 It sees this electricity as critical to the counterinsurgency
 strategy to help stabilize Kandahar by supporting economic development
 and improving citizens’ quality of life. DOD said the Kandahar Bridging
 Solution is a central to the Afghanistan Electrification Plan and the State
 Department’s development plan for Afghanistan.451
    A July 2012 SIGAR audit of FY 2011 AIF projects found, in part, that until
 alternative fuel sources can be found to replace the diesel generators or
 increase the amount of fuel going to Kandahar City, there is no indication
 that the costs of the bridging solution will decrease.452

 Kandahar to Durai Junction Transmission Lines
 Part of the effort to expand SEPS, this project continues earlier efforts to
 install or repair transmission lines from Kandahar City to Durai Junction
 and to construct or repair substations at Maiwand and Pashmul. The proj-
 ect cost remains $40 million in FY 2012 funds, $115,000 of which has been
 disbursed, according to DOD’s FY 2012 End of Year AIF report to Congress.
 This transmission line will help address the need for reliable electricity in
 Afghanistan’s south and southeast and constitutes a key element for the
 larger PTEC project linking SEPS and NEPS.453 DOD’s goal is to promote
 economic growth, security, stability, and capacity-building efforts within
 DABS to improve the commercialization of power that will allow it to
 generate sufficient revenues to fund capital improvements to the grid.454
 Completion of this project is essential to distribute power generated by the
 third turbine awaiting installation at Kajaki Dam, according to DOD.455

 Charikar–Bazirak and Charikar–Mahmood Raqi
 Transmission Lines and Power Substations
 This project will install 52 kilometers of transmission lines from Charikar to
 Bazirak and from Charikar to Mahmood Raqi, and will build three substa-
 tions to expand NEPS. The $48 million allocated for the project was moved
 to FY 2013 with another $22 million added, for a total estimated cost of
 $71 million, according to a DOD notification to Congress. Annual estimated
 costs are $580,000.456 DOD told Congress the project will bring reliable
 electricity to 1.15 million Afghans across three provinces and help fuel pri-
 vate-sector growth, especially in the agriculture, processing, manufacturing,
 and mining sectors.
    DOD assumes that DABS will take over responsibility for national-
 grid O&M as well as for completed infrastructure improvements, and will




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013              157
ECONOMIC AND SOCIAL DEVELOPMENT




be able to sustain them with improved revenue sources and capacity.457
However, as noted above, SIGAR has raised questions about DABS’s capac-
ity, and other audits have said Afghanistan lacks the resources necessary to
fulfill O&M commitments.458

CERP Projects in the Electricity Sector
DOD also uses CERP funds to pay for small-scale electricity projects across
the country, such as installing generators, solar panel systems, and util-
ity poles. During the first quarter of FY 2013, funding for eight new CERP
electricity projects was obligated (valued at $56,312). The largest of these
new projects ($28,500) will repair power poles and power lines in Parwan
that were damaged by military vehicles, causing outages to 18 homes and a
mosque. This project will employ 45 citizens for 12 weeks.459


TRANSPORTATION
Afghanistan’s lack of transportation infrastructure continues to hinder
trade and economic growth.460 The country has one of the worst road
systems in the world. It has less than 100 miles of railroad, and is 2,000
kilometers from the nearest seaport—one of the longest distances from a
seaport among all landlocked developing countries.461 In addition, neigh-
boring countries often have incentives to make movement of Afghan goods
across their borders difficult.462
   Afghanistan’s infrastructure shortcomings are especially problematic
for the service and agriculture sectors, which currently contribute most to
GDP. They also hold back the extractives industry, whose future revenues
the Afghan government and international donor community are counting
on to supplement declining aid.463 According to a World Bank analysis,
restoring the transportation sector is imperative for economic recovery
and development.464 This quarter, the United States continued its efforts to
develop transportation laws, ministry capacity, and compliance with inter-
national standards.

Road
Most of Afghanistan’s 39,000 kilometers of roads need repair, according to
the World Bank, which said the country required an investment of $3 billion
to put Afghan roads in a maintainable state. The road network is scheduled
to expand to 46,000 kilometers in 2014.465
   The United States has funded road construction primarily through the
ESF and CERP. Since 2002, USAID has provided $2.1 billion to build roads
and bridges, with road and bridge building accounting for approximately
25% of all USAID spending in Afghanistan.466 According to USAID, these
projects have completed and helped maintain more than 2,000 kilometers
of roads.467




 158                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Community members discuss street-widening plans. (USAID photo)


    Donors have generally emphasized building and rehabilitating roads as
 opposed to carrying out O&M, according to the World Bank. Only $28 mil-
 lion was allocated in Afghanistan’s 2011/2012 core budget for O&M of roads
 and bridges, while an estimated $290 million was needed. That figure is
 expected to rise to $394 million in 2014. This severe underfunding of O&M
 threatens donor investments in the transportation sector.468
    USAID is planning to phase out investments in new road construction.
 Instead the agency will focus on sustainability by improving O&M, and
 by strengthening Afghan government capacity and institutional reform
 so that it can manage construction quality and operate its transportation
 infrastructure. It will do so with the assistance of the U.S. Department of
 Transportation, under its forthcoming Road Sector Sustainability (RSS)
 project, which will include a combination of off-budget and multi-donor
 on-budget assistance to help key ministries develop construction plans,
 specifications, and standards; vehicle operations oversight and regulation
 standards; and priority institutions, such as a Road Authority, Road Fund,
 and Transportation Institute.469
    RSS will address short-term needs through a $5 million, off-budget,
 emergency O&M account. In the medium term, there will be a $33 mil-
 lion, on-budget road O&M program to be implemented through the ADB’s
 AITF, as well as a $33 million effort to build the Ministry of Public Works’
 capacity for oversight and management. In the long term, RSS will provide
 $35 million in technical assistance for the Road Authority, Road Fund,
 and Transportation Institute. The AITF will make funding for new road
 construction conditional on the Afghan government’s ability to adequately
 maintain existing facilities.470




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             159
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                 In addition, DOD uses CERP funds on road construction projects to sup-
                                              port its mission. More than $509 million of CERP had been spent on road
                                              projects in Afghanistan since 2005; 44 projects worth $44 million are ongo-
                                              ing at this time.471 During the first quarter of FY 2013, 11 new CERP-funded
                                              road construction projects were obligated (valued at $830,249). The largest
                                              of these new projects was an emergency repair to a highway in Paktika that
                                              is critical to the flow of commerce in that province.472
                                                 In its January 2013 report to Congress on the implementation of the
                                              Afghanistan Infrastructure Program, DOD reported one ongoing road
                                              project using FY 2011 funds (valued at $22 million) and two using FY 2012
                                              funds ($45.6 million).473 DOD relinquishes responsibility for inspecting and
                                              maintaining roads it has built once they are handed over to the Afghan gov-
                                              ernment. If maintenance or reconstruction is required, the government can
                                              apply for CERP funds through the standard application process.474

                                              Rail
                                              The United States and its international partners have been helping
                                              Afghanistan develop its rail sector, with the goal of building a profitable
                                              and sustainable system. Currently, Afghanistan has no meaningful railroad
                                              development, operational experience, or capacity. Only one completed
                                              rail line exists—a 75 kilometer line from Hairatan, on the border with
                                              Uzbekistan, to Mazar-e-Sharif.475
                                                 U.S. assistance includes helping the Ministry of Public Works stand up
                                              the Afghan Rail Authority and develop a national railway plan. U.S. work
                                              has also included assessments of several railroad “ports” or cargo-handling
                                              areas with roads, ramps, equipment, and structures.476 A DOD-funded
                                              Afghanistan National Rail Plan (ANRP) feasibility study is ongoing. A U.S.
                                              government working group as well as officials from the Ministry of Public
                                              Works and Ministry of Mines and Petroleum reviewed drafts of the data,
A policeman patrols alongside a new           models, and analysis in the study. The final report is scheduled to be pub-
railway track in northern Afghanistan. (AFP
                                              lished in July 2013.477
photo)
                                                 On March 20, 2013, Afghanistan signed a memorandum of understanding
                                              with Turkmenistan and Tajikistan to build an interlinking rail line, provid-
                                              ing increased trade and export opportunities. The proposed 400 kilometers
                                              line will connect Atamurat-Ymamnazar in Turkmenistan to Akina-Andkhoy
                                              in Afghanistan, then proceed to Pyandzh, Tajikistan, through Sherkhan rail
                                              port in Kunduz province. The memorandum calls for construction to begin
                                              in Turkmenistan by July 2013.478


                                              EDUCATION
                                              Since 2002, USAID has supported education through aid for building schools,
                                              developing curricula, and conducting training. USAID’s ongoing priority pro-
                                              grams in the Education sector funded through the ESF this quarter include:




                                               160                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 •	 Basic Education, Literacy, and Technical-Vocational Education and
    Training (BELT)
 •	 Higher Education Project (HEP)
 •	 American University of Afghanistan (AUAF)

 Basic Education, Literacy, and Technical-Vocational
 Education and Training
 Basic Education, Literacy, and Technical-Vocational Education and Training
 (BELT) is a three-year (December 2011–October 2014), $173 million on-
 budget program that aims to improve access to quality basic education in
 communities typically beyond the reach of the government. The program
 provides technical-vocational education and training, as well as literacy
 programs. As of March 31, 2013, USAID obligated $20 million and of that,
 disbursed approximately $4.7 million.479
    Technical Vocational Education and Training (TVET) is a forthcom-
 ing component of BELT. Its objective will be to provide quality education
 and training to Afghan children and youth to make them more employ-
 able, especially girls in rural and remote areas. USAID and the Ministry of
 Education have agreed on a set of performance milestones that, if reached,
 will trigger on-budget disbursement of funds. USAID expects to sign an
 implementation letter for funding in May 2013, and identify TVET schools
 by the end of 2013.480 The implementation letter will spell out the perfor-
 mance milestones, means of verification, and the funding level associated
 with each milestone. USAID will establish the number and criteria for
 selecting participating schools in the program, but selection will be by the
 Ministry of Education.481
    BELT TVET is another on-budget component of this effort to build the
 quality and professionalism of TVET educators. It aims to provide graduate,
 secondary, and post-secondary students with accredited, certified skills, and
 will set up a national accreditation system for and equivalency for TVET in
 the Ministry of Education.482

 Higher Education Project
 Since the Higher Education Project (HEP) project began in 2006, it has
 successfully supported the Ministry of Higher Education execute its
 National Higher Education Strategic Plan, according to USAID. HEP’s latest
 phase, scheduled to end in August 2013, provides technical assistance to
 increase ministry capacity through professional training, quality assurance
 and accreditation, curriculum review, university partnerships, academic
 policies, and regulation. USAID said that as it operates in an environ-
 ment replete with logistical and security challenges, HEP does not have
 significant outcome data to quantify its impact. However, USAID is con-
 sidering an evaluation design for the follow-on HEP (2013–2017) that will
 include greater attention to outcome measures and data collection.483 As




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             161
ECONOMIC AND SOCIAL DEVELOPMENT




U.S. Ambassador James Cunningham speaks at an American University of Afghanistan
convocation about U.S. support of higher education and the new International Center for
Afghan Women’s Economic Development. (State Department photo)

of March 31, 2013, USAID had obligated $21.2 million toward HEP and dis-
bursed $12.4 million, representing no change since last quarter.484

American University of Afghanistan
This five-year (August 2008–July 2013), $42 million program is designed
to support development of American University of Afghanistan’s (AUAF)
English-language undergraduate and continuing-education programs, with
a concentration on liberal arts. Undergraduate degrees include business
administration, information technology and computer science, political sci-
ence and public administration, and mass communication. AUAF also offers
a master’s degree in business administration. As of March 31, 2013, USAID
had obligated $39.6 million and disbursed $37.6 million toward this effort,
representing no change since last quarter.485


LABOR
Assessing the transition’s impact on Afghanistan’s labor market is difficult
given the limited and inconclusive available data, according to the World
Bank. 2009 figures showed just 6.8% of Afghans unemployed, but more than
48% were underemployed (working fewer than 35 hours a week, on aver-
age). Conflict-affected provinces faced less unemployment than non-conflict
ones, but had higher underemployment. The World Bank surmised this was
caused by short-term job opportunities created by provincial reconstruction
teams in those areas.486

Labor Market Surveys
SIGAR has previously noted the generally poor quality of Afghanistan’s
higher-education curriculum. USAID is working with the Afghan govern-
ment and others to help the country’s public-sector technical schools
provide training for the skills needed to meet business and industry require-
ments. In 2012, USAID started aligning Afghanistan’s education goals with




  162                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 industry needs through a series of labor-market surveys of small- and
 medium-sized enterprises in six urban areas. USAID planned to conduct
 four surveys over a two-year period; two were completed. USAID reported
 this quarter that the third survey did not occur because the contract was
 descoped and a close-out letter was issued to the implementing partner.487

 Afghanistan Workforce Development Program
 USAID’s Afghanistan Workforce Development Program (AWDP) aims to
 offer access for 25,000 Afghan men and women to labor-market-driven
 vocational education and training, business-development support, busi-
 ness-management training programs, financial credit, and job-placement
 services. AWDP is trying to mitigate high unemployment and the scarcity of
 technically skilled Afghan labor and trained Afghan business managers. The
 goal of the program is to facilitate job creation, develop a skilled workforce
 at mid-career and semi-professional levels, increase self-employment, and
 promote economic growth in Afghanistan.488
    The AWDP is also supporting efforts to build the capacity of technical/
 vocational educators and trainers. AWDP seeks to both improve the quality
 of these training programs through public-private partnerships, and make
 them more accessible. As of January 31, 2013, the AWDP expended approxi-
 mately $3.7 million of the $5 million originally obligated to the program. On
 March 10, 2013, an additional $6.7 million was allocated to AWDP for a total
 of $11.7 million.489


 HEALTH
 No sector has benefited more from Afghanistan’s reconstruction than the
 health sector. Afghanistan has experienced extraordinary improvements
 in its health indicators since 2002. Although the country still has one of
                                                                                   SIGAR AUDIT
 the highest mother-and-child mortality rates in the world, life expectancy        A SIGAR audit released this quarter
 has improved by as much as 15–20 years according to the USAID-funded              questioned Afghanistan’s ability to
 Afghanistan Mortality Study 2010.490 Although National Public Radio               financially sustain two new USAID-
 reported that some experts who worked on the survey question the validity         funded hospitals under construction and
 of its results, USAID remains confident in the data and has not revised it.491    appropriately staff five existing USAID-
    From FY 2002 through FY 2011, U.S. on-and-off budget assistance to             funded provincial hospitals. For more
 Afghanistan’s health sector totaled $926 million, as shown in Figure 3.39 on      information, see Section 2, page 28.
 the following page.492 On-budget assistance to the MOPH includes salary
 payments to workers in U.S.-funded facilities, medical and non-medical sup-
 plies, in-service training, minor renovations of facilities, medical equipment,
 and monitoring and supervision. Off-budget assistance comprises pharma-
 ceuticals and contraceptives.493
    Out of the more than 1,970 primary health-care facilities in
 Afghanistan, the United States funds 545 across 13 provinces, including
 27 non-provincial hospitals. The United States also funds tertiary care in




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013               163
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                           FIGURE 3.39

                                           USAID FUNDING TO HEALTH SECTOR FY 2002–FY 2011, ON- AND OFF-BUDGET ($ MILLIONS)

                                           $160
                                                                                                                                                     $152
                                                                                                                                          $146




                                           $120
                                                                                      $111               $113         $113


                                                                                                                                $92
                                                                            $83
                                            $80                                                                                                       $73

                                                                 $56
                                                                                                  $52                                      $51

                                            $40                                                                                $36
                                                                                                                      $27


                                                      $8
                                                                                                          $4
                                                                                      $0.11      $0.12
                                              $0
                                                      2002       2003       2004        2005      2006    2007        2008      2009       2010       2011

                                                   On- and Off-Budget Total Obligations: $926,000,000             On-Budget Total Obligations: $190,286,910


                                           Note: Numbers have been rounded.
                                           Source: USAID, responses to SIGAR data call, 4/11/2013 and 4/1/2013.




                                           five provincial hospitals and one national hospital, as shown in Figure
                                           3.40.494 According to USAID, 60% of Afghans are now within one hour’s
                                           walk from a health-care facility.495
                                              In 2002, the MOPH, with the help of the international community, devised
SIGAR INSPECTION                           a strategy to deliver a basic package of health services (BPHS) that encom-
                                           passes cost-effective interventions aimed at vulnerable populations. It does so,
A SIGAR inspection this quarter found      in part, by contracting out the delivery of local health services to nongovern-
the CERP-funded Qala-I-Muslim Medical      mental organizations (NGOs) so that the ministry can focus on Afghanistan’s
Clinic in Kabul to be well-sustained and   national healthcare system. NGOs are currently working in 31 of Afghanistan’s
serving its 4,000-member community         34 provinces. MOPH staff provides services in the remaining three.496
effectively. More than 1,500 patients         Under the BPHS, Afghanistan’s primary health care system comprises six
have been treated since opening            types of facilities, described here from most basic to most extensive:
in 2011. For more information, see            Health Posts are community extensions of primary health care facili-
Section 2, page 38.                        ties, ideally staffed by three volunteer community health workers—two
                                           male and one female—who deliver limited services out of their homes to
                                           an area of 1,000–1,500 people. Services include diagnosis and treatment
                                           of malaria, family planning, and nutrition supplements and counseling.
                                           The workers also treat minor illnesses and identify disabilities and mental




                                             164                            SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.40

 U.S.-FUNDED TERTIARY CARE HOSPITALS




                                                                                     UZBEKISTAN                                                           TAJIKISTAN


                                                                                                                                    Faizabad
                                                                                                                                                                                  CHINA
                            TURKMENISTAN                             JOWZJAN                              KUNDUZ           BADAKHSHAN
                                                                                        BALKH
                                                                                                                     TAKHAR

                                                                                             SAMANGAN
                                                        FARYAB                                              BAGHLAN
                                                                        SAR-E PUL
                                                                                                                      PANJSHIR      NURISTAN
                                            BADGHIS
                                                                                       BAMYAN               PARWAN       KAPISA        KUNAR
                                                                                                                               LAGHMAN
                                                                                                                  KABUL
                      HERAT                                                                          WARDAK                      NANGARHAR
                                                         GHOR
                                                                                                                 LOGAR
                                                                         DAYKUNDI                  Ghazni            PAKTIYA
                                                                                              GHAZNI            Gardez KHOWST
                                                                                                                      Khowst
                                                                      URUZGAN                                   Sharana                        PAKISTAN
                           FARAH
                                                                                                         PAKTIKA
                                                                                    ZABUL




                          NIMROZ                                                                                                 Provincial and National Hospitals
    IRAN                                   HELMAND
                                                              KANDAHAR
                                                                                                                                 PCH Supports BPHS and EPHS Health Facilities

                                                                                                                                 PCH Supports BPHS Health Facilities

                                                                                                                                 Other Donors Support BPHS and EPHS Health Facilities




 Note: Tertiary care is specialized consultative care in a center that has personnel and facilities for special investigation and treatment.
 Sources: USAID, response to SIGAR data call, 4/11/2013; USAID, "Partnership for Contract Health, Fact Sheet," 1/2013, accessed 4/16/2013; Johns Hopkins Medicine, "Tertiary Care
 Definition," accessed 4/19/2013.




 conditions. Female community-health workers promote pregnancy and
 birth preparedness and basic essential newborn care.497
    Health Sub-Centers are temporary health centers that offer services at
 levels between health posts and other BPHS facilities. Health Sub-Centers
 (HSC) provide care to underserved, rural populations of 3,000–7,000 people.
 They are run out of private houses and should be no more than a two-hour




 REPORT TO THE UNITED STATES CONGRESS                          I   APRIL 30, 2013                                      165
ECONOMIC AND SOCIAL DEVELOPMENT




walk for patients. HSCs are potential precursors for more permanent facili-
ties depending on established need and community commitments. Services
include health education, immunization, antenatal care, family planning,
tuberculosis detection, referral and follow up, and diarrhea and pneumonia
treatment. HSCs are staffed by a male nurse and a community midwife, as
well as a cleaner/guard.498
    Basic Health Centers provide primary outpatient care, including immu-
nizations, antenatal, delivery, postpartum and newborn care, nonpermanent
contraception, integrated management of childhood illnesses, malaria
and tuberculosis treatment, identification of disabilities and mental condi-
tions, and issues referrals and follow-up care. Basic Health Centers (BHC)
supervise the activities of the health posts in their area of responsibility,
comprising 15,000–30,000 people, depending on location. Minimum staffing
requirements are one nurse, one community midwife, and two vaccinators.499
    Mobile Health Teams are extensions of BHCs that provide the same
services to small, remote communities. Mobile Health Teams are comprised
of one male doctor or nurse, one female community midwife or nurse, a
vaccinator, and a driver.500
    Comprehensive Health Centers offer a greater range of services than
BHCs. They can handle complications during childbirth, serious child-
hood disease, difficult cases of malaria, and outpatient mental health care.
Comprehensive Health Centers have a larger staff than a BHC, including
male and female doctors and nurses, midwives, one psychosocial counselor,
as well as laboratory and pharmacy technicians. Physiotherapists from the
district hospital visit on an outreach basis.501
    District Hospitals handle all BPHS services, including major surgery,
x-rays, emergency obstetric care, sterilizations, comprehensive mental-
health care, and physiotherapy rehabilitation. District hospitals offer a
wider range of essential drugs, treatment of severe malnutrition, and labo-
ratory services. They are staffed with female obstetricians/gynecologists,
a surgeon, a pediatrician, an anesthetist, a mental-health doctor, psychoso-
cial counselors/supervisors, midwives, laboratory and X-ray technicians,
a pharmacist, a dentist and dental technician, and two physiotherapists
(male and female). Each district hospital accommodates between 100,000
and 300,000 people.502
    USAID’s highest-priority programs in the health sector this quarter include:
 •	 Partnership Contracts for Health (PCH) Services
 •	 Health Policy Project (HPP)
 •	 Leadership, Management, Governance Project (LMG)

Partnership Contracts for Health Services
A five-year (2008–2013), $218 million on-budget program, Partnership
Contracts for Health (PCH) supports the MOPH’s efforts to provide the
BPHS and the Essential Package of Hospital Services across Afghanistan.




 166                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 As noted on page 163, the United States is supporting 545 of these health
 facilities. A SIGAR audit this quarter assessed Afghanistan’s ability to sus-
 tain two PCH hospitals under construction and staff the five provincial ones
 funded by USAID. The audit found that USAID did not assess the MOPH’s
 ability to operate and maintain these facilities once completed, and some
 provincial hospitals are experiencing staffing shortages in key medical
 positions. As of March 30, 2013, USAID had obligated $190.3 million to this
 program and disbursed $121.3 million.503
    PCH delivers health care ranging from basic to highly specialized diag-
 nostic and treatment services. It also supports Community Midwifery
 Education (CME) contracts, which help reduce both maternal and child
 mortality. This quarter, 136 CME students graduated and most deployed to
 health facilities, 17 non-governmental organization contracts were extended
 to December 20, 2013, and a second round of CME contracts are being
 procured. USAID reported several challenges to better program implemen-
 tation, including insecurity, an increasing unavailability of air transportation
 to monitor activities in kinetic areas, political interference in PCH priorities,
 and shortages of female health staff at all levels.504

 Health Policy Project
 The Health Policy Project (HPP), an 18-month (June 2012–November
 2013), $18 million program, is building MOPH capacity to address basic
 health needs through public-private partnerships. As of March 31, 2013,
 USAID had obligated $8.8 million to the program. HPP works to expand
 private-sector capacity to deliver high-quality services, improve HIV care
 and prevention policies, and promote behavioral change through social
 media marketing. Accomplishments of the HPP include fully staffing a
 Public Private Partnership Unit within the MOPH, completing an assess-
 ment of Jumhoriat Hospital’s commercial viability and value, and providing
 technical assistance to the Afghanistan Social Marketing Organization’s
 board of directors. Challenges to implementation include insecurity in
 provinces, the lack of a legal framework governing public-private part-
 nerships, and private industry’s difficulty in navigating the bureaucratic
 morass of the Afghan government.505

 Leadership, Management, Governance Project
 The 18-month (September 2012–February 2014), $25 million Leadership,
 Management, Governance (LMG) Project works with the MOPH and the
 Ministry of Education, at both the provincial and central level to build lead-
 ership, management, and governance capacity within Afghanistan’s health
 and education systems. It also aims to improve transparency and account-
 ability within the MOPH and helps both ministries manage on-budget
 assistance. As of March 31, 2013, USAID had obligated $16.3 million and
 disbursed $2.5 million for the program.506




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 167
ECONOMIC AND SOCIAL DEVELOPMENT




   USAID reported this quarter that all 14 LMG participatory hospitals
have gone from controlling no part of their budgets to managing 76–100%.
The agency also said these facilities established management committees
and formed four provincial maternal and child health committees. The
MOPH developed governance guides and an assessment tool for provin-
cial and district health coordination, and trained all 74 departments at
the ministry on standardized reporting techniques. USAID reported no
specific security threats to the program on a provincial level, but stressed
the need to monitor potential security vacuums in some communities
once U.S. forces withdraw.507


PRIVATE SECTOR DEVELOPMENT
The United States is supporting private-sector development through the
ESF, TFBSO, and CERP. USAID’s priority economic-growth projects, funded
through the ESF, include:508
•	 Assistance in Building Afghanistan by Developing Enterprises (ABADE)
•	 Economic Growth and Governance Initiative (EGGI)
•	 Trade Accession and Facilitation for Afghanistan (TAFA) I and II

Assistance in Building Afghanistan by Developing Enterprises
USAID’s newly initiated, $105 million Assistance in Building Afghanistan by
Developing Enterprises (ABADE) program is focused on helping produc-
tive, Afghan-registered, small-to-medium enterprises add jobs, increase
investment, and improve sales of domestic products and services. ABADE
will support private-sector businesses that offer the best leverage and
opportunity for sustained economic growth. Last quarter, ABADE hired
staff and finalized its work plan and performance metrics.509 In this report-
ing period, ABADE held a formal inaugural event and conducted road
shows in Kabul, Jalalabad, Herat, and Mazar-e-Sharif to reach out to poten-
tial business partners.510

Economic Growth and Governance Initiative
The $92 million Economic Growth and Governance Initiative (EGGI) pro-
gram aims to strengthen government capacity to conduct more effective
public financial management. It provides assistance for national budget-
ing, tax administration, and revenue generation. It also provides Women in
Government internships to increase women’s civil-service participation to
30%, which is the Millennium Development Goal. As of January 31, 2013,
208 women had graduated the internship program in FY 2012, of whom 76%
found full-time employment.511
   EGGI continues to face implementation challenges. Its provincial bud-
geting component has been descoped from the program as of March 2013.
Afghanistan’s civil service commission has still not finalized changes to its




 168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 recruitment procedures, which, once complete, will require the Women in
 Government internship program to realign its efforts to adhere to any new
 requirements. EGGI also faces funding constraints.512

 Trade Accession and Facilitation for Afghanistan I and II
 Parts I and II of Trade Accession and Facilitation for Afghanistan (TAFA), at
 a combined cost of $83 million, are designed to generate economic growth,
 trade, and investment by improving the conditions for international trade
 and transit for both the government and private sector. TAFA assists the
 Afghan government in three areas: trade-policy liberalization, customs
 reform, and trade facilitation. TAFA promotes the New Silk Road initiative
 by facilitating Afghanistan’s accession to the World Trade Organization,
 developing bilateral and regional trade agreements, and streamlining
 customs and export procedures. As of March 30, 2013, approximately
 $19.8 million has been obligated to TAFA II and $4 million expended.513
    This quarter, TAFA worked with the Afghan Customs Department to
 streamline and standardize customs procedures at six Inland Customs
 Depots and at Kabul International Airport. TAFA efforts strengthened
 risk management controls and helped improve the Automated System for
 Customs Data (ASYCUDA) at these locations, potentially saving the Afghan        The ASYCUDA software is used in more than
 government $90 million–$100 million annually. In addition, TAFA is provid-      80 countries as the basis of a compre-
 ing assistance to the Da Afghanistan Bank and the MOF in their efforts to       hensive, integrated customs information
 implement an electronic-payment system of customs duties and taxes to           system. Computerization strengthens
 help combat corruption.514                                                      customs administration by accelerating cus-
    Also this quarter, TAFA initiated a month-long risk-management train-        toms clearance and simplifying procedures,
                                                                                 helping countries facilitate trade.
 ing program for Afghan customs officials at Kabul International Airport.
 Training focused on best practices to inspect high-risk cargo while allow-      Source: UNCTAD, “What is ASYCUDA,” accessed 4/3/2013.

 ing legitimate trade to flow expeditiously. According to USAID, initial
 risk-management results show a marked increase in infraction reporting,
 which helps determine a trader’s risk level. Traders with infractions are
 targeted with more inspections, while law-abiding traders are rewarded
 with fewer.515
    A TAFA review of its streamlining efforts in 2012 found the number of
 customs-clearing steps dropped from 23 to 12, on average, saving traders
 over $40 million in time and money.516 Additionally, U.S. assistance to the
 customs department reduced the overall customs-processing time from
 24 hours in 2011 to seven in 2012. Despite these successes, USAID noted
 that the customs department is in the midst of shifting positions, which
 occurs every six to 12 months, challenging TAFA progress and Afghan
 capacity-building efforts. Furthermore, TAFA has still not reached an
 agreement with the Afghan government on composition of future assis-
 tance under the Strategic Objective Agreement. This, in turn, has caused
 delays in TAFA receiving its allocated funding, and threatened its ability
 to provide timely services.517




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             169
ECONOMIC AND SOCIAL DEVELOPMENT




   In other private-sector developments this quarter, USAID moved forward
on a Global Development Alliance (GDA) with the Aga Khan Foundation, a
large non-profit development organization based in Geneva. On March 24,
2013, USAID awarded a collaboration agreement to the Aga Khan
Development Network for implementing a business incubator, investment-
fund project called the Multi-Input Area Development (MIAD) GDA.518 This
$60.9 million, 5-year, off-budget program will begin in May 2013. It will
leverage private-sector investment to help fund sustainable social and eco-
nomic development in Badakhshan province. The program will have two
components: a MIAD financing facility, which will invest in small-, medium-,
and large-scale enterprises that will serve as economic drivers; and a MIAD
social-development trust fund that will provide block grants to district-level
government for rural development, social service delivery, and local govern-
ment capacity-building activities.519
   USAID will contribute $7.5 million to the MIAD financing facility, while
the Aga Khan Foundation will provide $22.5 million in mobilized capital.
USAID will contribute $22.5 million to the MIAD trust fund, with the Aga
Khan Foundation paying $7.5 million. USAID’s first-year program funding
will cap out at approximately $5.5 million.520
   The Aga Khan Foundation will conduct routine monitoring of program
implementation and outcome/impact assessments. USAID will closely mon-
itor these assessments and conduct site visits to confirm results. USAID
will also develop a performance-monitoring plan that includes performance
and impact indicators such as the percentage of profits from economic driv-
ers returned to the social-development trust fund; the net present value of
economic drivers to Afghan beneficiaries; and the number of Badakhshan
residents benefiting from social-development projects.521

Task Force for Stability and Business Operations
In addition to helping the Afghan government develop natural resources,
TFBSO has supported private-sector initiatives. TFBSO awarded the American
University of Afghanistan a $5 million grant to fund construction of a 5,500
square meter, state-of-the-art International Center for Afghan Women’s
Economic Development on its campus in Kabul. The Center is scheduled to
open April 2013 and will lead and coordinate international and Afghan public-
and private-sector efforts to advance women’s role in economic growth.522
   TFBSO also sourced and conducted due diligence on 50 companies
this quarter, bringing the total number of companies assessed to 650, as of
March 31, 2013. TFBSO also helps carpet, jewelry, and cashmere producers
and other indigenous Afghan businesses meet international standards and
access international markets.523




 170                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 TRADE
 Given Afghanistan’s geographic position between South and Central Asia,
 regional economic integration, as called for in the New Silk Road initiative,
 could net it substantial customs revenues, according to a Congressional
 Research Service report. But despite the Central Asian countries’ long-
 standing interest in a moderate and stable Afghanistan, the United States
 has not succeeded in its efforts to convince all of Afghanistan’s neighbors
 to put the country’s stability in the region above their particular interests.524
 Tolo News reported in February that Pakistan fined Afghan traders $50 mil-
 lion for approximately 3,700 containers that were held up by Pakistani
 authorities for 85 days in the Port of Karachi. These delays disrupt the free
 flow of goods and add fuel and transportation costs for Afghan traders.525
    On February 27, 2013, officials from the United States and Afghanistan
 met in Washington, DC, to evaluate progress under the United States-
 Afghanistan Trade and Investment Framework Agreement signed in 2004.
 Discussions included an introduction to the U.S. Generalized Systems of
 Preferences, Afghanistan’s accession to the World Trade Organization,
 and intellectual-property rights, as well as sector-specific investment chal-
 lenges and impediments to greater trade and investment flows between the
 two countries.526


 COMMUNICATIONS
 Afghanistan’s private-sector-led telecommunications sector is growing rap-
 idly, and is one of the country’s economic success stories.527 In 2010/2011,
 telecom contributed 45% of total tax revenue and is expected to continue
 driving economic growth and development next year.528
    As of March 9, 2013, USAID has allocated and disbursed almost $15.2 mil-
 lion, on-budget, to the Ministry of Communications and Information
 Technology (MCIT) for two projects—the District Communications
 Network and the Policy Capacity Initiative, both of which have ended.
 USAID is not providing any ongoing assistance to MCIT.529
    According to UNAMA, the Afghan government is planning to either
 launch its own communications satellite into space through a competitive
 bidding process or link to an existing satellite. Three international compa-
 nies submitted proposals to the government, but the official bidding process
 has not yet begun. The winner would be responsible for all costs, which
 would be recouped through service charges.530




 REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                 171
4   OTHER AGENCY
    OVERSIGHT




        173
                                              CONTENTS
                                              OTHER AGENCY OVERSIGHT CONTENTS

                                              Completed Oversight Activities	         176
                                              Ongoing Oversight Activities	           182




Photo on previous page
Afghan soldiers and police, supported by Spanish troops and ISAF elements, lead an
operation against insurgents in the Murghab Valley in Badghis province, April 2013.
(DOD photo courtesy of Spanish Army)




                                                174
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DOD OIG)
 •	 Department of State Office of Inspector General (State OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             175
                                                               OTHER AGENCY OVERSIGHT




                                                               COMPLETED OVERSIGHT ACTIVITIES
                                                               Table 4.1 lists the nine oversight projects related to reconstruction that par-
                                                               ticipating agencies reported as completed this quarter.
TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2013
 Agency          Report Number             Date Issued               Project Title
                                                                     Policies and Procedures Needed to Reconcile Ministry of Defense Advisors Program Disbursements to
 DOD OIG         DODIG-2013-062            3/28/2013
                                                                     other DOD Agencies
                                                                     Assessment of U.S. Efforts to Develop the Afghan National Security Forces Command, Control, and
 DOD OIG         DODIG-2013-058            3/22/2013
                                                                     Coordination System
                                                                     Oversight of U.S. Military and Coalition Efforts to Improve Healthcare Conditions and to Develop
 DOD OIG         DODIG-2013-053            3/13/2013
                                                                     Sustainable Afghan National Security Forces Medical Logistics at the Dawood National Military Hospital
                                                                     Inadequate Contract Oversight of Military Construction Projects in Afghanistan Resulted in Increased
 DOD OIG         DODIG-2013-052            3/8/2013
                                                                     Hazards to Life and Safety of Coalition Forces
 DOD OIG         DODIG-2013-040            1/31/2013                 Critical Information Needed to Determine the Cost and Availability of G222 Spare Parts
 DOD OIG         DODIG-2013-037            1/15/2013                 Quality Controls for the Rotary Wing Transport Contracts Performed in Afghanistan Need Improvement
 DOS OIG         AUD/MERO-13-20            3/2013                    Review of Emergency Action Plan-Embassy Kabul
 GAO             GAO-13-218-sp             2/11/2013                 Afghanistan: Key Oversight Issues
                                                                     Military Personnel: DOD Has Taken Steps to Meet the Health Needs of Deployed Servicewomen but
 GAO             GAO-13-182                1/29/2013
                                                                     Actions are Needed to Enhance Care for Sexual Assault Victims

Sources: DOD OIG, response to SIGAR data call, 3/22/2013; DOS OIG, response to SIGAR data call, 3/22/2013; GAO, response to SIGAR data call, 3/25/2013; USAAA, response to SIGAR data
call 3/21/2013; USAID OIG, response to SIGAR data call, 3/21/2013.



                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DOD OIG issued four reports related to Afghanistan
                                                               reconstruction.

                                                               Policies and Procedures Needed to Reconcile
                                                               Ministry of Defense Advisors Program Disbursements
                                                               to Other DOD Agencies
                                                               (Report No. DODIG-2013-062, Issued March 28, 2013)
                                                               This is the second in a series of reports on the Ministry of Defense Advisors
                                                               (MODA). In this current report, DOD OIG identified that MODA program
                                                               officials did not develop adequate controls over the distribution of funds to
                                                               other DOD agencies for deployed civilians’ premium pay, backfill, and train-
                                                               ing costs. Instead, program officials relied on other DOD agencies to ensure
                                                               $19.3 million in estimated costs for 118 military interdepartmental purchase
                                                               requests (MIPR) issued in FY 2010 to FY 2012 were adjusted to the final pay-
                                                               ment amounts.
                                                                  This occurred because MODA program officials did not develop and
                                                               implement policies and procedures to obtain actual-cost data, perform
                                                               reconciliations, and adjust final payments made to DOD agencies. As a
                                                               result, for $3.6 million disbursed through 56 MIPRS, MODA program offi-
                                                               cials potentially overpaid 9 MIPRs by $124,195, and potentially underpaid




                                                                  176                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




13 MIPRs by $318,892. The remaining 34 MIPRs did not require adjustment.
Without taking corrective action, MODA program officials risk augment-
ing MODA’s or other DOD agencies’ appropriations, which could result in
Antideficiency Act violations.

Assessment of U.S. Efforts to Develop the Afghan National
Security Forces Command, Control, and Coordination System
(Report No. DODIG-2013-058, Issued March 22, 2013)
The DOD OIG identified that U.S. efforts to develop an effective ANA
command, control, and coordination system have yielded a foundational
Command and Control capability. The extensive and on-going U.S. and
Coalition effort to develop security sector capacity in Afghanistan had
produced a marginally sufficient Afghan National Army (ANA) Command
and Control System that was adequately resilient, coherent, and capable of
transitioning to Afghan lead in plans and operations by 2014. However, the
capacity for sustained continuity of an effective ANA command and con-
trol system was fragile and remained highly dependent upon required ISAF
enablers and secondarily, upon external factors that could diminish the
effectiveness of its foundational command and control capacity.
•	 International Security Assistance Force (ISAF) enablers are those
   capabilities that are force multipliers permitting successful combat
   operations. Required enablers after 2014 are still being identified, but
   will include intelligence, surveillance, and reconnaissance capabilities
   with an analysis capability, counter-IED technology and mine clearance
   assets, (indirect and aerial) fires capability, ground and air mobility, and
   logistics sustainment.
•	 External factors that may impact upon the ANA command and control
   system included the need to improve upon:
      •	 internal Afghan governance capacity at the province and district level,
      •	 recurring border issues with Pakistan, minimizing corruption,
         reliance upon the Afghan National Police for local security, and
         ensuring a means to pay police and soldiers.

Oversight of U.S. Military and Coalition Efforts to Improve
Healthcare Conditions and to Develop Sustainable Afghan
National Security Forces Medical Logistics at the Dawood
National Military Hospital
(Report No. DODIG-2013-053, Issued March 13, 2013)
This is the fourth in a series of reports published by the DOD OIG that
focus on the development of a sustainable medical logistics and healthcare
capability in support of the Afghan National Security Forces (ANSF). In this
current report, the DOD OIG noted 11 examples where progress had been
made in the areas of planning; development of ANSF healthcare standards,
including development of a tool to evaluate the hospital’s achievement




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                177
OTHER AGENCY OVERSIGHT




and compliance with these standards; focused pre-deployment training for
U.S. medical advisors; and initiatives to improve the treatment of patients
and the healthcare management at the Dawood National Military Hospital
(NMH), including hospital sanitation, accountability of staff, and medical
logistics support.
   Although progress had been made since DOD OIG’s previous visits in
2010, 2011, and February 2012, ISAF, North Atlantic Treaty Organization
Training Mission-Afghanistan (NTM-A), and ANA Medical Command
(MEDCOM) continued to face challenges in sustaining effective health-care
operations and medical logistics for the NMH, as well as at other medical
facilities within the ANA. Specifically, ISAF and NTM-A needed revised
policies and procedures that ensured timely and informed decision-making
regarding the transfer of ANSF patients from Coalition medical facilities to
the NMH. Additionally, although improved, the control and security of medi-
cations in the NMH pharmacy required additional work to prevent theft and
mismanagement of these medications. Furthermore, current practices at the
NMH relating to the availability and utilization of essential medical equip-
ment, including patient monitoring units, required improvement to ensure
that this medical equipment was available for all patients who could benefit.
   Additionally, although the overall numbers of ANA medical personnel
increased over the past year, personnel shortages continued to affect the
NMH, specifically in nursing and in the pharmacy.
   ANA hospitals also lacked qualified medical-equipment repair techni-
cians to sustain effective medical-equipment maintenance and repair
programs. Although there were some improvements noted in this program
effort at NMH, the company contracted to conduct an inventory of all medi-
cal equipment throughout the ANA was unable to do so because they did
not have qualified technicians coupled with other deficiencies; therefore
the contract was terminated. Students currently enrolled in the Bio-Medical
Equipment Technician training program at the Armed Forces Academy of
Medical Sciences were expected to provide some technical relief once they
completed phase two of their on-the-job training and graduate from the pro-
gram in the second quarter of FY 2013.
   Finally, improvements were needed in the logistics system to ensure the
reliable availability of disinfectants and other cleaning supplies necessary to
properly sanitize the hospital and prevent the spread of infectious disease.

Inadequate Contract Oversight of Military Construction
Projects in Afghanistan Resulted in Increased Hazards to
Life and Safety of Coalition Forces
(Report No. DODIG-2013-052, Issued March 8, 2013)
The Air Force Center for Engineering and the Environment (AFCEE)
Contingency Construction Division officials did not provide effective over-
sight of military construction projects in Afghanistan. Specifically, AFCEE




 178                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




officials did not develop a formal process to monitor, assess, and document
the quality of work performed by contractor personnel for four projects
valued at $36.9 million. AFCEE officials stated that this occurred because
they relied completely on the technical expertise of their contractor person-
nel. In addition, AFCEE officials stated the Federal Acquisition Regulation
requirement for a quality-assurance surveillance plan did not apply to archi-
tect-engineer services contracts.
    As a result, AFCEE’s process for developing and reviewing contract
requirements design was not adequate to prevent conflicting electrical stan-
dards from being cited in one contract’s Statement of Work and Statement
of Requirement and incorrect fire-protection standards from being cited
in two contracts’ Statements of Requirement used during construction. In
addition, AECOM personnel at Camps Bastion/Leatherneck did not iden-
tify significant deficient work performed. The deficiencies led to serious
increased hazards to the life and safety of coalition forces who occupy two
of the four facilities reviewed at Camps Bastion/Leatherneck, and contrib-
uted to over a six-month delay in government acceptance of one facility.
    DOD OIG notified AFCEE officials of those deficiencies during a site visit
to Afghanistan in May 2012 and again during meetings held in June 2012.
According to Air Force Civil Engineer Center officials, all electrical deficien-
cies were corrected as of October 2012. In addition, Air Force Civil Engineer
Center officials stated that additional strobe lights were installed in one facil-
ity on October 15, 2012, and the fire department conducted its official fire
alarm and functionality test on that same date and found no issues. Air Force
Civil Engineer Center officials also stated that they planned to install addi-
tional egress doors on the second floor of one facility; however, they did not
plan to install a fire-suppression system in either facility.

U.S. Department of State Office of Inspector General-Middle
East Regional Office
During this quarter, State OIG issued one report related to Afghanistan
reconstruction.

Review of Emergency Action Plan-Embassy Kabul
(Report No. AUD/MERO-13-20, Issued March 2013)
The results of this evaluation are Sensitive But Unclassified.

Government Accountability Office
During this quarter, GAO issued two reports related to Afghanistan
reconstruction.




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                  179
OTHER AGENCY OVERSIGHT




Afghanistan: Key Oversight Issues
(Report No. GAO-13-218-sp, Issued February 11, 2013)
The key issues, based on existing GAO work, suggest specific areas for
oversight on the following topics:
•	 Afghanistan’s security environment. Afghanistan’s security situation
   remains volatile in part due to an increase in insider attacks.
•	 Transition of lead security to Afghan security forces. The security
   transition is under way, and international forces are shifting to an
   advise-and-assist mission.
•	 Future cost and sustainability of Afghan security forces. A shortfall
   currently exists in Afghan domestic revenue and international
   commitments to cover the anticipated costs of Afghan security forces, and
   despite past recommendations and a congressional mandate, DOD has not
   routinely provided long-term cost estimates for sustaining those forces.
•	 DOD planning for the drawdown of equipment in Afghanistan. DOD has
   applied some lessons learned from Iraq to its planning and has taken
   several steps to prepare for the drawdown in Afghanistan, but has not
   fully considered the costs and benefits of returning excess equipment.
•	 Afghanistan’s donor dependence. Afghanistan’s domestic revenues
   do not cover its total public expenditures, over 90 percent of which
   are covered by the United States and international partners. The
   international community has pledged its continued support.
•	 Oversight and accountability of U.S. funds to support Afghanistan. The
   United States continues to take steps to improve Afghanistan’s financial
   management capacity, as well as the accountability of U.S. direct
   assistance.
•	 Oversight and streamlining of development assistance to Afghanistan.
   Oversight of U.S. programmatic funds has been enhanced, but U.S.
   development efforts in Afghanistan could benefit from a shared
   database.
•	 Oversight of U.S. contracts in Afghanistan. Contract management and
   contractor vetting require continued attention.
•	 Planning for the future U.S. presence in Afghanistan. The military to
   civilian-led transition in Iraq could offer lessons for similar efforts in
   Afghanistan as the United States plans for five diplomatic sites and the
   future U.S. military presence is under negotiations.

Military Personnel: DOD Has Taken Steps to Meet the Health
Needs of Deployed Servicewomen but Actions are Needed to
Enhance Care for Sexual Assault Victims
(Report No. GAO-13-182, Issued January 29, 2013)
The roles for women in the military have been expanding and evolving.
Servicewomen today are integral to combat, combat support, and coun-
terinsurgency operations, and serve in many roles they previously did




 180                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




not hold. Public Law 112-81, Sec. 725 (2011) mandated that GAO conduct
a review of the female-specific health care services provided by DOD to
female service members, including the treatment of servicewomen who
are victims of sexual assault. In this report, GAO evaluates the extent to
which (1) DOD is addressing the health-care needs of deployed service-
women; (2) female-specific health-care services are available to deployed
servicewomen; and (3) medical and mental health care are available to
servicewomen who are victims of sexual assault. GAO reviewed pertinent
DOD policies, guidance, and data. GAO also met with health-care provid-
ers, servicewomen, and others during site visits to 18 locations where
servicewomen are currently serving or deployed, including 15 installations
in Afghanistan and Navy vessels.
   DOD is taking steps to address the health-care needs of deployed ser-
vicewomen. For example, DOD has put in place policies and guidance that
include female-specific aspects to help address the health-care needs of
servicewomen during deployment. Also, as part of pre-deployment prepa-
rations, servicewomen are screened for potentially deployment-limiting
conditions, such as pregnancy, and DOD officials and health-care providers
with whom GAO met noted that such screening helps ensure that many
female-specific health-care needs are addressed prior to deployment. GAO
also found that DOD components have conducted reviews of the health-
care needs of servicewomen during deployments and are collecting data on
the medical services provided to deployed servicewomen.
   At the 15 selected locations GAO visited in Afghanistan and aboard
Navy vessels, health-care providers and most servicewomen indicated that
the available health-care services generally met deployed servicewomen’s
needs. In Afghanistan and aboard Navy vessels, health-care providers said
they were capable of providing a wide range of the female-specific health-
care services that deployed servicewomen might seek, and servicewomen
GAO spoke with indicated that deployed women’s needs were generally
being met. Specifically, based on information provided by the 92 service-
women GAO interviewed, 60 indicated that they felt the medical and
mental-health needs of women were generally being met during deploy-
ments; 8 indicated they did not feel those needs were generally being met
during deployments; an additional 8 indicated a mixed opinion; and 16 said
they did not have an opinion. For example, some servicewomen told GAO
that they were satisfied with their military health care, given the operat-
ing environment. Among those who expressed dissatisfaction with their
military heath care, GAO heard a concern about difficulty in obtaining medi-
cations. Among those who expressed mixed views, a comment was raised
that junior health-care providers were limited in the types of procedures
they could perform and lacked practical experience.
   DOD has taken steps to provide medical and mental health care to vic-
tims of sexual assault, but several factors affect the availability of care. For




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013                181
OTHER AGENCY OVERSIGHT




example, this care can vary by service and can be impacted by operational
factors, such as transportation and communication challenges, that are
inherent to the deployed environment. Further, military health-care provid-
ers do not have a consistent understanding of their responsibilities in caring
for sexual-assault victims because the department has not established
guidance for the treatment of injuries stemming from sexual assault, which
requires that specific steps are taken while providing care to help ensure
a victim’s right to confidentiality. Additionally, while the services provide
required annual refresher training to first responders, GAO found that some
of these responders were not always aware of the health-care services avail-
able to sexual-assault victims because not all of them are completing the
required training. Without having a clearer understanding of their responsi-
bilities, health-care providers and first responders will be impeded in their
ability to provide effective support for servicewomen who are victims of
sexual assault.

U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.

U.S. Agency for International Development Office of
Inspector General
During this quarter, USAID OIG did not complete any reports related to
Afghanistan reconstruction.


ONGOING OVERSIGHT ACTIVITIES
As of March 31, 2013, the participating agencies reported 28 ongo-
ing oversight activities related to reconstruction in Afghanistan. The
activities reported are listed in Table 4.2 and described in the following
sections by agency.

Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in execut-
ing its Overseas Contingency Operations (OCO). The DOD OIG has
identified priorities based on those challenges and high risks. In FY 2013,
DOD OIG is focusing oversight on overseas contingency operations with a
majority of its resources supporting operations in Afghanistan. The DOD
OIG focus in Afghanistan continues in the areas of the management and
execution of the Afghanistan Security Forces Fund, military construction,
safety of personnel, and the administration and oversight of contracts sup-
porting coalition forces. In addition, DOD OIG oversight in Afghanistan will
also address matters pertaining to the drawdown of forces in Afghanistan
and shifting of operations.




 182                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF MARCH 31, 2013
 Agency               Project Number                    Date Initiated       Project Title
 DOD OIG              D2013-D000AS-0097.000             2/8/2013             Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                                             Price Reasonableness Determinations for Datron World Communications, Inc. Contracts Awarded
 DOD OIG              D2013-D000AT-0083.000             1/3/2012
                                                                             by the U.S. Army Contracting Command for the Afghan National Security Forces
                                                                             Assessment of Planning for the Effective Development and Transition of Critical Afghanistan
 DOD OIG              D2013-D00SPO-0087.000             12/18/2012
                                                                             National Security Forces Enablers to Post-2014 Capabilities
                                                                             Examination of Department of Defense Execution of North Atlantic Treaty Organization
 DOD OIG              D2013-D000FL-0056.000             12/3/2012            Contributing Countries Donations to Afghanistan National Army Trust Fund for Approval
                                                                             Sustainment Projects as of September 30, 2012
 DOD OIG              D2013-D000AS-0052.000             11/1/2012            Shindand Training Contracts
                                                                             Surveillance Structure on Contracts Supporting the Afghanistan Rotary Wing Program for the U.S.
 DOD OIG              D2013-D000AS-0001.000             10/5/2012
                                                                             Transportation Command
                                                                             Contract Management and Oversight of Military Construction Projects for the Special Operation
 DOD OIG              D2012-D000JA-0221.000             9/28/2012
                                                                             Forces Complexes at Bagram Airfield, Afghanistan
                                                                             Assessment of U.S. Government and Coalition Efforts to Train, Equip, and Advise the Afghan
 DOD OIG              D2012-D00SPO-0210.000             8/21/2012
                                                                             Border Police
                                                                             Oversight Processes and Procedures for the Afghan National Police Mentoring/Training and
 DOD OIG              D2012-D000AS-0137.000             3/9/2012
                                                                             Logistics Support Contract
 DOD OIG              D2012-D000AT-0129.000             3/8/2012             Datron Radio Contracts To Support the Afghan National Security Forces
 DOD OIG              D2012-D00SPO-0090.000             2/28/2012            U.S. and Coalition Efforts to Develop Leaders in the Afghan National Army
                                                                             Technical Assessment of Military Construction Compliance with Fire Suppression Standards at
 DOD OIG              D2012-DT0TAD-0002.000             2/14/2012
                                                                             Select Facilities in Afghanistan
                                                                             Technical Assessment of Military Construction Compliance with Electrical Standards at Select
 DOD OIG              D2012-DT0TAD-0001.000             2/14/2012
                                                                             Facilities in Afghanistan
 DOD OIG              D2012-D000AS-0075.000             12/7/2011            Task Orders for Mi-17 Overhauls and Cockpit Modifications
                                                                             Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9,
 DOS OIG-MERO         13AUD052                          2/2013
                                                                             and 11 for Movement and Static Security Services in Jerusalem and Afghanistan
                                                                             Audit of the Department of State Transition Planning for a Reduced Military Presence in
 DOS OIG-MERO         12AUD79                           12/2012
                                                                             Afghanistan
                                                                             Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System
 DOS OIG-MERO         12AUD30                           12/2011
                                                                             Support Program in Afghanistan
 GAO                  121119                            3/6/2013             Department of State and U.S. Agency for International Development Contingency Contracting
 GAO                  351798                            1/18/2013            Afghanistan Equipment Reduction and Base Closures
 GAO                  320962                            1/14/2013            Afghan Insider Attacks
 GAO                  351772                            10/17/2012           DOD’s Approach to Identifying Post Combat Role of U.S. Forces in Afghanistan
 GAO                  121096                            10/11/2012           Procurement of Mi-17 Helicopters
 GAO                  351743                            6/19/2012            Advisory Teams in Afghanistan
 GAO                  351747                            6/11/2012            DOD’s Transition to the Afghan Public Protection Force
 USAID OIG            FF100712                          11/28/2012           Audit of USAID/Afghanistan’s Transition Plans
 USAID OIG            FF101412                          10/14/2012           Review of USAID/Afghanistan’s Use of Third Country National Employees
 USAID OIG            FF100612                          10/9/2012            Review of USAID/Afghanistan’s Management Controls over Premium Pay
 USAID OIG            FF101112                          5/1/2012             Audit of USAID/Afghanistan’s Kandahar Helmand Power Initiative
                                                                             Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
 USAID OIG            FF101712                          10/25/2011
                                                                             Selected Projects
Sources: DOD OIG, response to SIGAR data call, 3/22/2013; DOS OIG, response to SIGAR data call, 3/22/2013; GAO, response to SIGAR data call, 3/25/2013; USAAA, response to SIGAR data
call 3/21/2013; USAID OIG, response to SIGAR data call, 3/21/2013.




REPORT TO THE UNITED STATES CONGRESS                     I   APRIL 30, 2013                                 183
OTHER AGENCY OVERSIGHT




   As billions of dollars continue to be spent in Afghanistan, a top priority
will continue to be the monitoring and oversight of acquisition and contract-
ing processes focused on training, equipping, and sustaining Afghanistan
Security Forces (ASF). The DOD OIG planned oversight efforts address the
administration and oversight of contracts for equipping ASF, such as rotary
wing aircraft, airplanes, ammunition, radios, and night vision devices. The
DOD OIG will also continue to review and assess the Department’s efforts
in managing and executing contracts to train the ANP.
   As military construction continues in Afghanistan to build or renovate
new living areas, dining and recreation facilities, medical clinics, base
expansions, and police stations, DOD OIG will continue to provide aggres-
sive oversight of contract administration and military construction projects.
DOD OIG will also continue to focus on the accountability of property, such
as contractor-managed government-owned property and Army high-demand
items; the Department’s efforts to strengthen institutional capacity at the
Afghan Ministry of Defense; and financial-management controls.
   The DOD OIG led Southwest Asia Joint Planning Group coordinates
and deconflicts Federal and DOD OCO-related oversight activities. The
DOD OIG continues to work with the SIGAR as well as fellow Inspectors
General and Defense oversight community members to execute the now-
issued FY 2013 strategic audit plan for the oversight community working
in Afghanistan. This SIGAR-led effort provides the Congress and key stake-
holders with more effective oversight of reconstruction programs.

Office of the Deputy Inspector General for Auditing
DOD OIG ongoing OEF-related oversight addresses the safety of person-
nel with regard to construction efforts; force protection programs for
U.S. personnel; accountability of property; improper payments; contract
administration and management including construction projects; oversight
of the contract for training the Afghan police; logistical distribution within
Afghanistan; retrograde operations, health care; and acquisition planning
and controls over funding for Afghan Security Forces.

Mi-17 Cockpit Modifications under Task Order
W58RGZ-09D-0130-0102
(Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
Modifications Under Task Order W58RGZ-09-D-0130-0102. The DOD IG
is conducting a follow-on audit to the Audit of Task Orders for Mi-17
Overhauls and Cockpit Modifications (Project No. D2012-D000AS-0075.000).
In this follow-on audit, the DOD IG is determining whether DOD officials
properly awarded and administered indefinite-delivery, indefinite-quantity
contract W58RGZ-09-D-0130, Task Order 0102, for the Modification of
DOD-owned Mi-17 variant aircraft in accordance with Federal and DOD
regulations and policies. Under the prior project, DOD OIG reviewed the




  184                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




procurement of overhaul services and parts for Pakistan-owned Mi-17 vari-
ant aircraft, awarded by Modification to Task Order 0102.

Price Reasonableness Determinations for Datron World
Communications, Inc. Contracts Awarded by the U.S. Army
Contracting Command for the Afghan National Security Forces
(Project No. 2013-D000AT-0083.000, Initiated January 3, 2013)
The DOD IG is determining whether the U.S. Army Contracting Command
obtained fair and reasonable prices for communications equipment and
components procured from Datron World Communications Inc. for the
Afghan National Security Forces (ANSF). This project is the second in a
series of audits focusing on Datron World Communications Inc. contracts.
The first audit in this series is D2012-D000AT-0129.000.

Assessment of Planning for the Effective Development and
Transition of Critical Afghanistan National Security Forces
Enablers to Post-2014 Capabilities
(Project No. D2013-D00SPO-0087.000, Initiated December 18, 2012)
The DOD OIG is determining whether U.S. and Coalition goals, objectives,
plans, guidance, and resources are sufficient to effectively develop, manage,
and transition critical ANSF operational enablers to Afghan National Army
and Afghan National Police capabilities. In addition DOD OIG is determin-
ing what critical enabling task capabilities will require further development
beyond the end of 2014. Also, DOD OIG is determining whether mitigating
actions are planned and what they consist of for any critical ANSF enabling
capabilities that are expected to be or may still be under development after
2014. In essence, DOD OIG will review what plans and activities are in place
to mature enabling force functions deemed critical for the ANSF to conduct
and sustain independent operations.

Examination of Department of Defense Execution of North
Atlantic Treaty Organization Contributing Countries Donations
to Afghanistan National Army Trust Fund for Approval
Sustainment Projects as of September 30, 2012
(Project No. D2013-D000FL-0056.000, Initiated December 3, 2012)
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DOD
[USD(C)/CFO] requested this examination. The USD(C)/CFO plans to assert
that the following schedules are fairly presented in all material respects:
•	 Schedule of Contributing Country Donations to Afghanistan National
   Army Trust Fund Approved Sustainment Projects as of September 30,
   2012
•	 Schedule of Financial Status of Contributing Country Donations to
   Afghanistan National Army Trust Fund Transferred to the United States
   of America for Approved Sustainment Projects as of September 30, 2012




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013            185
OTHER AGENCY OVERSIGHT




   The DOD OIG is determining whether the USD(C)/CFO fairly presented
receipts and expenditures of funds contributed to the Afghanistan National
Army Trust Fund and transferred to DOD for execution under the terms of
the Memorandum of Understanding Among the United States of America
and North Atlantic Treaty Organization and Supreme Headquarters Allied
Powers-Europe Regarding Management and Administration of Trust Fund
Donations for Support and Sustainment of the Afghanistan National Army. In
addition, DOD OIG will review internal controls over financial reporting and
compliance with laws and regulations as it relates to its engagement objec-
tive. The USD(C)/CFO is responsible for the aforementioned schedules. The
DOD OIG’s responsibility is to express an opinion based on its examination.

Shindand Training Contracts
(Project No. D2013-D000AS-0052.000, Initiated November 1, 2012)
The DOD OIG is determining whether pilot-training contracts for fixed-
wing and rotary-wing aircraft at Shindand Air Base are properly managed
and administered in accordance with Federal and DOD requirements.
Specifically, DOD OIG will determine whether contract requirements are
being met and evaluate the effectiveness of contract oversight.

Surveillance Structure on Contracts Supporting the
Afghanistan Rotary Wing Program for the U.S. Transportation
Command
(Project No. D2013-D000AS-0001.000, Initiated October 5, 2012)
The DOD OIG is conducting its second in a series of audits on the
Afghanistan rotary-wing transport contracts. The overall objective is
to determine whether U.S. Transportation Command and U.S. Central
Command officials have adequate oversight of processes and procedures
for the contracts. The first audit was “Afghanistan Rotary Wing Transport
Contracts for the U.S. Transportation Command” (D2012-D000AS-0031.000).

Contract Management and Oversight of Military Construction
Projects for the Special Operation Forces Complexes at
Bagram Airfield, Afghanistan
(Project No. D2012-D000JA-0221.000, Initiated September 28, 2012)
The DOD OIG is determining whether DOD is providing effective oversight
of military construction projects in Afghanistan. Specifically, DOD OIG will
determine whether the U.S. Army Corps of Engineers is properly monitor-
ing contractor performance and adequately performing quality assurance
oversight responsibilities for construction projects for Special Operations
Forces at Bagram Airfield.




  186                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Assessment of U.S. Government and Coalition Efforts to Train,
Equip, and Advise the Afghan Border Police
(Project No. D2012-D00SPO-0210.000, Initiated August 21, 2012)
The DOD OIG is determining whether the planning and operational imple-
mentation of efforts by U.S. and Coalition Forces to train, equip, and
advise in the development of the Afghan Border Police (ABP) is effective.
This includes evaluating output/outcome at ABP locations at various stages
of their life cycle to determine the effectiveness of U.S. and Coalition
involvement in developing the ABP and Minister of Interior ability to man-
age the program.

Oversight Processes and Procedures for the Afghan National
Police Mentoring/Training and Logistics Support Contract
(Project No. D2012-D000AS-0137.000, Initiated March 9, 2012)
The DOD OIG is conducting the second in a series of audits on the Afghan
National Police Mentoring/Training and Logistics support contract. DOD
OIG’s overall objective for the series of audits is to determine whether
DOD officials are using appropriate contracting processes to satisfy mis-
sion requirements and are conducting appropriate oversight of the contract
in accordance with Federal and DOD policies. For this audit DOD OIG
will determine whether the Army, the North Atlantic Treaty Organization
Training Mission Afghanistan/ Combined Security Transition Command-
Afghanistan, and the Defense Contract Management Agency had adequate
oversight processes and procedures for the contract. Additionally, DOD OIG
will determine whether the Army, the North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan, and the Defense Contract Management Agency conducted
adequate contractor surveillance. The first audit in this series is “Afghan
National Police Mentoring/Training and Logistics Support Contract,” DODIG-
2012-094, issued May 30, 2012.

Datron Radio Contracts To Support the
Afghan National Security Forces
(Project No. D2012-D000AT-0129.000, Initiated March 8, 2012)
DOD OIG is determining whether the U.S. Army Communications-
Electronics Command implemented effective policies and procedures for
awarding Datron radio contracts, negotiating fair and reasonable prices,
verifying timely deliveries, and establishing quality assurance measures in
accordance with applicable requirements




REPORT TO THE UNITED STATES CONGRESS   I   APRIL 30, 2013             187
OTHER AGENCY OVERSIGHT




U.S. and Coalition Efforts to Develop Leaders in the
Afghan National Army
(Project No. D2012-D00SPO-0090.000, Initiated February 28, 2012)
DOD OIG is assessing the sufficiency and effectiveness of the coalition’s leader
programs for developing ANA officers and non-commissioned officers.

Technical Assessment of Military Construction Compliance with
Fire Suppression Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
The DOD OIG is determining whether fire suppression systems built by
military construction in selected U.S. occupied facilities in Afghanistan are
in compliance with the U.S. Central Command Unified Facilities Criteria
and National Fire Protection Association standards. DOD OIG will assess
U.S. occupied facilities at Kandahar Airfield, Bagram Airfield, Camp Eggers,
and other locations as necessary. DOD OIG will also assess the status of
DOD OIG recommended corrective actions from previous fire suppres-
sion system assessments. A series of reports is planned and this project
will be enjoined with the assessment of electrical standards (Project No.
D2012-DT0TAD-0001.000). The first report will address electrical and
fire protection at Kandahar and Bagram Airfields. The second report will
address Kabul Base Cluster.

Technical Assessment of Military Construction Compliance
with Electrical Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
The DOD OIG is determining whether electrical systems built by military
construction in selected U.S. occupied facilities in Afghanistan are in com-
pliance with United States Central Command Unified Facilities Criteria and
National Electrical Code standards. DOD OIG will assess U.S. occupied facil-
ities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and other locations
as necessary. DOD OIG will also assess the status of DOD OIG recom-
mended corrective actions from previous electrical system assessments. A
series of reports is planned and this project will be enjoined with the assess-
ment of fire suppression standards (Project No. D2012-DT0TAD-0002.000).
The first report will address electrical and fire protection at Kandahar and
Bagram Airfields. The second report will address Kabul Base Cluster.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DOD OIG is determining whether DOD officials properly awarded and
administered task orders for the overhaul and Modification of Mi-17
aircraft in accordance with federal and DOD regulations and policies.
Contracting officers issued the task orders under IDIQ contract number
W58RGZ-09-D-0130.




 188                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




Department of State Office of Inspector General–Middle
East Regional Office
State OIG initiated one new project this quarter related to Afghanistan
reconstruction.

Audit of Bureau of Diplomatic Security Worldwide Protective
Services Contract Task Orders 2, 9, and 11 for Movement and
Static Security Services in Jerusalem and Afghanistan
(Project No. 13AUD052, February 2013)
The overall audit objective is to determine the effectiveness of the
Department’s management and oversight of the WPS Contract Task Orders
2, 9, and 11. Specifically, the audit team will determine whether the contrac-
tor is performing in accordance with contract terms and conditions, the
contractor’s work is adequately monitored, and invoice review and approval
procedures are in place to ensure accuracy and completeness of costs.

Audit of the Department of State Transition Planning for a
Reduced Military Presence in Afghanistan
(Project No. 12AUD79, Initiated December 2012)
The overall audit objective is to evaluate the Department’s planning for
the transition from a predominately military to a civilian-led mission in
Afghanistan. Specifically, OIG will determine whether the Department has
adequately defined its mission and support requirements, evaluated its per-
sonnel and funding needs, and integrated its planning with the Department
of Defense and other relevant U.S. agencies, the Government of Afghanistan,
and other non-U.S. government agencies. OIG will also determine whether
planning has incorporated lessons learned from the transition in Iraq.

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program
in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the INL Correction
System Support Program (CSSP) in building a safe, secure, and humane
prison system that meets international standards and Afghan cultural
requirements. Specifically, OIG will evaluate whether INL is achieving
intended and sustainable results through the following CSSP components:
training and mentoring; capacity building; Counter-Narcotics Justice
Center and Judicial Security Unit compound operations and mainte-
nance; Pol-i-Charkhi management and stabilization team; Central Prison
Directorate engagement and reintegration team; and Kandahar expansion
and support team.




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013             189
OTHER AGENCY OVERSIGHT




Government Accountability Office
Department of State and U.S. Agency for International
Development Contingency Contracting
(Project No. 121119, Initiated March 6, 2013)
The Department of State (State) and U.S. Agency for International
Development (USAID) have relied extensively on contractors in Iraq and
Afghanistan. While the use of contractors in such contingency operations
is not new, GAO and others have found that State and USAID experienced
challenges managing contracts in these operations. To what extent have
State and USAID: (1) assessed their organizational structures related to
contracting for contingency operations and determined whether related
changes are needed, (2) assessed their contract award and management
policies for contingency operations and determined whether changes to
those policies are needed, (3) assessed their workforces, including reli-
ance on contractors, for contingency operations and determined whether
changes are needed?


Afghanistan Equipment Reduction and Base Closures
(Project No. 351798, Initiated January 18, 2013)
DOD has stated that it will cost at least $5.7 billion to draw down an esti-
mated 90,000 containers of material and 50,000 vehicles from Afghanistan.
Given the large number of bases and difficult conditions in Afghanistan,
an efficient and cost-effective drawdown will likely depend on DOD know-
ing how much equipment it has in Afghanistan and making cost-effective
decisions about its disposition. Key Questions: To what extent (1) has DOD
implemented base-closure procedures, including the accountability of
equipment, to meet command-established objectives and timelines? (2) Are
command-established objectives and timelines for the Afghanistan equip-
ment drawdown supported by DOD facilities and processes? (3) Is DOD
using cost and other information to help ensure it is making cost-effective
disposition decisions?

Afghan Insider Attacks
(Project No. 320962, Initiated January 14, 2013)
Afghan National Security Force (ANSF) personnel and impersonators have
attacked DOD personnel repeatedly since 2007. GAO reported in April 2012
on steps DOD, NATO, and ANSF were taking to track attacks, identify and
address their causes, and develop safeguards to protect DOD personnel.
The pace of attacks has since accelerated, with the number in 2012 exceed-
ing the total from prior years. Key Questions: (1) To what extent have DOD,
NATO, and ANSF identified the causes of attacks by ANSF and imperson-
ators on DOD personnel? (2) What additional safeguards against attacks, if




  190                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




any, have they established since the 2012 review and how have they been
implemented? (3) What progress, if any, has DOD made in obtaining access
to the Afghan government’s biometric and background information on
ANSF candidates and personnel?

DOD’s Approach to Identifying Post Combat Role of
U.S. Forces in Afghanistan
(Project No. 351772, Initiated October 17, 2012)
GAO will review the nature and extent of planning under way by DOD for
the role of the U.S. military and the Department in Afghanistan post 2014,
including progress in: (1) developing a framework for making key decisions
such as assigning organizational responsibilities and structures within DOD;
(2) establishing a planning approach to include identifying: (a) key assump-
tions about the environment in Afghanistan and role of the Department, the
U.S. military, and contractors; (b) how the Department will collaborate with
other agencies; and (c) issues to be resolved such as the level of support
DOD will provide to other agencies and the disposition of U.S. equipment
and assets; (3) identifying key decision points and related milestones for
taking actions to implement decisions; and (4) identifying potential risks
and mitigation strategies.

Procurement of Mi-17 Helicopters
(Project No. 121096, Initiated October 11, 2013)
Previously, DOD had competitively purchased civilian variants of Mi-17
helicopters through U.S. companies to assist the Afghan military. After can-
celing a competitive solicitation in 2010, DOD contracted on a sole-source
basis with a Russian state-owned arms export company, Rosoboronexport,
to purchase 21 military Mi-17s. Key Questions: (1) What were the reasons
for DOD’s cancellation of a 2010 competitive solicitation for 21 Mi-17s? (2)
To what extent did DOD evaluate the availability and feasibility of alterna-
tive procurement approaches for military or civilian variants of the Mi-17?
(3) To what extent did DOD assess the impact that contracting directly with
Rosoboronexport may have on the risk of access to technical data, aircraft
safety, and counterfeiting? 

Advisory Teams in Afghanistan
(Project No. 351743, Initiated June 19, 2012)
Regarding the use of security-force assistance advisory teams in
Afghanistan, GAO is to determine the extent to which (1) DOD has
defined intended roles, missions, and command relationships for the
advisory teams; (2) the Marine Corps and Army have defined personnel,
equipment, and training requirements; (3) DOD plans to adjust its current
use of augmented brigade/regimental combat teams for advisory missions;
and (4) the Marine Corps and Army have been able to fill personnel and




REPORT TO THE UNITED STATES CONGRESS     I   APRIL 30, 2013          191
OTHER AGENCY OVERSIGHT




equipment requirements for the advisory teams, including any impacts on
reported readiness.

DOD’s Transition to the Afghan Public Protection Force
(Project No. 351747, Initiated June 11, 2012)
The Afghan Public Protection Force (APPF) is to assume security respon-
sibilities for DOD installations by March 2013. Key questions: (1) To what
extent has DOD developed cost estimates related to the transition to the
APPF and what actions are being taken to minimize costs? (2) To what
extent has DOD identified and implemented oversight and management
mechanisms to ensure that the APPF and risk-management companies are
providing services as agreed upon? (3) What impact(s) has the transition
of convoy security from private security contractors to the APPF had on
DOD operations in Afghanistan, and what actions, if any, has DOD taken to
mitigate any negative impacts? (4) To what extent has DOD planned for the
transition of static security from private security contractors to the APPF,
including the degree to which DOD has developed base-security contin-
gency plans?

U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.

U.S. Agency for International Development Office of
Inspector General
Audit of USAID/Afghanistan’s Transition Plans
(Project No. FF100712, Initiated November 28, 2012)
Does USAID/Afghanistan have plans to address contingencies related to the
U.S. Government’s transition in Afghanistan?

Review of USAID/Afghanistan’s Use of Third Country National
Employees
(Project No. FF101412, Initiated October 14, 2012)
To determine if USAID/Afghanistan is using third country nationals for
implementing mission programs efficiently while training Afghan staff to
assume their responsibilities.

Review of USAID/Afghanistan’s Management Controls over
Premium Pay
(Project No. FF100612, Initiated October 9, 2012)
Objective: To determine if USAID/Afghanistan is using sufficient man-
agement controls over the submission, authorization, approval, and




  192                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




certification of premium-pay benefits for its staff in accordance with federal
time-and-attendance policies and procedures.

Audit of USAID/Afghanistan’s Kandahar Helmand Power
Initiative
(Project No. FF101112, Initiated May 1, 2012)
Objective: Is the Kandahar Power Initiative meeting its main goals to
increase the supply and distribution of electrical power from Afghanistan’s
South East Power System, with particular emphasis given to the city of
Kandahar, in support of the U.S. government’s counterinsurgency strategy?

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by U.S. Forces-Afghanistan to USAID for
specific projects were used for their intended purposes, were in compliance
with applicable laws and regulations, and whether the costs charged to
CERP-funded projects were reasonable, allowable, and allocable.




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013             193
                                     APPENDICES AND ENDNOTES CONTENTS

                                     Appendix A 	                                                  196
                                     Appendix B 	                                                  202
                                     Appendix C	                                                   204
                                     Appendix D	                                                   208
                                     Appendix E	                                                   211
                                     Endnotes	215




                                                                               The Official Seal of SIGAR
                                        The Official Seal of SIGAR represents the coordination of efforts
   between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                     along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                        194                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       195
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181,
                                   § 1229 (Table A.1), and to the semiannual reporting requirements prescribed
                                   for inspectors general more generally under the Inspector General Act of
                                   1978, as amended (5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      196                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.
Reports




REPORT TO THE UNITED STATES CONGRESS              I   APRIL 30, 2013                                   197
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       198                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publicly available                www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   APRIL 30, 2013                                 199
                                          APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                            200                         SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section        IG Act Language                                      SIGAR Action                                        Section
Section 5(a)(11)      A description and explanation of the reasons for     Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      any significant revised management decision          member reports                                      members

                                                                           Explain SIGAR audit reports in which significant    None
                                                                           revisions have been made to management
                                                                           decisions
Section 5(a)(12)      Information concerning any significant manage-       Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      ment decision with which the Inspector General is    member reports                                      members
                      in disagreement
                                                                           Explain SIGAR audit reports in which SIGAR          No disputed decisions
                                                                           disagreed with management decision                  during the reporting period
Section 5(a)(13)      Information described under [Section 804(b)] of      Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      the Federal Financial Management Improvement         member reports                                      members
                      Act of 1996 (instances and reasons when an
                      agency has not met target dates established in a     Provide information where management has not        No disputed
                      remediation plan)                                    met targets from a remediation plan                 decisions during the report-
                                                                                                                               ing period
Section 5(a)(14)(A)   An Appendix containing the results of any peer       SIGAR has posted in full the results of, and        Posted in full at
                      review conducted by another Office of Inspector      reports from, SIGAR’s most recent peer reviews      www.sigar.mil
                      General during the reporting period; or              (completed during July 2010, prior to the current
                                                                           reporting period), on its Web site
Section 5(a)(14)(B)   If no peer review was conducted within that report- 15 July 2010                                         Posted in full at
                      ing period, a statement identifying the date of the                                                      www.sigar.mil
                      last peer review conducted by another Office of
                      Inspector General
Section 5(a)(15)      A list of any outstanding recommendations from       None – all peer review recommendations              Recommendations and
                      any peer review conducted by another Office of       effectively addressed, and remedial measures        related materials posted in
                      Inspector General that have not been fully imple-    implemented, by 30 September 2010                   full at www.sigar.mil
                      ment, including a statement describing the status
                      of the implementation and why implementation is
                      not complete
Section 5(a)(16)      Any peer reviews conducted by SIGAR of another       Not applicable (SIGAR did not conduct, or           SIGAR Oversight
                      IG Office during the reporting period, including a   participate in the conduct, of a peer review of
                      list of any outstanding recommendations made         another Office of Inspector General during the
                      from any previous peer review . . . that remain      reporting period)
                      outstanding or have not been fully implemented




REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2013                               201
                                                               APPENDICES



                                                               APPENDIX B
                                                               U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                               Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                               per year, as of March 31, 2013.
                                                               TABLE B.1

                                                                U.S. FUNDING SOURCES                                            AGENCY          TOTAL     FY 2002
                                                                SECURITY
                                                                  Afghanistan Security Forces Fund (ASFF)                       DOD           52,749.87        0.00
                                                                  Train & Equip (DOD)                                           DOD              440.00        0.00
                                                                  Foreign Military Financing (FMF)                              State          1,059.14       57.26
                                                                  International Military Education and Training (IMET)          State             12.70        0.18
                                                                  NDAA Section 1207 Transfer                                    Other              9.90        0.00
                                                                Total - Security                                                             54,271.61       57.44
                                                                GOVERNANCE & DEVELOPMENT
                                                                  Commander's Emergency Response Program (CERP)                 DOD            3,639.00        0.00
                                                                  Afghanistan Infrastructure Fund (AIF)                         DOD            1,024.00        0.00
                                                                  Task Force for Business and Stability Operations (TFBSO)      DOD              672.04        0.00
                                                                  Economic Support Fund (ESF)                                   USAID         15,053.32      117.51
                                                                  Development Assistance (DA)                                   USAID            885.10       18.30
                                                                  Afghanistan Freedom Support Act (AFSA)                        DOD              550.00        0.00
                                                                  Child Survival & Health (CSH + GHAI)                          USAID            554.33        7.52
                                                                  Commodity Credit Corp (CCC)                                   USAID             31.65        7.48
                                                                  USAID (other)                                                 USAID             49.59        0.00
                                                                  Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State            505.70       44.00
                                                                  Provincial Reconstruction Team Advisors                       USDA               5.70        0.00
                                                                  Treasury Technical Assistance                                 Treasury           4.45        0.90
                                                                Total - Governance & Development                                             22,974.88      195.71
                                                                COUNTER-NARCOTICS
                                                                  International Narcotics Control & Law Enforcement (INCLE)     State          3,584.33       60.00
                                                                  Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD            2,679.57        0.00
                                                                  Drug Enforcement Administration (DEA)                         DOJ              127.37        0.58
                                                                Total - Counter-Narcotics                                                     6,391.27       60.58
                                                                HUMANITARIAN
                                                                  P.L. 480 Title I                                              USDA               5.00        0.00
                                                                  P.L. 480 Title II                                             USAID            716.71      159.50
Notes: Numbers have been rounded. DOD reprogrammed                Disaster Assistance (IDA)                                     USAID            513.61      197.09
$1 billion from FY 2011 ASFF. DOD reprogrammed $1 bil-
lion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from      Transition Initiatives (TI)                                   USAID             36.23        8.07
FY 2012 ASFF. DOD transferred $101 million from FY 2011
AIF to FY 2011 ESF to fund an infrastructure project to be
                                                                  Migration & Refugee Assistance (MRA)                          State            782.08      135.47
implemented by USAID.
a	Final appropriation figures for FY 2013 have not been
                                                                  Voluntary Peacekeeping (PKO)                                  State             69.33       23.93
  determined for many accounts, including State and USAID         Emergency Refugee & Migration Assistance (ERMA)               State             25.20       25.00
  accounts.                                                       Food for Progress                                             USDA             109.49        0.00
Sources: DOD, responses to SIGAR data call, 4/17/2013,            416(b) Food Aid                                               USDA              95.18       46.46
4/16/2013, 4/2/2013, 4/1/2013, 10/22/2012,                        Food for Education                                            USDA              50.49        0.00
10/14/2009, and 10/1/2009; State, responses to SIGAR
data call, 4/15/2013, 4/10/2013, 4/5/2013, 10/5/2012              Emerson Trust                                                 USDA              22.40        0.00
and 6/27/2012; Treasury, response to SIGAR data call,
4/5/2013; OMB, response to SIGAR data call, 1/3/2013;
                                                                Total - Humanitarian                                                          2,425.71      595.52
USAID, responses to SIGAR data call, 4/18/2013,                 INTERNATIONAL AFFAIRS OPERATIONS
10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response
to SIGAR data call, 7/7/2009; USDA, response to SIGAR           Oversight                                                                        216.99        0.00
data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,          Other                                                                          6,442.40      155.60
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense           Total - International Affairs Operations                                      6,664.90      155.60
Explanatory Statement.
                                                                TOTAL FUNDING                                                                92,728.37     1,064.85




                                                                 202                        SPECIAL INSPECTOR GENERAL             I     AFGHANISTAN RECONSTRUCTION
                                                        APPENDICES




   FY 2003     FY 2004     FY 2005     FY 2006      FY 2007 FY 2008         FY 2009      FY 2010      FY 2011      FY 2012      FY 2013 a

       0.00        0.00       968.18    1,908.13     7,406.40    2,750.00     5,606.94     9,166.77    10,619.28    9,200.00     5,124.17
       0.00      150.00       290.00        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
     191.00      414.08       396.80        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
       0.39        0.67         0.95        0.98         1.19        1.66         1.40         1.76         1.56        1.18         0.80
       0.00        0.00         0.00        0.00         0.00        9.90         0.00         0.00         0.00        0.00         0.00
    191.39      564.75     1,655.92    1,909.11     7,407.59    2,761.56     5,608.34     9,168.53    10,620.84    9,201.18     5,124.97

       0.00        40.00      136.00     215.00        209.00      488.33       550.67     1,000.00       400.00       400.00      200.00
       0.00         0.00        0.00       0.00          0.00        0.00         0.00         0.00       299.00       400.00      325.00
       0.00         0.00        0.00       0.00          0.00        0.00        14.44        59.26       239.24       241.82      117.28
     239.29       893.83    1,279.49     473.39      1,210.71    1,399.51     2,088.32     3,346.00     2,168.51     1,836.76        0.00
      42.54       153.14      169.21     184.99        166.81      149.43         0.40         0.30         0.00         0.00        0.00
     165.00       135.00      250.00       0.00          0.00        0.00         0.00         0.00         0.00         0.00        0.00
      49.68        33.40       38.00      41.45        100.77       63.07        58.23        92.30        69.91         0.00        0.00
       1.33         0.00        0.00       0.00          0.00       10.77         4.22         4.22         3.09         0.55        0.00
       0.50         5.00        0.00       0.00          0.00       20.37         3.55         4.90         6.25         7.18        1.84
      34.70        66.90       38.20      18.20         36.60       26.60        48.60        57.80        69.30        64.80        0.00
       0.00         0.00        0.00       0.00          0.00        0.00         5.70         0.00         0.00         0.00        0.00
       1.00         0.06        0.95       0.19          0.13        0.75         0.47         0.00         0.00         0.00        0.00
    534.04     1,327.33    1,911.84     933.22      1,724.02    2,158.82     2,774.61     4,564.78     3,255.29     2,951.11      644.12

        0.00     220.00      709.28      232.65        251.74     307.57       484.00       589.00        400.00      324.00         6.08
        0.00      71.80      224.54      108.05        290.97     192.81       230.06       392.27        376.53      420.47       372.07
        2.87       3.72       16.77       23.66         20.38      40.59        18.80         0.00          0.00        0.00         0.00
       2.87     295.52      950.59      364.36        563.09     540.97       732.86       981.27        776.53      744.47       378.15

       5.00        0.00        0.00        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
      46.10       49.20       56.60       60.00         60.00     177.00        65.41        27.40         15.50        0.00         0.00
      85.52       11.16        4.22        0.04          0.03      16.90        27.13        29.73         66.10       61.41        14.26
      11.69       11.22        1.60        0.00          0.00       0.00         0.75         0.87          1.11        0.70         0.22
      61.50       63.30       47.10       41.80         53.80      44.25        76.79        81.48         65.00       98.93        12.66
       9.90       20.00       15.50        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00          0.00       0.00         0.20         0.00          0.00        0.00         0.00
       4.96        9.08       30.10       23.24          9.47      20.55        12.09         0.00          0.00        0.00         0.00
      14.14       34.58        0.00        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       9.27        6.12       10.02       25.08          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00          0.00      22.40         0.00         0.00          0.00        0.00         0.00
    248.08      204.66      165.14      150.16        123.30     281.10       182.37       139.48        147.72      161.04        27.14

        0.00       0.00        0.00        0.00          2.50      14.30         25.20        34.40        37.20       59.00        49.90
       35.30     207.60      136.10      131.90        207.80     434.40      1,060.70     1,761.70       905.10    1,406.20         0.00
      35.30     207.60      136.10      131.90        210.30     448.70      1,085.90     1,796.10       942.30    1,465.20        49.90
   1,011.68    2,599.86    4,819.59    3,488.75    10,028.31    6,191.15    10,384.08    16,650.15    15,742.67    14,523.00    6,224.28




REPORT TO THE UNITED STATES CONGRESS    I   APRIL 30, 2013                       203
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Audits
SIGAR completed three audits during this reporting period:

COMPLETED SIGAR AUDITS AS OF APRIL 30, 2013
Report Identifier    Report Title                                                          Date Issued
SIGAR Audit 13-9     Health Services in Afghanistan: Two New USAID-Funded Hospitals        4/2013
                     May Not Be Sustainable and Existing Hospitals Are Facing
                     Shortages in Some Key Medical Positions
SIGAR Audit 13-7     Afghanistan's National Power Utility: Commercialization Efforts       4/2013
                     Challenged by Expiring Subsidy and Poor USFOR-A and USAID
                     Project Management
SIGAR Audit 13-6     Contracting with the Enemy: DOD Has Limited Assurance that            4/2013
                     Contractors with Links to Enemy Groups are Identified and Their
                     Contracts Terminated



New Audits
SIGAR initiated six audits during this reporting period:

NEW SIGAR AUDITS AS OF APRIL 30, 2013
Audit Identifier    Project Title                                                          Date Initiated
SIGAR 081A          Assessments of Afghan Ministerial Capacity                             4/2013
SIGAR 080A          U.S. Government Reconstruction Transition Plan                         3/2013
SIGAR 079A          Reliability of Afghan National Security Forces Personnel Data          2/2013
SIGAR 077A          USAID Assistance to Afghanistan’s Water Sector                         2/2013
SIGAR 075A          Afghan Government’s Implementation of the Verified Payroll Program     2/2013
SIGAR 074A          Effect of the Transition from Private Security Contractors (PSCs) to   2/2013
                    the Afghan Public Protection Force (APPF) on USAID Reconstruction
                    Projects



Ongoing Audits
SIGAR had nine audits in progress during this reporting period:

ONGOING SIGAR AUDITS AS OF APRIL 30, 2013
Audit Identifier    Project Title                                                          Date Initiated
SIGAR 073A          Training of Afghan Justice Sector Personnel                            12/2012
SIGAR 072A          Afghan National Security Literacy Training                             11/2012
SIGAR 071A          $230 Million in Missing Repair Parts                                   10/2012
SIGAR 070A          Afghan National Police Petroleum, Oils, and Lubricants                 9/2012




 204                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




ONGOING SIGAR AUDITS AS OF APRIL 30, 2013 (CONTINUED)
Audit Identifier   Project Title                                                          Date Initiated
SIGAR 069A         Ongoing Construction Projects for the ANSF                             9/2012
SIGAR 065A         State’s Financial Audit Coverage of Costs in Afghanistan               8/2012
SIGAR 064A         Air Mobility Support for Afghan Drug Interdiction Operations           7/2012
SIGAR 060A         Tariffs, Taxes, or other Fees Imposed by the Government of the         6/2012
                   Islamic Republic of Afghanistan on U.S. Contractors Conducting
                   Reconstruction Activities in Afghanistan
SIGAR 058A         USAID’s Southern Region Agricultural Development Project’s             4/2012
                   Partnership with International Relief and Development Inc.



New Financial Audits
SIGAR initiated 11 financial audits during this reporting period:

NEW SIGAR FINANCIAL AUDITS AS OF APRIL 30, 2013
Audit Identifier   Project Title                                                          Date Initiated
                   USAID Cooperative Agreement with Central Asia Development Group,
SIGAR-F013         Inc. (CADG) for the Food Insecurity Response for Urban Populations     4/2013
                   Program (FIRUP) in Southern and Eastern Afghanistan
                   USAID Task Orders with Checchi and Company Consulting Inc. to
SIGAR-F014         improve USAID’s Afghanistan program information system and to          4/2013
                   provide technical support to the Rule of Law Stabilization Program
                   USAID Task Order and Cooperative Agreement with Creative
SIGAR-F015         Associates International for support to the Basic Education Program    4/2013
                   in Afghanistan
                   USAID Cooperative Agreement with Jhpiego Corporation for support
SIGAR-F016                                                                                4/2013
                   to the Health Service Support Project (HSSP)
                   USAID Cooperative Agreement with Mercy Corps International Relief
SIGAR-F017         and Development, Inc. for the Food Insecurity Response for Urban       4/2013
                   Populations Program (FIRUP) in Northern Afghanistan
                   USAID Cooperative Agreement with CARE International for the Food
SIGAR-F018                                                                                4/2013
                   Insecurity Response for Urban Populations Program (FIRUP) in Kabul
                   USAID Cooperative Agreement with World Council of Credit Unions for
SIGAR-F019         support to the Rural Finance and Cooperative Development Program       4/2013
                   in Southern and Eastern Afghanistan
                   USAID Cooperative Agreement with Counterpart International, Inc. for
SIGAR-F020                                                                                4/2013
                   support to the Initiative to Promote Afghan Civil Society (I-PACS)
                   USAID Task Order with International Resources Group for support to
SIGAR-F021                                                                                4/2013
                   the Afghan Clean Energy Program (ACEP)
                   USAID Cooperative Agreement with World Vision for support to the
SIGAR-F022                                                                                4/2013
                   Initiative to Promote Afghan Civil Society (I-PACS)
                   State Grants with Afghan Technical Consultants for the removal of
SIGAR-F023                                                                                4/2013
                   land mines and unexploded ordinance in Afghanistan




REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2013                            205
APPENDICES




Ongoing Financial Audits
SIGAR initiated 12 financial audits during this reporting period:

ONGOING SIGAR FINANCIAL AUDITS AS OF APRIL 30, 2013
Audit Identifier    Project Title                                                            Date Initiated
                    DOD Contract with Afghan Integrated Support Services (Joint Venture
SIGAR-F001          between Anham FZCO and AECOM) for ANA’s Technical Equipment              10/2012
                    Maintenance Program
                    USAID Contract with Chemonics for Alternative Livelihoods Program in
SIGAR-F002                                                                                   10/2012
                    Helmand Province
                    USAID Contract with Development Alternatives, Inc. for Alternative
SIGAR-F003                                                                                   10/2012
                    Livelihoods Program in Nangarhar Province
                    USAID Cooperative Agreement with The Asia Foundation for Strategic
SIGAR-F004                                                                                   10/2012
                    Support to the Afghan Government
                    USAID Contract with International Relief and Development, Inc. for
SIGAR-F005                                                                                   10/2012
                    the Human Resources and Logistic Support Program
                    USAID Cooperative Agreement with Management Sciences for Health
SIGAR-F006                                                                                   10/2012
                    for Technical Support to the Ministry of Public Health
                    USAID Contract with ARD, Inc. for the Alternative Development and
SIGAR-F007                                                                                   10/2012
                    Alternative Livelihoods Program Expansion North and West Project
                    USAID Contract with Emerging Markets Group for the Afghanistan
SIGAR-F008                                                                                   10/2012
                    SOE Privatization, Excess Land Privatization, and Land Titling Project
                    USAID Contract with Futures Group International, LLC for the
SIGAR-F009          Expanding Access to Private Sector Health Products and Services          10/2012
                    Program
                    USDA Cooperative Agreement with Volunteers for Economic Growth
SIGAR-F010          Alliance (VEGA) for the Capacity Building and Change Management          10/2012
                    Program for the Ministry of Agriculture, Irrigation, and Livestock
                    State Grants with Huda Development Organization for University
SIGAR-F011                                                                                   10/2012
                    Media Operations Center Projects
                    USAID Cooperative Agreement with International Relief and
SIGAR-F012          Development, Inc for the Strategic Provincial Roads Project in           12/2012
                    Southern and Eastern Afghanistan



SIGAR INSPECTIONS
Completed Inspections
SIGAR completed three inspections during this reporting period:

COMPLETED SIGAR INSPECTIONS AS OF APRIL 30, 2013
Report Identifier   Report Title                                                             Date Issued
SIGAR Inspection    Forward Operating Base Salerno: Inadequate Planning Resulted in          4/2013
13-8                $5 Million Spent for Unused Incinerators and the Continued Use of
                    Potentially Hazardous Open-Air Burn Pit Operations
SIGAR Inspection    Qala-I-Muslim Medical Clinic Serving the Community Well, But             4/2013
13-7                Construction Quality Could Not Be Fully Assessed
SIGAR Inspection    Afghan National Police Main Road Security Complex, Kunduz Province       4/2013
13-6                is behind Schedule and May Not Be Sustainable




 206                        SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR issued one alert letter during this reporting period:

COMPLETED SIGAR SPECIAL PROJECTS AS OF APRIL 30, 2013
Project Identifier     Project Title                                                        Date Initiated
SIGAR SP-13-3          K-Span Structures Can Pose Fire and Life Safety Risk                 4/2013


New Special Projects
SIGAR announced three new special projects this reporting period:

COMPLETED SIGAR SPECIAL PROJECTS AS OF APRIL 30, 2013
Project Identifier     Project Title                                                        Date Initiated
SP-12                  Direct Assistance to the Afghan Ministries of Defense and Interior   4/2013
SP-10                  Direct Assistance for the Kajaki Dam Energy Project                  4/2013
SP-6                   U.S. Government Anticorruption Goals                                 2/2013


Ongoing Special Projects
SIGAR had one ongoing special project this reporting period.

ONGOING SIGAR SPECIAL PROJECTS AS OF APRIL 30, 2013
Project Identifier     Project Title                                                        Date Initiated
SP-3                   Evaluation of Culvert Denial Systems                                 12/2012


OTHER SIGAR WRITTEN PRODUCTS
SIGAR Testimony
The Special Inspector General for Afghanistan Reconstruction, John F.
Sopko, testified before Congress twice during this reporting period, and
provided one written testimony for the record:

NEW SIGAR TESTIMONY AS OF APRIL 30, 2012
Testimony Identifier   Testimony Title                                                      Testimony Date
SIGAR 13-11T           Reducing Waste, Improving Efficiencies, and Achieving Savings in     4/18/2013
                       U.S. Reconstruction of Afghanistan
SIGAR 13-10T           Challenges Affecting U.S. Foreign Assistance to Afghanistan          4/10/2013
SIGAR 13-5T            Testimony before the House Subcommittee on National Security         2/13/2013




REPORT TO THE UNITED STATES CONGRESS               I   APRIL 30, 2013                              207
                                                      APPENDICES




                                                      APPENDIX D
                                                      SIGAR INVESTIGATIONS AND HOTLINE
FIGURE D.1
                                                      SIGAR Investigations
                                                      This quarter, SIGAR opened 52 new investigations and closed 22, bringing
NEW SIGAR INVESTIGATIONS,                             the total number of open investigations to 298. Of the new investiga-
JANUARY 1–MARCH 31, 2013                              tions, most involved procurement/contract fraud, corruption, and theft, as
                                                      shown in Figure D.1. Of the closed investigations, most were closed due to
                        Total: 52                     unfounded allegations, as shown in Figure D.2.
                                                      FIGURE D.2


                                                      CLOSED SIGAR INVESTIGATIONS, JANUARY 1–MARCH 31, 2013
                                Violation
              Procurement/      Not Listed
              Contract          11                                   Unfounded Allegations                                                                      17
              Fraud              Corruption
              28                 9                            Non-payment Issue Resolved                  2

                                                                              Lack of Evidence        1
     Miscellaneous
     Criminal                                          Merged with Ongoing Investigations             1
     Activity                           Theft
     1                                  3                   Subject Convicted and Serving
                                                                                                      1
                                                                                Sentence
                                                                                                 0                  5                  10             15                  20
Source: SIGAR Investigations Directorate, 4/5/2013.
                                                                                                                                    Total: 22

                                                      SIGAR Investigations Directorate, 4/4/2013.



                                                      SIGAR Hotline
FIGURE D.3
                                                      Of the 97 Hotline complaints received this quarter, most were received elec-
SOURCE OF SIGAR HOTLINE COMPLAINTS,                   tronically, as shown in Figure D.3. Of these complaints, most were closed,
JANUARY 1–MARCH 31, 2013                              as shown in Figure D.4.
                                                      FIGURE D.4

                        Total: 97
                                                      STATUS OF SIGAR HOTLINE COMPLAINTS, JANUARY 1–MARCH 31, 2013

                                                                    Closed                                                                           63
                    Electronic
                    (e-mail, web, or fax)
                                                            Under Review                                  23
                    93

                                                               Assigned for              9
                                                      Further Investigation

                                                             Referred Out         2
     Walk-in                          Phone
     Complaint                        3                                       0        10            20        30         40            50      60         70        80
     1
                                                                                                                        Total: 97

Source: SIGAR Investigations Directorate, 4/5/2013.   Source: SIGAR Investigations Directorate, 4/5/2013.




                                                         208                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




Suspensions and Debarments From SIGAR Referrals
As of March 31, 2013, SIGAR’s referrals for suspension and debarment have
resulted in 59 suspensions and 56 debarments, as shown in chronological
order in Table D.1.

TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF MARCH 31, 2013
 Suspensions                                      Debarments
 Al-Watan Construction Company                    Farooqi, Hashmatullah
 Basirat Construction Firm                        Hamid Lais Construction Company
 Brophy, Kenneth                                  Hamid Lais Group
 Naqibullah, Nadeem                               Lodin, Rohullah Farooqi
 Rahman, Obaidur                                  Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                           Brandon, Gary
 Borcata, Raul A.                                 K5 Global
 Close, Jarred Lee                                Ahmad, Noor
 Logistical Operations Worldwide                  Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                           Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                           Cannon, Justin
 Aaria Group Construction Company                 Constantino, April Anne
 Aaria Group                                      Constantino, Dee
 Aaria Herai General Trading                      Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                   Crilly, Braam
 Aaria Middle East                                Drotleff, Christopher
 Aaria Middle East Company LLC                    Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat           Handa, Sidharth
 Aaria Supplies Company LTD                       Jabak, Imad
 Aaria Supply Services and Consultancy            Jamally, Rohullah
 Aftech International                             Khalid, Mohammad
 Aftech International Pvt., Ltd.                  Khan, Daro
 Alam, Ahmed Farzad                               Mariano, April Anne Perez
 Albahar Logistics                                McCabe, Elton Maurice
 American Aaria Company LLC                       Mihalczo, John
 American Aaria LLC                               Qasimi, Mohammed Indress
 Barakzai, Nangialai                              Radhi, Mohammad Khalid
 Formid Supply and Services                       Safi, Fazal Ahmed
 Greenlight General Trading                       Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                   Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                               Campbell, Neil Patrick
 United States California Logistics Company       Hazrati, Arash
 Yousef, Najeebullah                              Midfield International
 Rahimi, Mohammad Edris                           Moore, Robert G.




REPORT TO THE UNITED STATES CONGRESS          I   APRIL 30, 2013                              209
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF MARCH 31, 2013
 Suspensions                                      Debarments
 Wooten, Philip Steven                            Noori, Noor Alam, a.k.a. “Noor Alam"
 Domineck, Lavette Kaye                           Northern Reconstruction Organization
 Markwith, James                                  Shamal Pamir Building and Road Construction
                                                  Company
 All Points International Distributors, Inc.      Wade, Desi D.
 Cipolla, James                                   Blue Planet Logistics Services
 Hercules Global Logistics                        Mahmodi, Padres
 Schroeder, Robert                                Mahmodi, Shikab
 AISC LLC                                         Saber, Mohammed
 American International Security Corporation      Watson, Brian Erik
 Brothers, Richard S.                             All Points International Distributors, Inc
 David A Young Construction & Renovation Inc.     Hercules Global Logistics
 Force Direct Solutions LLC                       Schroeder, Robert
 Harris, Christopher                              Helmand Twincle Construction Company
 Hernando County Holdings LLC                     Waziri, Heward Omar
 Hide-A-Wreck LLC                                 Zadran, Mohammad
 Panthers LLC                                     Afghan Mercury Construction Company, d.b.a.
                                                  “Afghan Mercury Construction & Logistics Company”
 Paper Mill Village, Inc                          Mirzali Naseeb Construcion Company
 Shrould Line LLC                                 Montes, Diyana
 Spada, Carol                                     Naseeb, Mirzali
 Taylor, Michael                                  Robinson, Franz Martin
 Welventure LLC                                   Smith, Nancy
 World Wide Trainers LLC                          Sultani, Abdul Anas a.k.a. “Abdul Anas”
 Young, David
 Espinoza, Mauricio
 Young, Tonya




  210                           SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION      DEFINITION
4A                Assistance to Afghanistan's Anti-Corruption Authority
AAF               Afghan Air Force
ABADE             Assistance in Building Afghanistan by Developing Enterprises
ABP               Afghan Border Police
ACE               Agricultural Credit Enhancement
ACU               Anti-Corruption Unit
ADB               Asian Development Bank
ADF               Agricultural Development Fund
AFCEC             Air Force Civil Engineer Center
AGO               Attorney General’s Office
AGS               Afghan Geological Survey
AIF               Afghanistan Infrastructure Fund
AIHRC             Afghanistan Independent Human Rights Commission
AIP               Afghanistan Infrastructure Program
AITF              Afghanistan Infrastructure Trust Fund
ALP               Afghan Local Police
AMCC              Afghan Mercury Construction Company
AMDEP             Afghanistan Media Development and Empowerment Project
ANA               Afghan National Army
ANCOP             Afghan National Civil Order of Police
ANP               Afghan National Police
ANRP              Afghanistan National Rail Plan
ANSF              Afghan National Security Forces
APL               American President Lines, LTD
APPF              Afghan Public Protection Force
APRP              Afghan Peace and Reintegration Plan
ARP               Afghanistan Reintegration Program
ARTF              Afghanistan Reconstruction Trust Fund
ASFF              Afghanistan Security Forces Fund
ASYCUDA           Automated System for Customs Data
ATFC              Afghan Threat Finance Center
ATT               Afghanistan Trade Transportation
AUAF              American University of Afghanistan
AUP               Afghan Uniform Police
AWDP              Afghanistan Workforce Development Plan
BELT              Basic Education, Literacy, and Technical-Vocational Education and Training
BHC               Basic Health Center
BMM               Border Management Model
BMTF              Border Management Task Force
BPHS              Basic Package of Health Service
CENTCOM           U.S. Central Command
CERP              Commander’s Emergency Response Program
CHAMP             Commercial Horticulture and Agricultural Marketing Program
CHEF              Construction of Health and Education Facilities




REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2013                                211
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
CID            U.S. Army Criminal Investigation Command
CIDNE          Combined Information Data Network Exchange
CJIATF-N       Combined Joint Interagency Task Force-Nexus
CM             Capability Milestone
CME            Community Midwifery Education
CNG            Compressed Natural Gas
CNJC           Counternarcotics Justice Center
CNPA           Counter-Narcotics Police of Afghanistan
CNPCI-W        China National Petroleum Corporation Watan Energy Afghanistan, Ltd.
COR            Contracting Officer's Representative
CSO            Central Statistics Organization
CSSP           Correctional System Support Program
CSTC-A         Combined Security Transition Command-Afghanistan
CUAT           Commander’s Unit Assessment Tool
DABS           Da Afghanistan Breshna Sherkat
DCIS           Defense Criminal Investigative Service (U.S.)
DEA            Drug Enforcement Administration (U.S.)
DFIP           Detention Center Facility in Parwan
DLA            Defense Logistics Agency (U.S.)
DOA            Department of the Army (U.S.)
DOD            Department of Defense (U.S.)
DOD CN         Department of Defense Drug Interdiction and Counter-Drug Activities Fund (U.S)
DOD OIG        Department of Defense Office of Inspector General
DOJ            Department of Justice (U.S.)
DOS            Department of State (U.S.)
DOS OIG        DOS Office of Inspector General
DOWA           Department of Women's Affairs (Afghan)
DST            District Support Team
ECF            Extended Credit Facility
EGGI           Economic Growth and Governance Initiative
EPHS           Essential Package of Hospital Services
ESF            Economic Support Fund
EVAW           Elimination of Violence Against Women law
FBI            Federal Bureau of Investigation
FDRC           Financial Disputes Resolution Commission
FinTRACA       Financial Transactions and Reports Analysis Center of Afghanistan
FOB            Forward Operating Base
FY             Fiscal Year
GAO            Government Accountability Office (U.S.)
GDA            Global Development Alliance
GDP            Gross Domestic Product
GLE            Governor-Led Eradication
GPI            Good Performer's Initiative
HCA            Head of a Contracting Activity
HEP            Higher Education Program
HIS            Homeland Security Investigations
HOO            High Office of Oversight for Anti-Corruption (Afghan)
HPP            Health Policy Project
HSC            Health Sub-Center




 212              SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
HTCC              Helman Twincle Construction Company
IBC               International Building Code
IDEA-NEW          Incentives Driving Economic Alternatives for North, East, and West
IDLG              Independent Directorate of Local Governance (Afghan)
IDLO              International Development Law Organization
IEC               Independent Election Commission (Afghan)
IED               Improvised Explosive Device
IJC               International Security Assistance Force Joint Command
IMF               International Monetary Fund
INCLE             International Narcotics Control and Law Enforcement (U.S)
INL               Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOCC              Interagency Operations Coordination Center
I-PACS            Initiative to Promote Afghan Civil Society
IRD               International Relief and Development Inc.
ISAF              International Security Assistance Force
JCMB              Joint Coordination and Monitoring Board
JSOTF             Joint Special Operations Task Force
JSSP              Justice Sector Support Program
JTTP              Justice Training Transition Program
KCI               Kabul City Initiative
KHPP              Kandahar-Helmand Power Project
LARA              Land Reform in Afghanistan
LMG               Leadership, Management, Governance Project
LOTFA             Law and Order Trust Fund for Afghanistan
MAIL              Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCC               China Metallurgical Group Corporation
MCIT              Ministry of Communications and Information Technology (Afghan)
MCN               Ministry of Counternarcotics (Afghan)
MCTF              Major Crimes Task Force (Afghan)
MEC               Monitoring and Evaluation Committee (Afghan)
MIAD              Multi-Input Area Development
MIDAS             Mining Investment and Development for Afghan Sustainability
MNCC              Mirzali Naseeb Construction Logistic & Transportation Company
MOD               Ministry of Defense (Afghan)
MOF               Ministry of Finance (Afghan)
MOI               Ministry of Interior (Afghan)
MOIC              Ministry of Information and Culture (Afghan)
MOJ               Ministry of Justice (Afghan)
MOMP              Ministry of Mines and Petroleum (Afghan)
MOPH              Ministry of Public Health (Afghan)
MOWA              Ministry of Women's Affairs (Afghan)
NATO              North Atlantic Treaty Organization
NCIS              Naval Criminal Investigative Services (U.S.)
NCO               Noncommissioned Officer
NDAA              National Defense Authorization Act
NDS               National Directorate for Security
NEPS              Northeast Power System
NGO               Nongovernmental Organization
NKB               New Kabul Bank




REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2013                          213
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
NMH            National Military Hospital
NPP            National Priority Program
NSOCC-A        NATO Special Operations Component Command-Afghanistan
NTM-A          NATO Training Mission-Afghanistan
NTV            Non-Tactical Vehicles
O&M            Operations and Maintenance
OAA            Office of Administrative Affairs
OCO            Overseas Contingency Operations
PCH            Partnership Contracts for Health Services
PEC            Presidential Executive Commission
PJST           Provincial Joint Secretariat Team (Afghan)
PM/WRA         Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (U.S.)
POD            Proof of Delivery
POL            Petroleum, Oil, and Lubricants
PPC            Provincial Peace Council
PRT            Provincial Reconstruction Team
PSC            Private Security Contractor
PTEC           Power Transmission Expansion and Connectivity
RAMP-UP        Regional Afghan Municipalities Program for Urban Populations
RC             Recurrent Cost
RC-North       Regional Command-North
ROL            Rule of Law
RSS            Road Sector Sustainability
SAIL           Steel Authority India Ltd.
SCC            Special Cases Committee (Afghan)
SEPS           Southeast Power System
SGDP           Sheberghan Gas Development Program
SIGAR          Special Inspector General for Afghanistan Reconstruction
SIKA           Security in Key Areas
SMW            Special Missions Wing (Afghan)
SOJTF-A        Special Operations Joint Task Force-Afghanistan
SY             Solar Year
TAFA           Trade Accession and Facilitation in Afghanistan
TF             Task Force
TFBSO          Task Force for Business and Stability Operations in Afghanistan
TMR            Transportation Movement Request
TVET           Technical Vocational Education and Training
UN             United Nations
UNAMA          United Nations Assistance Mission in Afghanistan
UNDP           United Nations Development Programme
UNODC          UN Office on Drugs and Crime
USACE          U.S. Army Corps of Engineers
USAID          U.S. Agency for International Development
USFOR-A        U.S. Forces-Afghanistan
USGS           United States Geological Survey
VSO            Village Stability Operations




 214              SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




1.	    This number includes FY 2013 appropriations for DOD                   26.	   DOD, responses to SIGAR data call, 4/17/2013 and 4/16/2013;
       reconstruction programs, but not appropriations for State and                USAID, response to SIGAR data call, 4/18/2013; State, response
       USAID, which are still being negotiated within the continuing                to SIGAR data call, 4/15/2013; P.L. 112-74, 12/23/2011.
       resolution.                                                           27.	   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
2.	    The World Bank, Afghanistan in Transition: Looking beyond             28.	   DOD, response to SIGAR vetting, 7/20/2009.
       2014, 2013.                                                           29.	   See Appendix B of this report.
3.	    State, Executive Budget Summary, Function 150 & Other                 30.	   DOD, response to SIGAR data call, 4/16/2013.
       International Programs, Fiscal Year 2014.                             31.	   DOD, responses to SIGAR data call, 4/16/2013 and 1/17/2013.
4.	    State, Executive Budget Summary, Function 150 & Other                 32.	   DOD OIG, “Distribution of Funds and the Validity of Obligations
       International Programs, Fiscal Year 2014.                                    for the Management of the Afghanistan Security Forces Fund -
5.	    State, Executive Budget Summary, Function 150 & Other                        Phase I,” 11/5/2007, p. 2.
       International Programs, Fiscal Year 2014.                             33.	   DOD, response to SIGAR data call, 4/16/2013.
6.	    World Bank, http://www.dataworldbank.org/indicator/NY.GDP.            34.	   DOD, response to SIGAR data call, 4/16/2013.
       PCAP.CD, accessed 4/21/2013.                                          35.	   DOD, Financial Management Regulation, “Commander’s
7.	    State, Executive Budget Summary, Function 150 & Other                        Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
       International Programs, Fiscal Year 2014.                             36.	   USFOR-A, “Commander’s Emergency Response Program
8.	    The International Conference on Afghanistan, London 2010;                    (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74,
       the Kabul Conference, Kabul 2010; International Conference on                12/23/2011.
       Afghanistan, Bonn 2011; Tokyo Conference on Afghanistan, 2012         37.	   See Appendix B of this report.
9.	    USAID, response to SIGAR data call, March 30, 2013.                   38.	   DOD, response to SIGAR data call, 4/17/2013.
10.	   SIGAR Audit 11-13, The World Bank and the Afghan Government           39.	   U.S. Senate Committee on Armed Services, press release,
       Have Established Mechanisms to Monitor and Account                           “Senate Passes Ike Skelton National Defense Authorization Act
       for Funds Contributed to the Afghanistan Reconstruction                      for Fiscal Year 2011,” 12/22/2010.
       Trust Fund, but Some Limitations and Challenges Should be             40.	   See Appendix B of this report.
       Addressed, July 22, 2011.                                             41.	   DOD, response to SIGAR data call, 4/17/2013.
11.	   Based on a chart provided by DOD/OSD-Comptroller to SIGAR             42.	   TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response
       on March 29, 2013.                                                           to SIGAR data call, 7/22/2011.
12.	   SIGAR Audit 11-10, Despite Improvements in MOI’s Personnel            43.	   See Appendix B of this report.
       Systems, Additional Actions Are Needed to Completely Verify           44.	   DOD, response to SIGAR data call, 4/2/2013.
       ANP Payroll Costs and Workforce Strength, April 25, 2011.             45.	   DOD, “Drug Interdiction and Counter-Drug Activities,
13.	   Based on a CSTC-A response to SIGAR data call, July 2012.                    Defense FY 2009 Supplemental Request Drug Interdiction and
14.	   The World Bank, Afghanistan in Transition: Looking beyond                    Counterdrug Activities,” accessed 4/13/2010.
       2014, 2013.                                                           46.	   DOD OIG, “Independent Auditor’s Report on the DOD FY 2011
15.	   State, Executive Budget Summary, Function 150 & Other                        Detailed Accounting Report of the Funds Obligated for National
       International Programs, Fiscal Year 2014.                                    Drug Control Program Activities,” Report No. DODIG-2012-04,
16.	   Independent Joint Anti-Corruption Monitoring and Evaluation                  1/30/2012.
       Committee (Afghanistan), “5th Set of Recommendations and              47.	   DOD, response to SIGAR data call, 4/1/2013.
       Benchmarks,” 3/17/ 2013.                                              48.	   USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p.6.
17.	   The World Bank, Afghanistan in Transition: Looking beyond             49.	   USAID, response to SIGAR data call 4/18/2013.
       2014, 2013.                                                           50.	   USAID, responses to SIGAR data call, 4/18/2013 and 1/3/2013.
18.	   Independent Joint Anti-Corruption Monitoring and Evaluation           51.	   State, response to SIGAR data call, 10/13/2009.
       Committee, “3rd Six-Month Report of the Independent Joint             52.	   State, response to SIGAR data call 4/15/2013.
       Anti-Corruption Monitoring and Evaluation Committee (July-            53.	   State, responses to SIGAR data call, 4/15/2013 and 1/8/2013.
       December 2012),” 3/13/2013.                                           54.	   SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
19.	   The World Bank, Afghanistan in Transition: Looking beyond             55.	   World Bank, “ARTF: Administrator’s Report on Financial Status
       2014, 2013.                                                                  as of March 20, 2013,” p. 4.
20.	   Independent Joint Anti-Corruption Monitoring and Evaluation           56.	   World Bank, “ARTF: Administrator’s Report on Financial Status
       Committee, “3rd Six-Month Report of the Independent Joint                    as of March 20, 2013,” p. 1.
       Anti-Corruption Monitoring and Evaluation Committee (July-            57.	   World Bank, “ARTF: Administrator’s Report on Financial Status
       December 2012),” 3/13/2013.                                                  as of March 20, 2013,” p. 4.
21.	   GAO Report 11-710, Afghanistan: Actions Needed to Improve             58.	   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
       Accountability of U.S. Assistance to Afghanistan Government,                 p. 16.
       July 2011.                                                            59.	   World Bank, “ARTF: Administrator’s Report on Financial Status
22.	   State, Executive Budget Summary, Function 150 & Other                        as of March 20, 2013,” p. 6.
       International Programs, Fiscal Year 2014.                             60.	   World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
23.	   State, “Remarks by Secretary of State John Kerry,” 3/25/2013.         61.	   World Bank, “ARTF: Administrator’s Report on Financial Status
24.	   See Appendix B of this report.                                               as of March 20, 2013,” p. 6.
25.	   DOD, response to SIGAR data call, 4/16/2013; P.L. 113-6, 3/26/2013.   62.	   EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.




REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2013                          215
                                                              ENDNOTES




63.	   UNDP, “LOTFA 2012 Annual Project Progress Report,” p. 24,                        the Announcement on US Special Force Pullout from Maidan
       3/17/2013; SIGAR analysis of UNDP’s quarterly and annual                         Wardak Province,” 3/21/2013.
       LOTFA reports, 4/20/2013.                                                87.	    DOD, “Report on Progress Toward Security and Stability in
64.	   UNDP, “LOTFA 2012 Annual Project Progress Report,” p. 24,                        Afghanistan,” 12/2012, pp. 34–35; DOD, “Apparent Insider
       3/17/2013; SIGAR analysis of UNDP’s quarterly and annual                         Attack Kills 2 Americans, 2 Afghans,” 3/11/2012.
       LOTFA reports, 4/20/2013.                                                88.	    DOD, “Apparent Insider Attack Kills 2 Americans, 2 Afghans,”
65.	   UNDP, “LOTFA 2012 Annual Project Progress Report,” p. 24,                        3/11/2012.
       3/17/2013.                                                               89.	    DOD, “Report on Progress Toward Security and Stability in
66.	   UNDP, “LOTFA 2012 Annual Project Progress Report,” p. 24,                        Afghanistan,” 12/2012, pp. 34–35.
       3/17/2013; SIGAR analysis of UNDP’s quarterly and annual                 90.	    CNN, “U.S. Green Beret among those killed in Afghan attack,”
       LOTFA reports, 4/20/2013.                                                        3/11/2013, accessed 4/9/2013; PBS, “American Soldiers Gunned
67.	   DOD, response to SIGAR data call, 4/16/2013.                                     Down in Afghanistan in Insider Attack, 3/11/2013, accessed
68.	   Congressional Record, House, 3/6/2013, p. H1013; Congressional                   4/9/2013; Civil-Military Fusion Centre, “Afghanistan Review,”
       Record, Senate, 3/11/2013, p. S1531; GPO, H.R. 933, 3/26/2013, p.                3/12/2013.
       H.R. 933–136.                                                            91.	    DOD, “Apparent Insider Attack Kills 2 Americans, 2 Afghans,”
69.	   Congressional Record, Senate, 3/11/2013, p. S1543; DOD,                          3/11/2013.
       Omnibus 2012 Reprogramming Action, FY 12–18 PA, p. 48.                   92.	    New York Times, “20 Afghan Police Officers Killed in 2 Attacks
70.	   UN Secretary-General, “The Situation in Afghanistan and its                      Including a Mass Poisoning,” 2/27/2013, accessed 4/9/2013.
       Implications for International Peace and Security,” 3/5/2013, pp. 4–5.   93.	    New York Times, “20 Afghan Police Officers Killed in 2 Attacks
71.	   DOD, Future of ANSF Funding Structures and Authorities,                          Including a Mass Poisoning,” 2/27/2013.
       4/8/2013; NATO, “Frequently Asked Questions About Making                 94.	    Civil-Military Fusion Centre, “Afghanistan Review,” 3/25/2013.
       Donations to the ANA Trust Fund,” 6/18/2009.                             95.	    DOD, response to SIGAR data call, 4/1/2013.
72.	   DOD, OUSD Comptroller, response to SIGAR data call, 4/16/2013.           96.	    DOD, response to SIGAR data call, 4/1/2013.
73.	   DOD, “Allen Passes NATO Security Assistance Command to                   97.	    DOD, response to SIGAR data call, 4/1/2013.
       Dunford,” 2/10/2013.                                                     98.	    CENTCOM, response to SIGAR data call, 4/1/2013.
74.	   UN Secretary-General, “The Situation in Afghanistan and its              99.	    DOD, “Operation Enduring Freedom U.S. Casualty Status,”
       Implications for International Peace and Security,” 3/5/2013, pp.                4/15/2013.
       4–5.                                                                     100.	   DOD, “Panetta: Final Drawdown to Begin After Afghan
75.	   UN Secretary-General, “The Situation in Afghanistan and its                      Elections,” 2/22/2013.
       Implications for International Peace and Security,” 3/5/2013, pp.        101.	   NATO, “Chicago Summit Declaration on Afghanistan,”
       4–5.                                                                             5/21/2012.
76.	   DOD, “Hagel Offers Observations After Meeting with Karzai,”              102.	   CSTC-A, response to SIGAR data call, 4/1/2013.
       3/10/2013.                                                               103.	   DOD, “Report on Progress Toward Security and Stability in
77.	   DOD, “Panetta: Final Drawdown to Begin After Afghan                              Afghanistan,” 12/2012, pp. 56, 97.
       Elections,” 2/22/2013.                                                   104.	   DOD, “DOD News Briefing with George Little from the
78.	   Civil-Military Fusion Centre, “Afghanistan Review,” 3/12/2013;                   Pentagon,” 9/4/2012; DOD, “Report on Progress Toward Security
       Senate Armed Services Committee, Hearing Transcript,                             and Stability in Afghanistan,” 12/2012, pp. 45–46, 56, 97.
       3/5/2013; Stars and Stripes, “Mattis recommends post-2014 force          105.	   DOD, “Report on Progress Toward Security and Stability in
       of 20,000 in Afghanistan, 3/5/2013, accessed 4/10/2013.                          Afghanistan,” 12/2012, p. 77.
79.	   Civil-Military Fusion Centre, “Afghanistan Review,” 3/12/2013.           106.	   CENTCOM, response to SIGAR data call, 4/1/2013.
80.	   State, “Remarks With President Karzai After Their Meeting,”              107.	   SOJTF-A, response to SIGAR vetting, 4/12/2013.
       3/25/2013.                                                               108.	   DOD, response to SIGAR data call, 4/1/2013.
81.	   State, “Remarks With President Karzai After Their Meeting,”              109.	   DOD, response to SIGAR data call, 4/1/2013.
       3/25/2013.                                                               110.	   SOJTF-A, response to SIGAR vetting, 4/12/2013.
82.	   DOD, “Joint Commission Reviews Wardak Province                           111.	   CENTCOM, response to SIGAR data call, 4/1/2013.
       Allegations,” 2/26/2013.                                                 112.	   CENTCOM, response to SIGAR data call, 4/1/2013.
83.	   GIRoA, Office of the President, “National Security Meeting               113.	   CENTCOM, response to SIGAR data call, 4/1/2013.
       Discusses Situation in Wardak and Logar Provinces,” 2/24/2013;           114.	   SOJTF-A, response to SIGAR vetting, 4/12/2013.
       GIRoA, Office of the President, “President Karzai Welcomes               115.	   CENTCOM, response to SIGAR data call, 4/1/2013.
       the Announcement on US Special Force Pullout from Maidan                 116.	   SOJTF-A, response to SIGAR vetting, 4/12/2013.
       Wardak Province,” 3/21/2013.                                             117.	   UN Secretary-General, “The Situation in Afghanistan and its
84.	   GIRoA, Office of the President, “National Security Meeting                       Implications for International Peace and Security,” 3/5/2013, p. 5.
       Discusses Situation in Wardak and Logar Provinces,” 2/24/2013.           118.	   CSTC-A, response to SIGAR data call, 4/1/2013.
85.	   State, “Background Briefing: Senior Administration Officials,”           119.	   CSTC-A, response to SIGAR data call, 4/1/2013.
       3/25/2013.                                                               120.	   ISAF, response to SIGAR data call, 4/1/2013.
86.	   GIRoA, Office of the President, “National Security Meeting               121.	   IJC, response to SIGAR data call, 4/1/2013.
       Discusses Situation in Wardak and Logar Provinces,” 2/24/2013;           122.	   IJC, response to SIGAR data call, 4/1/2013; DOD, response to
       GIRoA, Office of the President, “President Karzai Welcomes                       SIGAR vetting, 4/17/2013.




                                                       216                      SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




123.	 IJC, response to SIGAR data call, 4/1/2013; DOD, response to     165.	   CSTC-A, response to SIGAR vetting, 4/16/2013.
      SIGAR vetting, 4/17/2013.                                        166.	   CSTC-A, response to SIGAR data call, 4/1/2013.
124.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   167.	   DOD, response to SIGAR data call, 4/16/2013.
125.	 CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.     168.	   CSTC-A, response to SIGAR data call, 4/1/2013.
126.	 CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.     169.	   DOD, response to SIGAR data call, 4/16/2013.
127.	 CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.     170.	   CSTC-A, response to SIGAR data call, 4/1/2013.
128.	 DOD, response to SIGAR data call, 4/16/2013.                     171.	   CSTC-A, response to SIGAR data call, 4/1/2013; UNDP, “LOTFA
129.	 CSTC-A, response to SIGAR data call, 4/1/2013; CSTC-A,                   2012 Annual Project Progress Report,” 3/17/2013, p. 24; SIGAR
      response to SIGAR vetting, 4/16/2013.                                    analysis of UNDP’s quarterly and annual LOTFA reports,
130.	 SIGAR, Quarterly Report to the United States Congress,                   4/20/2013.
      7/30/2013, p. 73.                                                172.	   CSTC-A, response to SIGAR data call, 4/1/2013.
131.	 DOD, response to SIGAR data call, 4/16/2013.                     173.	   CSTC-A, response to SIGAR data call, 4/1/2013.
132.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   174.	   DOD, response to SIGAR data call, 4/16/2013.
133.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   175.	   CSTC-A, response to SIGAR data call, 4/1/2013.
134.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   176.	   DOD, response to SIGAR data call, 4/16/2013.
135.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   177.	   CSTC-A, response to SIGAR data call, 4/1/2013.
136.	 DOD, response to SIGAR data call, 4/16/2013.                     178.	   CSTC-A, response to SIGAR data call, 4/1/2012.
137.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   179.	   CSTC-A, response to SIGAR data call, 4/1/2013.
138.	 CSTC-A, response to SIGAR data call, 1/2/2013.                   180.	   DOD, “Justification for FY 2013 Overseas Contingency
139.	 CSTC-A, response to SIGAR data call, 1/2/2013; NTM-A,                    Operations, Afghanistan Security Forces Fund (ASFF),”
      response to SIGAR vetting, 4/12/2013.                                    2/2012, p. 44; Congressional Record, House, 3/6/2013, p. H1013;
140.	 DOD, “Brazilian Firm to Provide Aircraft to Afghan Air Force,”           Congressional Record, Senate, 3/11/2013, p. S1531; GPO, H.R.
      2/27/2013; Air Force Times, “Beechcraft moves LAS fight to               933, 3/26/2013, p. H.R. 933–136.
      courts, Congress,” 3/21/2013; Forbes, “Kansas Airplane Maker     181.	   DOD, response to SIGAR data call, 4/16/2013.
      Beechcraft Sues U.S. Air Force,” 3/21/2013.                      182.	   CSTC-A, response to SIGAR data call, 4/1/2013.
141.	 NTM-A, response to SIGAR vetting, 4/12/2012.                     183.	   CSTC-A, response to SIGAR data call, 4/1/2013.
142.	 GAO, GAO-13-319R, “DOD Procurement of Mi-17 Helicopters,”        184.	   CSTC-A, response to SIGAR data call, 4/1/2013.
      4/1/2013, pp. 1–10.                                              185.	   CSTC-A, response to SIGAR data call, 4/1/2013.
143.	 GAO, GAO-13-319R, “DOD Procurement of Mi-17 Helicopters,”        186.	   CSTC-A, response to SIGAR data call, 4/1/2013.
      4/1/2013, pp. 1–10.                                              187.	   CSTC-A, response to SIGAR data call, 4/1/2013.
144.	 GAO, GAO-13-319R, “DOD Procurement of Mi-17 Helicopters,”        188.	   CSTC-A, response to SIGAR data call, 4/1/2013.
      4/1/2013, pp. 1–10.                                              189.	   CSTC-A, response to SIGAR data call, 4/1/2013.
145.	 GAO, GAO-13-319R, “DOD Procurement of Mi-17 Helicopters,”        190.	   CSCT-A, response to SIGAR data call, 4/1/2013.
      4/1/2013, pp. 1–10, 22.                                          191.	   CSCT-A, response to SIGAR data call, 1/2/2013.
146.	 Bloomberg, “Pentagon to Keep Buying Russian Helicopters,         192.	   CSCT-A, response to SIGAR data call, 4/1/2013.
      Carter Says,” 4/3/2013.                                          193.	   CSCT-A, response to SIGAR data call, 4/1/2013.
147.	 DOD, response to SIGAR data call, 4/16/2013.                     194.	   CSCT-A, response to SIGAR data call, 4/1/2013.
148.	 CSTC-A, response to SIGAR data call, 4/1/2012.                   195.	   State, PM/WRA, response to SIGAR data call, 4/3/2012.
149.	 CSTC-A, response to SIGAR data call, 4/1/2012.                   196.	   State, PM/WRA, response to SIGAR data call, 4/3/2012.
150.	 CSTC-A, response to SIGAR data call, 4/1/2012.                   197.	   State, PM/WRA, response to SIGAR data call, 4/3/2012.
151.	 DOD, “Justification for FY 2013 Overseas Contingency             198.	   Funding endnote
      Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012,    199.	   State, INL, response to SIGAR data call, 4/1/2013.
      pp. 4­–6; Congressional Record, House, 3/6/2013, p. H1013;       200.	   UNODC, “Afghanistan Opium Risk Assessment 2013,” 4/2013,
      Congressional Record, Senate, 3/11/2013, p. S1531; GPO, H.R.             pp. 1–2.
      933, 3/26/2013, p. 136.                                          201.	   UNODC, “Afghanistan Opium Risk Assessment 2013,” 4/2013,
152.	 DOD, response to SIGAR data call, 4/16/2013.                             pp. 1–2.
153.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   202.	   State, INL, response to SIGAR data call, 4/1/2013.
154.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   203.	   State, INL, response to SIGAR data call, 4/1/2013.
155.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   204.	   State, INL, response to SIGAR data call, 4/1/2013.
156.	 CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.     205.	   CSTC-A, response to SIGAR data call, 4/1/2013.
157.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   206.	   CSTC-A, response to SIGAR data call, 4/1/2013.
158.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   207.	   State, INL, response to SIGAR data call, 4/1/2013.
159.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   208.	   State, INL, response to SIGAR data call, 4/1/2013.
160.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   209.	   DOD, response to SIGAR data call, 4/1/2013.
161.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   210.	   DOD, response to SIGAR data call, 4/1/2013.
162.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   211.	   DOD, response to SIGAR data call, 4/1/2013.
163.	 CSTC-A, response to SIGAR data call, 4/1/2013.                   212.	   DOD, response to SIGAR data call, 4/1/2013.
164.	 CSTC-A, response to SIGAR vetting, 4/16/2013.                    213.	   See Appendix B.




REPORT TO THE UNITED STATES CONGRESS         I   APRIL 30, 2013                       217
                                                              ENDNOTES




214.	 UN Secretary-General, “The Situation in Afghanistan and its               251.	 International Budget Partnership, “Open Budget Survey,”
      Implications for International Peace and Security,” 3/5/2013, p. 1, 14.         1/23/2013.
215.	 UN Secretary-General, “The Situation in Afghanistan and its               252.	 UN Secretary-General, “The Situation in Afghanistan and its
      Implications for International Peace and Security,” 3/5/2013, pp.               Implications for International Peace and Security,” 3/5/2013, p. 10.
      1-2, 6, 14.                                                               253.	 State, response to SIGAR data call, 4/12/2013.
216.	 “Peace Envoys From Taliban at Loose Ends in Qatar,” The New               254.	 State, response to SIGAR data call, 4/12/2013.
      York Times, 4/9/2013.                                                     255.	 State, response to SIGAR data call, 4/12/2013.
217.	 “Afghanistan Says Pakistan Putting Conditions on Taliban                  256.	 State, response to SIGAR data call, 4/12/2013.
      Peace Effort, Associated Press, 4/4/2013 .                                257.	 State, response to SIGAR data call, 4/12/2013.
218.	 State/SCA, response to SIGAR data call, 3/26/2013.                        258.	 State, response to SIGAR data call, 3/25/2013.
219.	 State/SCA, response to SIGAR data call, 3/26/2013.                        259.	 State, response to SIGAR data call, 3/25/2013.
220.	 State/SCA, responses to SIGAR data call, 3/26/2013, 4/2/2013,             260.	 State, response to SIGAR data call, 3/25/2013.
      State, response to SIGAR vetting, 4/12/2013.                              261.	 State, response to SIGAR data call, 3/25/2013.
221.	 State/SCA, responses to SIGAR data call, 3/26/2013, 4/2/2013.             262.	 USAID, response to SIGAR data call, 4/1/2013, . SIGAR
222.	 DOD/OSG response to SIGAR vetting, 4/12/2013, .                                 Quarterly Report to Congress, 1/30/2013, p. 109.
223.	 State/SCA, response to SIGAR data call, 4/2/2013.                         263.	 DOD/OSD, response to SIGAR data call, 4/1/2013, DOD/OSD,
224.	 SIGAR Quarterly Report to Congress, 1/30/2013, p. 97.                           response to SIGAR vetting, 4/12/2013.
225.	 State/SCA, responses to SIGAR data call, 1/4/2013, 4/2/2013.              264.	 DOD/OSD, response to SIGAR data call, 4/1/2013.
226.	 State/SCA, response to SIGAR data call, 4/2/2013.                         265.	 USAID, response to SIGAR data call, 4/1/2013, USAID, response
227.	 DOD/OSAD, response to SIGAR vetting, 4/12/2013.                                 to SIGAR vetting, 4/14/2013.
228.	 State/SCA, response to SIGAR data call, 4/2/2013.                         266.	 USAID, response to SIGAR vetting, 4/14/2013.
229.	 State/SCA, response to SIGAR data call, 4/2/2013, SIGAR,                  267.	 USAID, response to SIGAR data call, 4/1/2013.
      Quarterly Report to Congress, 1/30/2013, p. 98-99.                        268.	 USAID, response to SIGAR data all, 4/1/2013.
230.	 SIGAR Quarterly Report to Congress, 1/30/2013, p. 98, DOD/                269.	 USAID, response to SIGAR data call, 4/1/2013.
      OSG, response to SIGAR vetting, 4/12/2013.                                270.	 USAID, response to SIGAR data call, 4/1/2013.
231.	 UN Secretary-General, “The Situation in Afghanistan and its               271.	 USAID, response to SIGAR data call, 4/1/2013.
      Implications for International Peace and Security,” 3/5/2013, p. 8        272.	 USAID, response to SIGAR data call, 4/1/2013, USAID, response
      and p. 10¸SIGAR Quarterly Report to Congress, 10/30/2013, p. 74.                to SIGAR vetting, 4/14/2013.
232.	 State/SCA, response to SIGAR data call, 3/26/2013.                        273.	 USAID, response to SIGAR data call, 4/1/2013.
233.	 SIGAR, Quarterly Report to Congress, 1/30/2013, p. 111; State/            274.	 USAID, response to SIGAR data call, 4/1/2013.
      SCA, response of SIGAR data call, 3/26/2013.                              275.	 USAID, response to SIGAR data call, 4/1/2013.
234.	 UNAMA, “Voter Registration Process to Begin by April-End:                 276.	 USAID, response to SIGAR vetting, 4/14/2013.
      IEC,” 1/24/2013, USAID response to SIGAR vetting, 4/14/2013.              277.	 USAID, response to SIGAR data call, 4/1/2013.
235.	 UNAMA, “Voter Registration Process to Begin by April-End:                 278.	 Ahbrimkhil, Shakeela, “Corruption in Judicial System Leads
      IEC,” 1/24/2013.                                                                People to Traditional Courts: Afghan Integrity Watch,” Tolo
236.	 UNAMA, “Voter Registration Process to Begin by April-End:                       News, February 19, 2013.
      IEC,” 1/24/2013.                                                          279.	 UN Secretary-General, “The Situation in Afghanistan and its
237.	 UNAMA, “Afghan e tazkira Distribution to Begin in March,”                       Implications for International Peace and Security,” 3/5/2013, p. 10.
      2/6/2013.                                                                 280.	 SIGAR Quarterly Report to Congress, 10/30/2012, p. 115 and 117.
238.	 UNAMA, “Afghan e Tazkira Distribution to Begin in March,”                 281.	 State/INL, response to SIGAR data call, 4/1/2013.
      2/6/2013, State, response to SIGAR vetting, 4/12/2013.                    282.	 State/INL, response to SIGAR data call, 4/1/2013.
239.	 State/SCA, response to SIGAR data call, 3/26/2013.                        283.	 State/INL, response to SIGAR data call, 4/1/2013.
240.	 State/SCA, response to SIGAR data call, 3/26/2013.                        284.	 State/INL, response to SIGAR data call, 4/1/2013.
241.	 DOD/OSD, response to SIGAR data call, 4/1/2013.                           285.	 State/INL, response to SIGAR data call, 4/1/2013.
242.	 USAID, response to SIGAR vetting, 4/14/2013.                              286.	 DOD/OSD, response to SIGAR data call, 4/1/2013; DOD, “Hagel
243.	 State/SCA, response to SIGAR data call, 3/26/201; USAID,                        Welcomes Karzai’s Commitment in Detention Facility Pact,”
      response to SIGAR data call, 4/1/2013.                                          3/24/2013, DOD/OSG, response to SIGAR vetting, 4/12/2013,
244.	 USAID, response to SIGAR data call, 4/1/2013, State, response                   “U.S. Military Gives Control of Its Last Detention Center to
      to SIGAR vetting, 4/12/2013.                                                    Afghans, Associated Press, 3/25/2013.
245.	 USAID, response to SIGAR data call, 4/1/2013.                             287.	 DOD/OSD, response to SIGAR data call, 4/1/2013; DOD, “Hagel
246.	 USAID, response to SIGAR data call, 4/1/2013.                                   Welcomes Karzai’s Commitment in Detention Facility Pact,”
247.	 UN Secretary-General, “The Situation in Afghanistan and its                     3/24/2013.
      Implications for International Peace and Security,” 3/5/2013, p.          288.	 UNODC and HOO, “Corruption in Afghanistan: Recent Patterns
      8; World Bank Group, “Appendix I, Second Civil Service,” p. 198.                and Trends,” 2/7/2013.
248.	 USAID, response to SIGAR data call, 4/1/2013.                             289.	 Independent Joint Anti-Corruption Monitoring and Evaluation
249.	 USAID, response to SIGAR vetting, 4/14/2013.                                    Committee, “3rd Six-month Report of the Independent Joint
250.	 International Budget Partnership, “Open Budget Survey,”                         Anti-Corruption Monitoring and Evaluation Committee,”
      1/23/2013.                                                                      March 13, 2013, p. 8.




                                                       218                      SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




290.	 State/SCA, response to SIGAR data call, 3/26/2013, SIGAR              328.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
      Quarterly Report to Congress, 1/30/2013, p. 117.                            2/28/2013, accessed 3/18/2013.
291.	 State/SCA, response to SIGAR data call, 3/26/2013.                    329.	 Director of National Intelligence, “Statement for the Record,
292.	 State/SCA, response to SIGAR data call, 3/26/2013.                          Worldwide Threat Assessment of the US Intelligence
293.	 SIGAR, Quarterly Report to Congress, 1/30/2013, p. 117.                     Community, Senate Select Committee on Intelligence,”
294.	 State/INL, response to SIGAR data call, 4/1/2013.                           3/12/2013, accessed 3/13/2013; World Bank, “Afghanistan
295.	 Independent Joint Anti-Corruption Monitoring and Evaluation                 in Transition: Looking Beyond 2014, 2/28/2013, accessed
      Committee, “Report on the Implementation of Anti-Corruption                 3/18/2013.
      Related Elements of Presidential Decree 45,” March 13, 2013, p.       330.	 MOF, “Afghanistan Ministry of Finance Welcomes the Special
      1–7.                                                                        Tribunal Verdict about Kabul Bank,” 3/6/2013, accessed
296.	 Independent Joint Anti-corruption Monitoring and Evaluation                 3/14/2013; USIP, “Kabul Bankrupt? Verdict Portends Broad
      Committee, “5th Set of Recommendations and Benchmarks,”                     Consequences for Afghanistan,” 3/11/2013, accessed 3/31/2013;
      March 17, 2013, p. 1-14.                                                    State, response to SIGAR data call, 3/25/2013.
297.	 Independent Joint Anti-Corruption Monitoring and Evaluation           331.	 Afghanistan Analysts Network, “Eagle’s Summit Revisited,”
      Committee, “3rd Six-Month Report of the Independent Joint                   1/2013, accessed 3/31/2013; Alex Their, “The Right Approach to
      Anti-Corruption Monitoring and Evaluation Committee,” March                 Afghanistan’s Kajaki Dam,” Washington Post, 3/9/2013, accessed
      13, 2013, p. 8.                                                             3/14/2013.
298.	 State/SCA, response of SIGAR data call, 4/4/2013, SIGAR               332.	 Alex Their, “The Right Approach to Afghanistan’s Kajaki Dam,”
      Quarterly Report, 1/30/2013, p. 117.                                        Washington Post, 3/9/2013, accessed 3/14/2013; SIGAR, “Audit
299.	 USAID, response to SIGAR data call, 4/1/2013.                               13-2, Afghanistan’s National Power Utility: $12.8 million In
300.	 USAID, response to SIGAR data call, 4/1/2013.                               DOD-Purchased Equipment Sits Unused, and USAID Paid a
301.	 USAID, response to SIGAR data call, 4/1/2013.                               Contractor for Work Not Done,” 12/2012.
302.	 CENTCOM, response to SIGAR data call, 3/27/2013.                      333.	 MOF, “Afghan Government and International Community
303.	 CENTCOM, response to SIGAR data call, 3/27/2013.                            Endorse Four National Priority Programmes for Funding,”
304.	 CENTCOM, response to SIGAR data call, 3/27/2013.                            2/12/2013, accessed 3/15/2013.
305.	 State/SCA, response to SIGAR data call, 4/4/2013.                     334.	 SIGAR, “Quarterly Report to Congress,” 10/2012, p. 74; GIRoA,
306.	 State/SCA, response to SIGAR data call, 4/4/2013.                           “The Kabul Process: Joint Coordination and Monitoring Board,”
307.	 State/SCA, response to SIGAR data call, 4/4/2013.                           accessed 4/10/2013.
308.	 State/SCA, response to SIGAR data call, 4/4/2013.                     335.	 MOF, “Afghan Government and International Community
309.	 State/SCA, response to SIGAR data call, 4/4/2013.                           Endorse Four National Priority Programmes for Funding,”
310.	 State/SCA, response to SIGAR data call, 4/4/2013.                           2/12/2013, accessed 3/15/2013.
311.	 State/SCA, response to SIGAR data call, 4/4/2013.                     336.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
312.	 UN Secretary-General, “The Situation in Afghanistan and its                 2/28/2013, accessed 3/18/2013.
      Implications for International Peace and Security,” 3/5/2013, p. 7.   337.	 Pajhwok Afghan News, “Only Bid for Kabul Bank Rejected,”
313.	 UNAMA, “Treatment of Conflict-Related Detainees in Afghan                   3/6/2013, accessed 3/18/2013.
      Custody, One Year On,” 1/2013.                                        338.	 Reuters, “Afghan Cabinet Gives Preliminary Approval to
314.	 UNAMA, “Treatment of Conflict-Related Detainees in Afghan                   Delayed Mining Law,” 2/23/2013, accessed 3/18/2013.
      Custody, One Year On,” 1/2013.                                        339.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
315.	 UNAMA, “Treatment of Conflict-Related Detainees in Afghan                   2/28/2013, accessed 3/18/2013.
      Custody, One Year On,” 1/2013.                                        340.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
316.	 UNAMA, “UNAMA Notes Report of President’s Delegation on                     2/28/2013, accessed 3/18/2013.
      Detention,” 2/11/2013.                                                341.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
317.	 State/INL, response to SIGAR data call, 4/1/2013.                           2/28/2013, accessed 3/18/2013.
318.	 State/INL, response to SIGAR data call, 4/1/2013.                     342.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
319.	 State/INL, response to SIGAR data call, 4/1/2013.                           2/28/2013, accessed 3/18/2013.
320.	 State/INL, response to SIGAR data call, 4/1/2013.                     343.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
321.	 State/SCA, response to SIGAR data call, 3/26/2013, SIGAR                    2/28/2013, accessed 3/18/2013.
      Quarterly Report to Congress, 1/30/2013, p. 121.                      344.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
322.	 State/SCA, response to SIGAR data call, 3/26/2013, State, 2012              2/28/2013, accessed 3/18/2013. SIGAR, “Quarterly Report to
      Trafficking in Persons Report, June 2012, p. 62.                            Congress,” 7/2012, p. 113-114.
323.	 SIGAR, Quarterly Report to Congress, July 30, 2012, p. 106;           345.	 World Bank staff, e-mail message to SIGAR, 1/22/2013; World
      State/SCA, response to SIGAR data call, 3/26/2013.                          Bank, “Afghanistan Economic Update,” 10/2012, accessed
324.	 UNAMA, “Civil Society and Media Activists Demand Approval                   4/15/2013.
      of Draft Access to Information Law,” 2/11/2013.                       346.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
325.	 Reporters Without Borders, “World Press Freedom Index 2013.”                2/28/2013, accessed 3/18/2013.
326.	 State/SCA, response to SIGAR data call, 3/26/2013.                    347.	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed
327.	 GAO, “Afghanistan: Key Oversight Issues,” 2/2013, accessed                  4/9/2013; World Bank, “Afghanistan in Transition: Looking
      3/8/2013.                                                                   Beyond 2014, 2/28/2013, accessed 3/18/2013.




REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2013                       219
                                                         ENDNOTES




348.	 ACTA, “1392 National Budget Review,” 12/2/2012, accessed            375.	   Treasury, response to SIGAR data call, 4/1/2013.
      4/9/2013.                                                           376.	   SIGAR, “Quarterly Report to Congress,” 4/2012, p. 111.
349.	 SIGAR, “Quarterly Report to Congress,” 1/2013, p. 125;              377.	   State, response to SIGAR data call, 3/25/2013.
      DOD, “Report on Progress Toward Security and Stability in           378.	   MOF, “Afghanistan Ministry of Finance Welcomes the Special
      Afghanistan,” 12/2012, accessed 3/15/2013.                                  Tribunal Verdict about Kabul Bank,” 3/6/2013, accessed
350.	 DOD, “Report on Progress Toward Security and Stability in                   3/14/2013.
      Afghanistan,” 12/2012, accessed 12/24/2012.                         379.	   Independent Joint Anti-Corruption Monitoring and Evaluation
351.	 GAO, “Afghanistan: Key Oversight Issues,” 2/2013, accessed                  Committee, “3rd Six-Month Report of the Independent Joint
      3/8/2013.                                                                   Anti-Corruption Monitoring and Evaluation Committee (July-
352.	 MOF, “Revenue Department,” accessed 1/8/2013.                               December 2012),” 3/13/2013, p. 31; USIP, “Kabul Bankrupt?
353.	 MOF, “Ministry of Finance Introduces Sweeping Administrative                Verdict Portends Broad Consequences for Afghanistan,”
      Changes,” 3/20/2013, accessed 3/31/2013.                                    3/11/2013, accessed 3/31/2013.
354.	 SIGAR, “Quarterly Report to Congress,” 1/2013, pp. 126–127.         380.	   Afghanistan Analysts Network, “The Kabul Bank Tribunal: An
355.	 State, response to SIGAR data call, 3/26/2013.                              Exercise in Containment,” 3/9/2013, accessed 3/31/2013.
356.	 DOD, “Report on Progress Toward Security and Stability in           381.	   Independent Joint Anti-Corruption Monitoring and Evaluation
      Afghanistan,” 12/2012, accessed 3/15/2013.                                  Committee, “3rd Six-Month Report of the Independent Joint
357.	 CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.              Anti-Corruption Monitoring and Evaluation Committee
      Policy,” 2/8/2013, accessed 3/15/2013.                                      (July-December 2012),” 3/13/2013, p. 31; Afghanistan
358.	 GAO, “Afghanistan: Key Oversight Issues,” 2/2013, accessed                  Analysts Network, “The Kabul Bank Tribunal: An Exercise in
      3/8/2013.                                                                   Containment,” 3/9/2013, accessed 3/31/2013.
359.	 USAID, “Fact Sheet: Land Reform in Afghanistan (LARA),”             382.	   State, response to SIGAR data call, 3/25/2013.
      12/2012, accessed 4/5/2013; MAIL, “Afghanistan Land Authority,”     383.	   Independent Joint Anti-Corruption Monitoring and Evaluation
      accessed 4/5/2013; USAID, response to SIGAR data call,                      Committee, “Report of the Public Inquiry Into the Kabul Bank
      4/1/2013. USAID, response to SIGAR data call, 1/5/2012.                     Crisis,” 11/15/2012, p. 2.
360.	 USAID, response to SIGAR data call, 4/1/2013; CoinMill.             384.	   GIRoA, “Report on Kabul Bank Asset Recovery,” 12/26/2012.
      com, “Afghan Afghani (AFN) and United States Dollar (USD)           385.	   Independent Joint Anti-Corruption Monitoring and Evaluation
      Currency Exchange Rate Conversion Calculator,” accessed                     Committee, “Report of the Public Inquiry Into the Kabul Bank
      4/15/2013.                                                                  Crisis,” 11/15/2012, p. 9.
361.	 Tokyo Mutual Accountability Framework, July 8, 2012                 386.	   Independent Joint Anti-Corruption Monitoring and Evaluation
362.	 Tokyo Mutual Accountability Framework, July 8, 2012                         Committee, “Report of the Public Inquiry Into the Kabul Bank
363.	 State, response to SIGAR data call, 3/26/2013.                              Crisis,” 11/15/2012, p. 2.
364.	 State, response to SIGAR data call, 3/26/2013; State, response to   387.	   SIGAR, “Quarterly Report to Congress,” 1/2013, p. 128–129;
      SIGAR vetting, 4/12/2013.                                                   Tokyo Mutual Accountability Framework, 7/8/2012, accessed
365.	 State, response to SIGAR data call, 3/26/2013.                              3/31/2013; IMF, “First Review Under the Extended Credit
366.	 World Bank, “Afghanistan Reconstruction Trust Fund, ARTF                    Facility Arrangement, Request for Waiver of Nonobservance
      Incentive Program 2012-2014, Memorandum of Understanding,”                  of a Performance Criterion, Modification of Performance
      7/12/2012.                                                                  Criteria, and Rephasing of Disbursements,” 6/19/2012, accessed
367.	 SIGAR, analysis of Tokyo Mutual Accountability Framework                    3/31/2013.
      implementation progress, internal document, 4/2013; State,          388.	   State, response to SIGAR data call, 3/25/2013.
      response to SIGAR data call, 3/26/2013;                             389.	   SIGAR, “Quarterly Report to Congress,” 1/30/2013, p. 129.
368.	 DOD, “Report on Progress Toward Security and Stability in           390.	   MOF, “One Bid Received For New Kabul Bank From Local
      Afghanistan,” 12/2012, accessed 12/24/2012.                                 Consortium,” 2/17/2013; The Frontier Post, “Only Bid for Kabul
369.	 World Bank, “Afghanistan Economic Update,”10/2012, accessed                 Bank Rejected,” 3/6/2013.
      4//14/2013; DOD, “Report on Progress Toward Security and            391.	   SIGAR, “Quarterly Report to Congress,” 1/2013, p. 131.
      Stability in Afghanistan,” 12/2012, accessed 4/14/2012.             392.	   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.
370.	 DOD, “Report on Progress Toward Security and Stability in                   Policy,” 2/8/2013, accessed 3/15/2013.
      Afghanistan,” 12/2012, accessed 12/24/2012.                         393.	   TFBSO, response to SIGAR data call, 4/2/2013.
371.	 Treasury, response to SIGAR data call, 4/1/2013.                    394.	   IMF, “First Review Under the Extended Credit Facility
372.	 IMF, “IMF Executive Board Completes First Review Under the                  Arrangement, Request for Waiver of Nonobservance of a
      Extended Credit Facility Arrangement for the Islamic Republic               Performance Criterion, Modification of Performance Criteria,
      of Afghanistan, Approves US $18.2 million Disbursement,”                    and Rephasing of Disbursements,” 6/19/2012, accessed
      6/29/2012, accessed 3/31/2013; IMF, “Islamic Republic of                    3/31/2013; GIRoA, “Concept Paper on Implementing Tokyo
      Afghanistan-First Review Under the Extended Credit Facility                 Framework,” 9/24/2012, accessed 4/2/2013; TFBSO, response to
      Arrangement, Request for Waiver of Nonobservance of a per-                  SIGAR data call, 4/2/2013.
      formance Criterion, Modification of Performance Criteria, and       395.	   MOMP, “Ministry of Mines Begins Consultative Process in
      Rephasing of Disbursements,” 6/19/2012, accessed 3/31/2013.                 Support of Improved Minerals Law,” 5/5/2012, accessed
373.	 Treasury, responses to SIGAR data call, 4/1/2013 and 4/10/2013.             4/2/2013.
374.	 State, response to SIGAR data call, 3/25/2013.                      396.	   TFBSO, response to SIGAR data call, 4/2/2013.




                                                   220                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




397.	   State, response to SIGAR data call, 10/1/2012.                     430.	 SIGAR, “Quarterly Report to Congress,” 1/2013, p. 136; USAID,
398.	   TFBSO, response to SIGAR data call, 4/2/2013.                            response to SIGAR vetting, 4/15/2013.
399.	   State, response to SIGAR data call, 3/26/2013.                     431.	 USAID, response to SIGAR vetting, 4/15/2013; DOD, response to
400.	   TFBSO, response to SIGAR data call, 4/2/2013.                            SIGAR vetting, 4/15/2013.
401.	   TFBSO, response to SIGAR data call, 4/2/2013.                      432.	 GIRoA, “National Energy Supply Program (NESP),” 1/2013,
402.	   State, response to SIGAR data call, 3/26/2013; TFBSO, response           accessed 4/11/2013.
        to SIGAR data call, 4/2/2013.                                      433.	 USAID, response to SIGAR vetting, 4/15/2013.
403.	   USAID, response to SIGAR data call, 4/1/2013. USAID, response      434.	 USAID, response to SIGAR data call, 12/30/2012; USAID,
        to SIGAR vetting, 4/15/2013.                                             response to SIGAR data call, 4/1/2013.
404.	   MOMP , “Minister of Mines Inaugurates Infrastructural at           435.	 State, response to SIGAR data call, 12/31/2012; USAID, response
        Aynak,” 2/10/2013, accessed 4/2/2013.                                    to SIGAR vetting, 4/15/2013.
405.	   SIGAR, “Quarterly Report to Congress,” 1/2013, p. 132; State,      436.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response
        response to SIGAR data call, 3/26/2013.                                  to SIGAR vetting, 4/15/2013.
406.	   State, response to SIGAR data call, 3/26/2013.                     437.	 TFBSO, response to SIGAR data call, 4/2/2013; USAID, response
407.	   State, response to SIGAR data call, 3/26/2013.                           to SIGAR vetting, 4/15/2013.
408.	   State, response to SIGAR data call, 3/26/2013.                     438.	 TFBSO, response to SIGAR data call, 4/2/2013; SIGAR,
409.	   Mining Weekly, “Tough Conditions Delay Indian Consortium’s               “Quarterly Report to Congress, 7/2012, p. 123.
        Afghan Project,” 1/18/2013, accessed 4/2/2013.                     439.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response
410.	   Mining Weekly, “India’s Afghan Iron-Ore, Steel Projects                  to SIGAR vetting, 4/15/2013.
        Threatening To Come Unstuck,” 3/19/2013, accessed 4/2/2013.        440.	 USAID, response to SIGAR data call, 4/1/2013.
411.	   State, response to SIGAR data call, 3/26/2013; SIGAR, “Quarterly   441.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response
        Report to Congress, 1/2013, p. 133; TFBSO, response to SIGAR             to SIGAR vetting, 4/15/2013.
        data call, 4/2/2013; CME Group, Conversion Calculator, http://     442.	 SIGAR, Notification of Special Project, SIGAR-SP-10, 4/9/2013.
        www.cmegroup.com/tools-information/calc_crude.html, accessed       443.	 USAID, response to SIGAR data call, 4/1/2013.
        4/10/2013.                                                         444.	 USAID, response to SIGAR vetting, 4/15/2013.
412.	   State, response to SIGAR data call, 3/26/2013; SIGAR, “Quarterly   445.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response
        Report to Congress, 1/2013, p. 133; TFBSO, response to SIGAR             to SIGAR vetting, 4/15/2013.
        data call, 4/2/2013.                                               446.	 USAID, response to SIGAR vetting, 4/15/2013.
413.	   TFBSO, response to SIGAR data call, 4/2/2013.                      447.	 SIGAR, “Quarterly Report to Congress,” 1/2013, pp. 139-140;
414.	   TFBSO, response to SIGAR data call, 4/2/2013.                            USAID, response to SIGAR data call, 4/1/2013; USAID, response
415.	   USDA, “Agriculture in Afghanistan Overview,” accessed 4/1/2013.          to SIGAR vetting, 4/15/2013.
416.	   NSC, “Report in Response to Section 1535(c) of the Ike Skelton     448.	 USAID, response to SIGAR data call, 4/1/2013; SIGAR,
        National Defense Authorization Act for Fiscal Year 2011 (P.L.            “Quarterly Report to Congress,” 1/2013, p. 140; USAID, response
        111-383),” accessed 4/11/2013.                                           to SIGAR vetting, 4/15/2013.
417.	   CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.     449.	 DOD, response to SIGAR data call, 4/2/2013.
        Policy,” 2/8/2013, accessed 3/15/2013.                             450.	 DOD, response to SIGAR data call, 1/3/2012.
418.	   MOF, “Afghan Government and International Community                451.	 DOD, response to SIGAR data call, 4/2/2013.
        Endorse Four National Priority Programmes for Funding,”            452.	 SIGAR Audit 12-12, “Fiscal Year 2011 Afghanistan Infrastructure
        2/12/2013, accessed 4/11/2013.                                           Fund Projects Are behind Schedule and Lack Adequate
419.	   GIRoA, “Agriculture and Rural Development Cluster, National              Sustainment Plans,” 7/2012.
        Priority Program 1: National Water and Natural Resources           453.	 DOD, response to SIGAR data call, 4/2/2013.
        Development,” accessed 4/11/2013.                                  454.	 DOD, response to SIGAR data call, 1/3/2013.
420.	   GIRoA, “National Comprehensive Agriculture Production and          455.	 DOD, response to SIGAR data call, 1/3/2013.
        Market Development Program, National Priority Program Two,”        456.	 DOD, response to SIGAR data call, 4/2/2013.
        accessed 4/11/2013.                                                457.	 DOD, response to SIGAR data call, 4/2/2013.
421.	   USAID, response to SIGAR data call, 4/1/2013.                      458.	 SIGAR Audit 12-12, “Fiscal Year 2011 Afghanistan Infrastructure
422.	   USAID, response to SIGAR data call, 4/1/2013.                            Fund Projects Are behind Schedule and Lack Adequate
423.	   USAID, response to SIGAR data call, 4/1/2013.                            Sustainment Plans,” 7/2012.
424.	   USAID, response to SIGAR data call, 4/1/2013; SIGAR,               459.	 DOD, response to SIGAR data call, 4/2/2013.
        “Quarterly Report to Congress, 1/2013, p. 135.                     460.	 SIGAR, “Quarterly Report to Congress, 10/2012, p. 149
425.	   USAID, response to SIGAR data call, 4/1/2013.                      461.	 World Bank, “Afghanistan Transport Sector,” 2012, accessed
426.	   USAID, response to SIGAR data call, 4/1/2013.                            3/21/2013.
427.	   USAID, response to SIGAR data call, 4/1/2013; SIGAR,               462.	 UNDP, “Trade, Trade facilitation and Transit Transport Issues for
        “Quarterly Report to Congress, 1/2013, pp. 135-136.                      Landlocked Developing Countries,” 8/22/2007, accessed 3/21/2013.
428.	   USAID, response to SIGAR data call, 4/1/2013; SIGAR,               463.	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 130; Civil-
        “Quarterly Report to Congress, 1/2013, pp. 135-136.                      Military Fusion Centre, The Rise of the Afghan Rails: Regional
429.	   GIRoA, “National Energy Supply Program (NESP),” 1/2013,                  Railway Linkages and economic Growth in Afghanistan,”
        accessed 4/11/2013.                                                      3/2013, accessed 3/21/2013.




REPORT TO THE UNITED STATES CONGRESS            I   APRIL 30, 2013                      221
                                                         ENDNOTES




464.	 World Bank, “Afghanistan Transport Sector,” 2012, accessed          496.	 GIRoA, “Afghanistan Mortality Survey 2010,” 11/2011, accessed
      3/21/2013.                                                                4/11/2013.
465.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,        497.	 USAID, response to SIGAR data call, 4/11/2013.
      2/28/2013, accessed 4/8/2013.                                       498.	 USAID, response to SIGAR data call, 4/11/2013.
466.	 USAID, response to SIGAR data call, 12/27/2012; CRS,                499.	 USAID, response to SIGAR data call, 4/11/2013.
      “Afghanistan: Post-Taliban Governance, Security, and U.S.           500.	 USAID, response to SIGAR data call, 4/11/2013.
      Policy,” 2/8/2013, accessed 3/15/2013; USAID, response to           501.	 USAID, response to SIGAR data call, 4/11/2013.
      SIGAR data call, 4/1/2013.                                          502.	 USAID, response to SIGAR data call, 4/11/2013.
467.	 USAID, “Fact Sheet Infrastructure Sector,” 2/2013, accessed         503.	 USAID, response to SIGAR data call, 4/1/2013.
      3/14/2013.                                                          504.	 USAID, response to SIGAR data call, 4/1/2013.
468.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,        505.	 USAID, response to SIGAR data call, 4/1/2013.
      2/28/2013, accessed 4/8/2013.                                       506.	 USAID, response to SIGAR data call, 4/1/2013; SIGAR,
469.	 USAID, response to SIGAR data call, 4/1/2013; DOT, response to            “Quarterly Report to Congress, 1/2013, p. 150.
      SIGAR data call, 1/3/2013.                                          507.	 USAID, response to SIGAR data call, 4/1/2013.
470.	 USAID, response to SIGAR data call, 4/1/2013.                       508.	 USAID, response to SIGAR data call, 4/1/2013.
471.	 SIGAR, “Quarterly Report to Congress,” 1/2013, p. 143.              509.	 SIGAR, “Quarterly Report to Congress,” 1/2013, p. 151.
472.	 DOD, response to SIGAR data call, 4/2/2013; SIGAR analysis          510.	 USAID, response to SIGAR data call, 4/1/2013.
      of “Commander’s Emergency Response Program (CERP) FY                511.	 USAID, response to SIGAR data call, 4/1/2013; SIGAR,
      2013,” 4/2013.                                                            “Quarterly Report to Congress,” 1/2013, p. 151.
473.	 DOD, response to SIGAR data call, 4/2/2013.                         512.	 USAID, response to SIGAR data call, 4/1/2013.
474.	 DOD, response to SIGAR data call, 4/2/2013.                         513.	 USAID, response to SIGAR data call, 4/1/2013.
475.	 SIGAR, “Quarterly Report to Congress, 7/2012, pp. 130-131           514.	 State, response to SIGAR data call, 3/26/2013.
476.	 SIGAR, “Quarterly Report to Congress, 1/2013, p. 145; SIGAR,        515.	 USAID, response to SIGAR data call, 4/1/2013.
      “Quarterly Report to Congress, 7/2012, p. 132.                      516.	 USAID, response to SIGAR data call, 4/1/2013.
477.	 TFBSO, response to SIGAR data call, 4/2/2013.                       517.	 USAID, response to SIGAR data call, 4/1/2013.
478.	 GIRoA, “MOU of Railway Construction Signed Between                  518.	 USAID, response to SIGAR data call, 4/1/2013.
      Afghanistan, Turkmenistan and Tajikistan,” 3/20/2013, accessed      519.	 USAID, response to SIGAR data call, 4/1/2013.
      3/21/2013; AP, “Afghanistan to Build New Railway Linking it with    520.	 USAID, response to SIGAR data call, 4/1/2013.
      Turkmenistan and Tajikistan,” 3/20/2013, accessed 3/21/2013.        521.	 USAID, response to SIGAR data call, 4/1/2013.
479.	 USAID, response to SIGAR data call, 12/30/2012; USAID,              522.	 TFBSO, response to SIGAR data call, 4/2/2013; TFBSO,
      response to SIGAR data call, 4/1/2013.                                    response to SIGAR vetting, 4/10/2013.
480.	 USAID, response to SIGAR data call, 4/1/2013.                       523.	 TFBSO, response to SIGAR data call, 4/2/2013.
481.	 USAID, response to SIGAR vetting, 4/15/2013.                        524.	 CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.
482.	 USAID, response to SIGAR data call, 4/1/2013.                             Policy,” 2/8/2013, accessed 3/15/2013.
483.	 USAID, response to SIGAR data call, 12/30/2012; USAID,              525.	 Tolo News, “Pakistan Fines Afghan Traders $50 million for
      response to SIGAR vetting, 1/14/2013.                                     Stalled Containers,” 2/2/2013, accessed 4/11/2013; Khaama,
484.	 USAID, response to SIGAR data call, 12/30/2012; USAID,                    “Pakistan Ends Blockages for 3,700 Afghan Containers,”
      response to SIGAR data call, 4/1/2013; SIGAR, “Quarterly                  2/5/2013, accessed 4/11/2013.
      Report to Congress, 1/2013, p. 147.                                 526.	 USTR, “Readout from the Seventh Meeting of the Unites States-
485.	 USAID, response to SIGAR data call, 12/30/2012; USAID,                    Afghanistan TIFA Council,” 2/28/2013, accessed 4/11/2013.
      response to SIGAR data call, 4/1/2013.                              527.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
486.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,              2/28/2013, accessed 3/18/2013; SIGAR, “Quarterly Report to
      2/28/2013, accessed 3/18/2013.                                            Congress,” 1/2013, p. 152.
487.	 SIGAR, “Quarterly Report to Congress, 1/2013, p. 148; USAID,        528.	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,
      response to SIGAR data call, 4/1/2013.                                    2/28/2013, accessed 3/18/2013.
488.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response       529.	 USAID, response to SIGAR data call, 4/1/2013; USAID, “Fact
      to SIGAR vetting, 4/15/2013.                                              Sheet: Panjsher Province,” 6/2011, accessed 4/11/2013.
489.	 USAID, response to SIGAR data call, 4/1/2013.                       530.	 UNAMA, “Afghanistan Gearing Up to Boost its Communications
490.	 SIGAR, “Quarterly Report to Congress,” 1/2012, p. 125.                    System by Sending Satellite to Space,” 2/13/2013, accessed
491.	 NPR, “Gains in Afghan Health: Too Good to be True?” 1/17/2013,            4/11/2013.
      accessed 4/10/2013; USAID, response to SIGAR data call, 4/1/2013.
492.	 USAID, response to SIGAR data call, 4/11/2013.
493.	 USAID, response to SIGAR data call, 4/11/2013.
494.	 SIGAR, “Quarterly Report to Congress,” 1/2013, p. 148; USAID,
      response to SIGAR data call, 4/11/2013; USAID, “Partnership
      Contracts for Health (PCH),” 1/2013, accessed 4/16/2013.
495.	 USAID, response to SIGAR data call, 4/11/2013.




                                                   222                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:
                             A U.S. Marine Corps squad leader and a rifleman, both from 3rd Battalion, 4th Marine Regiment, scale a
                             wall during counter-improvised explosive device training at Camp Leatherneck in Helmand province.        Traditional costume, modern conveyance: Two burka-clad Afghan women get a
                             (USMC photo)                                                                                             ride on a motorbike. (SIGAR photo by Michael Foster)




FINAL_Apr2013_Cover.indd 2                                                                                                                                                                                        4/18/2013 2:31:16 PM
                                                                                                              sigar
   SIGAR
   Special Inspector General                                                                                                   Special Inspector General for    APR 30




                                    SIGAR | Quarterly Report to the United States Congress | April 30, 2013
   for Afghanistan Reconstruction
                                                                                                                               Afghanistan Reconstruction        2013
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                               Quarterly Report to the United States Congress




                                    2

FINAL_Apr2013_Cover.indd 1                                                                                                                                          4/18/2013 2:31:07 PM
